                                                                                                                                                                sigar
        SIGAR




                                                                                    SIGAR | Quarterly Report to the United States Congress | October 30, 2013
        Special Inspector General                                                                                                                                                Special Inspector General for    Oct 30
        for Afghanistan Reconstruction
                                                                                                                                                                                 Afghanistan Reconstruction        2013
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                 Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By Web Submission: www.sigar.mil/investigations/hotline/report-fraud.aspx
                               www.sigar.mil/investigations/hotline/




                                                                                    4


FINAL_Oct2013_Cover.indd 1                                                                                                                                                                                           10/21/2013 2:14:47 PM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:
                             A typical, heavily loaded Afghan truck waits at the U.S.-funded Weesh crossing on the Afghanistan-Pakistan
                             border. An alert letter issued this quarter pointed out SIGAR auditors’ observation that many Afghan
                             trucks are too tall to pass through a new inspection device at the crossing. (SIGAR photo)                   Sheep and goats share Kabul’s main highway with cars and trucks. (SIGAR photo)




FINAL_Oct2013_Cover.indd 2                                                                                                                                                                                                 10/21/2013 2:14:50 PM
                                      SPECIAL INSPECTOR GENERAL                    FOR

                                      AFGHANISTAN RECONSTRUCTION


I am pleased to submit to Congress, and to the Secretaries of State and Defense, SIGAR’s
latest quarterly report on the status of the U.S. reconstruction effort in Afghanistan.
    SIGAR has a unique mandate to provide oversight for what has become the largest
U.S. effort to reconstruct a single country in our nation’s history. Unlike other Inspectors
General, who are usually limited to conducting audits and investigations of the agencies to
which they are attached, SIGAR holds a unique congressional mandate to oversee any and
all U.S.-funded reconstruction programs in Afghanistan. As the only agency tasked exclu-
sively to examine Afghanistan reconstruction programs, SIGAR conducts its audits and
investigations in a country that is not only deemed critical to U.S. national security, but
also is impoverished, isolated, war-torn, and corrupt.
    In this difficult environment, law enforcement plays a particularly crucial role in com-
bating corruption and protecting the nearly $100 billion U.S. investment in building Afghan
security forces, fostering Afghanistan’s democracy, and encouraging economic develop-
ment. As the U.S. and Coalition troop drawdown proceeds, the U.S. Embassy Kabul is also
trimming the civilian presence in the country. Other federal law-enforcement agencies are
reducing or completely withdrawing their agents from Afghanistan as part of this “right
sizing” process. SIGAR maintains a robust law enforcement presence in Afghanistan.
The reduced presence of other agencies increases SIGAR’s responsibility to root out and
deter criminal activity related to Afghan reconstruction appropriated monies spent in
Afghanistan, and to protect future funding from waste, fraud, and abuse.
    The first section of this report discusses the law-enforcement challenges in Afghanistan.
SIGAR’s multi-pronged strategy to perform this increasingly vital function focuses on
five critical areas: detecting fraud, building criminal and civil cases for prosecution in
the United States and Afghanistan, tracking the flow of stolen reconstruction funds, pre-
venting poorly performing and corrupt individuals and companies from being awarded
U.S.-funded contracts, and exposing lax management practices both inside U.S. programs
and Afghan ministries that place U.S. taxpayer dollars at risk.
    SIGAR has built an experienced team of federal agents and analysts deployed to
Afghanistan. They serve longer tours in country than most other U.S. oversight personnel
and have successfully partnered with U.S. civilian and military law-enforcement and over-
sight agencies. Where possible, SIGAR works with and mentors Afghan law-enforcement
authorities to arrest and prosecute Afghan citizens and companies engaged in criminal activ-
ity related to U.S.-funded contracts.
    This quarter alone, SIGAR investigations resulted in $63 million being frozen in bank
accounts, two arrests, three sentencings, and more than $95,000 in fines and restitutions. To
date, SIGAR investigations have led to 47 convictions and guilty pleas; more than $236 mil-
lion in recoveries, savings, and contract monies protected*; and 61 suspensions and 94
debarments of individuals and companies from receiving U.S.-funded contracts. SIGAR has
more than 300 ongoing criminal investigations in Afghanistan and the United States.

*
    	   “Contract monies protected” is an investigative term that refers to money that is put to better use as the result
        of contract terminations.



                                     2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
    SIGAR’s collaboration with Afghan authorities has yielded some noteworthy results,
such as disrupting fuel theft to save the U.S. government an estimated $2 million. SIGAR is
also the only foreign law-enforcement agency that has been called upon to testify against
an Afghan accused of corruption in an Afghan court.
    Afghanistan’s endemic corruption constitutes one of the most serious obstacles to the
effective and efficient use of U.S. reconstruction dollars. As the United States provides
more of its development assistance on-budget—directly to the Afghan government, rather
than through U.S.-managed contracts—theft and fraud will pose an even greater risk to
U.S. taxpayer dollars. This is why SIGAR investigators and auditors are taking a hard look
at whether Afghan government ministries have the capability to properly account for how
U.S. funds are spent. More importantly, that is why SIGAR’s investigative work identifying
individuals in various Afghan ministries who may be corrupt has become crucial even if
those individuals cannot be prosecuted in U.S. courts because of lack of jurisdiction and
in Afghan courts because of lack of will.
    This quarter, our audit of the Afghan Ministry of Public Health identified internal con-
trol weaknesses that we believe put U.S. funds at risk of waste, fraud, and abuse. The
audit also directly led to SIGAR’s opening a criminal investigation of possible corruption at
the ministry. In other cases, investigative results have triggered audits and special projects
as SIGAR directorates share data. For example, work by our investigators resulted in two
inspections that we report on this quarter. One identified construction failures at a court-
house; the other found design flaws at a major border crossing point.
    Such findings may be more difficult to spot and confirm if increasing delivery of recon-
struction aid via direct assistance is not coupled with effective safeguards.
    Direct assistance can be a useful tool to help aid recipients build ministerial capac-
ity and adapt funding to their particular and changing needs. However, maintaining
appropriate levels of visibility and accountability is vital—and especially difficult in the
Afghan setting. Recognizing this, Congress required the U.S. Agency for International
Development (USAID), the principal U.S. agency providing direct assistance to
Afghanistan’s civilian ministries, to contract with private audit firms to assess the degree
to which these ministries can manage and transparently account for funds. SIGAR has an
audit under way to examine the integrity, accuracy, and usefulness of USAID’s ministerial-
assessment process. We plan to issue the results of this audit early next quarter.
    In addition, SIGAR continues to be concerned about the capabilities of the Afghan
National Security Forces (ANSF). The majority of U.S. reconstruction funding—more than
$54 billion—has gone to build the ANSF. The success of the U.S. mission in Afghanistan
depends to a great extent on the Afghan National Army (ANA) and the Afghan National
Police’s (ANP) ability to protect Afghan civilians and prevent al-Qaeda and other terror-
ist groups from establishing strongholds from which to mount attacks against the United
States and its allies. SIGAR published three audits this quarter that identified planning
and logistics issues that must be addressed to not only safeguard funds used to construct
ANSF facilities, purchase fuel for the ANP, and track spare parts for the ANA, but also
to ensure a robust and effective ANSF. SIGAR is also currently examining ANSF person-
nel and payroll systems as well as the reliability of the system the U.S. military is using
to measure the capabilities and capacity of the ANSF to ensure U.S. taxpayer dollars are
properly used and accounted for during this important period of transition.
    The drawdown of U.S. combat troops will have an unintended but major impact on the
oversight of reconstruction. Nearly 80% of Afghanistan may not be readily accessible to
U.S. civilian auditors, investigators, and other federal employees by 2015. SIGAR’s maps
illustrating diminishing oversight access appear in Section 2 of this report. This quarter



                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
SIGAR wrote to the Secretaries of State and Defense and to the Administrator of USAID
to inquire about how they plan to manage, monitor, and evaluate programs if it is not pos-
sible for U.S. contracting and oversight officials to visit sites. SIGAR looks forward to
working with the Departments of Defense and State, USAID, and other government and
non-government agencies to help clarify “best practices” to ensure effective oversight of
reconstruction assistance. SIGAR will convene a panel of experts, drawn from government
and non-government organizations, in the coming months to identify best practices for
monitoring U.S.-funded projects and programs.
   This quarter, I reiterate my concerns—which I raised in our last two quarterly reports—
about the policies of the U.S. Army’s suspension and debarment program. The Army’s
refusal to suspend or debar supporters of the insurgency from receiving government con-
tracts because the information supporting these recommendations is classified is not only
legally wrong but also contrary to sound public policy and national security goals. I con-
tinue to urge Congress to change this faulty policy and enforce the rule of common sense
in the Army’s suspension and debarment program.
   In his FY 2014 budget request, the President asked Congress to provide approximately
$12 billion in additional reconstruction assistance for Afghanistan. As the security, politi-
cal, and economic transitions progress, the implementing agencies, other oversight bodies,
and SIGAR must work together to ensure that U.S. tax dollars are not subject to corrup-
tion and achieve their intended purposes. My staff and I look forward to working with the
Congress and the Administration to make programs more effective and free from waste,
fraud, and abuse.

Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction




                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
                                           EXECUTIVE SUMMARY




In addition to providing a summary of SIGAR’s oversight work and an update on developments in
the major development sectors, this report includes a discussion of the critical role that SIGAR
investigators play in ensuring effective oversight of the nearly $100 billion that Congress has
appropriated for the reconstruction of Afghanistan. During this reporting period, SIGAR published
12 audits, inspections, alert letters, and other reports assessing the U.S. efforts to build the
Afghan security forces, improve governance, and facilitate economic development. These reports
identified a number of problems, including poor planning, management deficiencies, and oversight
failures as well as project delays, shoddy construction, and threats to health and safety. SIGAR
investigations led to more than $63 million being frozen in bank accounts, two arrests, three
sentencings, and more than $95,000 in fines and restitutions.


SIGAR OVERVIEW                                                 •	 The Afghan National Army (ANA) is not consistently
Law enforcement is a critical component of effective              using or updating its inventory to track spare parts.
oversight. SIGAR has built one of the largest and most
experienced teams of federal agents and analysts work-            A fourth audit report identified financial management
ing in both Afghanistan and the United States to protect       deficiencies at the Afghan Ministry of Public Health,
the U.S. investment in the reconstruction of Afghanistan.      putting $236 million that USAID provides in direct assis-
The SIGAR overview section of this report describes            tance funding to the ministry at risk of waste, fraud, or
what SIGAR’s investigators are doing to successfully           abuse. As a result of the audit, SIGAR is investigating
overcome significant challenges in Afghanistan’s com-          potential corruption at the ministry.
plex environment to prevent waste, fraud, abuse, and              SIGAR issued four inspection reports of U.S.-funded
corruption. SIGAR is focusing on five critical areas:          facilities that identified the following problems:
detecting fraud, building criminal and civil cases for         •	 A district police headquarters that is in a state of
prosecution in the United States and Afghanistan, track-          severe disrepair for lack of maintenance
ing the flow of stolen reconstruction funds, preventing        •	 A hospital that has not been finished due to poor
poorly performing and corrupt individuals and compa-              contractor performance
nies from receiving U.S.-funded contracts, and exposing        •	 A courthouse that has never been completed
lax management practices in U.S. programs and Afghan           •	 A medical clinic that was not built according to
ministries that place U.S. taxpayer dollars at risk.              design specifications and has never been used

                                                                 SIGAR also sent an alert letter to inform DOD about
AUDITS                                                         design flaws that inspectors had discovered during the
SIGAR produced four audits, four inspections, and one          course of an ongoing audit at the Weesh-Chaman Border
alert letter this quarter. Three of the audits assessed pro-   Crossing point in Kandahar Province.
grams to build and evaluate the ANSF. They found:
•	 DOD needs to take additional action to reduce
   waste in $4.7 billion worth of planned and ongoing          NEW AUDITS
   construction projects for the ANSF.                         This quarter, SIGAR initiated two new performance
•	 DOD needs to strengthen oversight of U.S. funds             audits and 13 financial audits. The two performance
   provided to purchase fuel for the Afghan National           audits are part of a planned series of sector-wide audits.
   Police (ANP).                                               These audits will cover U.S. government completed,
                               EXECUTIVE SUMMARY




ongoing, and planned projects related to a specific sec-           SIGAR also wrote to the Secretaries of State and
tor in Afghanistan. The two audits begun this quarter           Defense and the Administrator of USAID to inquire
will assess:                                                    about their plans to ensure oversight for U.S. funded
•	 the U.S. government’s efforts to assist and improve          reconstruction efforts as U.S. combat troops withdraw.
   the Afghan education sector                                  SIGAR produced a series of oversight access maps pro-
•	 Afghan women’s initiatives funded by the U.S.                jecting that no more than 21% of Afghanistan will be
   government                                                   accessible to U.S. civilian oversight personnel by the end
                                                                of the transition.
   The 13 new financial audits will be examining State-
and USAID-funded contracts, grants, and cooperative
agreements with combined incurred costs of approxi-             RECONSTRUCTION UPDATE
mately $843.7 million, bringing the total number of             As of September 30, 2013, the United States had
ongoing financial audits to 25 with more than $2.2 billion      appropriated approximately $96.6 billion for relief
in costs incurred.                                              and reconstruction in Afghanistan since FY 2002. The
                                                                President has requested approximately $12 billion,
                                                                including oversight and operations budgets, for FY 2014.
INVESTIGATIONS                                                      The U.S. reconstruction effort focuses on three broad
During this reporting period, SIGAR investigations led          areas: security, governance, and economic and social
to $63 million in illegally obtained assets being frozen in     development. Key events shaping reconstruction efforts
bank accounts, more than $1.5 million being protected,          in these sectors this quarter include the following:
$344,000 being recovered, and $10,000 saved. SIGAR               •	 U.S. and Afghan concerns over ANSF casualties
investigations also led to two arrests, three sentences,         •	 The continuing negotiations for a new U.S.-Afghan
more than $95,000 in fines and restitutions ordered, two            bilateral security agreement
indictments, one criminal information, a criminal com-           •	 The ongoing transition to Afghan-led security
plaint, and four guilty pleas. Afghan authorities arrested       •	 The release of the latest U.S. Civil-Military Strategic
five Afghan citizens as a result of a SIGAR investigation.          Framework
Investigation highlights include the following:                  •	 Continued preparations, including the registration
 •	 A U.S. Sergeant First Class and a former U.S. soldier           of candidates for president, for the 2014 Afghan
    pled guilty to charges of bribery related to fuel thefts.       presidential and provincial council elections
 •	 A U.S. Army reservist pled guilty to conspiracy to           •	 Increased Afghan government spending and
    commit wire fraud.                                              decreased revenues
 •	 A SIGAR investigation led to the recovery of three           •	 Expected slowing of economic growth due to fading
    generators valued at $302,510.                                  business and investor confidence
 •	 Afghan authorities arrested an Afghan contractor for
    failure to install systems to prevent insurgents from
    planting improvised devices in culverts.


SPECIAL PROJECTS
SIGAR’s Office of Special Projects published one report
on the U.S. anticorruption strategy. This report found
that the United States does not have a comprehensive
anticorruption strategy.
TABLE OF CONTENTS




     SECTION 1
     	        1	U.S. LAW ENFORCEMENT IN AFGHANISTAN
         	 3	 Afghanistan: Tough Setting For U.S. Law Enforcement
         	 5	 SIGAR’s Investigations Directorate
         	 7	 SIGAR’s Investigative Strategy
         	 14	 What Makes Afghanistan a Unique Challenge?
         	 17	 The Outlook




     SECTION 2
     	       19	SIGAR OVERSIGHT ACTIVITIES
         	   22	 Comprehensive Oversight Plan Issued
         	   22	Audits
         	   36	Inspections
         	   44	 Special Projects
         	   46	 Quarterly Highlight: Oversight Access Challenges
         	   48	Investigations
         	   58	 SIGAR Budget
         	   58	 SIGAR Staff




     SECTION 3
     	 61	RECONSTRUCTION UPDATE
         	  63	Overview
         	  67	 Status of Funds
         	  81	Security
         	 109	Governance
         	 111	 Quarterly Highlight: Elections Preparations
                and Challenges
         	 145	 Economic and Social Development
TABLE OF CONTENTS




      SECTION 4
      	179	OTHER AGENCY OVERSIGHT
      	 182	 Completed Oversight Activities
      	 185	 Ongoing Oversight Activities




      APPENDICES & ENDNOTES
      	196	 Appendix A:	 Cross-Reference of Report
             		 to Statutory Requirements
      	202	 Appendix B:	 U.S. Funds for Afghanistan
             		Reconstruction
      	 204	 Appendix C:	 SIGAR Written Products
      	208	 Appendix D:	 SIGAR Investigations and Hotline
      	212	 Appendix E:	 Abbreviations and Acronyms
      	 216	Endnotes
 “We are determined to use all possible
means to recover stolen taxpayer money.
  I’m proud of my agents, who worked
 closely with the Department of Justice
  on this groundbreaking achievement
    [of freezing more than $63 million
   in U.S. government funds, allegedly
  obtained through fraudulent means].
 This hits the criminals where it hurts.
SIGAR will stop at nothing to follow this
      money trail wherever it leads.”
      — Special Inspector General John F. Sopko




            Source: SIGAR press release, August 9, 2013.
1
    U.S. LAW
    ENFORCEMENT
    IN AFGHANISTAN




        1
                                              CONTENTS

                                              Afghanistan: Tough Setting For
                                              U.S. Law Enforcement	                                  3
                                              SIGAR’s Investigations Directorate	                    5
                                              SIGAR’s Investigative Strategy	                        7
                                              What Makes Afghanistan a
                                              Unique Challenge?	                                     14
                                              The Outlook	                                           17




Photo on previous page
A SIGAR special agent boards a helicopter after conducting an armed sweep of the U.S. consulate in
Herat, which came under attack in September, to ensure all personnel were accounted for, and that
no insurgents had entered the compound. (SIGAR photo)




                                                  2
U.S. LAW ENFORCEMENT IN AFGHANISTAN




 U.S. LAW ENFORCEMENT
 IN AFGHANISTAN

 AFGHANISTAN: TOUGH SETTING FOR
 U.S. LAW ENFORCEMENT
 Serving as a U.S. law-enforcement officer in Afghanistan can involve dealing
 with thieves, bribe takers, money launderers, and drug smugglers—but also
 suicide bombers and insurgent attack squads.
    Special Agent Jeff Millslagle of the Special Inspector General for
 Afghanistan Reconstruction (SIGAR) was at the U.S. consulate in Herat,
 Afghanistan, on the early morning of September 13, 2013. A truck packed
 with explosives rammed into the security gate and blew up. The blast killed
 several guards and heavily damaged the building. A group of armed insur-
 gents then tried to storm the compound, but at least five were killed in the
 ensuing 20-minute firefight and others retreated. Assisting the Regional
 Security Officer1, Millslagle conducted an armed sweep to ensure that all
 U.S. Chief of Mission personnel were accounted for and that no insurgents
 had penetrated the consulate. Millslagle also helped move casualties and




 Deputy Secretary of Defense Ashton Carter inspects blast damage from the September 13,
 2013, Afghan insurgent attack on the U.S. consulate in Herat. (DOD photo)




 REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2013                   3
U.S. LAW ENFORCEMENT IN AFGHANISTAN




held a weapons position covering the blown-open entrance to the consul-
ate. He survived the assault unscathed.
    The Herat attack illustrates the key challenge for U.S. law-enforcement
personnel in Afghanistan: 12 years into the U.S. involvement, the country is
still a war zone. The consequences of the Herat attack further complicated
law-enforcement. U.S. personnel relocated from the damaged consulate
onto a nearby military base that ordinary Afghans cannot enter and that fed-
eral civilians cannot leave without military escort. There are now only two
areas of the U.S. presence in Afghanistan where federal civilian employees
are free to drive themselves around. Such restrictions greatly reduce SIGAR
and other agents’ ability to work with Afghan informants, talk with con-
tacts, and recruit helpful witnesses.
    Even without insurgent attacks, Afghanistan presents a daunting array
of obstacles to American law enforcement. Travel is difficult. Customs
and languages differ. Backup may be scant or nil. Useful evidence or even
basic documentation is often hard to come by. The population can be sus-
picious and uncooperative. Officials may be corrupt or cowed by threats.
U.S. officials have no authority to arrest Afghan nationals. The country has
no extradition treaty with the United States. Suspects who are reported
to Afghan authorities may never be prosecuted. Meanwhile, cash from
Afghanistan’s opium trade and from bribes, theft, and extortion related to
inflows of American aid fuels both corruption and the insurgency.
    Afghanistan is a challenge for U.S. law-enforcement officials, but
what happens in Afghanistan doesn’t always stay in Afghanistan. People,
money, drugs, and other contraband involved in crime in Afghanistan
enter the United States. So investigating crime in the Afghan reconstruc-
tion program entails stateside as well as in-country work for investigators,
analysts, and prosecutors.
    The United Nations Security Council recently highlighted the impor-
tance of crime as it extended the mandate of the NATO-led International
Security Assistance Force. The Security Council’s October 10, 2013, unani-
mous resolution expressed “serious concern about the security situation
in Afghanistan, in particular the ongoing violent and terrorist activities by
the Taliban, al-Qaida and other violent and extremist groups, illegal armed
groups and criminals, including those involved in the production, trafficking
or trade of illicit drugs.”2
    Crimes like theft, bribery, kickbacks, and money laundering deprive pro-
grams of intended resources and governments of needed revenues. They
also foster public perceptions of corruption, undermine the legitimacy
of both the Afghan government and the international reconstruction pro-
gram, and enhance the popular appeal of the Taliban, who may be harsh
and bloody-handed but are widely perceived as non-corrupt. As the U.S.
Department of Defense has officially reported,




   4                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




         The insurgency’s safe havens in Pakistan, the limited insti-
         tutional capacity of the Afghan government, and endemic
         corruption remain the greatest risks to long-term stability
         and sustainable security in Afghanistan. … Widespread cor-
         ruption continues to limit the effectiveness and legitimacy of
         the Afghan government.3
    In other words, criminality is not an incidental sideshow in Afghanistan,
 but a fundamental and critical challenge to U.S. military, reconstruction,
 and development efforts.
    This essay offers a brief overview of SIGAR’s law-enforcement presence
 in Afghanistan, the obstacles its personnel face in carrying out their duties,
 and SIGAR’s strategy to overcome or mitigate those obstacles to detect,
 punish, and deter wrongdoing.


 SIGAR’S INVESTIGATIONS DIRECTORATE
 The SIGAR Investigations Directorate supports SIGAR’s mission to prevent
 waste, fraud, abuse, and corruption by focusing on five critical areas: detect-
 ing fraud, building criminal and civil cases for prosecution in the United
 States and Afghanistan, tracking the flow of stolen reconstruction funds,
 preventing poorly performing and corrupt individuals and companies from
 receiving U.S.-funded contracts, and exposing lax management practices in
 U.S. programs and Afghan ministries that place U.S. taxpayer dollars at risk.4
    The Investigations Directorate collaborates closely with SIGAR’s Audits
 and Inspections Directorate and the Office of Special Projects. Each team
 may use others’ work as a springboard for further action. In carrying out its
 duties, the Investigations Directorate often uncovers information that triggers
 SIGAR audits or special projects, while SIGAR audits have in turn often led to      SIGAR agent briefing customs agents at
 criminal investigations. For example, this quarter SIGAR’s audit of the Afghan      Kandahar Airfield. (SIGAR photo)
 Ministry of Public Health revealed internal control weaknesses in the ministry
 that could put U.S. funds at risk. The audit also directly led to SIGAR’s opening
 a criminal investigation of possible corruption at the ministry.
    As of October 2013, the directorate has 306 open criminal investigations
 involving contract fraud, corruption, and theft in Afghanistan reconstruc-
 tion. During this reporting period, a SIGAR investigation resulted in the
 court-ordered freezing of $63 million in bank deposits suspected of being
 fruits of crime. SIGAR investigations also led to two arrests, three sen-
 tences, two indictments, one criminal information, one criminal complaint,
 and four guilty pleas in the United States; in Afghanistan, five Afghan citi-
 zens were arrested following SIGAR investigations.
    SIGAR’s Investigations Directorate comprises 57 staff—nearly a third of
 SIGAR’s workforce—with 36 at its Virginia headquarters and 21 (plus two
 foreign-national employees) deployed in Afghanistan. Besides managers,
 the directorate employs special agents, investigative analysts, management
 specialists, forensic analysts, and Afghan support personnel. In addition,




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013                5
U.S. LAW ENFORCEMENT IN AFGHANISTAN




several attorneys with suspension-and-debarment expertise, prosecutors
who serve as special assistant U.S. attorneys, and paralegals provide sup-
port to Investigations, but are not administratively part of its staff.
   SIGAR special agents are full-fledged federal law-enforcement officers:
badged, authorized to carry weapons, and empowered to make arrests
(although not of Afghans on their home soil). The agents average more than
20 years’ experience in law enforcement. Their duties take them not only to
locations in Afghanistan, but to stateside military bases, ports of entry, court
houses, prosecutors’ offices, and other domestic sites touched by the ripples of
criminality in Afghanistan reconstruction. The directorate’s other professionals,
such as investigative analysts, forensic auditors, and forensic examiners, bring
an average of more than 10 years’ professional experience to SIGAR.
   SIGAR Investigations operates under the direction of Assistant IG
Douglas J. Domin and Deputy Assistant IG Sharon E. Woods.
   Domin is a former FBI agent whose career includes a posting at the U.S.
Embassy London, a management role at the FBI’s Dallas field office, and
serving as special agent in charge of the FBI Minneapolis Division respon-
sible for 200 personnel and operations in Minnesota and the Dakotas. While
at the FBI, he also managed the massive information-technology project
that produced IAFIS, the Integrated Automated Fingerprint Identification
System that makes more than 100 million sets of criminal- and civil-case
fingerprints, descriptions, criminal histories, and other data speedily avail-
able to law-enforcement officials 24 hours a day.5
   Woods’s career includes service as a Naval Criminal Investigative Service
special agent, director of the Defense Criminal Investigative Service (DCIS),
and director of investigations at the IG office of the Defense Logistics
Agency. Before joining SIGAR, she helped DCIS establish its presence in
Kuwait, Iraq, and Afghanistan.
   The ongoing phased withdrawals of U.S. and Coalition military forces
and the separate “right-sizing” reductions in other U.S. agencies’ in-country
presence combine to increase the difficulty of conducting effective over-
sight and to magnify the challenge and importance of SIGAR’s investigative
role in Afghanistan. Recent hires will help SIGAR deal with those chal-
lenges by adding to its cadre of high-level staff with direct experience in
Afghanistan. The staff expansion reflects the Special Inspector General’s
program of adding subject-matter experts in areas like money laundering
and counternarcotics to bolster existing capabilities.
   The new hires include Frank P. Calestino, a Treasury Department profes-
sional who was one of the founders of the Afghanistan Threat Finance Cell
and had served as deputy director of its Iraq counterpart. Joining SIGAR in
the coming quarter will be David J. Schwendiman, a former federal prosecu-
tor currently serving as Justice Attaché at U.S. Embassy Kabul. His prior
experience includes international prosecution of war crimes in the Balkans.
He will be SIGAR’s Director of Forward Operations in Afghanistan, acting




   6                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




 as the Special IG’s official representative. Also coming to SIGAR is Timothy
 A. Jones, a long-serving Drug Enforcement Administration official who
 is currently director of the Afghanistan Threat Finance Cell targeting the
 narco-terror financial nexus.


 SIGAR’S INVESTIGATIVE STRATEGY
 The Investigations Directorate pursues its objectives through several means:
 •	 maintaining a robust presence in Afghanistan
 •	 forging alliances with other law-enforcement agencies
 •	 developing cases in Afghanistan and the United States
 •	 aggressively targeting candidates for suspension and debarment
 •	 combating money laundering
 •	 countering the narcotics trade
 •	 reaching out to observers of reconstruction misconduct

 Maintaining a Robust Presence in Afghanistan
 SIGAR has one of the largest, most experienced, and longest-deployed
 groups of U.S. law-enforcement professionals in Afghanistan. Most of
 SIGAR’s Afghanistan-based investigative personnel are special agents with
 full U.S. law-enforcement officer authority.
    SIGAR’s presence in Afghanistan is robust not only in comparative size,
 but in mandate. By statute, SIGAR is the only U.S. oversight agency tasked
 exclusively with Afghan reconstruction. It is also the only one that can exam-
 ine any aspect of the reconstruction effort regardless of agency boundaries.
    SIGAR has established offices at Kabul, Kandahar Airfield, Camp
 Leatherneck, Herat, Mazar-e-Sharif, and Bagram Airfield.

 Forging Alliances with Other Law-Enforcement Agencies
 SIGAR is not alone as an American oversight and law-enforcement agency
 in Afghanistan. Other American law-enforcement agencies maintaining an           SIGAR agents visiting with Afghan villager.
 Afghan presence include:                                                         (SIGAR photo)
  •	 Defense Criminal Investigative Service (DCIS), Department of Defense
  •	 Department of Homeland Security (DHS)
  •	 Department of State Office of Inspector General (State OIG)
  •	 Drug Enforcement Administration (DEA), Department of Justice
  •	 Federal Bureau of Investigation (FBI), Department of Justice
  •	 Major Procurement Fraud Unit (MPFU), U.S. Army Criminal
     Investigation Division Command
  •	 Naval Criminal Investigative Service (NCIS), U.S. Navy
  •	 Office of Special Investigations (OSI), U.S. Air Force
  •	 Regional Security Office (RSO), Department of State
  •	 U.S. Agency for International Development Office of Inspector General
     (USAID OIG)




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             7
U.S. LAW ENFORCEMENT IN AFGHANISTAN




   SIGAR collaborates with these agencies. In addition, the U.S. government
has created a number of groups and task forces to address Afghanistan-
related issues. SIGAR works closely with the following:
•	 The International Contract Corruption Task Force (ICCTF):
   The FBI spearheaded creation of this special interagency body in 2006
   because of an immense crime problem of bribes, kickbacks, and theft
   among U.S. civilian and military contracting officials and contractors
   working on contingency operations.6 SIGAR joined the task force in 2009
   and has a special agent assigned full-time to ICCTF headquarters. In
   addition to Afghanistan, ICCTF-affiliated agents operate in Iraq, Kuwait,
   Qatar, Pakistan, and Haiti. The ICCTF’s members now include the FBI,
   SIGAR, DCIS, MPFU, NCIS, and the IG offices of State and USAID.
•	 Task Force 2010 (TF 2010): This team, set up by U.S. Forces-
   Afghanistan in 2010, works with commanders and acquisition personnel
   to combat contract extortion, theft, and prevent U.S. contract funds
   from ending up in enemy hands. TF 2010 operates audit, intelligence, law
   enforcement, and legal sub-units. SIGAR has had an agent embedded in
   the law-enforcement sub-unit, and has worked with TF 2010 staff at its
   former headquarters in Kabul and at Bagram and Kandahar Airfields. The
   task force has since moved its headquarters to an air base near Doha,
   Qatar, on the Persian Gulf. SIGAR has asked the U.S. Army for permission
   to station an agent there to continue the close working relationship.
•	 Afghanistan Threat Finance Cell (ATFC): Modeled after the Iraq
   Threat Finance Cell created under Treasury and DOD leadership, the
   ATFC began operations in 2009 to attack illicit financial networks
   by providing financial expertise and actionable intelligence to U.S.
   agencies. The ATFC seeks to identify and disrupt threat finance networks
   related to terrorism and the Afghan insurgency. The Drug Enforcement
   Administration leads the ATFC, with DOD acting as deputy. SIGAR has an
   analyst embedded at the cell. This has helped it access vast amounts of
   data for searches and other investigative work on illicit finance.
•	 Combined Joint Interagency Task Force–Afghanistan (CJIATF-A):
   This consortium coordinates and focuses efforts against corruption,
   narcotics, threat finance, and contracting with the enemy. It also conducts
   detainee operations and coordinates with units of the Afghan government.
   Members include TF 2010 and the CJIATF-Nexus counternarcotics
   analytical cell, with Interagency Operations Coordination Center and ATFC
   working in alignment with the CJIATF-A team.

   SIGAR prosecutors also cooperate whenever possible with the Afghan
Attorney General’s Office (AGO) on investigations, interviews, and refer-
rals for prosecutions involving Afghan nationals. No other U.S. agency has
such a working relationship with the AGO. It gives the United States a voice
in dealing with Afghan contractors against whom the United States has no




   8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




 legal remedy. Since 2010, the AGO has prosecuted 35 individuals reported
 by SIGAR investigators for reconstruction fraud, theft, and corruption.
    The AGO has acted against Afghans involved in some cases based on
 SIGAR work. These include contractors who failed to install culvert-denial
 systems needed to prevent insurgents from placing bombs under roads. As
 previous SIGAR reports have noted, however, the AGO typically prosecutes
 low-level suspects, not people with political connections or major assets
 that can be tapped to avoid justice.
    Finally, SIGAR agents share information with the Independent Joint Anti-
 Corruption Monitoring and Evaluation Committee (MEC) on corruption and
 fraud in projects and contracts being executed in Afghanistan. Created in
 2010 at the request of the Afghan government, this six-member international
 committee establishes benchmarks, identifies problems, and evaluates prog-
 ress against corruption. The MEC is not a law-enforcement agency, but its
 reports form a point of reference for the international community and could
 affect Afghan government receptivity toward greater anticorruption efforts.

 Developing Cases in Afghanistan and the United States
 SIGAR agents use audit findings, informants’ tips, interagency contacts, and
 other resources to develop cases in both Afghanistan and the United States.
     As detailed in a SIGAR news release, the Investigations Directorate has
 scored major victories in cases involving fuel theft and in freezing $63 mil-
 lion of bank deposits that may be related to illegal activity in Afghanistan.
 Such investigations, conducted in Afghanistan and the United States, will
 be increasingly important as the United States transfers more aid money
 directly to the Afghan government, creating new opportunities for miscon-
 duct including theft and illicit money transfers.
     SIGAR Investigations is now in the preliminary stage—assessing juris-
 diction—of a possible criminal investigation of the U.S.-funded acquisition
 of Russian-built Mi-17 transport helicopters for the Afghan security forces.
 Allegations involving the Mi-17 contracts came through SIGAR’s hotline.
     A vice president of a contractor at Kandahar Airfield in Afghanistan
 awarded work to an Afghan subcontractor from whom he then took $60,000.
 SIGAR’s investigation started in Afghanistan. The suspect, Elton M. McCabe
 III of Slidell, Louisiana, was arrested in December 2012 when he returned to
 the States. He pled guilty to accepting kickbacks and to conspiracy to commit
 offenses against the United States. He also agreed to forfeit $60,000. McCabe
 was sentenced on August 22, 2013, to serve 10 months in federal prison.7
     Smaller cases like the McCabe prosecution can be helpful. Taxpayers
 and the reconstruction effort benefit every time a person or organization
 contemplating misconduct considers the risks of detection and abandons
 a plan for crime. So the directorate’s impact cannot be fully measured by
 simply totaling the dollar amounts recovered, restored, fined, or protected
 against further disbursement to bad vendors. Deterrence also counts.




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             9
U.S. LAW ENFORCEMENT IN AFGHANISTAN




   Effective investigations and case development require access to informa-
tion. SIGAR will benefit greatly from the access it has now gained to the
voluminous Afghanistan files of the U.S. Senate’s Permanent Subcommittee
on Investigations (PSI). The Special IG wrote to PSI Chairman Carl Levin
and Ranking Member John McCain in April 2013 asking for access. Senate
Majority Leader Harry Reid introduced a resolution on May 23, 2013,
authorizing the PSI leaders to making committee records relating to U.S.
efforts in Afghanistan available to federal investigators. The resolution
was adopted by unanimous consent.8 This highly unusual move highlights
SIGAR’s aggressive pursuit of every available investigative avenue.

Aggressively Targeting Candidates for
Suspension and Debarment
SIGAR has found that suspension and debarment—the act of temporarily or
permanently preventing a person or firm from contracting with the U.S. gov-
ernment—can be a powerful tool in Afghanistan. U.S. law enforcement has
little legal leverage against Afghan citizens and Afghan-owned companies.
But U.S. implementing agencies can suspend or debar any company or indi-
vidual of any nationality from obtaining additional U.S.-funded contracts,
grants, or loans if they have performed poorly, engaged in illicit activity, or
have links to criminal and insurgent networks.
    Other U.S. agencies, military and civilian, have at times been reluctant for
operational or other reasons to act on SIGAR recommendations to suspend or
debar contractors. The U.S. Army, for example, has declined to accept SIGAR
recommendations involving 43 companies with ties to the Taliban, al-Qaeda,
or the Haqqani Network. The firms are on the Commerce Department’s Entity
List of foreign persons or entities barred from receiving certain exports.
SIGAR has repeatedly called on the Army to prevent these companies from
ever receiving U.S. contracts, but the Army has cited legal reasons for not act-
ing.9 SIGAR believes the Army’s refusal to suspend and debar these companies
is contrary to good public policy and to national-security goals.
    Agency resistance to SIGAR recommendations does not preclude all
action, however. SIGAR investigations have resulted in some 200 individual
Afghans being banned from U.S. bases and barred from obtaining visas to
enter the United States.
    SIGAR has requested but has not yet secured its own regulatory author-
ity to suspend or debar dubious contractors. The request was submitted
to the Office of Management and Budget (OMB) in late 2011; OMB has not
acted on it. SIGAR is therefore confined to making recommendations to
other agencies that suspensions and debarments be imposed. Since 2008,
SIGAR has referred 358 cases to other agencies, resulting in 61 suspensions,
94 debarments, and one administrative settlement.




  10                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




 Combating Money Laundering
 Theft and fraud related to U.S. contracts for reconstruction work in
 Afghanistan and the country’s large narcotics trade lead to many attempts
 to “launder” the monetary proceeds to avoid law-enforcement scrutiny and
 move funds to other jurisdictions.
    Money laundering involves Afghans, Americans, and people of other
 nationalities. The central figure in one case was an American contrac-
 tor official who engaged in both corruption and cash smuggling. SIGAR
 investigators caught Donald G. Garst trying to smuggle $150,000 out of
 Afghanistan through a commercial package shipper. He later admitted to
 receiving about $210,000 from Afghan vendors after soliciting kickbacks in
 return for favorable contracting treatment. The U.S. Department of Justice
 said Garst had planned to receive another $400,000 in kickbacks, but was
 caught before he could collect the payment.10 Garst’s employer at the time,
 AC First, is a joint venture of the large contractors AECOM and CACI, and
 held a multi-million-dollar contract with the U.S. Army for vehicle and
 equipment maintenance, facilities and supply management, transportation,
 and other services in Afghanistan.
    On February 12, 2013, a federal court in Kansas sentenced Garst to 30
 months in prison and fined him $52,117 for his guilty plea to a charge of
 bulk cash smuggling. The $150,000 cash shipment was forfeited.
    The Garst case is no isolated incident. Afghanistan stands at the top of a
 149-country money-laundering risk index calculated by the Basel Institute
 on Governance.11 SIGAR has reported on evidence of bulk cash smuggling
 through Kabul Airport, and estimates of total illicit cash transfers run into
 the billions of dollars. Illegal transfers of funds out of Afghanistan, whether
 by smuggling bulk cash or by electronic means, deprive the Afghan gov-
 ernment of tax revenues, support criminal enterprises and terrorism, and
 undermine public trust in the government.
    Several U.S. laws criminalize money laundering.12 But investigating money-
 laundering cases in Afghanistan is extremely difficult. Attempts to obtain
 evidence-quality, certified records from Afghan banks typically fail. Afghan
 police and even court records often do not exist. Government offices may lack
 computerized records, computers, or even electric power. Investigators there-
 fore turn to Western Union wire records, logs of informal Afghan “hawala”
 financial transfers, or Afghan prosecutors for information and evidence.
    SIGAR has taken special steps to reinforce its capability to detect and
 investigate money laundering. Besides hiring a former Treasury money-
 laundering expert who had served with the Afghanistan Threat Finance
 Cell, SIGAR is making a significant new investment in information technol-
 ogy. New hardware and software will assist in following the tortuous trails
 of money leaving Afghanistan.




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              11
U.S. LAW ENFORCEMENT IN AFGHANISTAN




Countering the Narcotics Trade
As described at greater length in the Security section of this report, counter-
narcotics efforts have absorbed large amounts of U.S. money and effort in
Afghanistan. The country is the world’s leading producer of opium, and the
drug trade provides a living for hundreds of thousands of Afghan farmers.
It also produces a public-health scourge, a motivation for users to commit
crimes to obtain drugs, a source of financing for insurgents and terrorists,
and material for the money-laundering and cash-smuggling business.
    SIGAR agents worked on one criminal case that illustrates the intermin-
gling of offenses. While assigned to the Kunar Provincial Reconstruction
Team, Sidharth Handa, an Army Reserve captain, collaborated with an
Afghan interpreter to solicit bribes from companies competing for construc-
tion contracts. The two had agreements to receive more than $1.3 million
in bribes, of which they collected and split $315,000 before Handa left
Afghanistan. A cooperating witness and an undercover agent later met
him in a Virginia hotel under pretext of delivering another $500,000 of the
promised amount. In the course of his conversation with the cooperating
witness, Handa also discussed selling heroin.
    Officers arrested Handa as he left the hotel with the money, a loaded
handgun, and a spreadsheet detailing bribe promises and payments. On
September 23, 2011, a federal court in Virginia sentenced Handa to 120
months in prison for soliciting and accepting bribes, and for conspiring to
distribute heroin. He was also ordered to pay $315,000 in restitution.13
    SIGAR’s continuing engagement with the DEA-led Afghanistan Threat
Finance Cell gives it access to documents, evidence, and informants that
can assist in the counternarcotics effort.

Reaching Out to Observers of Reconstruction Misconduct
SIGAR’s Investigations Directorate reaches out to engage everyone in the
fight against fraud and corruption. SIGAR runs an antifraud hotline that
invites anyone with tips on possible illegal activity to call, fax, e-mail, or
visit SIGAR with their information—anonymously if they wish. About 70
hotline complaints come in each quarter, with about 40% leading to a pre-
liminary or full investigation.
   One hotline tip to SIGAR involved an Afghan construction company
that wanted to overturn two terminations for default on its U.S.-funded
contracts. The company offered $30,000 to influence an American con-
tracting officer’s representative working at the U.S. Embassy Kabul in
2009–2010 for the State Department’s Bureau of International Narcotics
and Law Enforcement Affairs. SIGAR investigators checked out the hot-
line information, collected evidence, and referred the case to prosecutors.
On September 19, 2013, defendant Kenneth M. Brophy pled guilty in U.S.
District Court in Wilmington, DE, to receipt of an illegal gratuity by a public
official. His plea agreement proposes six months’ incarceration, six months’




  12                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




     RemembeR: FRaud Can Kill
                                                                       Report Fraud
                                         involving u.S. Reconstruction dollars to SiGaR
                                                                          www.sigar.mil




                 sigar.hotline@mail.mil
                 Afghanistan | 0700107300 (cell)      | 318-237-3912 x7303 (DSN)
                 United States | +1-866-329-8893 (int’l line) | 94-312-664-0378 (DSN)


 SIGAR publicizes its fraud hotline with posters and advertisements.


 supervised release, and forfeiture of $30,000, subject to court approval.
 On April 29, 2013, the Department of State suspended Brophy from further
 contracting with the government.14 A final debarment decision based on
 Brophy’s criminal conviction is pending.
     The telephone hotlines—866-329-8893 toll-free in the United States,
 0700107300 for Afghan cell phones—are answered during business hours
 at SIGAR headquarters and in Kabul, and voicemail is available in three
 languages, 24 hours a day. Broadcast news reports featuring interviews or
 speeches by SIGAR officials boost the inflow of hotline contacts both state-
 side and in Afghanistan.
     SIGAR also advertises its antifraud mission and the hotline in venues like
 the Armed Forces Network, Stars and Stripes, and the in-flight magazine
 of Safi Airways, the Afghan national airline. Posters in English, Dari, and
 Pashtu are placed at U.S. bases, Afghan ministries, and many jobsites. SIGAR
 is also looking into airtime buys on Afghan radio and television—an option
 that could be particularly useful in a largely illiterate country.




 REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2013                       13
U.S. LAW ENFORCEMENT IN AFGHANISTAN




WHAT MAKES AFGHANISTAN A UNIQUE CHALLENGE?
For a variety of reasons, the Afghan setting complicates all of the duties of
a law enforcement agent and may represent a worst-case scenario for con-
ducting U.S. law enforcement in a foreign country.

Work in a Combat Zone
As noted earlier, the overriding challenge is that Afghanistan is an active
combat zone. Oversight and investigative officials in Afghanistan depend
heavily on the U.S. military for transportation and security. The continuing
drawdown of U.S. and other Coalition forces from Afghanistan and related
base closures are already having an impact on federal agencies’ ability to
move at will in the country and to complete investigations expeditiously.
   Most stateside fraud investigations are worked for several years from
receipt of initial allegation to criminal, civil, or administrative resolution.
Afghanistan demands a faster pace for reasons including frequent person-
nel rotations that reduce the numbers of knowledgeable witnesses, erode
institutional memory, and create lapses in record creation and retention. At
one point, SIGAR investigative personnel were stationed at nine locations
in Afghanistan and could book travel around the country on rotary- or fixed-
wing aircraft that flew several times a day. Recently in-country scheduled
transport flights from the main U.S. base to forward operating bases have
declined to three a week. These constraints make it all the more important
for Investigations to collaborate with investigative partners and to use new
techniques and technologies to carry out its mission.

Shrinking Areas of Access for Oversight
As the area in which the U.S. military is prepared to transport civilians
shrinks with the drawdown of U.S. troops, about 80% of Afghanistan may no
longer be readily accessible to U.S. oversight and investigative officials after
2014.15 Given that the U.S. Army Corps of Engineers, USAID, and Regional
Contracting Commands may continue to award contracts for construction
projects outside of the shrinking oversight-access zones, the trend implies
growing barriers to SIGAR’s and other agencies’ ability to act aggressively on
allegations or evidence of waste, fraud, and abuse. Meanwhile, the ongoing
reductions in other law-enforcement agencies’ presence in Afghanistan will
magnify both the challenge and the importance of SIGAR’s work in country in
2014 and beyond as reconstruction funds continue to be disbursed.
   Section 2 of this report includes a highlight on the oversight-access chal-
lenge, with maps illustrating changes since 2009 and expected in 2014.

Heavy U.S. Reliance on Contracting
Contracts present another challenge in Afghanistan. There, as in Iraq, U.S.
military, reconstruction, and development activities rely on large num-
bers of contractors for tasks ranging from construction and equipment




  14                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




 maintenance to facilities maintenance and training. As of fourth quarter
 FY 2013, U.S. Central Command reported 85,528 DOD contractors in
 Afghanistan, split roughly equally among U.S., Afghan, and third-coun-
 try nationals.16 As has been the case for much of the time in Iraq and
 Afghanistan, contractors outnumber deployed military personnel. Many
 of the DOD contractors work on reconstruction activities including build-
 ing projects, management and maintenance, and training Afghan forces.
 Additional thousands of contractors, cooperative-agreement partners, or
 grantees work for or on behalf of State, USAID, and other federal agencies
 with smaller roles in Afghanistan.
    The plethora of contracts, the billions of dollars involved, the tens
 of thousands of contractor employees, and differences—including in
 languages and record-keeping systems—all combine with shortages of
 competent and conscientious contracting officers and supervising/technical
 representatives to create special problems for oversight—and numerous,
 amplified opportunities for waste, theft, and corruption.
    Another obstacle for investigators arises out of the 2006 statutory cre-
 ation of the “Afghan First Initiative.” This legislation gives preference to
 Afghan contractors for DOD-required goods and services. It may sup-
 port the political objective of cultivating good will and helping to develop
 Afghanistan’s economy, but it has had the unintended consequence of mak-
 ing it more difficult to prosecute reconstruction fraud and theft.
    In Iraq, U.S. operations involved many Iraqi subcontractors, but the primary
 contractors legally responsible for employing and managing the subcon-
 tractors were generally U.S. companies subject to U.S. law. In Afghanistan,
 by contrast, U.S. law enforcement has no jurisdiction over Afghan primary
 contractors or their subcontractors. Agencies can only refer cases to Afghan
 prosecutors, recommend suspension and debarment to prevent further con-
 tract work by offenders, and bar specific personnel from U.S. bases.

 Legal Complications
 Afghan sovereignty and the status of international agreements also com-
 plicate life for U.S. law-enforcement officials in Afghanistan. The United
 States and Afghanistan are still negotiating a bilateral agreement that would
 define the legal status of U.S. military and law-enforcement personnel in
 Afghanistan. At present, U.S. agencies can and do refer cases to Afghan
 prosecutors, but they cannot arrest Afghan nationals or present cases in
 Afghan courts. By contrast, cases involving U.S. nationals in Afghanistan
 can be turned over to federal officials for criminal prosecution or, if DOJ
 does not opt to take a case involving a military member, to military com-
 mands for action under the Uniform Code of Military Justice.
    SIGAR works with Afghan law enforcement, but it is rare for a non-Afghan
 even to appear as a witness in the country’s criminal proceedings. When a         SIGAR agent testifying in Afghan criminal
 SIGAR special agent testified in an Afghan appellate court in March 2013, it      trial. (SIGAR photo)




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              15
                                            U.S. LAW ENFORCEMENT IN AFGHANISTAN




                                            may have marked the first testimony by a U.S. law-enforcement agent. The
                                            special agent’s testimony helped the court reinstate charges, extend the prison
 INVESTIGATIVE INNOVATIONS
                                            sentence, and double the fine imposed on an Afghan accused of bribery and
 SIGAR investigators’ innovations to deal   theft totaling more than $1 million related to U.S. reconstruction contract
 with the Afghan operating environment
 include:                                   work.17 The SIGAR testimony was based on agents’ use of law-enforcement
                                            tools including undercover work, recordings, aerial surveillance, informants,
•	 aggressive use of suspension-and-
   debarment recommendations                and cooperation with Afghan police and prosecutors.
•	 obtaining an in rem warrant to seize
                                               Although the United States has extradition treaties with at least 110
   assets implicated in criminal activity   countries, Afghanistan is not one of them.18 Bringing an Afghan accused
•	 testifying as a prosecution witness in   of violating U.S. law to the United States for trial would therefore require
   an Afghan appellate court                a special, long-odds diplomatic effort with an Afghan government already
•	 barring certain Afghans from entering    sensitive to perceptions of foreign influence. So far, DOJ has prosecuted no
   U.S. bases or obtaining U.S. visas       Afghans in U.S. courts on charges related to Afghan reconstruction.
                                               In a related complication, DOJ has not yet used Afghan citizens to testify
                                            as witnesses in U.S. court cases related to SIGAR investigations. Obtaining
                                            visas, paying travel and lodging expenses, dealing with language barriers,
                                            and taking heed of reprisal threats against witnesses and their families have
                                            proved insurmountable obstacles.
                                               SIGAR’s Investigations Directorate continues to adapt to the Afghan
                                            operating environment, and will refine and adjust its approaches further as
                                            conditions change and new obstacles or opportunities arise.

                                            Challenges of Giving More Money Directly to Afghan Ministries
                                            The United States and other international donors have committed to pro-
                                            vide increasing portions of reconstruction and development assistance
                                            directly to the Afghan government, rather than through U.S. agencies’ and
                                            contractors’ work, or through nongovernmental organizations operating on
                                            behalf of the U.S. government.
                                               “Direct assistance” is a term with varying definitions, and is sometimes
                                            also known as “on-budget” or “government-to-government” assistance.19
                                            Ideally, providing direct assistance may help a recipient government build its
                                            own capacity to plan and execute budgets, and to channel and adapt fund-
                                            ing to its country’s changing needs and priorities. But realistically, direct
                                            assistance may also magnify the threat of corruption and theft. For example,
                                            Afghan government ministries may not have the appropriate expertise,
                                            financial systems, or internal controls to properly manage and oversee the
                                            increased flow of money, possibly multiplying opportunities to divert cash.
                                               U.S. government assessments of Afghan ministries’ capabilities have raised
                                            serious questions about the feasibility of providing additional money through
                                            direct assistance. Nevertheless, the U.S. government and other international
                                            donors have committed to channel at least 50% of funds through direct-assis-
                                            tance programs. The commitment partly reflects the reality that, within two
                                            years, it will be largely up to the Afghan government to sustain the reconstruc-
                                            tion effort in which the U.S. and others have invested so much.




                                              16                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
U.S. LAW ENFORCEMENT IN AFGHANISTAN




    Some SIGAR audits have indicated that certain Afghan ministries are
 not yet capable of adequately managing these large flows of money. SIGAR
 has repeatedly found weaknesses in the abilities of the Afghan Ministries
 of Defense and Interior to manage funds that pay for critical petroleum,
 oil, and lubricants. SIGAR audits have also found significant challenges to
 Afghan ministries’ ability to sustain U.S.-provided facilities and equipment
 using direct assistance.
    Audits described in this and prior SIGAR quarterly reports have
 uncovered conditions ripe for waste, fraud, and abuse. Such findings are
 then referred to SIGAR Investigations for additional review. Any result-
 ing criminal investigations can be complicated by weaknesses in Afghan
 recordkeeping systems, limited access to personnel and documents, and
 other oversight challenges. Yet even if SIGAR cannot prosecute Afghan citi-
 zens or persuade Afghan officials to prosecute them, identifying individuals
 and agencies implicated in corruption or theft could help international
 donors and implementing agencies with the design and targeting of their
 direct-assistance programs.
    Most recently, SIGAR completed an audit this quarter of the $236 mil-
 lion Partnership Contracts for Health program, which supports the Afghan
 Ministry of Public Health (MOPH) in its delivery of health services to local
 Afghan clinics and hospitals. The audit found significant financial manage-
 ment deficiencies at the MOPH, including problems with the ministry’s
 internal audit, budget, accounting, and procurement functions. In SIGAR’s
 view, USAID’s decision to continue disbursing funds to the MOPH with little
 or no assurance that these funds are safeguarded from waste, fraud, and
 abuse raises serious concerns about the integrity of the program.
    Moreover, following issuance of this audit, SIGAR received allegations
 of fraud and corruption within the very unit of the MOPH set up to mitigate
 the ministry’s financial-management weaknesses. These allegations have
 prompted a new criminal investigation involving U.S. assistance to the MOPH
 that may result in SIGAR’s referring cases to U.S. or Afghan prosecutors.


 THE OUTLOOK
 Nearly $19 billion of U.S. funds appropriated for Afghanistan reconstruc-
 tion have not yet been disbursed, and the administration has committed to
 request billions more in the years ahead. Plans call for much of this money
 to be provided through direct assistance. At the same time, other U.S. and
 international agencies will have reduced their in-country presence and over-
 sight access will become more difficult. These facts will require SIGAR and
 other U.S. oversight and law-enforcement agencies to continue refining and
 adjusting their approaches for the changing Afghan operating environment.
 They also suggest that SIGAR and its Investigations Directorate will be busy
 for some time to come.




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           17
“Significant portions of Afghanistan are
 already inaccessible to SIGAR, other
  inspectors general, the Government
     Accountability Office, and other
   U.S. civilians conducting oversight,
   such as contracting officers. SIGAR
  believes this constraint on oversight
    will only worsen as more U.S. and
          coalition bases close.”
    —Special Inspector General John F. Sopko




           Source: John F. Sopko, inquiry letter to State, DOD, and USAID, October 10, 2013.
2   SIGAR
    OVERSIGHT




        19
                                              CONTENTS
                                              SIGAR OVERSIGHT CONTENTS

                                              Comprehensive Oversight Plan Issued	                  22
                                              Audits	22
                                              Inspections	36
                                              Special Projects	                                     43
                                              Quarterly Highlight: Oversight
                                              Access Challenges	                                    46
                                              Investigations	48
                                              SIGAR Budget	                                         58
                                              SIGAR Staff	                                          58




Photo on previous page
A view of the Hindu Kush mountain range from the Gardez hospital construction site. (SIGAR photo)




                                                 20
             SIGAR OVERSIGHT ACTIVITIES




SIGAR OVERSIGHT ACTIVITIES
In this reporting period, SIGAR issued 12 audits, inspections, alert letters,
and other reports. This work identified poor planning, management defi-
ciencies, project delays, and failures of oversight in areas of Afghanistan’s     AUDIT ALERT LETTER
reconstruction ranging from public health to national security. It also found     •	 Alert 14-2: Design Flaws at the Weesh-
                                                                                     Chaman Border Crossing Point
design problems, shoddy construction, and threats to health and safety.
   An alert letter raised concerns about the design of a major border             COMPLETED AUDITS
crossing point in Kandahar. An audit report warned that internal con-             •	 Audit 13-17: USAID’s Assistance to
                                                                                     the Ministry of Public Health
trol deficiencies put U.S. funds provided to the Ministry of Public Health
                                                                                  •	 Audit 13-18: ANSF Construction
(MOPH) at risk of waste, fraud, and abuse. Another audit reported that               Projects
the Combined Security Transition Command-Afghanistan (CSTC-A) was                 •	 Audit 14-1: ANP Fuel Program
building facilities that the Afghan National Security Forces (ANSF) may not       •	 Audit 14-3: ANA Vehicle Spare Parts
need. A third audit report revealed that poor oversight and documentation
of fuel purchases for the Afghan National Police (ANP) had led to the use of
                                                                                  COMPLETED FINANCIAL AUDIT
                                                                                  •	 Financial Audit 14-9: Contracts
higher-priced vendors and questionable costs to the U.S. government. Four            Implemented by Checchi & Company
inspection reports showed that the Archi District Police Headquarters was            Inc.
in a state of disrepair, that the Gardez hospital has not been completed after    COMPLETED INSPECTIONS
two years due to poor contractor performance, that poor oversight con-            •	 Inspection 14-5: Archi Police District
tributed to a failed construction project in Parwan, and that the Walayatti          Headquarters
medical clinic was not built to specifications and was never used.                •	 Inspection 14-6: Gardez Hospital
   SIGAR’s Office of Special Projects warned that the United States lacks         •	 Inspection 14-7: Justice Center in
                                                                                     Parwan Courthouse
a strategic plan and mechanisms to track progress in fighting corruption in
                                                                                  •	 Inspection 14-10: Walayatti Medical
Afghanistan. The Office of Special Projects also wrote to the Secretaries of         Clinic
State and Defense and to the Administrator of the United States Agency for
International Development (USAID) to inquire about their plans to provide         COMPLETED SPECIAL PROJECT
oversight for the reconstruction as the drawdown of U.S. and Coalition            REPORTS
troops increasingly limits the access U.S. civilians have to projects outside a   •	 Special Project 13-9: Anti-Corruption
                                                                                     Efforts
few major cities.                                                                 •	 Special Project 14-4: Oversight
   SIGAR investigations this quarter resulted in $63 million in fraudulently         Access Inquiry
obtained criminal proceeds being frozen. In the United States, SIGAR inves-
tigations led to two arrests, three sentences, more than $95,000 in fines
and restitutions, two indictments, one criminal information, a criminal
complaint, and four guilty pleas. In Afghanistan, five Afghan citizens were
arrested following SIGAR investigations. Monetary savings brought by
SIGAR this quarter include $1.5 million protected, $344,000 recovered, and




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              21
                                                   SIGAR OVERSIGHT ACTIVITIES




                                                   $10,000 saved. SIGAR also referred 14 individuals and 17 companies for sus-
                                                   pension and debarment.


                                                   COMPREHENSIVE OVERSIGHT PLAN ISSUED
                                                   SIGAR and the other members of the Southwest Asia Joint Planning Group
Performance audits: provide assurance              this quarter issued the fiscal year (FY) 2014 Comprehensive Oversight Plan
or conclusions based on an evaluation of           for Southwest Asia (COPSWA). This plan incorporates all of the planned
sufficient, appropriate evidence measured          and ongoing oversight for Afghanistan and the rest of Southwest Asia by the
against stated criteria. Performance               inspectors general of SIGAR, the Department of Defense, the Department of
audits provide objective analysis so that          State, and the U.S. Agency for International Development, the Army Audit
management and those charged with                  Agency, the Naval Audit Service, and the Air Force Audit Agency. It also
governance can use the information to              includes ongoing oversight efforts by the U.S. Government Accountability
improve the program performance and
                                                   Office related to Southwest Asia. The plan notes that the execution of the
operations, reduce costs, and facilitate
                                                   reconstruction mission will change dramatically with the U.S. military
decisions making by parties with
responsibility to oversee or initiate corrective   drawdown. As U.S. combat forces and most of their support network leave
action for public accountability. Performance      Afghanistan, operational responsibility will shift from the Department of
audits are conducted in accordance with            Defense to the Department of State, which also coordinates with USAID.
generally accepted government auditing             Meanwhile, the closing of U.S. bases and the steadily shrinking “bubbles”
standards (GAGAS) and the Council of               of U.S.-provided security and medical-evaluation services will complicate
the Inspectors General on Integrity and            and constrain management and oversight of U.S.-funded reconstruction
Efficiency (CIGIE) Quality Standards for           projects. SIGAR’s planned work includes an audit of the U.S. government
Federal Offices of Inspector General.              reconstruction transition plan, an audit of the reliability of ANSF personnel
                                                   data, an inspection of the Kajaki Dam and related construction projects,
Inspections: are systematic and                    and an audit of Afghan women’s initiatives funded by the U.S. government.
independent assessments of the design,
implementation, and/or results of an
agency’s operations, programs, or policies.
SIGAR conducts inspections, in accordance
                                                   AUDITS
with CIGIE Quality Standards for Inspection        SIGAR conducts performance audits, inspections, and financial audits of
and Evaluation, to provide information to          programs and projects connected to the reconstruction in Afghanistan.
Congress and the public on the quality of          This quarter, SIGAR issued four audit reports. SIGAR also began two new
construction of facilities and infrastructure      performance audits, bringing the total number of ongoing audits to 12. The
throughout Afghanistan; and generally,             published reports, among other things, raised concerns about U.S. funds
provides an assessment of the extent to            provided to the MOPH, planned and ongoing construction projects for the
which the facilities were constructed in           ANSF, and fuel provided to the ANP. The audits made a total of 16 recom-
accordance with the contract requirements,         mendations to ensure that the MOPH uses U.S. funds as intended, that U.S.
used as intended, and are sustainable.             funds are not wasted on construction projects for the ANSF, that oversight
                                                   is strengthened of U.S. spending on fuel for the ANP, and that CSTC-A is
                                                   ordering vehicle spare parts based on accurate information.


  AUDIT ALERT LETTERS                              Alert Letters
  •	 Alert 14-2: Design Flaws at the Weesh-        With Afghanistan in the midst of transition, U.S. military and civilian
     Chaman Border Crossing Point                  officials have asked SIGAR to provide them with real-time information
                                                   to prevent waste and increase the effectiveness of U.S. reconstruction




                                                     22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




programs. One of SIGAR’s main goals is to provide implementing agencies
and Congress with actionable information while there is still time to make               Financial audits: provide an independent
a difference. During this reporting period, SIGAR sent one alert letter to               assessment of and reasonable assurance
inform DOD about audit findings requiring urgent attention; the letter drew              about whether an entity’s reported
attention to design flaws at the Weesh-Chaman border crossing.                           condition, results, and use of resources are
                                                                                         presented in accordance with recognized
Alert 14-2: Design Flaws at the Weesh-Chaman                                             criteria. SIGAR performs financial audits in
Border Crossing Point                                                                    accordance with GAGAS, which includes
On October 10, 2013, SIGAR informed U.S. military officials in Afghanistan               both requirements contained in the
that it had found problems with the design of a major border crossing point              American Institute of Certified Public
under construction in Kandahar Province. SIGAR uncovered the prob-                       Accountants Statements on Auditing
                                                                                         Standards and additional requirements
lems at the Weesh-Chaman (Weesh) border crossing in the course of an
                                                                                         provided in GAGAS. SIGAR also reviews
ongoing audit of U.S. Agency for International Development (USAID) and
                                                                                         financial audits conducted by independent
Department of Homeland Security Customs and Border Protection efforts                    public accountants (IPA). When an
to develop and strengthen Afghanistan’s capacity to assess and collect cus-              IPA conducts a financial audit, SIGAR
toms revenue. SIGAR noted in its letter that customs revenue made up 44%                 conducts reasonable procedures to ensure
of Afghanistan’s annual national budget in the most recent Afghan fiscal year.           compliance with GAGAS, based on the
   SIGAR identified two design concerns. First, the site has only one entry-             intended use of the IPA's work and degree
control point, even though current guidance calls for two control points.                of responsibility accepted by SIGAR with
Second, there are plans to install an inspection device at the site. The                 respect to that work.
device will block one traffic lane and does not have sufficient clearance to
allow for efficient inspection of many of the vehicles that travel through
the border crossing. These design problems will likely increase congestion,
which could lead to decreased inspection efficiency. Resolving these issues
at Weesh may also help the NATO Training Mission-Afghanistan (NTM-A)/
Combined Security Transition Command-Afghanistan (CSTC-A) and USACE
address any similar issues related to the design of six other border crossing
point construction projects totaling approximately $38.4 million.

Audit Reports Published                                                                    COMPLETED AUDITS
This quarter, SIGAR completed four audit reports that reviewed health                      •	 Audit 13-17: USAID Continues
services in Afghanistan and ANSF construction projects, as well as the                        Providing Millions of Dollars to the
                                                                                              Ministry of Public Health Despite the
systems of supplying spare parts to the ANA and fuel to the ANP. SIGAR                        Risk of Misuse of Funds
also has 12 audits under way assessing, among other things, Afghan minis-                  •	 Audit 13-18: Afghan National Security
terial capacity, the U.S. government reconstruction transition plan, and the                  Forces: Additional Action Needed to
reliability of ANSF personnel data. See Appendix C for a complete list of                     Reduce Waste in $4.7 Billion Worth
                                                                                              of Planned and Ongoing Construction
ongoing audits.                                                                               Projects
                                                                                           •	 Audit 14-1: Afghan National Police Fuel
Audit 13-17: Health Services in Afghanistan                                                   Program: Concerted Efforts Needed to
                                                                                              Strengthen Oversight of U.S. Funds
USAID Continues Providing Millions of Dollars to the Ministry of Public Health Despite     •	 Audit 14-3: Afghan National Army:
the Risk of Misuse of Funds.                                                                  Combined Security Transition
In July 2008, USAID and the Afghan Ministry of Public Health (MOPH)                           Command-Afghanistan Lacks Key
                                                                                              Information on Inventory in Stock and
signed an implementation letter establishing the $236 million Partnership                     Requirements for Vehicle Spare Parts
Contracts for Health (PCH) program. The program, which began in




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2013                   23
                                               SIGAR OVERSIGHT ACTIVITIES




                                               November 2009, supports the MOPH in its delivery of health services to
                                               local Afghan clinics and hospitals. The MOPH uses USAID-provided funds
                                               to contract with nongovernmental organizations to provide basic health
                                               care in 13 provinces and hospital services in five provinces.
                                                  The objectives of this audit were to determine the extent to which
                                               (1) USAID assessed the financial management capability of the MOPH and
                                               (2) cost estimates for the PCH were developed appropriately. It was not an
                                               objective to expose or find corruption, but as a result of this audit, SIGAR
                                               has opened a criminal investigation into corruption at the MOPH.

                                               FINDINGS
                                               Despite financial management deficiencies at the MOPH, USAID continues to
                                               provide millions of U.S. taxpayer dollars in direct assistance with little assur-
                                               ance that the MOPH is using these funds as intended. Specifically, USAID’s
                                               April 2012 assessment of the MOPH’s financial management capability iden-
                                               tified significant internal-control deficiencies that put U.S. funds provided
                                               under the PCH program at risk of waste, fraud, and abuse. For example, the
                                               assessment found deficiencies in MOPH’s internal audit, budget, accounting,
                                               and procurement functions. USAID officials stated that they have not veri-
                                               fied what, if any, actions the MOPH has taken to address these deficiencies.
                                               Rather, a USAID official told SIGAR that USAID has no obligation to address
                                               the deficiencies identified or to verify any of the corrective actions that the
                                               MOPH may have implemented for the ongoing PCH program. In SIGAR’s view,
                                               USAID’s decision to continue disbursing funds to the MOPH with little or
                                               no assurance that these funds are safeguarded from waste, fraud, and abuse
USAID direct assistance to the Ministry
                                               raises serious concerns about the integrity of the PCH program.
of Health bought incubators for Ghazni
Provincial Hospital, but demand is high: the       USAID provided $236 million for the PCH program based on a cost esti-
incubator at left is sheltering quadruplets,   mate that the MOPH developed, but which USAID did not independently
while triplets lie in the one at right.        validate. Specifically, USAID did not prepare a comprehensive analysis of
(SIGAR photo)                                  the actual cost for the PCH program using key factors such as, among other
                                               things, patient workload, population statistics, existing infrastructure, and
                                               security. USAID officials stated that the estimate was based on historical
                                               data, but they could not provide documentation showing how the estimate
                                               was calculated. More than $190 million of the $236 million provided for
                                               the PCH program has been obligated. However, SIGAR’s review found that
                                               about $127 million has actually been spent, resulting in potential excess
                                               obligations of about $63 million.

                                               RECOMMENDATIONS
                                               SIGAR recommends that the USAID Mission Director (1) provide no further
                                               funding to the PCH program until the program cost estimates are validated
                                               as legitimate; (2) develop, in coordination with the MOPH, a comprehen-
                                               sive action plan to address deficiencies identified in the April 2012 ministry
                                               capability assessment, establish key milestones to monitor progress in




                                                 24                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




executing this action plan, and make additional funding for the PCH pro-
gram contingent on the successful completion of established milestones;
and (3) validate the funds obligated and expended under the PCH program
since its inception and de-obligate any excess funds and return the funds to
the U.S. Treasury or put these funds to better use.

AGENCY COMMENTS
USAID did not concur with the first recommendation, partially concurred
with the second recommendation, and concurred with the third recom-
mendation. USAID stated that the safeguards it has put in place within
the MOPH protect taxpayer funds from misuse. However, strong evidence
exists that funds provided to the MOPH are at risk of misuse. In particular,
both USAID and third party assessments of the MOPH have concluded that
MOPH’s systems, operations, and internal controls to manage donors’ funds
cannot be relied upon without substantial corrective measures being taken.

Audit 13-18: Afghan National Security Forces
Afghan National Security Forces: Additional Action Needed to Reduce Waste in
$4.7 Billion Worth of Planned and Ongoing Construction Projects
Since 2005, Congress has appropriated nearly $52.8 billion to equip, train,
base, and sustain the ANSF. As of April 2013, the ANSF facilities con-
struction program had more than 400 ANSF facilities in progress or in
the acquisition or planning stages. These facilities, worth $4.7 billion, are
designed to support the currently approved ANSF strength of 352,000 per-
sonnel. CSTC-A is constructing new facilities for the ANSF at the same time
that the United States and Coalition partners are reducing their presence
in Afghanistan and, through the International Security Assistance Force
Joint Command (IJC), closing or transferring their facilities to the Afghan
government. SIGAR’s prior audit of ANSF facilities expressed concern that
CSTC-A’s lack of planning increased the risk that CSTC-A was building facil-
ities that did not meet ANSF needs. In addition, the United States, its NATO
allies, and the Afghan government announced at the May 2012 Chicago
Summit that the ANSF may shrink from its currently approved strength of
352,000 to 228,500 personnel, depending on security conditions.
    The objectives of this audit were to assess (1) the extent to which U.S.
and Coalition basing plans for the ANSF reflect force-strength projections;
(2) whether CSTC-A analyzed alternatives to minimize new construction,
including using existing U.S. and Coalition bases to satisfy ANSF basing
needs; and (3) the extent to which planned construction projects are likely
to be completed by December 2014.

FINDINGS
The IJC has established a process to review and analyze existing Coalition
facilities for transfer to the Afghan government. Specifically, in April 2012,




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013               25
SIGAR OVERSIGHT ACTIVITIES




IJC instituted an Operational Basing Board that meets weekly to nominate
and review existing U.S. and Coalition facilities for closure or transfer to
the Afghan government. The IJC board actively engages with CSTC-A and
the Afghan Ministries of Defense and Interior to determine which facili-
ties should be transferred to the ANSF. Consequently, CSTC-A has dropped
plans for 318 new ANSF facilities, saving approximately $2 billion.
   CSTC-A, with IJC assistance, has responsibility for managing the con-
struction of ANSF facilities around the country. However, CSTC-A lacks a
comprehensive ANSF basing plan that considers future ANSF reductions
and excess capacity in existing facilities. Current construction requirements
reflect the currently approved 352,000 ANSF personnel level and do not take
into account planned reductions in the number of ANSF personnel. As a
result, if the ANSF decreases to 228,500 personnel, ANSF facilities will have
excess personnel capacity. SIGAR has previously noted excess capacity and
underutilization in existing ANSF facilities. SIGAR attempted to review the
occupancy of existing ANSF facilities and requested on-site personnel num-
bers for 36 randomly-selected ANA and ANP facilities, but IJC and CSTC-A
officials informed SIGAR that they do not track this information. As a result,
CSTC-A is unable to determine whether either existing or planned facilities
meet ANSF needs, and may be missing opportunities to identify additional
planned facilities that are candidates for consolidation or termination.
   Using CSTC-A’s 2012 base construction schedule, SIGAR identified 52
projects that may not meet the ISAF’s December 2014 construction dead-
line, increasing cost of and oversight risks if these projects are continued.
SIGAR’s assessment differed from that of CSTC-A, which estimated that
only one facility worth $16 million would not meet the 2014 ISAF construc-
tion deadline. After SIGAR briefed CSTC-A on its analysis, CSTC-A began
reassessing project timelines. As of June 2013, CSTC-A had revised this esti-
mate upward to 47 projects valued at $1.1 billion that would still be under
construction beyond ISAF’s December 2014 deadline.
   In comments on a draft of this report, CSTC-A stated that it has several
initiatives under way to identify those areas where there is excess capacity
and current projects can be de-scoped or cancelled. According to CSTC-A,
from January to August 2013, these initiatives, combined with routine
reviews, resulted in a reduction of over $432 million in U.S. and Coalition
funding. In addition, the ISAF Commander has requested quarterly reviews
to ensure that facility requirements remain valid and that construction is on
track. The combination of locating ANSF construction projects in danger-
ous areas and the downsizing and planned withdrawal of U.S. forces will
make it more challenging to complete projects by the December 2014 dead-
line unless CSTC-A ensures that the necessary resources are available to
provide oversight.




  26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




RECOMMENDATIONS
To help ensure that the U.S. government is providing the appropriate num-
ber of facilities for the current and future ANSF, SIGAR recommended that
the Deputy Commander, CSTC-A, among other things, (1) develop a plan
that considers potential ANSF reductions and defer building facilities, as
appropriate, to reduce future excess capacity, and (2) identify the extent to
which current facilities are underutilized in order to reduce construction of
new facilities and save reconstruction funds. SIGAR also recommends that
the Deputy Commander of CSTC-A, in coordination with the Commanding
General, and the Chief of Engineers of USACE, prepare a plan detailing
specifics for security and oversight for construction projects continuing
past 2014.

AGENCY COMMENTS
SIGAR received formal comments on a draft of this report from CSTC-A and
IJC. CSTC-A concurred with all the recommendations addressed to it and
IJC concurred with the two recommendations addressed to it. Both CSTC-A
and IJC, as well as U.S. Central Command, provided additional technical
comments, which SIGAR incorporated, as appropriate.

Audit 14-1: Afghan National Police Fuel Program
Afghan National Police Fuel Program: Concerted Efforts Needed to
Strengthen Oversight of U.S. Funds
Since 2005, Congress has appropriated almost $52.8 billion to train, equip,
and sustain the ANSF, which includes the Afghan National Police (ANP) and
the Afghan National Army (ANA). CSTC-A, which is responsible for building
the ANSF, uses the Afghanistan Security Forces Fund (ASFF) to provide the
ANSF with equipment, training, and supplies, as well as to build, renovate,
and repair facilities and infrastructure. A portion of the ASFF has been used
to purchase fuel for the ANSF. CSTC-A uses blanket purchase agreements
issued by the U.S. Central Command Joint Theater Support Contracting
Command (C-JTSCC). C-JTSCC, as the contracting office, executes and
oversees contracts and exercises control over all contingency contracting
in Afghanistan. Under the blanket purchase agreements, CSTC-A provides
the contracting officer representative and is responsible for ordering and
accounting for fuel purchased for the ANSF.
   Since 2007, C-JTSCC has established 17 blanket purchase agreements
with vendors to provide fuel to the ANSF. C-JTSCC approves the monthly
fuel prices and, following that approval, CSTC-A uses the approved prices
to select vendors and order fuel. These vendors then deliver fuel directly to
approximately 145 authorized ANP locations throughout Afghanistan. Once
vendors deliver the fuel to those locations, the ANP stores and distributes
the fuel to ANP district and local level units.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            27
SIGAR OVERSIGHT ACTIVITIES




   In January 2013, SIGAR reported on CSTC-A’s accounting and oversight
of fuel purchased for the ANA, and identified weaknesses in CSTC-A’s pro-
cess used to order, receive, and pay for fuel.
   This audit evaluated U.S. oversight of fuel purchases for the ANP.
Specifically, it assessed (1) the extent to which C-JTSCC and CSTC-A
provided oversight of ANP fuel purchases, deliveries, and consumption;
(2) CSTC-A’s efforts to provide direct contributions to the Afghan govern-
ment to support the ANP’s logistics transition; and (3) the basis and support
for CSTC-A’s funding request for fiscal year 2013 and its estimates for fiscal
years 2014 through 2018.

FINDINGS
SIGAR found that C-JTSCC and CSTC-A had limited oversight of fuel pur-
chases for the ANP. Poor oversight and documentation of blanket purchase
agreements and fuel purchases resulted in the use of higher-priced ven-
dors and questionable costs to the U.S. government. In several instances,
vendors charged fees for fuel deliveries that were not allowed under the
blanket purchase agreements. For example, from November through
December 2012, C-JTSCC approved fuel prices for three of the four ground
fuel vendors for Kabul Province that included transportation charges
beyond what is allowed by the blanket purchase agreement. The total
cost of these charges was approximately $520,000. In addition, C-JTSCC
approved one aviation vendor’s fuel prices that included Afghan taxes and
other fees totaling approximately $25,000 from November 2010 through
February 2012. The blanket purchase agreement did not allow the vendor to
charge these taxes and fees.
   CSTC-A did not adhere to the Federal Acquisition Regulation or C-JTSCC’s
blanket purchase agreement guidance related to the use of two or more ven-
dors for competition. For instance, from November 2012 through December
2012, CSTC-A did not select the lowest-priced vendors for ground fuel for a
majority of 717 orders in Kabul province because, as C-JTSCC and CSTC-A
officials told SIGAR, the lower-priced vendors did not have exemptions
from taxes and duties. CSTC-A did not document its justification for using
the higher-priced vendors as required. The use of the higher-priced vendors
resulted in almost $1 million in additional costs over the two-month period.
CSTC-A’s limited oversight of ANP fuel orders and vendor deliveries also
resulted in Helmand Provincial Police Headquarters ordering and receiving
more fuel than it could store at its location on 24 separate occasions during a
28-month period, as shown in Figure 2.1. After CSTC-A officials suspected the
excessive fuel deliveries were instances of potential fraud, they decreased fuel
deliveries in October 2012. However, by December 2012, CSTC-A increased
Helmand PHQ’s fuel deliveries to 300,000 liters without investigating the sus-
pected fraud. Until C-JTSSC and CSTC-A implement effective controls over




  28                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.1


HELMAND PHQ MONTHLY FUEL ORDERS (THOUSANDS)

800


700


600
                                                                                                                                               Mar 2013
                                                                                                                                        MOI conducts audit
500


400

                                                                                                        Sept 2012
300
                                                                                               CSTC-A suspends fraud


200
                                                                                                           Nov 2012                                             RC-SW reported
                                                                                CSTC-A reclassifies possible fraud into                                            fuel capacity
100                                                                              “ordering and accounting errors” and
                                                                                                         refers to MOI

  0
       Apr    Jun    Aug    Oct    Dec    Feb        Apr    Jun    Aug    Oct     Dec        Feb        Apr        Jun     Aug    Oct    Dec      Feb         Apr
      2010   2010   2010   2010   2010   2011       2011   2011   2011   2011    2011       2012       2012       2012    2012   2012   2012     2013        2013




ANP fuel purchases and investigate allegations of possible impropriety, there
is limited assurance that U.S. funds and fuel are used as intended.
    CSTC-A provided $26.8 million in direct budgetary contributions to the
Afghan government for ANP fuel between October 2011 and December 2012.
However, it did not provide evidence that it had conducted the required risk
assessments to determine the Ministry of Interior’s (MOI) capacity for man-
aging U.S. funds to purchase fuel for the ANP. From October 2011 through
August 2012, CSTC-A provided more than $10.6 million of the $26.8 million
in direct budgetary contributions to the Afghan government, but could not
confirm whether the funds had been used as intended. In December 2012,
despite several DOD assessments that the MOI could not accomplish
its logistics mission without significant coalition support until late 2014,
CSTC-A provided the additional $16.2 million.
    By October 2012, CSTC-A developed new requirements to improve
controls and accountability over how the MOI spends U.S. funds.
However the effectiveness of those requirements could not be evalu-
ated during SIGAR’s fieldwork because the MOI contract had not been
awarded to begin the use of the $16.2 million in U.S. funds to purchase
fuel for the ANP. A one-page briefing slide prepared by CSTC-A showed
that its officials considered direct contributions for ANP fuel to be “high-
risk” for waste, fraud, and abuse. Yet with the U.S. drawdown underway,




REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2013                                  29
SIGAR OVERSIGHT ACTIVITIES




CSTC-A approved providing $243 million to the MOI for ANP fuel for
FY 2014 without a plan to mitigate risk.
   For FY 2013, CSTC-A has requested $134.6 million for ANP fuel.
CSTC-A’s justification for its request and for future ANP fuel budget esti-
mates is partly based on prior fuel orders. Although CSTC-A has purchased
fuel for the ANP for six years, it does not have reliable information on the
number of ANP vehicles and generators in use, nor has it received con-
sumption data from the MOI. Further, CSTC-A officials could not support its
FY 2013 request. CSTC-A relies on past ANP fuel orders and other undocu-
mented assumptions to calculate ANP fuel requirements.
   SIGAR estimates that CSTC-A will have approximately $94 million in
FY 2013 funds for ANP fuel available when FY 2014 begins, indicating that
the FY 2013 ANP fuel budget was overestimated. Further, the overall budget
estimates for FY 2014 through FY 2018 may be overstated because they are
based on the ANP’s historical orders of fuel, including questioned deliveries.
In addition to the ongoing risks SIGAR identified with the ANP fuel process,
significant funds could be put at increased risk of waste, fraud, and abuse
should CSTC-A proceed with its plans to directly contribute $1.4 billion to
the Afghan government through FY 2018 for ANP fuel.

RECOMMENDATIONS
SIGAR made eight recommendations—two recommendations to the Deputy
Commanding General, C-JTSCC, to ensure the reasonableness of prices for
ANP fuel, and six to the Deputy Commanding General, CSTC-A, to improve
the oversight of U.S. funds used to purchase ANP fuel—compliance with
CSTC-A direct contribution standard operating procedures, and future esti-
mates for ANP fuel purchases.

AGENCY COMMENTS
SIGAR received comments on a draft of this report from C-JTSCC and
CSTC-A. C-JTSCC concurred with the two recommendations addressed to
it. CSTC-A concurred with five of the six recommendations addressed to it,
but did not agree that reviews are needed to determine if fuel is being deliv-
ered above storage capacity. Both commands provided technical comments,
which SIGAR incorporated, as appropriate.

Audit 14-3: Afghan National Army Spare Parts
Afghan National Army: Combined Security Transition Command-Afghanistan Lacks Key
Information on Inventory in Stock and Requirements for Vehicle Spare Parts
From 2004 through 2013, CSTC-A purchased approximately $370 million in
spare parts to maintain and repair vehicles for the ANA.
   A reliable and integrated logistics system is needed to provide spare
parts to maintain vehicle and equipment readiness for security operations.
However, questions have been raised about CSTC-A’s support of the ANA’s




  30                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




logistics capabilities. For example, in October 2012, the ISAF Commander’s
Advisory and Assistance Team reported that CSTC-A could not account for
approximately $230 million worth of spare parts for the ANSF and noted
that, due to the lack of accountability for these parts, CSTC-A ordered
additional spare parts worth more than $138 million. The team referred
this matter to SIGAR and asked that SIGAR examine the matter further.
The objectives of this audit were to assess whether (1) CSTC-A’s estimates
for ANA vehicle spare parts were based on accurate requirements; and
(2) CSTC-A has sufficient internal controls to account for vehicle spare
parts to prevent waste, fraud, and abuse.

FINDINGS
CSTC-A is placing orders for vehicle spare parts without accurate informa-
tion on what parts are needed or are already in stock. CSTC-A relies on the
ANA to maintain accurate inventory records of vehicle spare parts availabil-
ity and future requirements to minimize spare parts shortages. However, the
ANA is not consistently using or updating its inventory to track:
   •	    what parts are in stock,
   •	    what parts have been ordered by ANA units, and
   •	    when and where those parts are supposed to arrive.

   The ANA did not keep fully accurate records at any of the four loca-
tions—three Regional Logistic Supply Centers (RLSC) and the Central
Supply Depot (CSD)—where SIGAR conducted parts inventories. SIGAR
also found that the RLSCs and the CSD are not consistently updating
Afghan Ministry of Defense (MOD) forms to maintain a record of parts due
to be received by and distributed to ANA units in accordance with an MOD
decree. Further, the ANA is not consistently inventorying parts as they are
received. RLSC-South and the CSD contain ANA vehicle spare parts that
have not been inventoried. Without accurate inventories, CSTC-A does not
have data to justify the number of vehicle spare parts authorized or pur-
chased for the RLSCs and the CSD.
   Moreover, the ANA continues to place orders for vehicle spare parts with-
out demand or usage data. From 2011 through April 2013, CSTC-A modified
the authorized stock quantities required at the RLSCs two times, reducing the
authorized types of spare parts needed from 3,843 to 576. However, CSTC-A
placed orders for $130 million worth of parts based on the initial 3,843-types
authorization. Furthermore, according to CSTC-A officials, they do not have
records to show how the 3,843 total was determined. In addition, CSTC-A
ordered these parts without knowledge of what parts the ANA already had in
stock because there is no recorded inventory of spare parts.
   CSTC-A is able to track vehicle spare parts into Afghanistan for orders
placed during 2010 through 2012, but could not document that the parts
were transferred to the ANA. SIGAR found that CSTC-A cannot provide




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              31
                                            SIGAR OVERSIGHT ACTIVITIES




                                            documentation confirming delivery or title transfer to the ANA for vehicle
                                            spare parts delivered during 2010 through 2012. SIGAR randomly sampled
                                            68 transportation control numbers from orders during this time period and
                                            requested that CSTC-A provide documentation showing their origin, ship-
                                            ping, and distribution. CSTC-A was able to account for the origin of all 68
                                            control numbers (100%) and shipping destination for 58 control numbers
                                            (85%). However, it could account for the delivery to the ANA of only seven
                                            control numbers (10%). Moreover, CSTC-A was unable to provide documen-
                                            tation confirming transfer to the ANA for any of the 68 control numbers.
                                            According to a CSTC-A official, a June 2013 meeting with SIGAR helped raise
                                            the issue of the lack of information on the location of vehicle spare parts and
                                            provided the support needed to fix the accountability problem.
Uninventoried vehicle spare parts at the       In June 2013, CSTC-A began implementing new procedures for incom-
southern Regional Logistic Supply Center.   ing containers of vehicle spare parts. To accelerate transferring property to
(SIGAR photo)                               the ANA and to ensure that all vehicle spare parts remain in U.S. custody
                                            until title transfer has taken place, CSTC-A now plans to redirect all incom-
                                            ing vehicle spare parts containers to a U.S. transfer point prior to officially
                                            transferring them to the ANA. In addition, CSTC-A is attempting to repos-
                                            sess vehicle spare parts until the ANA can conduct an official inventory and
                                            transfer. According to CSTC-A officials, a U.S. and Afghan official will be
                                            on-hand to conduct a joint inventory and officially transfer the vehicle spare
                                            parts to the ANA.

                                            RECOMMENDATIONS
                                            To ensure that CSTC-A is ordering vehicle spare parts based on accurate
                                            information and valid requirements, and to prevent the U.S. government
                                            from purchasing unnecessary spare parts, SIGAR recommends that the
                                            Commanding General, CSTC-A Ministerial Advisory Group, (1) defer non-
                                            critical vehicle spare parts purchases until the ANA has conducted and
                                            verified the required inventories in accordance with the requirements set
                                            forth under MOD Decree 4.0, and (2) require the ANA to submit inventory
                                            reports to CSTC-A that correctly identify spare part demand and usage rates.

                                            AGENCY COMMENTS
                                            SIGAR received formal comments on a draft of this report from CSTC-A.
                                            CSTC-A concurred with both recommendations and provided additional
                                            technical comments, which SIGAR incorporated, as appropriate.

                                            Correspondence Concerning Audit 13-6:
                                            Contracting with the Enemy
                                            On August 8, 2013, SIGAR replied to a May 14, 2013, memorandum from
                                            Richard T. Ginman, Director of Defense Procurement and Acquisition
                                            Policy (DPAP) at DOD. Ginman had written that DPAP concurred with five
                                            of SIGAR’s seven recommendations in an audit that found DOD had limited




                                              32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




assurance that contractors with links to enemy groups are identified and
their contracts terminated. However, SIGAR was troubled by DPAP’s refusal
to concur with its recommendation to require prime contractors to certify
that they do not have subcontracts with the enemy. DPAP had stated that
DOD could not comply on the grounds that the Clinger-Cohen Act prohibits
new certification requirements unless those requirements are specifi-
cally imposed by statute or approved by the Administrator of the Office of
Procurement Policy. SIGAR pointed out that the act permits agencies to
issue new certification requirements when they are approved in writing by
the agency head, in this case the Secretary of Defense. Moreover, it argued
that requiring this certification would be consistent with DOD’s obligation
under statute to award contracts only to “responsible” parties.

Correspondence Concerning Alert 13-2: Southern Regional
Agricultural Development Program Had Poor Coordination,
Waste, Management
On September 6, 2013, SIGAR wrote to Donald Sampler, Acting Assistant to
the Administrator, Office of Afghanistan and Pakistan Affairs, USAID. SIGAR
was responding to a memorandum USAID had sent concerning SIGAR’s
alert letter on the Southern Regional Agricultural Development (S-RAD)
program, which was funded and overseen by USAID and implemented by
International Relief and Development Inc. (IRD). The memorandum had
noted that USAID disagrees with SIGAR’s findings regarding oversight, work
plans, and program-funded equipment and supplies.
    SIGAR wrote that it was very concerned about USAID’s views regarding
its oversight obligations. SIGAR pointed out that the use of a coopera-
tive agreement does not absolve USAID of its obligations to ensure that
U.S. funds are properly spent and that the desired outcomes are actually
achieved. USAID had argued that the flexibility it granted IRD was allowed
under federal regulations. SIGAR agreed, but noted that such flexibility
introduces additional risk that the implementing partner may engage in
activities that deviate from USAID officials’ instructions—something IRD
acknowledges occurred during the S-RAD program. SIGAR also disputed
several of USAID’s claims concerning S-RAD’s provision of farm tractors,
solar panels, agricultural supplies, and irrigation pumps.

Correspondence Concerning Alert 13-1: Geospatial
Database Has Incorrect Coordinates for Some Sites
On September 10, 2013, SIGAR wrote to William Hammink, Afghanistan
Mission Director at USAID, concerning its January 2013 alert letter not-
ing problems with the accuracy of the data contained in the Afghanistan
Infrastructure and Security Cartography System (AISCS). In response to
the alert letter, USAID directed IRD, which developed AISCS, to conduct a
review of the database.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013          33
                                          SIGAR OVERSIGHT ACTIVITIES




                                             In a March 9, 2013 letter, USAID provided SIGAR with the results. USAID’s
                                          letter stated that IRD was able to locate 41 of 42 missing schools using aerial
                                          imagery and site visit reports. However, SIGAR wrote that it continued to
                                          question the accuracy of AISCS for many of the structures its alert letter had
                                          identified as having inaccurate or inconclusive coordinates. The National
                                          Geospatial-Intelligence Agency (NGA), which conducted the original study
                                          along with SIGAR, disagreed with IRD’s assessment. NGA concurred with
                                          IRD’s review on the location of only 12 of the 41 schools IRD located. NGA
                                          continues to dispute the geospatial coordinates of the remaining 20 schools.

                                          New Audits Announced This Quarter
NEW AUDITS                                This quarter SIGAR initiated more audits in a planned series of sector-
•	 U.S. Efforts to Assist and Improve     wide audits. These audits cover U.S. government completed, ongoing, and
   Afghanistan’s Education Sector         planned projects related to a specific sector in Afghanistan. The two audits
•	 U.S. Government Efforts to Improve     initiated this quarter will assess:
   the Rights and Treatment of Women in    •	 the U.S. government’s efforts to assist and improve the Afghan
   Afghanistan
                                              education sector
                                           •	 Afghan women’s initiatives funded by the U.S. government

                                          Education Sector
                                          SIGAR has initiated an audit of the U.S. government’s efforts to assist
                                          and improve the education sector in Afghanistan. This audit will focus
                                          on projects and programs undertaken by U.S. government agencies to
                                          expand access to and improve the quality of education in Afghanistan.
                                          The objectives of the audit will be to (1) identify completed and ongo-
                                          ing U.S. government-funded projects and programs to expand access to
                                          and improve the quality of education and assess the extent to which they
                                          have achieved or are achieving their stated objectives; (2) identify chal-
                                          lenges, if any, that these projects have encountered and examine how the
                                          U.S. government has addressed them; and (3) assess the extent to which
                                          the progress and outcomes achieved under these completed, ongoing, and
                                          planned projects are sustainable.

                                          Women’s Initiatives
                                          SIGAR has initiated an audit of Afghan women’s initiatives funded by the
                                          U.S. government. The audit will focus on U.S. programs and initiatives to
                                          improve the rights and treatment of women in Afghanistan and on chal-
                                          lenges U.S. government agencies face in addressing women’s issues in
                                          Afghanistan. From fiscal years 2003 through 2010, Congress provided
                                          $627 million in appropriated funds to the Department of State and USAID
                                          to support activities specifically for Afghan women and girls. In July 2010,
                                          SIGAR reported on State and USAID’s use of funds for activities for Afghan
                                          women and girls during fiscal years 2008 and 2009. Among other things,
                                          the agency found that while earmarks of appropriated funds for addressing




                                            34                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    SIGAR OVERSIGHT ACTIVITIES




the needs of Afghan women increased over time, and Congress directed
State and USAID to report on the use of these funds, the reporting was
incomplete and did not provide a clear picture of how the funds would be
used to benefit Afghan women. This audit will (1) identify U.S. government
programs or initiatives to improve the rights and treatment of women in
Afghanistan since FY 2011; (2) assess the extent to which these programs
and initiatives have been coordinated across different U.S. government
agencies; and (3) identify challenges in addressing women’s issues in
Afghanistan and evaluate U.S. efforts to address these challenges.

Financial Audits
This quarter, SIGAR completed one financial audit of two U.S.-funded
Afghanistan reconstruction contracts implemented by Checchi & Company
                                                                                                      COMPLETED FINANCIAL AUDIT
Consulting Inc. SIGAR transmitted the audit to USAID, which is review-
                                                                                                       •	 SIGAR Financial Audit 14-9: USAID’s
ing the findings. SIGAR will publish the audit findings early next quarter.                               Afghanistan Rule of Law-Informal
To date, SIGAR’s financial audits have identified more than $50.2 million in                              Project and USAID’s Services Under
                                                                                                          Program and Project Offices for
questioned costs.                                                                                         Results Tracking Project: Audit of Costs
   SIGAR also announced 13 new financial audits of State- and USAID-                                      Incurred by Checchi & Company
                                                                                                          Consulting, Inc.
funded contracts, grants, and cooperative agreements with combined
incurred costs of approximately $843.7 million, bringing the total number of
ongoing financial audits to 25 with more than $2.2 billion in costs incurred,
as shown in Table 2.1.                                                                              Questioned Costs: Costs determined to
                                                                                                    be potentially unallowable. They include
TABLE 2.1
                                                                                                    ineligible costs (violation of a law,
SIGAR’S FINANCIAL AUDIT COVERAGE ($ MILLIONS)                                                       regulation, contract, grant, cooperative
                                                                                                    agreement, etc., or an unnecessary or
 12 Completed Audits                                                 $815
                                                                                                    unreasonable expenditure of funds) and
 25 Ongoing Audits                                                 $2,209
                                                                                                    unsupported costs (those not supported
 Total                                                           $3,024
                                                                                                    by adequate documentation or proper
Notes: Numbers have been rounded. Coverage includes auditable costs incurred by recipients          approvals at the time of an audit).
of U.S.-funded Afghanistan reconstruction contracts, grants, and cooperative agreements

Source: SIGAR Audits Directorate.
                                                                                                    Fund Accountability Statement: a special
                                                                                                    purpose financial statement that includes
    SIGAR launched its financial audit program in 2012, after Congress and                          all revenues received, costs incurred, and
the oversight community expressed concerns about oversight gaps and the                             any remaining balance for a given award
growing backlog of incurred cost audits for contracts and grants awarded                            during a given period.
in support of overseas contingency operations. SIGAR competitively selects
independent accounting firms to conduct the financial audits and ensures
that the audit work is performed in accordance with U.S. government audit-                        Source: USAID, “ADS Chapter 591: Financial Audits of USAID
ing standards. Financial audits are coordinated with the federal inspector                        Contractors, Recipients, and Host Government Entities,”
                                                                                                  7/31/2012.
general community to maximize financial audit coverage and avoid duplica-
tion of effort.
    SIGAR’s financial audits have four specific objectives:
 •	 Express an opinion on whether the Fund Accountability Statement for
    the award presents fairly, in all material respects, revenues received,




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2013              35
                                              SIGAR OVERSIGHT ACTIVITIES




                                                 costs incurred, items directly procured by the U.S. government,
                                                 and balance for the period audited in conformity with the terms of
                                                 the award and generally accepted accounting principles or other
                                                 comprehensive basis of accounting.
                                              •	 Evaluate and obtain a sufficient understanding of the audited entity’s
                                                 internal control related to the award; assess control risk; and identify
                                                 and report on significant deficiencies including material internal control
                                                 weaknesses.
                                              •	 Perform tests to determine whether the audited entity complied, in all
                                                 material respects, with the award requirements and applicable laws and
                                                 regulations; and identify and report on instances of material noncompliance
                                                 with terms of the award and applicable laws and regulations.
                                              •	 Determine and report on whether the audited entity has taken adequate
                                                 corrective action to address findings and recommendations from
                                                 previous engagements.

                                                 A list of new and ongoing financial audits can be found in Appendix C of
                                              this quarterly report.


                                              INSPECTIONS
COMPLETED INSPECTIONS                         This quarter, SIGAR completed four inspections. The completed inspections
•	 Inspection 14-5: Archi District Police     found an Archi police district headquarters in a state of disrepair, an uncom-
   Headquarters: Extensive Mold, Lack         pleted hospital in Gardez, a failed project to build a Parwan courthouse, and
   of Running Water, and Inoperable           a clinic in Walayatti that has never been used.
   Electrical Systems Show Facilities Are
   Not Being Sustained
•	 Inspection 14-6: Gardez Hospital: After    Inspections Reports Published
   Almost Two Years, Construction Not Yet
   Completed because of Poor Contractor
   Performance, and Overpayments to           Inspection 14-5: Archi District Police Headquarters: Extensive
   the Contractor Need to Be Addressed        Mold, Lack of Running Water and Inoperable Electrical
   by USAID
                                              Systems Show Facilities Are Not Being Sustained
•	 Inspection 14-7: Justice Center in
   Parwan Courthouse: Poor Oversight          On March 4, 2008, the U.S. Army Corps of Engineers, Afghanistan Engineer
   Contributed to Failed Project and Action   District-North (USACE-TAN) awarded a $4.2 million firm fixed-price con-
   May Be Needed to Avoid Unnecessary
   Costs to the U.S. Government               tract to Swiz Hewadwal Joint Venture to construct nine district police
•	 Inspection 14-10: Walayatti Medical        headquarters for the ANP, including $708,331 for the Archi District Police
   Clinic: Facility Was Not Constructed       Headquarters Project. On March 12, 2009, USACE-TAN modified the
   According to Design Specifications and
   Has Never Been Used                        contract to limit the Archi project to construction of force-protection
                                              measures­—perimeter walls, guard towers, main and secondary entry-
                                              control points, a guard shack, and a guard house—which reduced the Archi
                                              project total from $703,331 to $289,185. For this inspection, we assessed
                                              whether (1) construction had been completed in accordance with the con-
                                              tract and (2) the facilities were being used as intended and maintained.




                                                36                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




FINDINGS
The force-protection measures—such as the perimeter walls and guard
towers—built under the March 2008 contract between USACE-TAN and
Swiz Hewadwal Joint Venture appeared well constructed. However, SIGAR
was unable to determine whether they had been built in accordance with
contract requirements and applicable construction standards, because
USACE officials could not locate the project’s construction files, including
important documents such as the contract’s technical specifications and
requirements. In addition, USACE and CSTC-A had conflicting information
about the project’s cost. Moreover, while additional buildings had been con-
structed on the site, including barracks, bathrooms, and water and septic
systems, neither USACE nor Afghan officials knew who built these addi-
tional buildings, when they were built, or how much they cost.
   SIGAR found that the Archi District Police Headquarters facilities were
in a state of disrepair, with an estimated 40 ANP personnel living and
working in facilities with extensive mold—which can cause serious health
problems—growing on the interior walls and ceilings of the barracks and
bathrooms. In addition, the bathrooms were virtually unusable because of
missing sink faucets, showers in disrepair, and no running water. Also, the
main generator has needed repair for two years and, as a result, a small
back-up generator was being used three hours per night to provide basic
electricity needs.
   Although operation and maintenance of the Archi District Police
Headquarter was to be achieved using some of the $800 million in main-
tenance contracts USACE awarded in July 2010 and using some of the
$829.1 million in funds the NTM-A/CSTC-A contributed to the MOI, SIGAR
was unable to determine whether funds had been allocated or expended for
the operation and maintenance of the Archi facility. Archi District Police
officials told SIGAR they made repeated requests through their chain of




Archi District Police Headquarters has hazardous mold on walls and ceilings of living/
working facilities for about 40 ANP personnel. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2013                   37
SIGAR OVERSIGHT ACTIVITIES




command to the Provincial Chief of Police for maintenance and repairs,
but none have been made. In early August 2013, Afghan police officials told
SIGAR that the problems it found on its November 2012 site inspection had
worsened. For example, the facility’s water well no longer worked, requir-
ing water to be trucked to the site twice a week.

RECOMMENDATIONS
SIGAR is making one recommendation: the Deputy Commanding Generals
of NTM-A and CSTC-A should determine why U.S. funds provided directly
to the Afghan Ministry of Interior for O&M of the ADPH have not been
used to maintain the facility.

AGENCY COMMENTS
In response to SIGAR's recommendation, CSTC-A outlined steps it is tak-
ing to work with the Afghan government to help it become self-sufficient
through proper budgeting and prudent financial stewardship. SIGAR com-
mended CSTC-A for these steps, but maintained that a determination should
be made as to why the Archi Police District Headquarters facility had still
not received O&M funding from the Afghan Ministry of Interior, as requested
by officials at the site.

Inspection 14-6: Gardez Hospital: After Almost Two Years,
Construction Not Completed Because of Poor Contractor
Performance, and Overpayments to the Contractor Need to be
Addressed by USAID
In January 2008, USAID entered into a $57 million cooperative agreement
with the International Organization for Migration (IOM) to implement the
Construction of Health and Education Facilities program. The program’s
objective was to help increase access to healthcare for Afghan citizens
through the design and construction of hospitals and midwife training cen-
ters throughout Afghanistan, including a 100-bed hospital in the town of
Gardez, Paktiya province.
   In May 2010, IOM awarded a contract to Sayed Bilal Sadath Construction
Company (SBSCC), an Afghan company, for $13.5 million to build the new
Gardez hospital. The contract’s original November 24, 2011, completion
date was extended to June 30, 2013, and its value increased to $14.6 million.
In April 2011, USAID awarded a contract to IRD for nearly $97 million—a
follow-on to an existing contract—to provide independent quality assurance
services for ongoing and planned design, construction, and maintenance
projects, including Gardez hospital. In an April 2013 audit report on health
services in Afghanistan, SIGAR noted that the Afghan government may not
be able to sustain the new Gardez hospital once it is completed and that the
new hospital’s annual operation and maintenance costs could exceed five
times the annual operating costs for the hospital it will replace.




  38                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




   SIGAR conducted its inspection on November 25, 2012, and assessed
(1) the extent to which construction had been completed, and (2) whether
adequate oversight was being provided to ensure that the terms of the coop-
erative agreement and contract were being met.

FINDINGS
Construction of the new 100-bed hospital in Gardez is currently about
23 months behind its original schedule. In March 2011, the USAID Office
of Inspector General reported that facilities being constructed under
the Construction of Health and Education Facilities program—includ-
ing Gardez hospital—had fallen significantly behind schedule. During
construction, the IOM granted the construction contractor five exten-
sions through June 30, 2013, but when a sixth extension to October 31,
2013, was requested, IOM terminated the contract for failure to perform.
According to USAID, the ability to complete construction of the Gardez
hospital has been seriously hampered by the facility’s remote location
and by an active insurgency. USAID has granted IOM an extension until
December 31, 2013, to complete the project. Because the facility was
largely incomplete at the time of inspection, SIGAR could not thoroughly
assess the quality of construction.
   SIGAR also found that IOM did not have sufficient internal controls
to detect overpayments of at least $507,000 to SBSCC, which need to be
returned to the U.S. government. In one instance, SIGAR found that IOM
paid the contractor $300,000 for 600 gallons of diesel fuel—a cost of $500 per     SIGAR inspectors examine the construc-
gallon. According to IOM officials, the market price in Afghanistan for diesel     tion still in progress at Gardez Hospital.
fuel should not exceed $5.00 per gallon. As a result, with a proper invoice,       (SIGAR photo)
the fuel charge should not have exceeded $3,000. In another instance, IOM
paid $220,000 for an automatic temperature control device that should
have cost between $2,000 and $10,000. IOM could not provide SIGAR with
a vendor invoice for either of these payments. USAID did not discover the
overpayments and reimbursed IOM for these unwarranted costs.

RECOMMENDATIONS
SIGAR recommends that the USAID Mission Director (1) seek reimbursement
from IOM of the $507,000 in overpayments for diesel fuel and temperature
control devices; and (2) conduct a detailed financial audit of the costs associ-
ated with construction of Gardez Hospital to determine whether there are
additional overpayments that need to be returned to the U.S. government.

AGENCY COMMENTS
USAID concurred with the second recommendation, and stated that it
intends to conduct a financial audit of the costs associated with this activity.
USAID also stated that, pending the results of this audit, it would recover




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013               39
SIGAR OVERSIGHT ACTIVITIES




any contractor payments, if appropriate, in accordance with SIGAR’s first
recommendation.

Inspection 14-7: Justice Center in Parwan Courthouse: Poor
Oversight Contributed to Failed Project and Action May Be
Needed to Avoid Unnecessary Costs to the U.S. Government
Under a December 2010 agreement between the State Department’s Bureau
of International Narcotics and Law Enforcement Affairs (INL) and DOD’s
Combined Joint Interagency Task Force-435 (CJIATF-435), INL agreed to
provide up to $10 million to construct the Justice Center in Parwan (JCIP)
complex in Parwan province. On June 13, 2011, the Bagram Regional
Contracting Center (BRCC) awarded CLC Construction Company (CLC)
a $2.38 million firm-fixed price contract to build the JCIP courthouse, the
centerpiece of 11 buildings in the complex. The contractor was given 155
days to complete the project after the notice to proceed was issued on
July 16, 2011. On November 11, 2011, the contract was modified to increase
the height of the courthouse ceilings, which increased the contract value to
$2.67 million.
   This inspection assessed (1) whether construction of the courthouse was
completed in accordance with contract requirements and applicable con-
struction standards and (2) the U.S. government’s management of the JCIP
courthouse construction contract.

FINDINGS
Construction of the JCIP courthouse has not been completed and the
workmanship of the construction that has been done to date is poor.
For example, in its May 2013 inspection, SIGAR observed numerous
cracks in the concrete, incomplete pours of concrete and rebar bound
with wire instead of being welded that could lead to structural failure. In
January 2012, INL and the Department of Defense’s CJIATF-435, which both
funded the project, conducted inspections and found construction flaws,
including the use of inferior building materials. Based on the results of
these inspections, in mid-January 2012, the Department of Defense’s BRCC
issued CLC a Stop-Work Order. Subsequently, in March 2012, the U.S. Army
Corps of Engineers conducted an inspection and recommended terminating
and re-bidding the courthouse contract.
   CJIATF-435’s oversight of the construction project was not conducted as
required. The project fell behind schedule quickly and SIGAR found no evi-
dence that the project’s contracting officer representative (COR) conducted
monthly reviews or submitted reports to the BRCC contracting officer as
required. In fact, the COR, who had military experience as a construction
engineering supervisor, told SIGAR that he felt unqualified to determine
whether the contractor was performing according to the contract.




  40                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




   In June 2013, BRCC notified CLC that the JCIP courthouse contract
was being terminated for convenience, which gives the U.S. government
the right to terminate a contract without cause. At the time, CLC had been
paid $396,000. Because the contract was terminated for convenience rather
than default, CLC could have requested the amount remaining on the con-
tract, or about $2.2 million. A draft of this report recommended reviewing
the decision to terminate for convenience and taking action to address
the contractor’s failure to complete the project according to the terms
of the contract. On October 3, 2013, CENTCOM’s Joint Theater Support
Contracting Command rescinded the contract’s termination for conve-
nience and issued a termination for default. SIGAR considers this action       Failure risk at Parwan Justice Center:
                                                                               rebar bound with wire instead of being
as meeting the intent of its recommendation and, accordingly, deleted this
                                                                               welded. (SIGAR photo)
recommendation from the final report.

RECOMMENDATIONS
SIGAR recommends that the Commander, U.S. Central Command, and the
U.S. Secretary of State identify the reasons poor oversight occurred and
establish processes to ensure this problem does not reoccur.

AGENCY COMMENTS
SIGAR received comments from INL and CENTCOM’s Joint Theater
Support Contracting Command (C-JTSCC). INL and C-JTSCC concurred
with the recommendation to strengthen oversight and noted the steps they
are taking to implement this recommendation.

Inspection 14-10: Walayatti Medical Clinic: Facility Was Not
Constructed According to Design Specifications and Has
Never Been Used
On February 1, 2011, Joint Task Force Kabul, within U.S. Forces-
Afghanistan, awarded a $194,572 Commander’s Emergency Response
Program (CERP) contract to Bonyad Watan Limited Construction
Company. The contract called for a 180-day period of performance to con-
struct a new medical clinic consisting of three structures—a single-story,
11-room medical clinic; a guard tower; and a latrine—in the village of
Walayatti in Kabul province.
   For this inspection, SIGAR assessed whether (1) construction was
completed in accordance with contract requirements and applicable con-
struction standards, and (2) the facilities were being used as intended and
being sustained.

FINDINGS
SIGAR’s inspections found that none of the three structures built for the
Walayatti clinic was constructed according to the design specifications. For
example, the latrine was built as one room with four stalls, instead of two




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           41
                                                 SIGAR OVERSIGHT ACTIVITIES




                                                 separate rooms with two stalls each, which would have allowed for simul-
                                                 taneous use by both genders. In addition, a 120-kilowatt generator and two
                                                 water heaters were missing, and critical documents were missing from the
                                                 project’s construction files, including approvals of deviations from contract
                                                 specifications and documentation of project oversight. SIGAR has previ-
                                                 ously reported on the problem of missing CERP project documentation and,
                                                 while some improvements have been made in project accountability, miss-
                                                 ing documents for this project indicate that it is still a problem.
                                                    SIGAR also found that the clinic was empty and had never been used.
                                                 Joint Task Force Kabul and the Afghan MOPH signed an agreement for
                                                 the MOPH to staff and equip the clinic upon official transfer of the facility
                                                 to the Afghan government. However, an MOPH official told SIGAR that he
                                                 was unaware of the existence of a signed agreement. Moreover, the official
                                                 said the clinic was not included in the MOPH’s operation and maintenance
At Walayatti Medical Clinic, no structures       plan because the U.S. government failed to coordinate with MOPH’s policy
were built to specifications, or are occupied.   and planning directorate and had not officially transferred the facility to the
(SIGAR photo)                                    Afghan government. The project’s files contain no documentation of the proj-
                                                 ect’s transfer to the Afghan government after construction was completed.

                                                 RECOMMENDATIONS
                                                 SIGAR made a number of recommendations to address the problems identi-
                                                 fied in this inspection.

                                                 AGENCY COMMENTS
                                                 At the time this report went to press, the agencies were finalizing their
                                                 comments on the draft of this audit report. The final audit report, including
                                                 agency comments and SIGAR's response to them, can be found on SIGAR's
                                                 website at www.sigar.mil.

                                                 STATUS OF SIGAR RECOMMENDATIONS
                                                 The Inspector General Act of 1978, as amended, requires SIGAR to report
                                                 on the status of its recommendations. This quarter, SIGAR closed three rec-
                                                 ommendations contained in Inspection 13-1 of the Kunduz ANA garrison.
                                                 From 2009 through September 2013, SIGAR published 101 audits, alert,
                                                 and inspection reports and made 335 recommendations to recover funds,
                                                 improve agency oversight, and increase program effectiveness. SIGAR has
                                                 closed just over 62% of these recommendations. Closing a recommendation
                                                 generally indicates SIGAR’s assessment that the audited agency has either
                                                 implemented the recommendation or otherwise appropriately addressed
                                                 the issue. In some cases, a closed recommendation will be the subject of
                                                 follow-up audit work.
                                                    The Inspector General Act of 1978, as amended, also requires SIGAR
                                                 to report on any significant recommendations from prior reports on
                                                 which corrective action has not been completed. In this quarter, SIGAR




                                                   42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




continued to monitor agency actions on recommendations in 39 audit and
inspection reports.
   There are two audit reports over 12 months old that are pending resolu-
tion. SIGAR is currently reviewing recent agency activity for both audit
reports, which may allow SIGAR to consider closing a number of report
recommendations. Audit 11-13, Limited Interagency Coordination and
Insufficient Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts
to Develop the Afghan Financial Sector and Safeguard U.S. Cash, was
published on July 20, 2011. The audit, discussed in a prior SIGAR quar-
terly report, contains four recommendations. One was directed to the U.S.
Ambassador to improve interagency coordination on financial sector devel-
opment programs; the other three were directed at the Secretaries of State
and Defense to strengthen oversight over the flow of U.S. funds through the
Afghan economy. Audit report 12-12, titled Fiscal Year 2011 Afghanistan
Infrastructure Fund Projects Are Behind Schedule and Lack Adequate
Sustainment Plans was published July 30, 2012. The audit contains nine
recommendations to enhance joint decision making, coordination, and
oversight among U.S. government agencies implementing Afghanistan
Infrastructure Fund projects. The recommendations were also directed at
the timely completion of congressional notifications and reports, and the
receipt or transfer of appropriated funds.
   For five other audit and inspection reports that remain open over 12
months, the recommendations are considered resolved and SIGAR is wait-
ing for the agreed upon resolution actions to be completed. The reports
were discussed in prior SIGAR quarterly reports.


SPECIAL PROJECTS
During this reporting period, SIGAR’s Office of Special Projects issued a
report on the U.S. government’s lack of a strategic plan and mechanisms to
fight corruption in Afghanistan. The Office of Special Projects also inquired
                                                                                 COMPLETED SPECIAL PROJECT
about State, DOD, and USAID’s plans to ensure adequate oversight for the
                                                                                 REPORTS
                                                                                 •	 Special Project 13-9: Anti-Corruption
U.S.-funded reconstruction in Afghanistan in the aftermath of the Coalition         Efforts: A Strategic Plan and
troop drawdown.                                                                     Mechanisms to Track Progress Are
                                                                                    Needed in Fighting Corruption in
                                                                                    Afghanistan
SP-13-9: U.S. Anti-Corruption Efforts: A Strategic Plan and                      •	 Special Project 14-4: Oversight
Mechanisms to Track Progress Are Needed In Fighting                                 Access Inquiry
Corruption in Afghanistan
In August 2010, SIGAR reported that the United States had provided more
than $50 billion in reconstruction assistance to Afghanistan without the
benefit of a comprehensive anticorruption strategy, and that U.S. anticor-
ruption efforts had provided relatively little assistance to some key Afghan
institutions. Since that time, an additional $46 billion has been appropriated
for reconstruction in Afghanistan.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             43
SIGAR OVERSIGHT ACTIVITIES




   This review was initiated to follow up on the findings of the 2010 report,
specifically on the Department of State’s establishment of a comprehensive
anticorruption strategy and to evaluate progress the United States has made
in meeting its anticorruption goals in Afghanistan. The objectives were to
(1) identify the U.S. strategic goals and objectives for reducing corruption
in Afghanistan, and (2) assess the overall progress that U.S. agencies have
made against those goals and objectives.

FINDINGS
U.S. anticorruption activities in Afghanistan are not guided by a com-
prehensive U.S. strategy or related guidance that defines clear goals and
objectives for U.S. efforts to strengthen the Afghan government’s capability
to combat corruption and increase accountability. State never finalized the
draft 2010 U.S. anticorruption strategy for Afghanistan and, according to
agency officials, the draft strategy and its related implementation plan are
no longer in effect. In the absence of a relevant and specific anticorruption
strategy, agency officials informed us that two documents guide their cur-
rent anticorruption efforts: the Tokyo Mutual Accountability Framework
and the U.S. Civil-Military Strategic Framework for Afghanistan. However,
SIGAR found that both documents lacked specific goals and objectives with
measurable outcomes for anticorruption activities against which the U.S.
government can measure its progress.
   As the U.S. military and civilian presence in Afghanistan is reduced, U.S.
agencies plan to continue to implement programs and activities to increase
the Afghan government’s accountability and ability to combat corruption.
To oversee these programs and activities, senior leadership at the U.S.
Embassy Kabul made an effort to coordinate the agencies’ various anticor-
ruption programs and related efforts by establishing three anticorruption
working groups in 2012. These working groups coordinate agencies’ activi-
ties under the broad goals of building Afghan government institutional
capacity, improving financial regulation and public financial management,
and enhancing revenue generation. However, these groups do not measure
the medium- or long-term progress of their programs against comprehen-
sive anticorruption goals. As a result, State and Embassy Kabul remain
unable to assess the overall progress the U.S. government has made to
improve the Afghan government’s capacity to combat corruption.

RECOMMENDATIONS
SIGAR recommended that the Secretary of State: (1) develop and approve
a comprehensive, coordinated strategy for U.S. anticorruption efforts in
Afghanistan, including goals, objectives, and measurable outcomes; and
(2) develop an updated operational plan for the implementation of the anti-
corruption goals and objectives that identifies benchmarks and timelines




  44                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




for the accomplishment of these goals and accounts for the needed funding
and personnel resources.
   In response to this report, State agreed with the importance of estab-
lishing clear objectives and benchmarks in order to measure outcomes.
In addition, as a result of our findings, State is developing a targeted set of
anticorruption objectives, benchmarks, and plans against which U.S. efforts
and resources will be directed and assessed.

SP-14-4: Oversight Access Inquiry
On October 10, 2013, SIGAR wrote to the Secretaries of State and
Defense and to the Administrator of USAID to inquire about their plans
to ensure adequate oversight for the U.S.-funded reconstruction in
Afghanistan in the aftermath of the Coalition troop drawdown. U.S. mili-
tary officials have informed SIGAR that they can provide civilian access
only to areas within a one-hour round trip of an advanced medical facility
and that requests to visit reconstruction sites outside of these oversight-
access areas will probably be denied. See the quarterly highlight on
pages 46–47 for further information.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              45
QUARTERLY HIGHLIGHT




OVERSIGHT ACCESS CHALLENGES
SIGAR has been concerned about the implications of the Coalition troop
drawdown for ensuring adequate oversight of the U.S.-funded reconstruc-
tion effort in Afghanistan ever since Special Inspector General John F.
Sopko was appointed more than a year ago.
   SIGAR personnel have already experienced difficulty obtaining military
escort to travel into contested areas. For example, earlier this year SIGAR
was unable to visit infrastructure projects in northern Afghanistan valued
at $72 million because they are located in areas that could not be reached
by U.S. civilian employees. U.S. military officials have told SIGAR that in
the future they can provide civilian access only to areas within a one-hour
round trip of an advanced medical facility. Although exceptions can be
made, most requests to visit reconstruction sites outside of these oversight-
access areas will probably be denied. Similarly, State Department officials
have warned SIGAR that their ability to reach reconstruction sites will be
extremely limited due to constraints on providing emergency medical sup-
port without assistance from the Department of Defense.
    SIGAR believes this constraint on oversight will only worsen as more
U.S. and Coalition bases close. Although it is difficult to predict the future
of the U.S. presence in Afghanistan, it is likely that no more than 21% of
Afghanistan will be accessible to U.S. civilian oversight personnel by the
end of the transition, a 47% decrease since 2009.
   U.S. military and civilian officials are working hard to develop alterna-
tive means to help protect the U.S. taxpayers’ investment. For example, the
USAID mission in Afghanistan is exploring how to use third-party monitors
to help oversee reconstruction sites. Additionally, State Department per-
sonnel are contemplating how to expand oversight access by periodically
deploying emergency medical and security forces to the edge of the over-
sight access areas.
   To help the U.S. prepare for these challenges, SIGAR will conduct audits
and begin other initiatives to examine the consequences of restricted over-
sight in Afghanistan. SIGAR has also written to the Secretaries of State
and Defense and to the Administrator of USAID to inquire about their
plans to ensure adequate oversight for the U.S.-funded reconstruction in
Afghanistan. SIGAR also plans to convene a panel in the coming months of
oversight and implementing agencies, non-governmental organizations, and
others to discuss best practices for third-party monitoring, remote monitor-
ing, and other alternatives to traditional oversight.




  46                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                                      QUARTERLY HIGHLIGHT




      SHRINKING OVERSIGHT ACCESS TO AFGHANISTAN 2009–2014
                                         Afghanistan Oversight
                                                Oversight AccessAccess
                                                                 2009 2009                                                                                                                                                                                                                                                                                                                             Afghanistan Oversight
                                                                                                                                                                                                                                                                                                                                                                                                              Oversight AccessAccess
                                                                                                                                                                                                                                                                                                                                                                                                                               2011 2011                                                                           U           z   b       e       k           i       s           t       a           n
                                                                                                                                             U       z    b       e       k       i       s           t       a       n            ^Dushanbe                                                                                                                                                                                                                                                                                                                                                                                ^Dushanbe
                                                                                                                                                                                                                                                                            T    a    j       i   k       i   s   t   a   n                                                                                                                                                                                                                                                                                                                                         T       a       j               i   k           i       s       t       a       n

                                                                                                                                                                                                                                                                                                                                    China                                                                                                                                                                                                                                                                                                                                                                                                                         China


       T          u          r               k               m       e               n                   i               s       t               a            n                                                                                                                                                                                                      T          u          r               k               m       e                       n               i                   s       t               a               n


                                                                                                                                                                                                                                                          Badak hs han                                                                                                                                                                                                                                                                                                                                                                             Badak hs han
                                                                                                                                                                                 Mazar-E                                  K u n d u z                                                                                                                                                                                                                                                                                                                         Mazar-E                                          K u n d u z
                                                                                                                                                 J o w z j a n                   Sharif                                                                                                                                                                                                                                                                                                                                J o w z j a n                          Sharif
                                                                                                                                                                                !                                                           Ta k h a r                                                                                                                                                                                                                                                                                                       !                                                                     Ta k h a r
                                                                                                                                                                          B a l k h                                                                                                                                                                                                                                                                                                                                                                    B a l k h




                                                                                                             F a r y a b                                                                          Sa man gan                                                                                                                                                                                                                                                                   F a r y a b                                                                                     Sa man gan
                                                                                                                                                                                                                              B a g h l a n                                                                                                                                                                                                                                                                                                                                                                             B a g h l a n
                                                                                                                                                      S a r - e       P u l                                                                                                                                                                                                                                                                                                                                                    S a r - e           P u l

                                                                                                                                                                                                                                            Panjshayr                                                                                                                                                                                                                                                                                                                                                                               Panjshayr
                                                                     B       a       d       g       h       i       s                                                                                                                                                                                                                                                                                                                 B       a       d       g       h       i           s
                                                                                                                                                                                                                                                         Nuristan                                                                                                                                                                                                                                                                                                                                                                                Nuristan
                                                                                                                                                                                                                                             Kapisa                                                                                                                                                                                                                                                                                                                                                                                  Kapisa
                                                                                                                                                                                                                              P a r w a n                                                                                                                                                                                                                                                                                                                                                                           P a r w a n
                                                                                                                                                                                  B       a       m       y       a   n                                 Laghman K u n a r                                                                                                                                                                                                                                                                                  B           a       m       y           a       n                                    Laghman K u n a r

                                                                                                                                                                                                                                     Kabul                                                                                                                                                                                                                                                                                                                                                                                    Kabul
                                                     Herat
                                                     !
                                                                                                                                                                                                                                        ^Kabul                                                                                                                                                                     Herat
                                                                                                                                                                                                                                                                                                                                                                                                                   !
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  ^Kabul
                   H             e               r           a   t                                                                                                                                                W a r d a k                                                                                                                                                    H             e               r           a       t                                                                                                                                                               W a r d a k
                                                                                                 G               h           o       r                                                                                                                N a n g a r h a r                                                                                                                                                                                            G                   h           o       r                                                                                                                                    N a n g a r h a r
                                                                                                                                                                                                                                     Logar                                                                                    I n d i a                                                                                                                                                                                                                                                                                          Logar                                                                                                                  I n d i a
                                                                                                                                                                                                                                                                                                              Islamabad                                                                                                                                                                                                                                                                                                                                                                                                     Islamabad
                                                                                                                                                                                                                                                                                                              ^                                                                                                                                                                                                                                                                                                                                                                                                         ^
                                                                                                                                                     D a y k u n d i                                                                                                                                                                                                                                                                                                                                                       D a y k u n d i
                                                                                                                                                                                                                                    Paktiya                                                                                                                                                                                                                                                                                                                                                                                  Paktiya
                                                                                                                                                                                              G       h       a       z   n   i                  K h o s t                                                                                                                                                                                                                                                                                                                 G       h           a           z   n        i                 K h o s t
Ir a n                                                                                                                                                                                                                                                                                                                                                        Ir a n


                                     A                   f           g                       h                           a               n                i                   s                           t               a         n                         P        a        k         i           s       t       a       n                                                                    A                   f               g                       h                               a               n                   i                       s                           t                       a             n                        P       a         k                   i               s               t           a               n
                         F               a               r       a                   h                                                   U r u z g a n                                                                                                                                                                                                                                 F               a               r       a                       h                                                       U r u z g a n
                                                                                                                                                                                                                          P a k t i k a                                                                                                                                                                                                                                                                                                                                                                            P a k t i k a

                                                                                                                                                                              Z       a       b       u       l
                                                                                                                                                                                                                                                                                UNCLASSIFIED                                                                                                                                                                                                                                                           Z           a       b       u           l
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        UNCLASSIFIED

                                                                                                                                             Kandahar                                                                                                                                                                                                                                                                                                                                                              Kandahar
                                                                                                                                                 !
                                                                                                                                                                                                                                                                      2009 Oversight Access Coverage                                                                                                                                                                                                                       !
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             2011 Oversight Access Coverage
                                                                                                                                                                                                                                                                       68% of total area of Afghanistan                                                                                                                                                                                                                                                                                                                                                       59% of total area of Afghanistan
                                                                         H       e       l   m       a       n       d                                                                                                                                                                                                                                                                                                                     H       e       l   m       a           n       d
                                                                                                                             K   a   n       d        a   h       a   r                                                                                                                                                                                                                                                                                                                            K   a       n       d       a   h       a   r

                                     N i m r o z                                                                                                                                                                                                                      Provinces                                                                                                                    N i m r o z                                                                                                                                                                                                                                               Provinces

                                                                                                                                                                                                                                                             This graphic depicts approximate oversight access areas                                                                                                                                                                                                                                                                                                                                This graphic depicts approximate oversight access areas
                                                                                                                                                                                                                                                             for reconstruction projects and activities in Afghanistan. These                                                                                                                                                                                                                                                                                                                       for reconstruction projects and activities in Afghanistan. These
                                                                                                                                                                                                                                                             oversight access areas represent access under the most favorable                                                                                                                                                                                                                                                                                                                       oversight access areas represent access under the most favorable
                                                                                                                                                                                                                                                             conditions possible and do not include limitations due to terrain,                                                                                                                                                                                                                                                                                                                     conditions possible and do not include limitations due to terrain,
                                                                                                                                                                                                                                                             weather and security conditions.                                                                                                                                                                                                                                                                                                                                                       weather and security conditions.
                                                                                                                                                                                                                                                                                                                      I   n   d    i           a                                                                                                                                                                                                                                                                                                                                                                                            I   n       d         i          a

Produced by the US Army Geospatial Center, Date: 9/25/2013                                                                                                                                                                                                                                                                                                    Produced by the US Army Geospatial Center, Date: 9/25/2013
                                                                                                                                                                                                                                                                                                                                  Sources: Esri, USGS, NOAA                                                                                                                                                                                                                                                                                                                                                                                                     Sources: Esri, USGS, NOAA




                                         Afghanistan Oversight
                                                Oversight AccessAccess
                                                                 2013 2013                                                                   U       z    b       e       k       i       s           t       a       n
                                                                                                                                                                                                                                                                                                                                                                                       AfghanistanOversight
                                                                                                                                                                                                                                                                                                                                                                                                   Possible Oversight Access 2014
                                                                                                                                                                                                                                                                                                                                                                                                            Access 2014
                                                                                                                                                                                                                                   ^Dushanbe                                                                                                                                                                                                                                                                       U       z       b       e       k       i           s       t           a           n                    ^Dushanbe
                                                                                                                                                                                                                                                                            T    a    j       i   k       i   s   t   a   n                                                                                                                                                                                                                                                                                                                                         T   a       j               i       k       i       s       t       a       n
                                                                                                                                                                                                                                                                                                                                    China                                                                                                                                                                                                                                                                                                                                                                                                                     China

       T          u          r               k               m       e               n                   i               s       t               a            n                                                                                                                                                                                                      T          u          r               k               m       e                   n                   i                   s       t               a               n


                                                                                                                                                                                                                                                          Badak hs han                                                                                                                                                                                                                                                                                                                                                                            Badak hs han
                                                                                                                                                                                 Mazar-E                                  K u n d u z                                                                                                                                                                                                                                                                                                                     Mazar-E
                                                                                                                                                 J o w z j a n                   Sharif                                                                                                                                                                                                                                                                                                                                                                                                                        K u n d u z
                                                                                                                                                                                !                                                           Ta k h a r                                                                                                                                                                                                                                                                 J o w z j a n                      Sharif
                                                                                                                                                                          B a l k h                                                                                                                                                                                                                                                                                                                                                                      !                                                                         Ta k h a r
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   B a l k h




                                                                                                             F a r y a b                                                                          Sa man gan                                                                                                                                                                                                                                                                                                                                                                   Sa man gan
                                                                                                                                                                                                                                                                                                                                                                                                                                                                               F a r y a b
                                                                                                                                                                                                                              B a g h l a n                                                                                                                                                                                                                                                                                                                                                                         B a g h l a n
                                                                                                                                                      S a r - e       P u l                                                                                                                                                                                                                                                                                                                                                    S a r - e       P u l

                                                                                                                                                                                                                                            Panjshayr                                                                                                                                                                                                                                                                                                                                                                              Panjshayr
                                                                     B       a       d       g       h       i       s                                                                                                                                                                                                                                                                                                             B           a       d       g       h       i       s
                                                                                                                                                                                                                                                         Nuristan                                                                                                                                                                                                                                                                                                                                                                               Nuristan
                                                                                                                                                                                                                                             Kapisa                                                                                                                                                                                                                                                                                                                                                                                 Kapisa
                                                                                                                                                                                                                              P a r w a n                                                                                                                                                                                                                                                                                                                                                                           P a r w a n
                                                                                                                                                                                  B       a       m       y       a   n                                 Laghman K u n a r                                                                                                                                                                                                                                                                                  B       a       m           y       a       n                                       Laghman K u n a r
                                                                                                                                                                                                                                     Kabul                                                                                                                                                                                                                                                                                                                                                                                   Kabul
                                                     Herat
                                                     !
                                                                                                                                                                                                                                        ^Kabul                                                                                                                                                                     Herat
                                                                                                                                                                                                                                                                                                                                                                                                                   !
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 ^Kabul
                   H             e               r           a   t                                                                                                                                                W a r d a k                                                                                                                                                                                                                                                                                                                                                                  W a r d a k
                                                                                                                                                                                                                                                      N a n g a r h a r                                                                                                          H             e               r           a   t
                                                                                                 G               h           o       r                                                                                                                                                                                                                                                                                                                             G               h               o       r                                                                                                                                  N a n g a r h a r
                                                                                                                                                                                                                                     Logar
                                                                                                                                                                                                                                                                                                              Islamabad       I n d i a                                                                                                                                                                                                                                                                                       Logar                                                                                                                 I n d i a
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Islamabad
                                                                                                                                                                                                                                                                                                              ^                                                                                                                                                                                                                                                                                                                                                                                                         ^
                                                                                                                                                     D a y k u n d i                                                                                                                                                                                                                                                                                                                                                       D a y k u n d i
                                                                                                                                                                                                                                    Paktiya                                                                                                                                                                                                                                                                                                                                                                                  Paktiya
                                                                                                                                                                                              G       h       a       z   n   i                  K h o s t                                                                                                                                                                                                                                                                                                             G        h          a           z       n    i                    K h o s t
Ir a n                                                                                                                                                                                                                                                                                                                                                        Ir a n


                                     A                   f           g                       h                           a               n                i                   s                           t               a         n                         P        a        k         i           s       t       a       n                                                                    A                   f               g                       h                               a               n                   i                   s                               t                       a             n                       P       a          k               i                   s           t               a           n
                         F               a               r       a                   h                                                   U r u z g a n                                                                                                                                                                                                                                 F               a               r       a                       h                                                       U r u z g a n
                                                                                                                                                                                                                          P a k t i k a                                                                                                                                                                                                                                                                                                                                                                        P a k t i k a

                                                                                                                                                                              Z       a       b       u       l
                                                                                                                                                                                                                                                                                UNCLASSIFIED                                                                                                                                                                                                                                                           Z       a           b       u       l
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        UNCLASSIFIED
                                                                                                                                             Kandahar                                                                                                                                                                                                                                                                                                                                                              Kandahar
                                                                                                                                                 !
                                                                                                                                                                                                                                                                      2013 Oversight Access Coverage                                                                                                                                                                                                                   !
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         2014 Possible Oversight Access Coverage
                                                                                                                                                                                                                                                                       45% of total area of Afghanistan                                                                                                                                                                                                                                                                                                                                                   21% of total area of Afghanistan
                                                                         H       e       l   m       a       n       d                                                                                                                                                                                                                                                                                                                 H           e       l   m       a       n           d
                                                                                                                             K   a   n       d        a   h       a   r                                                                                                                                                                                                                                                                                                                            K   a   n       d           a   h       a   r
                                     N i m r o z                                                                                                                                                                                                                      Provinces                                                                                                                    N i m r o z                                                                                                                                                                                                                                            Provinces

                                                                                                                                                                                                                                                             This graphic depicts approximate oversight access areas                                                                                                                                                                                                                                                                                                                               This graphic depicts approximate oversight access areas
                                                                                                                                                                                                                                                             for reconstruction projects and activities in Afghanistan. These                                                                                                                                                                                                                                                                                                                      for reconstruction projects and activities in Afghanistan. These
                                                                                                                                                                                                                                                             oversight access areas represent access under the most favorable                                                                                                                                                                                                                                                                                                                      oversight access areas represent access under the most favorable
                                                                                                                                                                                                                                                             conditions possible and do not include limitations due to terrain,                                                                                                                                                                                                                                                                                                                    conditions possible and do not include limitations due to terrain,
                                                                                                                                                                                                                                                             weather and security conditions.                                                                                                                                                                                                                                                                                                                                                      weather and security conditions.
                                                                                                                                                                                                                                                                                                                      I   n   d    i           a                                                                                                                                                                                                                                                                                                                                                                                        I       n       d    i           a

Produced by the US Army Geospatial Center, Date: 9/25/2013                                                                                                                                                                                                                                                                                                    Produced by the US Army Geospatial Center, Date: 9/25/2013
                                                                                                                                                                                                                                                                                                                                  Sources: Esri, USGS, NOAA                                                                                                                                                                                                                                                                                                                                                                                                 Sources: Esri, USGS, NOAA




      Sources: U.S. Army Geospatial Center, 9/25/2013, based on open outposts and medical facilities for 2009, 2011, and 2013, and SIGAR projections for open outposts and medical facilities at the
      end of 2014. The approximate oversight access areas represent access under the most favorable conditions possible and do not include limitations due to terrain, weather, and security conditions.




      REPORT TO THE UNITED STATES CONGRESS                                                                                                                                                                                                               I        OCTOBER 30, 2013                                                                                                                                                         47
                                                        SIGAR OVERSIGHT ACTIVITIES




                                                        INVESTIGATIONS
                                         In this quarter, SIGAR investigations resulted in $63 million in fraudu-
                                         lently obtained funds being frozen, more than $1.5 million being protected,
                                         $344,000 being recovered, and $10,000 saved. In the United States, SIGAR
                                         investigations led to two arrests, three sentences, more than $95,000 in fines
                                         and restitution ordered, two indictments, one criminal information, a crimi-
FIGURE 2.2
                                         nal complaint, and four guilty pleas. In Afghanistan, five Afghan citizens
SIGAR INVESTIGATIONS: NUMBER OF OPEN     were arrested following SIGAR investigations.
INVESTIGATIONS, AS OF SEPTEMBER 30, 2013     During this reporting period, SIGAR initiated 64 new cases and closed 47
                                         bringing the current number of active investigations to 306, of which SIGAR
                Total: 306               is the lead agency on 249, as shown in Figure 2.2. SIGAR also referred
                                         14 individuals and 17 companies for suspension and debarment based
                                         on evidence developed as part of investigations the agency conducted in
                                         Afghanistan and the United States.
                              Public
             Procurement      Corruption
             and Contract     84                        $63 Million in Fraudulently Obtained Criminal Proceeds Frozen
             Fraud                                      A SIGAR investigation of corruption in Afghanistan led the U.S. government
             128
                            Miscellaneous               for the first time to attempt to seize funds held by an Afghan contractor in
                            71
                                                        an Afghan bank. The Department of Justice (DOJ) in recent months froze
                                                        more than $63 million in fraudulently obtained criminal proceeds located
          Theft                                         in bank accounts held in Afghanistan and in correspondent banks in the
          23                                            United States and abroad. The bank accounts are owned by Hikmatullah
                                                        Shadman, an Afghan trucking contractor, who allegedly defrauded the U.S.
Source: SIGAR Investigations Directorate, 10/10/2013.
                                                        government of more than $77 million by jacking up the price to deliver U.S.
                                                        military supplies.
                                                           SIGAR determined that beginning as early as November 2010 and con-
                                                        tinuing until at least March 2012, Hikmatullah conspired to obtain illegal
                                                        payments for transporting U.S. military supplies. The contracts to resupply
                                                        the U.S. military covered at least 5,421 transportation missions, valued at
                                                        $77,920,605. Hikmatullah allegedly paid bribes and kickbacks and manipu-
                                                        lated contract bids to obtain them.
                                                           A U.S. judge issued seizure warrants for more than $77 million held in
                                                        Hikmatullah’s accounts at Afghanistan International Bank (AIB). The sei-
                                                        zure warrants were sent to the Afghan government in accordance with the
                                                        United Nations Convention Against Corruption, as a mutual legal assistance
                                                        request. In addition, the judge issued arrest warrants in rem—directed
                                                        against an object or asset, as distinct from an in personam warrant against
                                                        a person—and transmitted them to the Afghan government with a request
                                                        to freeze the accounts. AIB froze two of the accounts at the direction of the
                                                        Afghan Attorney General’s Office (AGO) in response to the U.S. request.
                                                        However, in April 2013, the United States learned that the freeze on the AIB
                                                        accounts had been lifted and that Hikmatullah had transferred the money
                                                        out of the AIB accounts to accounts at Bank Alfalah and Emirates NBD
                                                        Bank in the United Arab Emirates. In May 2013, DOJ filed an amended




                                                          48                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




verified complaint for forfeiture of the assets transferred out of AIB bank,
and the U.S. District Court, District of Columbia, issued arrest warrants in
rem against those funds in the interbank accounts.

A U.S. Sergeant First Class and a Former U.S. Soldier
Plead Guilty to Fuel Theft Scheme
On August 29, 2013, Sergeant First Class Bilal Abdullah pled guilty in
the U.S. District Court of the Western District of Kentucky to charges of
bribery and conspiracy to commit bribery, while on September 5, 2013,
Stephanie Charboneau pled guilty in the U.S. District Court of Denver to
the same charges. The guilty pleas from Abdullah and Charboneau, a for-
mer Specialist in the U.S. Army, make a total of five convictions resulting
from a SIGAR investigation of a fuel theft scheme at Forward Operating
Base (FOB) Fenty in Afghanistan. The investigation revealed that Abdullah,
Charboneau, Sergeant Christopher Weaver, and Jonathan Hightower, a for-
mer contractor, all conspired with Afghan nationals to help them steal fuel
from the base in exchange for cash.
   Early on in the investigation, 13 search warrants were executed for
the suspects’ email and social media accounts. After reviewing the con-
tents, agents of SIGAR, the Federal Bureau of Investigation (FBI), U.S.
Army Criminal Investigation Command (CID), and the Defense Criminal
Investigative Service (DCIS) developed probable cause to obtain and exe-
cute search warrants at the homes of Weaver and Charboneau in Colorado
and Hightower in Texas. During the course of these searches, Weaver,
Charboneau, and Hightower all admitted to conspiring with an Afghan rep-
resentative of the company Afghan American Army Services to facilitate
the theft of fuel from FOB Fenty. Weaver and Hightower also implicated
Staff Sergeant Bilah Abdullah in the same scheme. When SIGAR inter-
viewed Abdullah in June 2012, he admitted receiving $50,000 in bribes from
Afghan contractors. Weaver and Hightower have already been prosecuted.
Abdullah’s sentencing is expected in January 2014.

U.S. Military Member Sentenced for Wire Fraud and Theft
On August 15, 2013, Christopher Chase Bradshaw was sentenced in the U.S.
District Court for the Southern District of Mississippi to serve three months
in prison and three years of supervised release. Bradshaw pled guilty in
June to one count of conspiracy to commit wire fraud and one count of
theft of government property. The first three months of his release will be
on electronic monitoring, on each of the two counts, to be served concur-
rently. He was also ordered to pay $32,300 in restitution, $7,500 in fines, and
$200 in special assessments.
   An army reservist who served as a finance-office cashier at FOB Salerno
in Afghanistan from April 2010 to March 2011, Bradshaw used his posi-
tion to add stored cash value to his military debit card and to those of two




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              49
SIGAR OVERSIGHT ACTIVITIES




co-conspirators. Bradshaw added about $32,300 in stored value to the
cards, but failed to report those transactions in the daily transaction report
which was electronically submitted daily from Afghanistan to the Federal
Reserve Bank in Boston.
   Bradshaw was ordered to surrender himself to the authorities by
November 15, 2013.

Investigation Results In Over $1.5 Million Protected
In July 2013, SIGAR opened an investigation into allegations that an
Afghan-owned transportation company, Quick Logistics Transportation,
had submitted false transportation movement requests (TMRs) for dry- and
heavy-cargo missions at Camp Phoenix. The initial allegations indicated
that 120 fraudulent TMRs valued at approximately $450,000 were suspect,
but further investigation identified as many as 421 fraudulent TMRs with
a combined value of over $1.5 million. The General Support Contracting
Center at Camp Phoenix denied payment for the TMRs and notified Quick
Logistics Transportation that its contract may be terminated.

Recovered Stolen Equipment Saves $300,000
SIGAR helped to recover three generators for the U.S. government valued
at $302,510. SIGAR launched its investigation after receiving information
that employees of an Afghan construction company were stealing building
supplies, scrap metal, and shipping containers from military yards at Camp
Leatherneck and selling the property to other contractors. Five generators
were reported stolen from the Class Four lot at Camp Leatherneck in June
2012 and Zikrullah Shahim, a translator for 77 Construction Company, was
identified as the prime suspect. A SIGAR Special Agent and the AGO inter-
viewed Shahim. He admitted to stealing the generators and selling three of
them to a local scrap metal dealer.
   The local scrap metal dealer subsequently sold the three generators to a
local contractor, who then sold them to Blackwood Construction Company.
The company then sold Camp Leatherneck a set of 19 generators in July
2012. A subsequent inventory revealed that the set included the three gen-
erators previously reported as stolen. The AGO arrested Shahim and placed
him in jail without bond at Lashkar Gah. He is currently awaiting trial there.
The AGO continues to search for the scrap metal dealer. On September 16,
2013, the Department of the Army debarred Shahim from contracting with
the U.S. government until May 7, 2018.

Afghan National Arrested and $42,000 in Stolen
Lumber Recovered
On July 9, 2013, SIGAR and Afghan law-enforcement agents investigating
theft at Bagram Airfield (BAF) observed an Afghan truck driver loading
wood valued at approximately $41,640 from the construction supply yard.




  50                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




The truck driver then presented a fraudulent TMR for the wood at the BAF
exit-control point. When agents stopped and questioned him, the driver
claimed that an unknown Afghan outside the airfield had hired him to drive
the truck onto BAF, load the materials, and return the truck to him. The
driver said he had done this on several prior occasions and been paid 2,000
afghani (roughly $35) each time.
   The Afghan prosecutor and investigator working with SIGAR attempted
to escort the driver to the holding place outside BAF where he said he had
met the truck’s owner. However, SIGAR suspended the operation when
BAF came under indirect fire, allowing the truck owner to leave the area
before SIGAR agents could apprehend him. The AGO and the ANP later
took the driver into custody. The truck containing the stolen lumber was
seized and is currently being kept at the holding yard at BAF. SIGAR will
continue to work this investigation with the Attorney General’s Office in
Parwan Province.

Tennessee Couple Indicted for Steering $6.9 Million in
Proceeds from DOD Subcontracts
A federal grand jury indicted Keith Johnson and Angela Johnson on charges
of conspiracy to commit wire fraud and substantive wire fraud for their
alleged role in a scheme to steer $6.9 million in military subcontracts
through kickbacks and the use of assumed names. According to the indict-
ment, the married couple, both of Maryville, TN, used part of the proceeds
of the scheme to purchase, among other items, several luxury vehicles and
more than $191,000 in jewelry.
   SIGAR, DCIS, FBI, and Army CID opened their investigation after an
Army CID report alleged that Keith Johnson, a program manager for a U.S.
contractor, and his family members were steering supply contracts and rig-
ging bids to award contracts to a company owned and operated by Angela
Johnson and another relative. Keith Johnson allegedly had his wife estab-
lish a separate company and then positioned her as the sales manager. The
report also alleged that close associates of the Johnson couple had estab-
lished other companies to allow Keith Johnson to steer contracts to them.
The associates then reportedly paid kickbacks to Keith Johnson through a
shell company operated in the name of Johnson’s relative.

DOD Contractor Sentenced for Theft of U.S. Funds
On August 7, 2013, a former DOD contractor, Lavette Domineck, appeared
in U.S. District Court for the Eastern District of North Carolina and was
sentenced to three years supervised probation, a $500 fine, and $3,239
in restitution. After a SIGAR investigation, Domineck pled guilty in
November 2012 to a charge of theft of U.S. government funds. While work-
ing in Afghanistan, Domineck defrauded the U.S. government by having
another person telephone the Fayetteville, NC, office of the American Red




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           51
SIGAR OVERSIGHT ACTIVITIES




Cross to falsely claim that her brother had died in Milwaukee, WI. After the
American Red Cross transmitted this false death notification to Afghanistan,
Domineck used it to claim and obtain advance paid leave and travel benefits
to attend the non-existent funeral. The claimed costs were fraudulently
billed to the U.S. government.

Former U.S. State Department Contractor Convicted
On September 19, 2013, in the District of Delaware, Kenneth Michael
Brophy, a former U.S. State Department contractor, pled guilty to count two
of his indictment, receipt of an illegal gratuity by a public official. The court
accepted the plea agreement as well as Brophy’s recommended sentence
of six months incarceration, six months supervised release, and forfeiture
of $30,000, an amount equal to the gratuity he accepted. Additionally, the
$5,500 seized from Brophy and retained by SIGAR as evidence was forfeited
to partially pay his court-ordered forfeiture.
   The U.S. Embassy Kabul employed Brophy from November 2009 to May
2010 to supervise contracts for a prison-renovation project, among other
things. Brophy accepted a $30,000 payment from one of the Afghan com-
panies he was supervising on the prison contracts. The Afghan contractor
reportedly sought Brophy’s help in prosecuting a claim against USACE
for the termination of its contracts. Brophy personally lobbied a USACE
official, assisted in drafting documents to be submitted to USACE, and pro-
vided general advice regarding the Afghan company’s communications with
USACE. Also, Brophy initially provided false statements to federal officials
about the gratuity payment.
   On April 29, 2013, the State Department suspended Brophy from further
contracting with the U.S. government. A final debarment decision based on
Brophy’s criminal conviction is currently pending.

Afghan Contractor Arrested For Failure to
Install Culvert Denial Systems
On July 22, 2013, Bismillah Ahmaszai, president of Muneeb Brothers
Construction Company (MBCC), was arrested on fraud charges by the AGO
prosecutor in Kabul. An investigation by SIGAR and the AGO determined
that MBCC submitted fraudulent documents to U.S. government claiming to
have installed culvert-denial systems along a critical stretch of highway in
Ghazni province. The systems were meant to prevent insurgents from plant-
ing improvised explosive devices (IEDs) in the culverts. SIGAR confirmed
that the denial systems MBCC invoiced for were never built and concluded
that this led to the creation of a zone in which insurgents planted IEDs
aimed at killing U.S. troops.




  52                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




U.S. Contractor Employee Sentenced for
Kickbacks and Wire Fraud
On August 22, 2013, Elton Maurice McCabe III was sentenced to 10 months
incarceration after being found guilty of conspiring to commit wire fraud
and receive illegal kickbacks. Upon completion of his jail time, McCabe will
be on supervised release for a period of two years. The judge in the Eastern
District of Louisiana also imposed a civil forfeiture of $60,000 and a special
assessment of $100 on him.
   From June through December 2009, McCabe worked in Afghanistan for
an American company while maintaining a residence in Slidell, LA. During
that time, McCabe was assigned to subcontract four construction projects
at Kandahar Airfield, including one to build an apron between the runway
and the hangars.
   McCabe awarded the apron subcontract at a value of $3.2 million. At the
time of the award, he asked the subcontractor for what he called a $60,000
“loan.” Although McCabe called the payment a loan, he and the subcontrac-
tor established no repayment conditions or terms of interest. On July 18,
2009, the subcontractor gave McCabe $7,000 in cash. On July 22, 2009, the        SIGAR agents approaching an Afghanistan-
                                                                                 Uzbekistan border crossing. (SIGAR photo)
subcontractor wire-transferred an additional $53,000 from Beirut, Lebanon,
to the Louisiana bank account of McCabe’s wife. The bank’s transfer form
noted that the money was “to buy a vehicle from McCabe’s wife.”
   McCabe was arrested in December 2012 at his Louisiana residence by
special agents from SIGAR, DCIS, FBI, Army CID, and the Air Force Office
of Special Investigations. He pled guilty in May 2013 to one count of con-
spiracy to commit offenses against the United States.

Three Afghan Nationals Arrested for Assault and Robbery
On July 19, 2013, the AGO arrested three Afghans for assault and robbery
as part of an investigation by SIGAR into bribery at BAF. The three Afghans,
Zomir Shah, Kham Zarine, and Rohulla, allegedly robbed and beat an Afghan
truck driver who refused to pay them a bribe to enter BAF on July 18.
    The men worked for Naseeb Qurishi Construction Company, a con-
tractor hired to provide personnel to collect documentation from truck
drivers waiting to enter the BAF gates. Known as “wranglers,” they
collected documentation from drivers waiting to enter BAF at nine “cool-
down” parking lots across from the base. The wranglers then gave the
documentation to military personnel assigned to the BAF entry control
point. The company’s contract specifically states that the wranglers are
not to solicit bribes. However, SIGAR’s investigation determined that
truck drivers could not enter BAF without paying the Naseeb Qurishi
Construction Company a bribe. The wranglers reportedly told the drivers
that the more money they paid, the sooner they would be allowed access
to the airfield. Meanwhile, drivers who refused to pay bribes sat outside
BAF for more than 30 days at a time.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             53
                                      SIGAR OVERSIGHT ACTIVITIES




                                         SIGAR and an AGO investigator interrogated the wranglers after the
                                      beating incident on July 18. Agents learned that Mohammand Nazir, the
                                      brother of the owner of Naseeb Qurishi Construction Company, was the
                                      on-site wrangler supervisor and the primary person behind the bribe solici-
                                      tations. On July 27, the AGO investigator summoned Nazir for interview and
                                      arrest. The investigation is ongoing.

                                      Investigation Results in $10,000 Savings
                                      SIGAR initiated an investigation following allegations that Khalil Rahimi
                                      Construction Company (KRCC) had submitted a false invoice for about
                                      $10,000 in March 2013 for the last payment for the 2011 construction of a
                                      training building at FOB Fenty. The construction management consultant
SIGAR agents at the firing range in
                                      at the Regional Contracting Office-Fenty, where the invoice had been sub-
Afghanistan. (SIGAR photo)
                                      mitted, visited the facility. He found that it had not been completed and the
                                      work that had been done was not acceptable. SIGAR interviewed the camp
                                      commandant at Camp Duffman at the time of the construction. She reported
                                      that she signed an invoice for KRCC in July 2011, covering work done in
                                      June 2011. However, she said she had never signed an invoice for the final
                                      payment to KRCC and that her signature on the document had been forged.
                                         In July 2013, an assistant command judge advocate advised that KRCC’s
                                      final request for payment had been denied based on SIGAR’s investigation.
                                      The judge advocate also reported that a claim against the contractor for
                                      $11,308 has been initiated.
                                         KRCC officials were not available for interview as they are currently in
                                      Pakistan.

                                      Suspensions and Debarments
                                      This quarter, SIGAR’s suspension and debarment program referred 14 indi-
                                      viduals and 17 companies for suspension or debarment based on evidence
                                      developed as part of investigations conducted by SIGAR in Afghanistan and
                                      the United States. Of these 31 contractors, 13 individuals and seven com-
                                      panies were referred for debarment based on allegations that they engaged
                                      in fraud and non-performance in connection with five contracts valued at
                                      $174,687,292. An additional 10 individuals were referred for suspension
                                      based on allegations related to the payment of kickbacks and wire fraud
                                      related to transportation purchase orders valued at $77,920,605. Since 2008,
                                      SIGAR has made 358 referrals—196 individuals and 150 companies--for sus-
                                      pension or debarment, as shown in Figure 2.3. As of the end of September
                                      2013, SIGAR’s efforts to utilize suspension and debarment to address fraud,
                                      corruption, and poor performance in Afghanistan have resulted in a total of
                                      61 suspensions and 94 finalized debarments of individuals and companies
                                      engaged in U.S. funded reconstruction projects.
                                         Suspensions and debarments—actions taken by U.S. agencies to exclude
                                      companies or individuals from receiving federal contracts or assistance




                                        54                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                   SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.3

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q4 FY 2013

400
350
300
250
200
150
100
 50
   0
          Q2        Q3        Q4        Q1        Q2       Q3     Q4      Q1     Q2   Q3   Q4
       FY 2011                       FY 2012                           FY 2013


Source: SIGAR Investigations Directorate, 10/3/2013.




because of misconduct—are an important tool for ensuring that agencies
award contracts only to responsible entities. SIGAR’s program addresses
three challenges posed by U.S. policy and the contingency contracting envi-
ronment in Afghanistan: the need to act quickly, the limited U.S. jurisdiction
over Afghan nationals and Afghan companies, and the vetting challenges
inherent in the use of multiple tiers of subcontractors. SIGAR continues
to look for ways to enhance the U.S. government’s responses to these
challenges through the innovative use of information resources and investi-
gative assets both in Afghanistan and the United States.
   SIGAR makes referrals for suspensions and debarments based on com-
pleted investigations. In most cases, SIGAR’s referrals occur where there
is no possibility of criminal prosecution or remedial action by a contract-
ing office. Suspensions and debarments are therefore the primary remedy
to address contractor misconduct. In making referrals to agencies, SIGAR
provides the basis for a suspension or debarment decision by the agency as
well as all of the documentation needed for an agency to support that deci-
sion should it be challenged by the contractor at issue. Based on the evolving
nature of the contracting environment in Afghanistan and the available
evidence of contractor misconduct and/or poor performance, on occasion
SIGAR has found it necessary to refer individuals or companies on multiple
occasions for consideration by agency suspension and debarment officials.
   SIGAR increased its emphasis on suspension and debarment in 2011
in response to the contracting climate in Afghanistan. Of the 358 SIGAR




REPORT TO THE UNITED STATES CONGRESS                   I   OCTOBER 30, 2013                55
SIGAR OVERSIGHT ACTIVITIES




referrals for suspension and debarment, 322 have been made since the
second quarter of 2011. In the 15-month period between June 2012 and
September 2013, SIGAR accelerated its suspension and debarment program,
referring 184 individuals and companies for exclusion from contracting
to agency suspension and debarment officials. SIGAR’s referrals over this
period represent allegations of theft, fraud, poor performance, financial sup-
port to insurgents and mismanagement as part of reconstruction contracts
valued at $417,934,161.

Army Proposes Debarment of State Corps Incorporated for Fraud
On August 28, 2013, the Army proposed State Corps Incorporated, for
debarment based on the submission of fraudulent misrepresentations to
the government as part of its bid to obtain the award of two contracts to
install electrical power systems, transmission lines and substations for the
Northeast Electrical Power System (NEPS) and the Southeast Electrical
Power System (SEPS) being developed in Afghanistan. These contracts,
with a combined overall value of $172,904,500, required that qualified con-
tractors have experience with high-voltage electrical work and a history of
satisfactory performance on previously awarded government contracts.
   Investigations by SIGAR, the Army Procurement Fraud Branch and USACE,
as well as a detailed complaint to the SIGAR Hotline, resulted in allegations
that State Corps had made representations regarding its experience with high-
voltage electrical work that were based on another company’s performance
history. The investigations also found that State Corps had misrepresented its
qualifications on seven other reconstruction contracts awarded by USACE in
Afghanistan, calling into question its ability to complete the NEPS and SEPS
contracts according to contract requirements. A final debarment decision on
this matter is currently pending with the Army.

Debarment of New Riders Construction Company,
Maiwand Ansunullah Alyas and Three Affiliated Companies
On September 6, 2013, as a result of a referral by the SIGAR’s suspension
and debarment program, the Army debarred New Riders Construction
Company, Maiwand Ansunullah Alyas, and three affiliated companies. The
Army based this action on the failure of New Riders Construction Company
to deliver 23,302.25 cubic meters of gravel to FOB Salerno between March
and May of 2012, in accordance with its contract with the U.S. government.
   Subsequent investigation by SIGAR determined that, in addition to fail-
ing to perform the contract, the company had significantly underbid for the
contract to obtain the award, improperly measured the amount of gravel
that was delivered, attempted to have the contract price adjusted after
award to a price above market cost that would allow it to realize a signifi-
cant profit, and improperly charged the government for unsupported and
unrelated truck rental costs.




  56                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




   Based on SIGAR’s investigation into these allegations, the Army debarred
New Riders Construction Company, Alyas, and three affiliated companies
for a period of 48 months.

Debarment of Luqman Engineering Construction Company,
Ghanzi Gul, and Khan Wazir
On September 4, 2013, based on a referral from SIGAR, the Army debarred
Luqman Engineering Construction Company and two of the company’s
officers, Ghanzi Gul and Khan Wazir, from continued contracting with
the government. The Army took this action because the company had
failed to repay a $796,903.60 overpayment made in December 2009 on a
Commander’s Emergency Response Program (CERP) project to build a 4.35
kilometer stretch of road to support the growing population of Jalalabad.
Despite multiple attempts by the government to obtain repayment of these
funds, Luqman Engineering Construction Company failed to return the
money and made false statements in an attempt to conceal its receipt of this
overpayment from investigators. Based on evidence presented by SIGAR,
Luqman Engineering Construction Company, Ghanzi Gul, and Khan Wazir
were debarred for a period of 60 months.

Debarment of Navid Basir Construction Company,
Navidullah Matun, and Wahidullah Matun and Two
Affiliated Joint Venture Companies
On September 4, 2013, as the result of a SIGAR referral, the Army debarred
Navid Basir Construction Company, Navidullah Matun, Wahidullah Matun,
and two affiliated joint-venture companies for attempting to bribe a USACE
official for the award of future contracts. The USACE contracting officer
subsequently reported the attempted bribe to law enforcement, resulting
in a criminal investigation. On September 23, 2012, undercover agents from
SIGAR and the ICCTF met with Navidullah Matun and Wahidullah Matun at
Camp Eggers, where they were given a package containing $5,000 in hun-
dred-dollar bills on behalf of Navid Basir Construction Company. Both men
were subsequently arrested and charged with bribery. As a result of this evi-
dence, all parties were debarred from contracting with the U.S. government
for a period of 90 months.

Suspension of Former Air Force Officer Based on
Unlawful Representation of a Contractor
As the result of an investigation conducted by SIGAR, the DCIS, and the
FBI, the U.S. Air Force suspended former Air Force Reserve Captain
Adam Jeff Julias Pudenz, and his company, Peace Thru Business LLC, on
September 17, 2013. The suspension followed Pudenz’s August 21, 2013,
arrest on charges of knowingly and willfully performing unlawful represen-
tational activities. Pudenz allegedly accepted employment and payments




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            57
SIGAR OVERSIGHT ACTIVITIES




totaling $247,993 from an Afghan footwear contractor, despite being
informed by Air Force officials that he had been permanently disqualified
from representing the footwear contractor due to his participating in the
award of reconstruction contracts to the company between December 2011
and December 2012. Pudenz also allegedly used his Air Force Reserve
identification to escort representatives from this company onto Camp
Eggers and other U.S. government locations. Consequently, U.S. Forces–
Afghanistan issued a letter barring him from all installations in Afghanistan.
Pudenz’s criminal case is currently pending in the U.S. District Court for the
Northern District of Iowa.


SIGAR BUDGET
Congress appropriated $49.9 million for SIGAR’s operating expenses
through FY 2013 in the Full Year Continuing Appropriations Act 2013
(Pub. L. No. 113-6). SIGAR’s FY 2013 annual funding was then reduced, in
accordance with the Office of Management and Budget direction on the
implementation of sequestration, to $48.0 million. The budget supports
SIGAR’s oversight activities and products by funding SIGAR’s five director-
ates: (1) Audits and Inspections, (2) Special Projects, (3) Investigations,
(4) Management and Support, and (5) Information Management.


SIGAR STAFF
Since its last report to Congress, SIGAR increased its staff by five positions,
bringing the FY 2013 total staffing number to 193 federal employees. In
FY 2013, SIGAR continued to be authorized to fill 57 billets in Afghanistan.
This quarter, SIGAR had 37 authorized personnel at the U.S. Embassy Kabul
and 13 authorized at locations outside the U.S. Embassy. SIGAR staff mem-
bers were stationed at six locations across the country, including Kandahar
and Bagram airfields, Mazar-e-Sharif, Camp Leatherneck, USFOR-A head-
quarters in Kabul, and the U.S. Consulate in Herat. SIGAR employed three
local Afghans in its Kabul office to support investigations and audits.
In addition, SIGAR supports its work with staff assigned to short-term
temporary duty in Afghanistan. This quarter, SIGAR had 15 personnel on
temporary duty in Afghanistan for a total of 282 days.




  58                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




SIGAR investigators meet with Assistant Inspector General, Investigations, Douglas
Domin, center, at U.S. Embassy Kabul. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2013                  59
   “The United States believes firmly
  that lasting security and prosperity
     in a unified Afghanistan and an
    independent Afghanistan, whose
people and sovereignty are respected,
 will take root when the people’s voice
is heard in the course of this election.”
                     —Secretary of State John Kerry




           Source: State, Joint Press Availability With Afghan President Hamid Karzai After Their Meeting, October 12, 2013.
3   RECONSTRUCTION
    UPDATE




        61
                                               RECONSTRUCTION UPDATE CONTENTS

                                               Overview	63
                                               Status of Funds	                             66
                                               Security	80
                                               Governance	108
                                               Economic and Social Development	             144




Photo on previous page
U.S. Marines flying over southern Afghanistan in August 2013 drop information leaflets as
part of efforts to reduce popular support for the insurgency. (DOD photo)




                                                  62
                  RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents updates on accomplishments, challenges, and initiatives
in Afghanistan reconstruction to provide context for oversight. Sidebars
identify SIGAR audits, completed and ongoing, relating to those efforts.
    SIGAR presents the data in this section in compliance with Public Law
110-181, which mandates that each of SIGAR’s quarterly reports to Congress
on reconstruction activities in Afghanistan include, among other things:
 •	 obligations and expenditures of appropriated funds
 •	 discussions of U.S. government entities’ contracts, grants, agreements,
    or other mechanisms
 •	 funds provided by foreign nations or international organizations to
    programs and projects funded by U.S. government entities


TOPICS
This section has four subsections: Status of Funds, Security, Governance,
and Economic and Social Development.
   The Status of Funds subsection describes monies appropriated, obli-
gated, and disbursed for Afghanistan reconstruction, including U.S. funds
and international contributions.
   The organization of the other three subsections mirrors the three pillars
in the Prioritization and Implementation Plan developed in an international
conference in July 2010 and announced by the Afghan government.
   The Security subsection describes U.S. efforts to bolster the Afghan
National Security Forces (the Army and Police), the transition away from
private security contracting, and the battle against the narcotics trade.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward good governance through capacity-building efforts,
rule of law initiatives, and human rights recognition. This subsection also
describes the status of reconciliation and reintegration, Afghan government
control in various provinces, and initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruc-
tion activities by sectors like energy, mining, and health. It provides a snapshot
of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013                63
                                                                                     63
RECONSTRUCTION UPDATE




METHODOLOGY
Section 3 was compiled from open-source and U.S. agency data.
Attributions appear in endnotes or notes to tables and figures. Multiple
organizations provide data, so numbers may conflict. SIGAR has not verified
data other than that in its own audits or investigations. Information from
other sources does not necessarily reflect SIGAR’s opinion. For details on
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the
state of affairs in Afghanistan. U.S. agencies responding to the latest
data call include the Departments of State, Defense, Transportation, and
Treasury, and the U.S. Agency for International Development. Responding
agencies received a preliminary draft of this section so they could verify
and comment on specific data they provided for this quarterly report.

Open-Source Research
Open-source research draws on the most current, publicly available data
from reputable sources. Sources used include the U.S. agencies represented
in the data call, the International Security Assistance Force, the United
Nations (and relevant branches), the International Monetary Fund, the
World Bank, and Afghan ministries and other government organizations.




  64                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                        RECONSTRUCTION
                               GRAPHICSUPDATE
                                        KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.
       ASFF      CERP DoD CN     ESF     INCLE



BAR CHARTS
       DoD                       USAID    DoS                          UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                     Because this report details funding in both billions
dollar values ranging from millions to billions. To                    and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                  guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                        billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                       in millions are depicted in green.
larger number.
        ASFF


     $500         DoD                    $200

     $450
                                         $150
     $400
                                         $100
     $350
                 CERP
                                         $50
                                                                              Pie chart in billions        Pie chart in millions

        $0        DoD                      $0

              Bar chart with a                  Bar chart without
               break in scale                   a break in scale


FUNDING MARKERS
            DoD CN
                                                                       CALENDAR AND SOLAR YEARS
Funding markers identify individual funds dis-                         Afghanistan follows the solar Hejri calendar, which
cussed in the text. The agency responsible for                         began in 622 A.D. in the Gregorian calendar. SIGAR
managing the DoD
              fund is listed in the tan box below                      converts Hejri solar years to Gregorian equivalents.
the fund name.                                                         The current Afghan solar year (SY) is 1392. It began
                                                                       on March 21, 2013, and ends on March 20, 2014.
                                                                       The Afghan government’s fiscal year runs from
                                                                       December 21, 2012, to December 20, 2013.
                                 ESF



                                 USAID




                                         INCLE



                                          DoS
REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2013             65
STATUS OF FUNDS CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       68
Afghanistan Security Forces Fund	      70
ASFF Budget Activities	                71
Commander’s Emergency
Response Program	                      72
Afghanistan Infrastructure Fund	       73
Task Force for Business and
Stability Operations	                  74
DOD Drug Interdiction and
Counter-Drug Activities	               75
Economic Support Fund	                 76
International Narcotics Control
and Law Enforcement 	                  77
International Reconstruction Funding
for Afghanistan	                       78




  66
                                                         STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. As of September 30, 2013, the United States had appropriated
approximately $96.60 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
•	 $54.30 billion for security
•	 $24.71 billion for governance and development
•	 $6.93 billion for counternarcotics efforts
•	 $2.67 billion for humanitarian aid
•	 $7.99 billion for operations and oversight
Figure 3.1 shows the major U.S. funds that contribute to these efforts.

FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                     FUNDING SOURCES (TOTAL: $96.60)
                                                                                                                       ASFF: Afghanistan Security Forces Fund
                                                                                                                       CERP: Commander’s Emergency
    ASFF         CERP         AIF        TFBSO       DOD CN              ESF               INCLE         Other
                                                                                                                       Response Program
                                                                                                                       AIF: Afghanistan Infrastructure Fund
   $52.78       $3.64        $1.02       $0.69        $2.62            $16.67              $4.18        $14.99
                                                                                                                       TFBSO: Task Force for Business and
                                                     AGENCIES                                                          Stability Operations
                                                                                                                       DOD CN: DOD Drug Interdiction and
                                                                                     Department of    Distributed      Counter-Drug Activities
                Department of Defense (DOD)                            USAID                          to Multiple
                                                                                     State (State)
                         $60.75                                        $16.67
                                                                                        $4.18          Agenciesa       ESF: Economic Support Fund
                                                                                                        $14.99         INCLE: International Narcotics Control and
                                                                                                                       Law Enforcement
Notes: Numbers have been rounded.                                                                                      Other: Other Funding
a Multiple agencies include DOJ, State, DOD, USAID, Treasury, USDA, DEA, BBG, and SIGAR.

Sources: DOD, responses to SIGAR data call, 10/23/2013, 10/9/2013, 9/30/2013, 10/22/2012, 10/14/2009, and
10/1/2009; State, responses to SIGAR data call, 10/18/2013, 7/2/2013, 6/27/2013, 10/5/2012 and 6/27/2012;
Treasury, response to SIGAR data call, 10/4/2013; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013;
USAID, responses to SIGAR data call, 10/10/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR
data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L.
112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2013                               67
                                                                 STATUS OF FUNDS




                                                                 U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF   CERP     AIF    TFBSO DODCN    ESF     INCLE             As of September 30, 2013, cumulative appropriations for relief and recon-
                                                                 struction in Afghanistan totaled approximately $96.60 billion, as shown in
                                                                 Figure 3.2. This total can be divided into five major categories of reconstruc-
                DOD                   USAID State
                                                                 tion funding: security, governance and development, counternarcotics,
                                                                 humanitarian, and oversight and operations. For complete information
The amount provided to the seven major
                                                                 regarding U.S. appropriations, see Appendix B.
U.S. funds represents nearly 84.5% (more
than $81.60 billion) of total reconstruction                        President Obama submitted the FY 2014 budget proposal on April 10,
assistance in Afghanistan since FY 2002.                         2013. The proposal called for an additional $12 billion for Afghanistan relief
OfASFF
   this amount, over 85.1% (more than                            and reconstruction with oversight and operations requests included—a
$69.47 billion) has been obligated, and                          23% increase over the amount appropriated for FY 2013.20 At the close
over 74.6% (nearly $60.89 billion) has been                      of FY 2013, Congress had not yet approved an FY 2014 budget or passed
disbursed. The
            DOD following pages provide ad-                      appropriations legislation to fund the U.S. government through FY 2014.21
ditional details on these funds.

FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF SEPTEMBER 30, 2013 ($ BILLIONS)

        CERP
$100
                                                                                                                                                                            $96.60
 $95
 $90                                                                                                                                                  $86.82
                DOD
 $85
 $80
 $75                                                                                                                           $72.18
 $70
 $65
                            DOD CN
 $60
                                                                                                         $56.34
 $55
 $50            DOD
 $45
 $40                                                                               $39.65

 $35
 $30                                                        $29.26

 $25                                  ESF
                                       $23.07
 $20
 $15            $13.02
                                      USAID
 $10
   $5
   $0
               2002–2006                2007                  2008                  2009                  2010                   2011                  2012                  2013

                       Security              INCLE
                                        Governance/Development              Counternarcotics            Humanitarian             Oversight and Operations           Total


Notes: Numbers have been rounded. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD
transferred $101 million from FY 2011 AIF to FY 2011
                                                StateESF to fund an infrastructure project to be implemented by USAID.
Sources: DOD, responses to SIGAR data call, 10/23/2013, 10/9/2013, 9/30/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 10/18/2013, 7/2/2013,
6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/4/2013; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call,
10/10/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.


                AIF

                                                                     68                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                DOD
                                                          STATUS OF FUNDS




                                                                                                                               TABLE 3.0
Despite this fiscal uncertainty, five of the seven major reconstruction funds
                                                                                                                                FY 2013 APPROPRIATIONS AND
are appropriated for two fiscal years, and more than $7.27 billion of the                                                       OBLIGATIONS, AS OF SEPTEMBER 30,
$7.95 billion appropriated these funds for FY 2013/14 had not been obligated                                                    2013 a ($ MILLIONS)
at the end of the fiscal year, as shown in Table 3.0.                                                                                              Appropriated                Obligated
   As of September 30, 2013, the total appropriated for Afghanistan recon-                                                      ASFF                         $5,124               $625
struction for FY 2013 amounted to nearly $9.78 billion, as shown in Figure                                                      AIF                           $325                      $0
3.3. The majority of this amount—nearly $5.13 billion—was appropriated to                                                       ESF                           $307                     $43
equip, train, and sustain the Afghan National Security Forces (ANSF).22 With                                                    INCLE                        $1,623                     $0
the support of the ANSF, Afghanistan is to assume full operational respon-                                                      TOTAL                   $7,949                    $675
sibility for its security by 2015; however, as long as the country makes                                                              To Be Obligated                 $7,274
progress toward its goals established in the Tokyo Mutual Accountability
                                                                                                                               Notes: Numbers have been rounded.
Framework, the support of the NATO train, advise, and assist mission will                                                      a	ASFF and AIF data as of 8/31/2013 because data through
                                                                                                                                 9/30/2013 was unavailable when this report went to press.
continue into the “transformation decade” as will the financial assistance of
the United States and Afghanistan’s international partners.23                                                                  Sources: DOD, responses to SIGAR data call, 10/23/2013,
                                                                                                                               10/9/2013, and 9/30/2013; USAID, response to SIGAR
                                                                                                                               data call, 10/10/2013; State, response to SIGAR data call,
FIGURE 3.3                                                                                                                     10/18/2013; P.L. 113-6, 3/26/2013.

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)

$17                                                                                                      $16.69
$16                                                                                                                            $15.84

$15                                                                                                                                                   $14.64
$14            $13.04
$13

$12

$11
                                                                                  $10.39
                                     $10.04                                                                                                                                    $9.78
$10

 $9

 $8

 $7
                                                              $6.19
 $6

 $5

 $4

 $3

 $2

 $1

 $0
            2002–2006                 2007                    2008                 2009                  2010                   2011                  2012                     2013

                     Security           Governance/Development               Counternarcotics            Humanitarian             Oversight and Operations             Total


Notes: Numbers have been rounded. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD
transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
Sources: DOD, responses to SIGAR data call, 10/23/2013, 10/9/2013, 9/30/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 10/18/2013, 7/2/2013,
6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/4/2013; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call,
10/10/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2013                                    69
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                DOD                  USAID State




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, and training, as well
                                                       as facility and infrastructure repair, renovation, and construction.24  The pri-
                DOD                                    mary organization responsible for building the ANSF is the North Atlantic
                                                       Treaty Organization (NATO) Training Mission-Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.25 
DOD reported ASFF funds as appropriated,                  The Consolidated and Further Continuing Appropriations Act, 2013,
obligated, or disbursed                                appropriated more than $5.12 billion for the ASFF for FY 2013, increasing
Appropriations:
      CERP      Total monies available for             total cumulative funding to nearly $52.78 billion.26 As of August 31, 2013,
commitments                                            nearly $46.99 billion of total ASFF funding had been obligated, of which
Obligations: Commitments to pay monies                 more than $43.54 billion had been disbursed.27  Figure 3.4 displays the
                DOD                                    amounts made available for the ASFF by fiscal year.
Disbursements: Monies that have been
                                                          DOD reported that cumulative obligations as of August 31, 2013,
expended
                                                       increased by more than $1.63 billion over cumulative obligations as of
Source: DOD, response to SIGAR data call, 4/13/2010.   June 30, 2013. Cumulative disbursements as of August 31, 2013, increased
                                                       by more than $1.80 billion over cumulative disbursements as of June 30,
                          DOD CN
                                                       2013.28 Figure 3.5 provides a cumulative comparison of amounts made avail-
                                                       able, obligated, and disbursed for the ASFF.
                DOD
                                                       FIGURE 3.4                                                           FIGURE 3.5

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                        ($ BILLIONS)

                                     ESF
                                                       $12.0                                                                $55.0
                                                                                                                                                 Appropriated             Appropriated
                                     USAID                                                                                                       $52.78                   $52.78
                                                       $10.0
                                                                                                                            $50.0


                                                           $8.0                                                                                                           Obligated
                                                                                                                                                                          $46.99
                                                                                                                                                  Obligated
                                             INCLE                                                                          $45.0                 $45.36
                                                                                                                                                                          Disbursed
                                                           $6.0                                                                                                           $43.54
                                                                                                                                                  Disbursed
                                             State                                                                                                $41.74
                                                                                                                            $40.0
                                                           $4.0


                AIF                                        $2.0                                                             $35.0



                DOD                                        $0.0                                                                $0
                                                                   05 06 07 08 09 10 11a 12b 13                                      As of Jun 30, 2013         As of Aug 31, 2013


                                                       Notes: Numbers have been rounded. ASFF data through 9/30/2013 was unavailable when this report went to press.
                                                       a DOD reprogrammed $1 billion of FY 2011 ASFF.

                                                       b   DOD reprogrammed $1 billion of FY 2012 ASFF; another $1 billion was rescinded in P.L. 113-6.
                      TFBSO
                                                       Sources: DOD, responses to SIGAR data call, 10/09/2013 and 7/22/2013; P.L. 113-6, 3/26/2013.



                DOD
                                                             70                             SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                        STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DOD allocates funds to three budget activity groups within the ASFF:
•	 Defense Forces (Afghan National Army, ANA)                                                                              Budget Activity Groups: categories
•	 Interior Forces (Afghan National Police, ANP)                                                                           within each appropriation or fund account
•	 Related Activities (primarily Detainee Operations)                                                                      that identify the purposes, projects, or
                                                                                                                           types of activities financed by the appro-
                                                                                                                           priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and
                                                                                                                           Sub-Activity Groups: accounting groups
Operations, and Sustainment.29 
                                                                                                                           that break down the command’s disburse-
   As of August 31, 2013, DOD had disbursed more than $43.54 billion for                                                   ments into functional areas
ANSF initiatives. Of this amount, more than $29.11 billion was disbursed for
the ANA, and nearly $14.10 billion was disbursed for the ANP; the remain-
ing more than $0.33 billion was directed to related activities.30 
                                                                                                                         Sources: DOD, “Manual 7110.1-M Department of Defense
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                            Budget Guidance Manual,” accessed 9/28/2009; Department
ANA—nearly $11.20 billion—supported Equipment and Transportation. Of                                                     of the Navy, “Medical Facility Manager Handbook,” p. 5,
                                                                                                                         accessed 10/2/2009.
the funds disbursed for the ANP, the largest portion—nearly $4.87 billion—
supported Sustainment, as shown in Figure 3.7.31 


FIGURE 3.6                                                   FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                               ASFF DISBURSEMENTS FOR THE ANP
BY SUB-ACTIVITY GROUP,                                       BY SUB-ACTIVITY GROUP,
FY 2005–AUG 31, 2013 ($ BILLIONS)                            FY 2005–AUG 31, 2013 ($ BILLIONS)


                   Total: $29.11                                               Total: $14.10


Infrastructure                              Training and     Infrastructure                               Training and
                                                             $2.54               Equipment and            Operations
$4.68                                       Operations                           Transportation
                       Equipment and                                                                      $3.13
                                            $2.85                                $3.56
                       Transportation
                       $11.20


                 Sustainment                                                  Sustainment
                 $10.39                                                       $4.87



Notes: Numbers have been rounded. ASFF data through          Notes: Numbers have been rounded. ASFF data through
9/30/2013 was unavailable when this report went to press.    9/30/2013 was unavailable when this report went to press.
Source: DOD, response to SIGAR data call, 10/09/2013.        Source: DOD, response to SIGAR data call, 10/09/2013.




REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2013                               71
                                                       STATUS OF FUNDS
  ASFF



                DOD




                                                       COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                          The Commander’s Emergency Response Program (CERP) enables U.S.
                                                       commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                DOD                                    programs that will immediately assist the local population. Funding under
                                                       this program is intended for small projects that are estimated to cost less
CERP FUNDS TERMINOLOGY                                 than $500,000 each.32 Projects with cost estimates exceeding $1 million are
DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                Command; projects over $5 million require approval from the Deputy
                         DOD CN
Appropriations: Total monies available for             Secretary of Defense. CERP-funded projects may not exceed $20 million.33 
commitments                                               The Consolidated and Further Continuing Appropriations Act, 2013,
                                                       appropriated $200 million for CERP for FY 2013, increasing total cumulative
Obligations:DOD
             Commitments to pay monies
                                                       funding to nearly $3.64 billion.34 Of this amount, DOD reported that nearly
Disbursements: Monies that have been                   $2.29 billion had been obligated, of which nearly $2.22 billion had been
expended                                               disbursed as of August 31, 2013.35 Figure 3.8 shows CERP appropriations
Source: DOD, response to SIGAR data call, 4/14/2010.
                                                       by fiscal year, and Figure 3.9 provides a cumulative comparison of amounts
                                    ESF                appropriated, obligated, and disbursed for CERP projects.

                                                       FIGURE 3.8                                                 FIGURE 3.9
                                   USAID
                                                       CERP APPROPRIATIONS BY FISCAL YEAR                         CERP FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                               ($ BILLIONS)




                                           INCLE       $1,000                                                    $4.0
                                                                                                                                       Appropriated              Appropriated
                                                                                                                 $3.6                  $3.64                     $3.64
                                            State       $800                                                     $3.2

                                                                                                                 $2.8

                                                        $600                                                     $2.4                  Obligated                 Obligated
                AIF                                                                                                                    $2.27                     $2.29
                                                                                                                 $2.0                  Disbursed                 Disbursed
                                                                                                                                       $2.21                     $2.22
                                                        $400                                                     $1.6
                DOD
                                                                                                                 $1.2

                                                        $200                                                     $0.8

                      TFBSO                                                                                      $0.4

                                                           $0                                                    $0.0
                                                                04 05 06 07 08 09 10 11 12 13                            As of Jun 30, 2013           As of Aug 31, 2013
                DOD
                                                       Notes: Numbers have been rounded. Data may include inter-agency transfers. CERP data through 9/30/2013 was
                                                       unavailable when this report went to press.
                                                       Sources: DoD, responses to SIGAR data call, 10/23/2013 and 7/22/2013; OMB, response to SIGAR data call, 1/4/2013;
                                                       P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          72                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                               USAID

                                                              STATUS OF FUNDS
                                                                                                                                                                       INCLE



                                                                                                                                                                       State



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                 AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-
scale infrastructure projects that support the U.S. civilian-military effort.
Congress intended for projects funded by the AIF to be jointly selected and                                                               DOD

managed by DOD and State. Thirty days before obligating or expending
funds on an AIF project, the Secretary of Defense and Secretary of State                                                    AIF FUNDS TERMINOLOGY
are required to notify the Congress with details of the proposed project,                                                   DOD reported AIF funds as appropriated,
                                                                                                                                             TFBSO
                                                                                                                            obligated, or disbursed
including a plan for its sustainment and a description of how it supports the
counterinsurgency strategy in Afghanistan.36                                                                                Appropriations: Total monies available for
   The Consolidated and Further Continuing Appropriations Act, 2013,                                                        commitmentsDOD
appropriated $325 million for the AIF for FY 2013, increasing total cumula-                                                 Obligations: Commitments to pay monies
tive funding to more than $1.02 billion.37 This figure excludes $101 million
                                                                                                                            Disbursements: Monies that have been
of FY 2011 AIF funds transferred to the FY 2011 Economic Support Fund
                                                                                                                            expended
for USAID’s AIF-funded infrastructure project. As of August 31, 2013, more
than $548.35 million of total AIF funding had been obligated, of which more                                                 Source: DOD, response to SIGAR data call, 4/13/2012.

than $163.34 million had been disbursed.38  Figure 3.10 shows AIF appro-
priations by fiscal year, and Figure 3.11 provides a cumulative comparison
of amounts appropriated, obligated, and disbursed for AIF projects.

FIGURE 3.10                                                   FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR                             AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                  ($ MILLIONS)




$800                                                          $1,200


                                                                                     Appropriated            Appropriated
                                                              $1,000                 $1,024.00               $1,024.00
$600
                                                                  $800


                                                                                      Obligated
$400                                                              $600                $616.07                Obligated
                                                                                                             $548.35

                                                                  $400
$200
                                                                  $200                                        Disbursed
                                                                                      Disbursed               $163.34
                                                                                      $134.18
     $0                                                            $0
              2011a              2012              2013                  As of Jun 30, 2013         As of Aug 31, 2013

Notes: Numbers have been rounded. Updated data resulted in a lower obligation figure than that reported as of 6/30/2013.
AIF data through 9/30/2013 was unavailable when this report went to press.
a   FY 2011 figure excludes $101 million transferred to USAID to execute an AIF project.
Sources: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts," 9/17/2013; DOD, response to SIGAR
data call, 7/22/2013; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




REPORT TO THE UNITED STATES CONGRESS                          I   OCTOBER 30, 2013                               73
                                           State

                                                       STATUS OF FUNDS
               AIF



              DOD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             In 2010, the Task Force for Business and Stability Operations (TFBSO)
                                                       began operations in Afghanistan aimed at stabilizing the country and coun-
                                                       tering economically motivated violence by decreasing unemployment and
              DOD                                      creating economic opportunities for Afghans. TFBSO projects include activ-
                                                       ities that facilitate private investment, industrial development, banking and
TFBSO FUNDS TERMINOLOGY                                financial system development, agricultural diversification and revitalization,
DOD reported TFBSO funds as appropriated,              and energy development.39
obligated, or disbursed                                    TFBSO has two separate funding streams. The funds authorized for TFBSO
Appropriations: Total monies available for             in the National Defense Authorization Act are used to pay for activities directly
commitments                                            related to reconstructing Afghanistan. The funds TFBSO receives from the
Obligations: Commitments to pay monies                 Operations and Maintenance, Army, account are used to pay for sustainment
                                                       of U.S. assets, civilian employees, travel, security, and other operational costs.
Disbursements: Monies that have been
                                                           As of September 30, 2013, TFBSO had been appropriated nearly
expended
                                                       $137.40 million for FY 2013, bringing cumulative appropriations for the task
Source: DOD, response to SIGAR data call, 4/13/2010.   force to nearly $692.15 million.40 Of this amount, nearly $658.38 million had
                                                       been obligated and nearly $480.17 million had been disbursed.41 Figure 3.12
                                                       displays the amounts appropriated for TFBSO projects by fiscal year, and
                                                       Figure 3.13 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for TFBSO projects.
                                                       FIGURE 3.12                                                 FIGURE 3.13

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                         TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ MILLIONS)

                                                       $200                                                        $700                 Appropriated              Appropriated
                                                                                                                                        $684.59                   $692.15
                                                                         NDAA                                                                                     Obligated
                                                                                                                   $600                 Obligated                 $658.38
                                                       $160              OMA                                                            $590.76

                                                                                                                   $500                                           Disbursed
                                                                                                                                                                  $480.17
                                                       $120                                                                             Disbursed
                                                                                                                   $400                 $421.62


                                                                                                                   $300
                                                        $80

                                                                                                                   $200

                                                        $40
                                                                                                                   $100


                                                         $0                                                           $0
                                                               2009       2010      2011       2012      2013              As of Jun 30, 2013          As of Sep 30, 2013

                                                       Notes: Numbers have been rounded. NDAA = National Defense Authorization Act. NDAA funding is used to pay for activities
                                                       directly related to reconstructing Afghanistan. OMA = Operations and Maintenance, Army. OMA funding is used to pay for
                                                       sustainment of U.S. assets, civilian employees, travel, security, and other operational costs.
                                                       Sources: DOD, responses to SIGAR data call, 10/1/2013, 7/3/2013 and 10/4/2011; P.L. 113-6, 3/26/2013; P.L.
                                                       112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                           74                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                        DOD




                                                                                    Status of Funds
                                                                                                                                                                 CERP



                                                                                                                                                                        DOD




                     DOD Drug Interdiction and Counter-Drug Activities
                     DOD’s Drug Interdiction and Counter-Drug Activities fund (DOD CN) sup-                                                                                      DOD CN
                     ports efforts to stabilize Afghanistan by combating the drug trade and
                     related activities. DOD uses the DOD CN to provide assistance to the
                     counternarcotics effort by supporting military operations against drug traf-                                                                       DOD
                     fickers; expanding Afghan interdiction operations; and building the capacity
                     of Afghan law enforcement bodies—including the Afghan Border Police—                                                                DOD CN funds terminology
                     with specialized training, equipment, and facilities.42                                                                             DOD reported DOD CN funds as appropriated,
                         DOD CN funds are appropriated by Congress to a single budget line for                                                           obligated, or disbursed
                                                                                                                                                                                             ESF
                     all military services. DOD reprograms the funds from the Counter-narcotics                                                          Appropriations: Total monies available for
                     Central Transfer Account (CTA) to the military services and defense agen-                                                           commitments
                     cies, which track obligations of the transferred funds. DOD reported DOD                                                            Obligations: Commitments toUSAID
                                                                                                                                                                                     pay monies
                     CN accounts for Afghanistan as a single figure for each fiscal year.43
                                                                                                                                                         Disbursements: Monies that have been
                         As of September 30, 2013, DOD reported that DOD CN received $307.36 mil-
                                                                                                                                                         expended
                     lion for Afghanistan for FY 2013, bringing cumulative funding for DOD CN to
                     nearly $2.62 billion since fiscal year 2004.44 Figure 3.14 shows DOD CN appro-                                                      Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                                                    INCLE
                     priations by fiscal year, and Figure 3.15 provides a cumulative comparison of
                     amounts appropriated and transferred to the military services and defense
                     agencies for DOD CN projects. During the quarter, unobligated FY 2013/14                                                                                                       State
                     DOD CN funds previously transferred to the military services and defense agen-
                     cies were returned to the CTA to be redistributed for execution in FY 2014.
                     Figure 3.14                                                        Figure 3.15
                                                                                                                                                                        AIF
                     DOD CN APPROPRIATIONS BY FISCAL YEAR                               DOD CN FUNDS, CUMULATIVE COMPARISON
                     ($ MILLIONS)                                                       ($ BILLIONS)
                                                                                                                                                                        DOD
                     $450                                                               $2.7
                                                                                                              Appropriated
                                                                                                                                          Appropriated
                     $400                                                               $2.6                  $2.64
                                                                                                                                          $2.62

                     $350                                                                                                                                                     TFBSO
                                                                                        $2.5
                                                                                                             Transferreda
                     $300                                                                                    $2.44
                                                                                        $2.4
                     $250                                                                                                                 Transferreda                  DOD
                                                                                                                                          $2.35b
                                                                                        $2.3
                     $200
                                                                                        $2.2
                     $150
                                                                                        $2.1
                     $100

                       $50                                                              $2.0

                        $0                                                                 $0
                             2004 05 06 07 08 09 10 11 12 13                                    As of Jun 30, 2013           As of Sep 30, 2013

                     Notes: Numbers have been rounded. Updated data resulted in a lower appropriation figure for FY 2013 and a higher appropriation
                     figure for FY 2012 than reported last quarter.
                     a DOD reprograms all funds to the military services and defense agencies for obligation and disbursement.
                     b During the quarter, funds previously transferred to the military services and defense agencies were returned to the DOD Central
                        Transfer Account to be redistributed in FY 2014. This led to a lower level of reported appropriations as of 9/30/2013.
                     Sources: DOD, responses to SIGAR data call, 9/30/2013 and 7/1/2013.




                     Report to the united states congress                           I   October 30, 2013                                      75


3.1_Funding_Oct13.indd 75                                                                                                                                                                              10/27/2013 2:44:15 PM
              DOD



                                                         STATUS OF FUNDS
                        DOD CN



              DOD




                                                         ECONOMIC SUPPORT FUND
                                    ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counterterrorism; bolster national economies; and
                                   USAID                 assist in the development of effective, accessible, independent legal systems
                                                         for a more transparent and accountable government.45
ESF FUNDS TERMINOLOGY                                       The ESF was appropriated more than $1.62 billion for FY 2013, bringing
USAID reported ESF funds as appropriated,                cumulative funding for the ESF to more than $16.67 billion. Of this amount,
obligated, or disbursed         INCLE                    nearly $14.67 billion had been obligated, of which more than $11.17 billion
Appropriations: Total monies available                   had been disbursed.46 Figure 3.16 shows ESF appropriations by fiscal year.
for commitments                                             USAID reported that cumulative obligations as of September 30, 2013,
                                            State        increased by nearly $75.11 million over cumulative obligations as of June
Obligations: Commitments to pay monies
                                                         30, 2013. Cumulative disbursements as of September 30, 2013, increased
Disbursements: Monies that have been
                                                         by more than $245.02 million over cumulative disbursements as of June 30,
expended
                                                         2013.47 Figure 3.17 provides a cumulative comparison of the amounts appro-
               AIF
Source: USAID, response to SIGAR data call, 4/15/2010.   priated, obligated, and disbursed for ESF programs.

              DOD                                        FIGURE 3.16                                                     FIGURE 3.17

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                               ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                    ($ BILLIONS)



                     TFBSO
                                                         $3.5                                                            $18

                                                                                                                                              Appropriated                Appropriated
              DOD                                        $3.0                                                            $16                  $16.65                      $16.67


                                                                                                                                              Obligated                   Obligated
                                                         $2.5
                                                                                                                                              $14.59                      $14.67
                                                                                                                         $14

                                                         $2.0
                                                                                                                         $12
                                                                                                                                                                          Disbursed
                                                         $1.5                                                                                 Disbursed
                                                                                                                                                                          $11.17
                                                                                                                                              $10.93
                                                                                                                         $10
                                                         $1.0

                                                                                                                           $8
                                                         $0.5


                                                         $0.0                                                              $0
                                                                02 03 04 05 06 07 08 09 10 11 12 13                             As of Jun 30, 2013           As of Sep 30, 2013

                                                         Notes: Numbers have been rounded. FY 2011 figure includes $101 million that was transferred to the ESF from the Afghanistan
                                                         Infrastructure Fund.
                                                         Sources: USAID, response to SIGAR data call, 10/10/2013 and 7/17/2013; State, response to SIGAR data call, 6/27/2013.




                                                             76                            SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                   DOD



                                                              STATUS OF FUNDS
                                                                                                                                                                         ESF



                                                                                                                                                                        USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                             INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                                 State
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counternarcotics, and rule of law and justice.48                                                          INL FUNDS TERMINOLOGY
   State reported that the Consolidated and Further Continuing                                                                      INL reported INCLE and other INL funds as
                                                                                                                                                AIF
Appropriations Act, 2013, appropriated nearly $568.81 for INCLE, bringing                                                           appropriated, obligated, or disbursed.
cumulative funding to more than $4.18 billion. Of this amount, more than                                                            Appropriations: Total monies available
$3.53 billion had been obligated, of which nearly $2.79 billion had been dis-                                                       for commitments
                                                                                                                                               DOD
bursed.49 Figure 3.18 shows INCLE appropriations by fiscal year.                                                                    Obligations: Commitments to pay monies
   State reported that cumulative obligations as of September 30, 2013,
                                                                                                                                    Disbursements: Monies that have been
increased by more than $62.97 million compared to cumulative obligations
                                                                                                                                    expended
as of June 30, 2013. Cumulative disbursements as of September 30, 2013,                                                                                  TFBSO
increased by more than $95.86 million over cumulative disbursements as of                                                           Source: State, response to SIGAR data call, 4/9/2010.

June 30, 2013.50 Figure 3.19 provides a cumulative comparison of amounts
                                                                                                                                                  DOD
appropriated, obligated, and disbursed for INCLE.

FIGURE 3.18                                                       FIGURE 3.19

INCLE APPROPRIATIONS BY FISCAL YEAR                               INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                      ($ BILLIONS)




$700                                                              $4.5

                                                                                      Appropriated                 Appropriated
$600                                                                                  $4.15                        $4.18
                                                                  $4.0

$500
                                                                                                                   Obligated
                                                                  $3.5                Obligated
                                                                                                                   $3.53
                                                                                      $3.47
$400
                                                                  $3.0
$300                                                                                                               Disbursed
                                                                                      Disbursed                    $2.79
                                                                                      $2.69
                                                                  $2.5
$200


$100                                                              $2.0


   $0                                                               $0
        02 03 04 05 06 07 08 09 10 11 12 13                              As of Jun 30, 2013           As of Sep 30, 2013

Notes: Numbers have been rounded. Data may include inter-agency transfers. Updated data resulted in a higher appropriation figure
for FY 2012.
Sources: State, responses to SIGAR data call, 10/18/2013 and 7/15/2013.




REPORT TO THE UNITED STATES CONGRESS                          I   OCTOBER 30, 2013                                     77
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).51

Contributions to the Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan opera-
tional and development budgets comes through the ARTF. From 2002 to
September 22, 2013, the World Bank reported that 33 donors had pledged
nearly $6.92 billion, of which more than $6.52 billion had been paid
in.52 According to the World Bank, donors have pledged approximately
$804.52 million to the ARTF for Afghan fiscal year 1392, which runs from
December 21, 2012, to December 20, 2013.53 Figure 3.20 shows the 10 largest
donors to the ARTF for FY 1392.

FIGURE 3.20

ARTF CONTRIBUTIONS FOR FY 1392, BY DONOR, AS OF SEPTEMBER 22, 2013 ($ MILLIONS)

                                                    Total Commitments: $805         Total Paid In: $407
                                                                                                               219
   United States        0
                                                                              130
United Kingdom                                                                130
                                                                       110
           Japan                                                       110
                                                            81
        Germany         0
                                                           77
           EC/EU                              40
                                                      62
        Australia                                     62
                                          37
         Sweden                    22
                                         34
     Netherlands        0
                              15
         Canada             12
                            13
          Finland            13
                                    25
           Others             17

                    0                          50                100                150                  200         250
                                                       Commitments                             Paid In

Notes: Numbers have been rounded. FY 1392 = 12/21/2012–12/20/2013.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of September 22, 2013 (end of 9th month of FY
1392)," p. 1.




    78                                   SPECIAL INSPECTOR GENERAL             I    AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




   As of September 22, 2013, the United States had pledged more than             FIGURE 3.21
$1.96 billion and paid in more than $1.74 billion since 2002.54 The United
                                                                                 ARTF CONTRIBUTIONS PAID IN BY DONORS
States and the United Kingdom are the two biggest donors to the ARTF,            SY 1381 (2002)–SEPTEMBER 22, 2013
together contributing approximately 46% of its total funding, as shown in        (PERCENT)

Figure 3.21.
   Contributions to the ARTF are divided into two funding channels—                              Total Paid In: $6.5 billion
the Recurrent Cost (RC) Window and the Investment Window.55 As of
September 22, 2013, according to the World Bank, more than $2.88 billion
of ARTF funds had been disbursed to the Afghan government through the                                     United States
                                                                                                          27%
RC Window to assist with recurrent costs such as salaries of civil servants.56
                                                                                                                      United
The RC Window supports the operating costs of the Afghan government                              Others               Kingdom
because the government’s domestic revenues continue to be insufficient                           31%                  19%
to support its recurring costs. To ensure that the RC Window receives ade-
                                                                                                                                 Canada
quate funding, donors to the ARTF may not “preference” (earmark) more                                                            9%
than half of their annual contributions for desired projects.57
   The Investment Window supports the costs of development programs. As                      EC/EU
                                                                                             7%                      Germany
of September 22, 2013, according to the World Bank, more than $2.97 billion                                          7%
had been committed for projects funded through the Investment Window, of
                                                                                 Notes: Numbers have been rounded. EC/EU = European
which nearly $2.14 billion had been disbursed. The World Bank reported 20        Commission/European Union. "Others" includes 28 donors.
active projects with a combined commitment value of nearly $1.79 billion,        Source: World Bank, "ARTF: Administrator's Report on
                                                                                 Financial Status as of September 22, 2013 (end of 9th
of which approximately $962.70 million had been disbursed.58                     month of FY 1392)," p. 5.



Contributions to the Law and Order Trust Fund for Afghanistan                    FIGURE 3.22

The United Nations Development Programme (UNDP) administers the                  DONORS' CONTRIBUTIONS TO THE LOTFA
LOTFA to pay ANP salaries and build the capacity of the Ministry of              SINCE 2002, AS OF JUNE 30, 2013 (PERCENT)
Interior.59 Since 2002, donors have pledged nearly $3.38 billion to the
LOTFA, of which more than $3.06 billion had been paid in, according to the
                                                                                                 Total Paid In: $3.1 billion
most recent data available.60 The LOTFA’s sixth support phase started on
January 1, 2011. On March 20, 2013, the UNDP-LOTFA Steering Committee
approved an extension of Phase VI to continue the phase beyond the
planned end date of March 31, 2013, to December 31, 2013. In the 30 months
since Phase VI began, the UNDP had transferred more than $1.26 billion                        United States         Japan
from the LOTFA to the Afghan government to cover ANP and Central                              37%                   30%
Prisons Directorate staff remunerations and an additional $27.86 million for
capacity development and other LOTFA initiatives.61 As of June 30, 2013,                           Others       EU
                                                                                                   13%          14%
donors had committed nearly $1.85 billion to the LOTFA for Phase VI. Of
that amount, the United States had committed nearly $859.37 million, and
                                                                                                               Germany
Japan had committed more than $614.76 million. Their combined commit-                                          6%
ments make up nearly 80% of LOTFA Phase VI commitments. The United
States had contributed more than $1.12 billion to the LOTFA since the            Notes: Numbers have been rounded. EU = European Union.
                                                                                 "Others" includes 18 donors.
fund’s inception.62 Figure 3.22 shows the four largest donors to the LOTFA
                                                                                 Sources: UNDP, "LOTFA Phase VI Quarterly Progress Report
since 2002, based on the latest data available.                                  Q2/2013," 8/11/2013, p. 66; SIGAR analysis of UNDP's
                                                                                 quarterly and annual LOTFA reports, 10/21/2013.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             79
SECURITY CONTENTS

Key Issues and Events This Quarter	         81
Security Environment	                       86
U.S. and Coalition Forces in Afghanistan	   87
ANSF Strength	                              87
Afghan Local Police	                        88
Afghan Public Protection Force	             89
ANSF Assessments	                           89
Ministry of Defense and Ministry of
Interior Assessments	                       91
Afghan National Army	                       92
Afghan National Police	                     97
ANSF Medical/Health Care	                   101
Removing Unexploded Ordnance	               101
Counternarcotics	102




  80
                                                              SECURITY




SECURITY
As of August 31, 2013, the U.S. Congress had appropriated nearly $54.3 bil-
lion to support the Afghan National Security Forces (ANSF). Most of these
funds ($52.8 billion) were appropriated through the Afghanistan Security
Forces Fund (ASFF) and provided to the Combined Security Transition
Command-Afghanistan (CSTC-A). Its purpose is to build, equip, train, and
sustain the ANSF, which comprises the Afghan National Army (ANA) and
the Afghan National Police (ANP). Of the $52.8 billion appropriated for the
ASFF, approximately $47.0 billion had been obligated and $43.5 billion dis-
bursed as of August 31, 2013.63
   This section discusses assessments of the ANSF and the Ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,
train, and sustain the ANSF; and provides an update on efforts to combat
the cultivation of and commerce in illicit narcotics in Afghanistan. This sec-
tion also discusses the challenges to transitioning to Afghan-led security by
the end of 2014.


KEY ISSUES AND EVENTS THIS QUARTER
Key issues and events this quarter include continuing U.S. and Afghan con-
cerns over ANSF casualties, a tentative new U.S.-Afghan bilateral security
agreement, the appointment of a new Afghan Minister of Interior, the with-
drawal of German forces from Kunduz, the ongoing process of transition to
Afghan-led security, release of the latest U.S. Civil-Military Strategic frame-
work, and the implementation of a new process to assess the readiness of
the ANSF.

ANSF Casualties and Attrition
Senior U.S. and Afghan officials expressed continuing concern this quarter
about the high number of ANSF casualties and their effect on the forces. In
a September 2013 media interview, International Security Assistance Force
(ISAF) commander, General Joseph Dunford, reportedly stated, “I’m not
assuming that those casualties are sustainable.”64 According to the news
article, General Dunford said the ANSF are losing too many people and may
need up to five years of support before they can fight on their own.65




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              81
SECURITY




   In addition, according to media reports, Afghanistan’s new Interior
Minister, Umar Daudzai, said in a September 2 speech, “In the last six
months of this (Islamic calendar) year 1,792 Afghan policemen have lost
their lives and over 2,700 were wounded.”66 During a press briefing last
quarter, General Dunford said, “Afghan casualties are among my top con-
cerns,” and noted that the ANSF was “suffering in some cases 100 or 120
killed in action in a week.”67
   The Department of Defense’s (DOD) July 2013 Report on Progress
Toward Security and Stability in Afghanistan, said the ANSF is near its end-
strength goal of 352,000 personnel and “is conducting almost all operations
independently” resulting in lower ISAF casualties.68 However, that report
also showed a rise in the number of ANSF killed in action since 2010. In
March 2013 (the latest date available in the DOD report), more than 300
ANSF were killed. DOD noted that ANSF casualties are based on ISAF oper-
ational reporting, which “is expected to under-represent the actual number
of ANSF casualties.”69
   This quarter, SIGAR requested an update on ANSF casualties; however, the
response the U.S. Central Command (CENTCOM) provided was classified.70
DOD has reported Afghan casualty trends in past reports but does not report
specific Afghan casualty numbers.
   In his September 2013 report on Afghanistan, the United Nations (UN)
Secretary-General noted that “the number of casualties [the ANSF] endure
has risen considerably.”71 According to the Secretary-General, more than
3,500 Afghan military personnel were reportedly wounded or killed in
action, during the second quarter of this year. The MOI reported that 299
ANP personnel were killed between mid-May and mid-June—a 22% increase
over the same period in 2012. The Secretary-General also said that insider
attacks were still a problem. Between May 16 and August 15, there were
two such attacks against Coalition forces in Kandahar and Paktika, for
which the Taliban took responsibility, and five attacks involving Afghan
forces in Herat, Helmand, and Kunar.72
   The Secretary-General also cited ongoing problems with large-scale
unauthorized absences—mainly in the ANA—with attrition, from all causes,
as high as 2.4% per month.73 According to the latest numbers from CSTC-A,
in August 2013, the ANA’s attrition was 2.4% and the ANP’s was 1.5%. From
September 2011 through August 2013, the ANA’s monthly attrition rate has
averaged 2.5%, but has reached as high as 4.1% in January 2013; the ANP’s
has averaged 1.3% and has reached as high as 1.9% in October 2011 and
again in July 2013.74
   ANA personnel absent without leave (AWOL) were also a problem.
According to CSTC-A, 8,797 personnel—or 5.3% of the ANA—were AWOL
during its most recent tally in August 2013.75 Although SIGAR also requested
the number of ANP personnel who were AWOL, CSTC-A did not provide
that data.




  82                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




Bilateral Security Agreement
On October 11, Secretary of State John Kerry met with President Karzai in
Kabul to negotiate a bilateral security agreement (BSA) to determine the
status and role of U.S. forces who stay in Afghanistan after their combat
mission ends in 2014. According to State, the two sides shared ideas and
concerns regarding an agreement. At an October 12 joint press conference,
President Karzai said that he and Secretary Kerry agreed that the United
States will not conduct counterterrorism operations by itself but with
Afghan forces, will provide a written guarantee for the safety of the Afghan
people from home invasion, and clearly commit to respect and honor the
nation’s sovereignty. However, President Karzai said the question of whether
Afghanistan will accept the U.S. demand that the remaining U.S. troops be
under the jurisdiction of U.S. military courts and not Afghan courts will be
decided by a grand council of elders, or Loya Jirga, to be called at the end
of November. If the Loya Jirga approves immunity for U.S. troops, then the       Secretary of State Kerry holds press
agreement goes to Afghanistan’s parliament for approval.76 The United States     conference with President Karzai on the
and Afghanistan have been negotiating a BSA since November 15, 2012.77           BSA at the Presidential Palace in Kabul on
   In an October media interview, President Obama said he prefers that the       October 12, 2013. (State photo)
ANSF handle Afghanistan’s security needs, but recognized that they are not
yet ready to take on full responsibility. According to the media account,
he would consider leaving behind some troops in a training and advisory
capacity, but believes a BSA is required to ensure protection for U.S. troops
who stay behind.78
   In previous statements, President Karzai has indicated his wish to see
U.S. forces remain in Afghanistan after the withdrawal of international
forces at the end of 2014. He has stressed that any deal should “preserve the
national interests of Afghanistan.”79

New Minister of Interior
On September 1, 2013, President Karzai named Umar Daudzai as the new
Minister of Interior; Daudzai was formally appointed on September 25,
according to media reports.80 Daudzai, Afghanistan’s former ambassador to
Pakistan, replaced Ghulam Majtaba Patang, who lost a vote of confidence
in the Afghan parliament less than a year after his appointment for failing to
improve security conditions.81

German Troops Leave Kunduz
German forces handed over command of their base in Kunduz to Afghan
forces in an October 6 ceremony attended by Germany’s defense and for-
eign ministers, according to a German media report. All 900 German troops
in Kunduz are expected to withdraw by the end of October.82 Germany has
been the lead nation for security in nine northern Afghan provinces. As
of August 1, a total of 4,400 German troops were serving in Afghanistan.83




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             83
SECURITY




According to German media, many Kunduz residents are worried about the
security environment following the withdrawal of German forces.84

Transition Progress
Since last quarter, all five geographic “tranches” of Afghanistan were tran-
sitioning to ANSF-led security. By December 2014, the transition process
will be complete and the ANSF will be fully responsible for security in
Afghanistan, according to DOD.85
    During the transition process, ISAF will continue to engage in combat
operations where necessary through 2014, and will remain committed to
support the ANSF with key “enablers” like air, aviation, medical support,
intelligence, counter-IED, signal, and logistics, according to DOD. However,
the ANSF will be responsible for day-to-day execution of operations.
The ANSF also will plan, prepare, and execute counterinsurgency opera-
tions with advice and enabler support provided by their Security Force
Assistance Teams. The Afghan government, principally through its security
ministries, will provide direction and policy for operations.86
    DOD says ISAF will retain military assets in or near transitioning areas
to ensure that security is properly maintained, and continue to provide the
ANSF with training, advising, and assistance support. As ANSF capabilities
improve, the level of ISAF support will be adjusted, allowing ANSF to take
on greater responsibility.87

U.S. Civil-Military Strategic Framework
In August, DOD and State released the latest revision of the U.S. Civil-
Military Strategic Framework for Afghanistan. The framework, which
replaces an October 2012 version, provides strategic guidance for all
American civilian and military personnel serving in Afghanistan and out-
lines U.S. priorities through what the framework calls the “transformation
decade” of 2015–2024.88 The United States has two goals in Afghanistan:
disrupt, dismantle, and defeat al-Qaeda and its affiliates and strengthen
Afghanistan so it can never again be a haven for terrorists.89
    Security is the foundation of the framework, necessary to enable prog-
ress in the governance, rule of law, and economic development sectors.
According to the framework, the role of the United States is changing as
ISAF transitions security responsibility to the Afghans. U.S. and Coalition
forces will shift to supporting the ANSF, setting the conditions for the U.S.
government to focus on governance and development in the transforma-
tion decade.90
    In developing the revised framework, U.S. planners made several
assumptions, including the following security-sector assumptions:91
 •	 The Afghan government’s strategic goals remain generally congruent
    with U.S. goals in Afghanistan through the transformation decade.




  84                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




•	 The U.S. and Afghan governments will negotiate and conclude a
   bilateral security agreement and NATO will conclude a status of forces
   agreement with the Afghan government to define long-term security
   partnerships beyond 2014.
•	 There will be a NATO train, advise, and assist mission at the end of the
   ISAF mandate.
•	 Afghan government revenue generation will not cover operating
   expenditures, including increased security spending, and development
   costs until sometime after 2025.

   That last point is significant because it indicates that Afghanistan will
need to rely on international assistance if it is to fund its government and
security forces for at least another 12 years.

Implementation of New ANSF Assessment Process
This quarter, the ISAF Joint Command (IJC) stated that, as of August 15,
a new reporting mechanism would be used to assess the ANSF. The new
Regional Command ANSF Assessment Report (RASR) is the third assess-
ment tool used by ISAF to rate the ANSF since 2005.92
   The first was the Capability Milestone (CM) rating system. SIGAR
audited the CM rating system in 2010 and found that it had not provided
reliable or consistent assessments of ANSF capabilities, had overstated
                                                                                 SIGAR AUDIT
ANSF operational capabilities, had inadvertently created disincentives for       An ongoing SIGAR audit is examin-
ANSF development, and had included outdated data. Moreover, ANSF units           ing the methods and tools used to
given a top rating using the rating system were not capable of sustaining        measure and evaluate the ANSF’s
independent operations. IJC concurred or partially concurred with all ten of     operational effectiveness, including
SIGAR’s recommendations at the conclusion of the audit report.93                 the extent to which these methods and
   In April 2010, during the course of SIGAR’s audit, IJC replaced the CM        tools are consistently applied, reliable,
rating system with the Commander’s Unit Assessment Tool (CUAT).94 Since          and validated.
the implementation of the CUAT, SIGAR has tracked assessments of the
ANSF in the security section of its quarterly reports. Assessments of the
ANA and ANP are indicators of the effectiveness of U.S. and Coalition
efforts to build, train, equip, and sustain the ANSF. These assessments also
provide both U.S. and Afghan stakeholders with updates on the status of
these forces as transition continues and Afghanistan assumes responsibility
for its own security.
   Last year, SIGAR initiated an audit of the CUAT in order to rate its effec-
tiveness as an assessment tool. That audit will be released next quarter. Due
to implementation of the new RASR assessment process, SIGAR could not
use and compare CUAT reports for assessing the progress of the ANSF in
this report. For more information on the RASR assessment tool, see “ANSF
Assessments” later in this section of the report, page 89.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              85
SECURITY




SECURITY ENVIRONMENT
From May 16 to August 15, the UN recorded 5,922 security incidents—an
11% increase compared with the same period in 2012, but a 21% decrease
from 2011. Armed clashes and improvised explosive devices constituted the
majority of events (4,534 or 77% of the total). Insurgents also focused on
attacking security checkpoints and bases that Coalition forces had handed
over to Afghan forces. According to the UN Secretary-General, the ANSF
was generally effective in protecting key urban and district administrative
centers as well as strategic transport routes. As in previous quarters, the
southern, southeastern, and eastern provinces accounted for the most secu-
rity incidents (69% between May 16 and August 15).95
    The Secretary-General also said that insurgents conducted a number of
“spectacular” attacks in urban areas during the same reporting period. From
May 16 to August 15, there were 33 suicide incidents—seven in Kabul—
compared to seven for all of 2012 and 16 in 2011. On August 3, in Jalalabad,
Nangarhar, the Indian Consulate was the target of a complex suicide attack;
all casualties were Afghan security personnel and civilians.96

Attack on U.S. Consulate in Herat
On September 13, Taliban militants attacked the U.S. Consulate in Herat.
Killed in the attack were three Afghans guards and an interpreter; nearly
20 people were wounded, none were American.97 According to State, the
attackers began by detonating a vehicle-borne improvised explosive device
(VBIED) in front of the U.S. Consulate, damaging the outer gate. The attack-
ers then fired a rocket-propelled grenade at the Consulate and detonated




U.S. Army soldiers react to potential threat at the U.S. Consulate in Herat on
September 19, 2013. (DOD photo)




   86                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




another VBIED. Consulate security personnel “neutralized several suicide
bombers attempting to breach the compound.” Although the front gate was
damaged, the Consulate’s interior compound was not breached.98

Civilian Casualties
In a July 2013 report, the UN Assistance Mission in Afghanistan (UNAMA)
found that civilian deaths and injuries were 23% higher in the first six
months of 2013 compared to the same period in 2012. UNAMA documented
3,852 civilian casualties—1,319 deaths and 2,533 injuries—from January to
June 2013, a 14% increase in deaths and 28% increase in injuries. According
to UNAMA, this rise in civilian casualties reverses the decline in 2012, and
marks a return to the high numbers of civilian casualties documented in
2011. UNAMA attributed 74% of civilian casualties to “Anti-Government
Elements,” 9% to “Pro-Government Forces”, and 12% to engagements
between those combatants. The remaining 4% were unattributed, caused
mainly by the explosion of abandoned or as-yet-unexploded ordnance.99


U.S. AND COALITION FORCES IN AFGHANISTAN
According to CENTCOM, 64,000 U.S. forces were serving in Afghanistan
as of September 30, 2013. Of those, approximately 1,600 were assigned
to the NATO Training Mission-Afghanistan (NTM-A)/CSTC-A.100 In addi-
tion, approximately 27,000 non-U.S. international troops were serving in
Afghanistan as of October 1, 2013.101 Since operations began in 2001, a total
of 2,143 U.S. military personnel have died in Afghanistan—83% of whom
were killed in action—and 19,334 were wounded as of October 1, 2013.102


ANSF STRENGTH
This quarter, ANSF’s assigned force strength was 336,587 (183,434 assigned
to the ANA and Afghan Air Force, and 153,153 assigned to the ANP), accord-
ing to data provided by CSTC-A.103 The ANSF’s assigned strength includes
                                                                                SIGAR AUDIT
personnel in training and cadets, as well as both personnel in the field        An ongoing SIGAR audit is assessing
(engaged in combat operations) and those who were “in barracks.” SIGAR          the reliability and usefulness of data
requested the number of personnel who were sick or on leave, but CSTC-A         for the number of ANSF personnel
did not identify those personnel separately in their response. The assigned     authorized, assigned, and trained.
strength is short of the goal to have an end strength of 352,000 ANSF person-
nel—195,000 in the ANA and Air Force and 157,000 in the ANP—by October
2012 that was given in DOD’s April 2012 report on Progress Toward Security
and Stability in Afghanistan.104 DOD revised this goal to 352,000 ANSF by
2014 (187,000 ANA by December 2012, 157,000 ANP by February 2013, and
8,000 Air Force by December 2014) when that end-strength was not met.105
Neither the ANA nor the ANP met their end-strength goal by the revised
deadline, as shown in Table 3.2 on the following page.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             87
                                                                     SECURITY




TABLE 3.2


ANSF ASSIGNED STRENGTH, AUGUST 20, 2013
 ANSF Component                  Current Target                                    Status as of 5/2013           Difference Between Current Strength and Target End-Strength Goals
 Afghan National Army            187,000 personnel by December 2012                         176,818                                         -10,182
 Afghan National Police          157,000 personnel by February 2013                         153,153                                             -3,847
 Afghan Air Force                8,000 personnel by December 2014                               6,616                                           -1,384
 ANSF Total                      352,000                                                   336,587                                         -15,413
Sources: DOD, Progress Toward Security and Stability in Afghanistan, 12/2012, p. 56; CSTC-A, response to SIGAR data call, 10/1/2013.



                                                                     AFGHAN LOCAL POLICE
                                                                     This quarter, 24,286 personnel were assigned to the Afghan Local
                                                                     Police (ALP), according to U.S. Forces-Afghanistan (USFOR-A). As of
                                                                     September 30, 2013, the United States has obligated $152.7 million and
                                                                     expended $150 million of ASFF funds to support the ALP. The ALP is sched-
                                                                     uled to reach 30,000 members in December 2014. At that strength, the ALP
                                                                     is estimated to cost $117 million per year—including $68 million in sala-
                                                                     ries—to sustain in fiscal years (FY) 2015 to 2018, according to USFOR-A.106
                                                                     DOD said a 30,000-strong ALP will cost $180 million a year.107
                                                                         According to DOD, the ALP has demonstrated an ability to defend vil-
                                                                     lages against insurgents and also coordinate with Afghan civil and military
                                                                     authorities. DOD reported the ALP battled enemy forces up to ten times
                                                                     more often than other Afghan security forces and successfully defended
                                                                     its positions over 80% of the time.108 In his September 2013 report, the UN
                                                                     Secretary-General said the ALP has “borne an increasingly disproportion-
                                                                     ate brunt of attacks by anti-government elements.”109 The Taliban have
                                                                     attempted on many occasions to infiltrate the ALP. However, DOD main-
                                                                     tains the ALP has shown a unique resistance to this form of pressure due
                                                                     to the fact that its members are from the villages they protect and quickly
                                                                     recognize outside infiltrators. In addition, DOD said that during the first
                                                                     part of this current fighting season, the ALP has often been successful in
                                                                     coordinating with the Afghan government (at the district and provincial
                                                                     level) and with the Ministry of Defense (MOD) and Ministry of Interior
                                                                     (MOI) to defend their communities against Taliban aggression.110
                                                                         The ALP program’s primary challenge is the MOI’s ability to properly
                                                                     support and manage the ALP as a pillar under the Afghan Uniform Police
                                                                     (AUP), according to DOD. The NATO Special Operations Component
                                                                     Command-Afghanistan (NSOCC-A) and the MOI have implemented an
                                                                     initiative to meet immediate ALP support requirements and to build an
                                                                     enduring logistics and support capacity for the ALP in the MOI.111
                                                                         In an October 7 Afghan media report, members of the Meshrano Jirga,
                                                                     the upper house of the Afghan parliament, criticized the ALP over alleged
                                                                     unauthorized activities. The senators urged the ALP’s integration with the
                                                                     national police force.112




                                                                         88                             SPECIAL INSPECTOR GENERAL           I    AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




AFGHAN PUBLIC PROTECTION FORCE
The Afghan Public Protection Force (APPF) is a state-owned enter-
                                                                                     SIGAR AUDIT
prise under the authority of the MOI that provides security services in
Afghanistan. Following President Karzai’s 2010 announcement to disband               A SIGAR audit report released at the
private security companies (PSCs) and transfer protection responsibilities           end of last quarter found that the tran-
to the APPF, the Afghan government implemented a bridging strategy for a             sition to APPF-provided security has
phased transition to the public security company.113                                 had a minimal effect on projects, but
   As part of that strategy, security for development and humanitarian proj-         only because implementing partners
ects would transition from PSC responsibility to the APPF by March 20,               hired risk management companies to
2012.114 Security for military installations was scheduled to be transferred         fill APPF capacity gaps and perform
to the APPF in March 2013. In October 2012, however, IJC told SIGAR that             critical functions.
meeting the deadline was “extremely unlikely.”115 As of September 30, 2013,
only three military forward operating bases (FOBs) were secured by APPF
personnel; 47 FOBs were still secured by PSCs.116
   The APPF recruits officers and non-commissioned officers (NCOs) from
the ANP. New recruits attend courses on facility, convoy, and personal
security at the APPF Regional Training Center. And in some cases, trained
guards also transition directly from private security companies into the
APPF. According to the most recent assessment of the APPF, they are “par-
tially capable of conducting full spectrum security services with coalition
support,” according to CSTC-A. The United States has provided more than
$51 million to support the APPF.117
   As of September 30, 2013, the APPF comprised 19,612 personnel, accord-
ing to CSTC-A. APPF numbers are not counted as ANSF.118


ANSF ASSESSMENTS
In prior quarterly reports, SIGAR has tracked the progress of the ANSF
using the Commander’s Unit Assessment Tool (CUAT) provided by DOD
or IJC. However, the IJC’s latest data is based on a new assessment
                                                                                 FIGURE 3.23
mechanism, the Regional Command ANSF Assessment Report (RASR).
According to IJC, the RASR is a “holistic intelligence, operational, and         CHANGES IN RATING DEFINITION LEVELS
sustainment assessment and reporting mechanism” of the ANSF.119 The
RASR will use new rating definition levels (RDLs), based upon ANSF
capabilities, to assess ANSF units at the brigade level.120 The RDLs for the                CUAT                           RASR
RASR are different than those used in the CUAT, as shown in Figure 3.23.
                                                                                  Independent with Advisors            Fully Capable
According to IJC, the previously used RDLs “conflate the relationship/
                                                                                    Effective with Advisors               Capable
reliance of ANSF on Coalition forces, rather than describing actual ANSF
                                                                                    Effective with Partners           Partially Capable
unit capabilities.” IJC also said the adjustment was needed as Coalition
                                                                                   Developing with Partners              Developing
forces drawdown and ISAF loses the ability to advise and observe previ-
ously partnered ANSF units.121                                                            Established                   Established

   The new RDLs use a simplified assessment matrix that is tailored to
the specific unit type (e.g. infantry, intelligence, signals) and identify the   Notes: CUAT rating definition levels are as of August 2011;
                                                                                 RASR rating definition levels are as of August 2013.
capabilities a unit must possess in order to be assessed “fully capable.”        Source: IJC, response to SIGAR data call, 9/30/2013.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             89
SECURITY




According to IJC, “this simplified system is easily observable, not as labor
intensive or complex, and could form the basis of Afghan ‘self reporting’ as
ISAF continues to draw down.”122
   Because the RASR assesses the ANSF mainly at the brigade level or
higher, fewer units at the “kandak” or battalion level will be assessed. For
example, in the CUAT report provided to SIGAR last quarter, 312 ANA and
515 ANP units—including both brigade-level and higher units and kan-
daks—were assessed using the CUAT.123 The most recent RASR assessed 64
ANA and 21 ANP units.124
   And unlike CUAT reports, which were issued quarterly, the RASR is a
monthly report.125 IJC said that this could result in fluctuations as a unit may
be rated “fully capable” one month, regress to “capable” and then return to
“fully capable” within the same quarter.126
   According to the latest RASR report, 20 of 64 ANA units and 8 of 21
ANP units were rated “fully capable,” as shown in Figure 3.24.127
   According to the UN Secretary-General, there remains a notable shortage
of logistical, air support, medical evacuation, and counter improvised explo-
sive device (IED) capabilities within the ANSF.128

FIGURE 3.24


RASR RATINGS OF THE ANSF, SEPTEMBER 2013

30


25
                                                                                         ANA Total: 65

20                                                                                       ANP Total: 21


15


10


 5


 0
        Fully Capable        Capable        Partially Capable   Developing         Established       Not Assessed


Note: The RASR Assessment provided by IJC showed 64 ANA units assessed by the RASR in September 2013. However, all
ANA units in the RASR added up to 72 ANA units including those waiting to be fielded and 65 ANA units excluding those
waiting to be fielded.
Source: IJC, response to SIGAR data call, 9/30/2013.




     90                         SPECIAL INSPECTOR GENERAL               I    AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




MINISTRY OF DEFENSE AND MINISTRY OF
INTERIOR ASSESSMENTS
Assessments of the MOD and the MOI showed some progress and some
regression this quarter. To rate the operational capability of these minis-
tries, NTM-A uses the Capability Milestone (CM) rating system. This system
assesses staff sections (such as the offices headed by assistant or deputy
ministers) and cross-functional areas (such as general staff offices) using
four primary and two secondary ratings:129
•	 CM-1A: capable of autonomous operations
•	 CM-1B: capable of executing functions with coalition oversight only
•	 CM-2A: capable of executing functions with minimal coalition assistance
•	 CM-2B: can accomplish its mission but requires some coalition assistance
•	 CM-3: cannot accomplish its mission without significant coalition assistance
•	 CM-4: exists but cannot accomplish its mission

    At the MOD, all 46 staff sections and cross-functional areas were
assessed this quarter. Of those, two progressed and four regressed. Last
quarter, the Logistics Command became the first MOD office to achieve the
highest rating of CM-1A (capable of autonomous operations).130
    The other offices that received a higher rating this quarter were:131
 •	 ANA Training Command (CM-1B)
 •	 Ministry of Defense Chief of Health Affairs (CM-2B)
The four MOD offices that regressed were the Assistant Minister of Defense
for Intel Policy (fell to CM-4), Vice Chief of General Staff for the Air Force
(CM-3), General Staff Logistics (CM-3), and the First Deputy Minister of
Defense (CM-2A).132 The MOD Office for Gender Integration is still rated
CM-4, meaning that it cannot accomplish its mission.133
    All 32 staff sections at the MOI were assessed; six progressed and none
regressed since last quarter. No MOI sections were rated CM-4, as shown
in Figure 3.25 on the following page. Those whose ratings increased this
quarter were:134
 •	 Deputy Minister for Security - Afghan National Civil Order Police (CM-1A)
 •	 Deputy Minister for Security - GDPSU (CM-1B)
 •	 Deputy Minister for Security - Plans and Operations (CM-1B)
 •	 Deputy Minister for Security - Force Readiness (CM-1B)
 •	 Deputy Minister for Support - Logistics (CM-2B)
 •	 Deputy Minister for Support - Facilities and Installations (CM-2B)

   As of this quarter, two MOI staff sections had achieved the highest rat-
ing of CM-1A (capable of autonomous operations): the Chief of Staff Public
Affairs Office and the Deputy Minister for Security Office of the Afghan
National Civil Order Police.135




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              91
                                                                    SECURITY




FIGURE 3.25


CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY CHANGE

                                                            MOD                                                                                       MOl

CM-1A: capable of                           1                                                                                     1
autonomous operations          CM-1A                                                                            CM-1A
                                            1                                                                                         2
CM-1B: capable of                                               6                                                                             4
executing functions with       CM-1B                                                                            CM-1B
coalition oversight only                                        6                                                                                         6
CM-2A: capable of                                                                                     15                                                                             12
executing functions with       CM-2A                                                                            CM-2A
minimal coalition assistance                                                                          15                                                                  9

CM-2B: can accomplish its                                                                                  16                                                     8
mission but requires some      CM-2B                                                                            CM-2B
coalition assistance                                                                                  15                                                                      10
CM-3: cannot accomplish its                                          7                                                                                        7
mission without significant    CM-3                                                                             CM-3
coalition assistance                                                 7                                                                            5

CM-4: exists but cannot                     1                                                                               0
accomplish its mission         CM-4                                                                             CM-4
                                                2                                                                           0

                                       0            3       6             9           12         15                     0                 3           6               9            12        15


                                           Q3 MOD Staff Sections              Q4 MOD Staff Sections                             Q3 MOI Staff Sections                     Q4 MOI Staff Sections


Sources: CSTC-A, responses to SIGAR vetting, 7/15/2013; CSTC-A responses to SIGAR data call, 7/2/2013 and 10/1/2013.



                                                                    AFGHAN NATIONAL ARMY
                                                                    As of August 31, 2013, the United States had obligated $31 billion and dis-
                                                                    bursed $29.1 billion of ASFF funds to build, train, and sustain the ANA.136

                                                                    ANA Strength
                                                                    As of August 21, 2013, the overall strength of the ANA was 183,434 per-
                                                                    sonnel (176,818 Army and 6,616 Air Force), according to CSTC-A. This
                                                                    is a decrease of 1,853 since last quarter, as shown in Table 3.3. The total
                                                                    includes 13,717 trainees, students, and those awaiting assignment, as well
                                                                    as 4,736 cadets. According to CSTC-A, the ANA includes 8,698 civilians
                                                                    (both ANA and Air Force personnel) in determining its end strength.137
                                                                    SIGAR’s reporting of ANA’s end strength does not include these civilians,
                                                                    but does count unassigned military personnel and cadets.

                                                                    ANA Sustainment
                                                                    As of August 31, 2013, the United States had obligated $10.8 billion and dis-
                                                                    bursed $10.4 billion of ASFF funds for ANA sustainment.138
                                                                      As part of sustainment funding, the United States has provided the ANA
                                                                    with ammunition at a cost of approximately $1.15 billion, according to
                                                                    CSTC-A.139




                                                                         92                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                             SECURITY




TABLE 3.3


ANA STRENGTH, QUARTERLY CHANGE
                                                 Authorized                                           Assigned
                                                                  Quarterly                                          Quarterly
 ANA Component                    Q2 2013         Q3 2013          Change           Q2 2013           Q3 2013         Change
 201st Corps                        17,638           18,130           +492            18,116            18,636         +520
 203rd Corps                        20,002           20,798           +796            20,288            20,220           -68
 205th Corps                        18,287           19,097           +810            19,351            19,331           -20
 207th Corps                        14,097           14,879           +782            14,279            13,753          -526
 209th Corps                        14,236           15,004           +768            13,371            14,681       +1,310
 215th Corps                        16,733           17,555           +822            17,447            17,640         +193
 111th Capital Division               9,174            9,174          None              8,619            9,492         +873
 Special Operations Force           12,238           11,013         -1,225            10,970            10,925           -45
 Echelons Above Corpsa              38,773           36,275         -2,498             33,685           33,687            +2
 TTHS b                                     -                -             -           22,700   c       18,453   d    -4,247
 ANA Total                       161,218            161,925         +707           178,826            176,818        -2,008
 Afghan Air Force (AAF)               7,097            7,097          None              6,461            6,616         +155
 ANA + AAF Total                 168,315          169,022           +707           185,287            183,434        -1,853
Notes: Q2 data is as of 5/21/2013; Q3 data is as of 8/20/2013.
a	Includes MOD, General Staff, and Intermediate Commands
b	Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel
c	Includes 4,667 cadets
d	Includes 4,736 cadets                                                                                                          SIGAR AUDITS
Source: CSTC-A, responses to SIGAR data calls, 7/2/2013 and 10/1/2013.
                                                                                                                                 In an audit report released this quarter,
                                                                                                                                 SIGAR found that CSTC-A was placing
ANA Salaries, Food, and Incentives                                                                                               orders for vehicle spare parts without
As of September 30, 2013, CSTC-A reported that the United States had pro-                                                        accurate information on what parts
vided nearly $1.9 billion through the ASFF to pay for ANA salaries, food,                                                        were needed or were already in stock.
and incentives since FY 2008. According to CSTC-A, $420 million was pro-                                                         CSTC-A relies on the ANA to maintain
vided for these purposes between July and September 2013.140 However, this                                                       records of vehicle spare parts availabil-
raised a question about the cumulative total of $1.9 billion, as CSTC-A last                                                     ity and future requirements. However,
quarter reported a cumulative total of $1.8 billion.141 CSTC-A also estimated                                                    the ANA has not been consistently
the annual amount of funding required for the base salaries, bonuses, and                                                        updating its inventory. For more infor-
incentives of a 195,000-person ANA at $931 million.142 This is a 36% increase                                                    mation, see Section 2, page 30.
over the $686 million estimate reported last quarter.143
                                                                                                                                 In an audit report released last quarter,
                                                                                                                                 SIGAR found that DOD was moving
ANA Equipment and Transportation                                                                                                 forward with a $771.8 million pur-
As of August 31, 2013, the United States had obligated and disbursed
                                                                                                                                 chase of aircraft for the SMW despite
$11.2 billion of the ASFF for ANA equipment and transportation.144 Most
                                                                                                                                 the SMW having less than one-quarter
of these funds were used to purchase weapons and related equipment,
                                                                                                                                 of the personnel needed, facing steep
vehicles, communications equipment, and aircraft and aviation-related
                                                                                                                                 recruitment and training challenges,
equipment. Nearly 79% of U.S. funding in this category was for vehicles
                                                                                                                                 and lacking the ability to maintain its
and transportation-related equipment, as shown in Table 3.4 on the follow-
                                                                                                                                 current aircraft fleet.
ing page. The United States has also procured nearly $774 million in other
equipment such as clothing and personal gear.145




REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2013                                      93
SECURITY




TABLE 3.4


COST OF U.S.-FUNDED ANA EQUIPMENT
 Type of Equipment                                     Procured           Remaining to be Procured
 Weapons                                             $447,161,951             $26,819,942
 Vehicles                                          $3,955,027,637                        $0
 Communications Equipment                            $609,320,331                        $0
 Total                                           $5,011,509,919             $26,819,942
Source: CSTC-A, response to SIGAR data call, 10/1/2013.



   Determining the amount and cost of equipment provided to the ANA
remains a challenge. In April 2013, CSTC-A stated that the United States
had procured $878 million of weapons for the ANA.146 In July 2013, CSTC-A
stated that the total cost for weapons was actually $623 million due to a
$153 million correction in the total cost of some equipment and accounting
for nearly $102 million in donated equipment that was not U.S.-funded.147
This quarter, CSTC-A stated that the actual total cost of weapons procured
for the ANA was $447 million. According to CSTC-A, the “decrease in the
number procured from last quarter is a result of an extensive internal audit
that revealed some equipment had been double-counted.”148
   CSTC-A also reduced its estimate of the total cost of vehicles procured
for the ANA this quarter. In July 2013, CSTC-A stated the total cost of
vehicles was $5.56 billion.149 This quarter, CSTC-A stated the actual cost of
vehicles procured was $3.96 billion. According to CSTC-A, the “decrease
in total cost from last quarter [was] due to actual, contracted equipment
pricing being lower than estimated pricing.”150 The updated cost total is
reflected in Table 3.4.
   CSTC-A also noted that the cost of weapons remaining to be procured
has increased from $226,000 last quarter to nearly $27 million this quarter
due to increased requirements for weaponry.151

Afghan Air Force Aircraft Inventory
This quarter, the Afghan Air Force inventory consisted of 105 aircraft,
according to CSTC-A:152
•	 40 Mi-17s (transport helicopters)
•	 11 Mi-35s (attack helicopters)
•	 16 C-27As (cargo planes)
•	 26 C-208s (light transport planes)
•	 6 C-182s (four-person airplane trainers)
•	 6 MD-530Fs (light helicopters)

   However, this tally of aircraft may not accurately reflect operational
capability. Last quarter, CSTC-A reported that only six Mi-35s were opera-
tional at that time.153




   94                          SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




   SIGAR has concerns about the Afghan Air Force’s reported inventory and
has requested that CENTCOM confirm the status of the 16 C-27A aircraft.
In March 2013, a DOD Office of Inspector General (DOD OIG) official told
Congress that the U.S. Air Force had stopped flying those aircraft based on
DOD OIG’s recommendation. At that time, a DOD initiative to replace those
aircraft was underway.154 In addition, SIGAR received two photos that seem
to show 16 C-27A aircraft sitting unused. SIGAR is concerned that the air-
craft CSTC-A reported as part of the Afghan Air Force’s inventory may not
be in service or may not be fit for service in the future.
   CSTC-A also noted that the number of Mi-17s was reduced from 48 last
quarter to 40 this quarter due to a “change in definition and ‘double count-
ing’ of 10 loaned aircraft to [the Special Mission Wing].”155
   Still to be procured are 20 light support aircraft, nine Mi-17 helicopters,
four C-130H cargo planes, and four C-27A cargo planes.156 Last February, the     Afghan Air Force personnel unload an
U.S. Air Force awarded a U.S. company a $427 million contract to deliver         Mi-17 out of a Russian cargo plane in Kabul
                                                                                 on September 1, 2013. (DOD Photo)
the 20 light support aircraft; the contract is capped at $950 million through
February 2019.157
   Separate from the Afghan Air Force’s inventory of aircraft is the inven-
tory of the Special Mission Wing (SMW). The SMW provides air support for
Afghan Special Forces executing counternarcotics and counterterrorism
missions.158 This quarter, the SMW inventory consisted of 30 Mi-17 heli-
copters: 13 from DOD, 10 on loan from the Afghan Air Force, five from the
United Kingdom, and two from Germany.159

ANA Infrastructure
As of August 31, 2013, the United States had obligated $6.1 billion and dis-
bursed $4.7 billion of the ASFF for ANA infrastructure.160 At that time, the
United States had completed 242 infrastructure projects (valued at $2.79 bil-
lion), with another 138 projects ongoing ($2.82 billion) and 10 planned
($106 million), according to CSTC-A. Of the ongoing projects, two new con-          SIGAR AUDITS
tracts (nearly $21 million) were awarded this quarter.161
                                                                                    In an audit report released this quarter,
   This quarter, the largest ongoing ANA infrastructure projects were a
                                                                                    SIGAR identified 52 construction
brigade garrison for the 201st Corps in Kunar (at a cost of $115.8 million),
                                                                                    projects that may not meet ISAF’s
phase one of the MOD’s headquarters in Kabul ($108 million), and a brigade
                                                                                    December 2014 construction deadline
garrison for the 205th Corps in Kandahar ($89.1 million).162
                                                                                    and would therefore be at risk due
                                                                                    to lack of oversight and increasing
ANA and MOD Training and Operations                                                 costs. In addition, SIGAR learned that
As of August 31, 2013, the United States had obligated $2.9 billion and
                                                                                    CSTC-A does not track the ANSF’s use
disbursed $2.8 billion of the ASFF for ANA and MOD operations and train-
                                                                                    of constructed facilities and cannot
ing.163 This quarter, 43,942 ANA personnel were enrolled in some type of
                                                                                    determine whether existing or planned
training, with 31,850 enrolled in literacy training, according to CSTC-A. In
                                                                                    facilities meet ANSF needs. For more
addition, 4,400 enlisted personnel were enrolled in basic warrior-training
                                                                                    information, see Section 2, page 25.
courses, 2,495 were training to become commissioned officers, and 1,302
were training to become NCOs. Other training programs include combat




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             95
SECURITY




specialty courses such as infantry training; combat-support courses such as
engineering, signals, and logistics; and courses to operate the high-mobility
multipurpose wheeled vehicles known as “Humvees.”164
   According to CSTC-A, the United States funds a variety of contracts to
train the MOD and the ANA. The largest of these are a $256 million contract
for advising, training, and supporting the MOD; a $203 million contract to
build the intelligence-collection capacity of both the ANA and ANP; and a
$76 million contract to train ANA specialized personnel to respond to IEDs
and other explosive ordnance.165

ANA Literacy
Since its start in 2009, NTM-A/CSTC-A’s literacy program has sought to achieve
greater literacy rates within the ANA. The program is based on a 312-hour
curriculum. According to CSTC-A, in order to progress from illiteracy to
functional literacy, a student may take as many as seven tests. The student’s
performance determines if he or she progresses to the next training level.166
   Level 1 literacy is the ability to read and write single words, count up
to 1,000, and add and subtract whole numbers. At Level 2, an individual
can read and write sentences, carry out basic multiplication and division,
and identify units of measurement. At Level 3, an individual has achieved
functional literacy and can “identify, understand, interpret, create, commu-
nicate, compute and use printed and written materials.”167
   As of September 30, 2013, ANA personnel who have completed a literacy
program include:168
•	 139,360 Level 1 graduates
•	 40,274 Level 2 graduates
•	 37,087 Level 3 graduates

   According to CSTC-A, NTM-A’s established goal to have 50,000 ANSF per-
sonnel achieve Level 3 or “functional literacy” before March 2014 was met
in January 2013. However, in response to a SIGAR question that asked how
many ANA personnel who had achieved Level 3 literacy were still in the
ANA, CSTC-A responded: “Answers unattainable due to insufficient ANA
personnel tracking and skill/education tracking systems.”169
   Literacy affects mission success: widespread illiteracy undermines
effective training, use of technical manuals, understanding of orders,
inventorying equipment, documenting operations, and other vital military
functions. SIGAR is therefore concerned that no one appears to know
what the overall literacy rate of the ANSF is. That requires determining
the numbers of serving personnel—net of departures, casualties, or deser-
tions—who were already literate when they joined the force and those who
were not, but who have completed the Level 3 training.
   Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a base year and a five-year limit—one-year options may be




  96                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




exercised in August of each year—and a maximum cost of $200 million.170
According to CSTC-A, these contractors were providing 690 literacy trainers
to the ANA:171                                                                      SIGAR AUDIT
•	 OT Training Solutions, a U.S. company, was providing 260 trainers.               In an ongoing audit, SIGAR is evaluat-
•	 Insight Group, an Afghan company, was providing 198 trainers.                    ing the implementation and oversight
•	 The Higher Education Institute of Karwan, an Afghan company, was                 of the three ANSF literacy training
    providing 232 trainers.                                                         program contracts. SIGAR will also
                                                                                    assess whether the contractors provide
    CSTC-A said responsibility for literacy training for ANA personnel in the       qualified instructors and services; the
field was scheduled to transition to the ANA between October 1, 2013, and           extent to which CSTC-A monitored the
October 1, 2014.172 Although CSTC-A noted that transitioning the literacy           contractors’ performance and training
program from NTM-A to the MOD is not a primary focus. A train-the-trainers          outcomes; and the extent to which
program is needed first; a contract for such a program is expected to be            the contracts are meeting the goal of
awarded in October with classes starting in November. Transitioning literacy        providing basic, sustainable levels of
training to the MOD is expected to happen after the April 5, 2014, elections.173    literacy for the ANSF.
    Ongoing funding of the current literacy contracts through December
2014, at a cost of $31 million, will come from the NATO Trust Fund and not
ASFF, according to CSTC-A.174

Women in the ANA and Afghan Air Force
As in prior quarters, the number of women in the ANA is increasing, but the
goal for women to make up 10% of the ANA and Afghan Air Force remains dis-
tant. Despite an increase this quarter, women make up only 0.3% of the force.175
   This quarter, 502 women were serving in the ANA, according to CSTC-A.
However, CSTC-A also provided SIGAR with a breakdown of the women serv-
ing—253 officers, 238 NCOs, 61 enlisted personnel, and 90 cadets—that would
indicate a total of 642. CSTC-A noted that the “discrepancy between totals and
ANA number may reflect civilians who are working in the supply chain (e.g.,
sewing).”176 SIGAR will seek further clarification for the next quarterly report.
   In the Afghan Air Force, 33 women were serving—20 officers and 13 NCOs.177


AFGHAN NATIONAL POLICE
As of August 31, 2013, the United States had obligated $15.6 billion and dis-
bursed $14.1 billion of ASFF funds to build, train, and sustain the ANP.178

ANP Strength
As of August 20, 2013, the overall strength of the ANP was 153,153 person-
nel, including 109,574 Afghan Uniform Police (AUP), 21,399 Afghan Border
Police (ABP), 14,516 Afghan National Civil Order Police (ANCOP), 2,759 in
the Counter Narcotics Police of Afghanistan (CNPA), and 4,905 students in
training, according to CSTC-A.179 The total is an increase of 1,329 since last
quarter, as shown in Table 3.5 on the following page.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013                97
                                           SECURITY




                                           TABLE 3.5


                                           ANP STRENGTH, QUARTERLY CHANGE
                                                                                       Authorized                                       Assigned
                                                                                                        Quarterly                                         Quarterly
                                            ANP Component                Q2 2013         Q3 2013         Change          Q2 2013          Q3 2013          Change
                                            AUP                          108,122         110,369         +2,247           108,128         109,574         +1,446
                                            ABP                           23,090           23,090           None           21,422           21,399            -23
                                            ANCOP                         14,541           14,541           None           14,515           14,516            +1
                                            NISTAa                          9,000           6,000         -3,000            3,779            4,905        +1,126
                                            Other                        154,753         154,000            -753          147,844         150,394         +2,550
                                            ANP Total                      2,247           2,247           None            3,059            2,759           -300
                                            CNPA                         157,000         156,247            -753          151,824b        153,153         +1,329
                                            ANP + CNPA Total           157,000          157,000            None          150,919         151,824b          +905
                                           Notes: Q2 data is as of 5/20/2013; Q3 data is as of 8/20/2013.
                                           a	NISTA = personnel in training
                                           b	CSTC-A provided total; actual sum of all ANP components and the personnel in the NISTA account was 150,903


                                           Source: CSTC-A, responses to SIGAR data calls, 7/2/2013 and 10/1/2013.




                                           ANP Sustainment
SIGAR AUDIT                                As of August 31, 2013, the United States had obligated $5.3 billion, and dis-
                                           bursed $4.9 billion of ASFF funds for ANP sustainment.180
In an audit report released this             As part of sustainment funding, the United States has provided the ANP with
quarter, SIGAR found that U.S. Central     ammunition at a cost of approximately $306 million, according to CSTC-A.181
Command and CSTC-A had limited
oversight of fuel purchases for the ANP,   ANP Salaries
resulting in the use of higher-priced      From 2008 through September 30, 2013, the U.S. government had provided
vendors and questionable costs to the      $907 million through the ASFF to pay ANP salaries, food, and incentives
U.S. government. For more information,     (extra pay for personnel engaged in combat or employed in specialty fields),
see Section 2, page 27.                    CSTC-A reported.
                                              According to CSTC-A, when the ANP reaches its final strength of
                                           157,000 personnel, it will require an estimated $628.1 million per year
                                           to fund salaries ($265.7 million), incentives ($224.2 million), and food
                                           ($138.2 million).182

                                           ANP Equipment and Transportation
                                           As of August 31, 2013, the United States had obligated and disbursed
                                           $3.6 billion of ASFF funds for ANP equipment and transportation.183 Most
                                           of these funds were used to purchase weapons and related equipment,
                                           vehicles, and communications equipment.184 More than 85% of U.S. funding
                                           in this category was for vehicles and vehicle-related equipment, as shown in
                                           Table 3.6.
                                              As with the ANA, determining the cost of equipment provided to the
                                           ANP remains a challenge. CSTC-A’s estimate of the total cost of U.S.-funded
                                           ANP weapons procured fell from $369 million last quarter to $137 million




                                               98                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                  SECURITY




TABLE 3.6


COST OF U.S.-FUNDED ANP EQUIPMENT
 Type of Equipment                                             Procured           Remaining to be Procured
 Weapons                                                   $137,187,450                  $3,882,811
 Vehicles                                                 $2,029,397,735                 $2,345,100
 Communications Equipment                                  $210,184,400                           $0
 Total                                              $2,376,769,585                     $6,227,911
Source: CSTC-A, response to SIGAR data call, 10/1/2013.



this quarter.185 According to CSTC-A, the “decrease in total cost from last
quarter [was] due to actual, contracted equipment pricing being lower than
estimated pricing.”186
   CSTC-A’s estimate of the total cost of vehicles procured for the ANP also
decreased since last quarter. In July 2013, CSTC-A stated the total cost of
vehicles was $2.65 billion.187 This quarter, CSTC-A stated the actual cost of
vehicles procured was $2.03 billion. According to CSTC-A, the “decrease
in the number procured from last quarter is a result of an extensive inter-
nal audit that revealed some equipment had been double-counted.”188 The
updated cost total is reflected in Table 3.6.

ANP Infrastructure
As of August 31, 2013, the United States had obligated $3.4 billion and dis-
bursed $2.5 billion of ASFF funds for ANP infrastructure.189 At that time, the                               SIGAR AUDIT
United States had completed 574 infrastructure projects (valued at $2.02 bil-                                In an inspection report released this
lion), with another 165 projects ongoing ($904 million) and 17 planned                                       quarter, SIGAR found that mold, a
($75 million), according to CSTC-A. Of the ongoing projects, 19 new con-                                     lack of running water, and inoperable
tracts (nearly $5 million) were awarded this quarter.190                                                     electrical systems at a district police
   This quarter, a regional police-training center in Herat ($49.5 million)                                  headquarter in Kunduz Province
was completed. The largest ongoing ANP infrastructure projects were                                          showed that the facility is not being
administrative facilities ($59.5 million) and building and utilities ($34.3 mil-                             sustained. For more information, see
lion) at the MOI Headquarters and an ANCOP patrol station in Helmand                                         Section 2, page 36.
($28.5 million).191

ANP Training and Operations
As of August 31, 2013, the United States had obligated $3.4 billion and
disbursed $3.1 billion of ASFF funds for ANP and MOI training and opera-
tions.192 This quarter, 8,273 ANP personnel were enrolled in some type of
training, according to CSTC-A. Of those, 1,438 were training to become offi-
cers and 3,273 were training to become NCOs.193
   This quarter, the number of ANP in training increased as the ANP
became more independent and took a more pro‐active role in planning and
executing their training, according to CSTC-A. The ANP has been reviewing
overall training requirements and re‐aligning courses and student numbers




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2013                        99
SECURITY




to better meet their fielded force and professionalization needs and to deal
with the problem of untrained ANP personnel assigned to the field without
undergoing basic police training. CSTC-A noted that the ANP has developed
a course planner and tracker, with minimal Coalition assistance, that meets
ANP training needs for this year.194
   NTM-A/CSTC-A contracts with DynCorp International to provide train-
ing, mentoring, and support services at multiple training sites around the
country. The ASFF-funded contract provides 373 mentors and trainers as
well as approximately 1,225 support personnel at regional training centers
and in mobile support teams. The contract value is $1.21 billion.195

ANP Literacy
NTM-A/CSTC-A’s literacy program for the ANP follows the same curriculum
and uses the same standards as the ANA’s literacy program previously men-
tioned in this section. The program is based on moving students through
three levels of literacy training.196
   As of September 30, 2013, ANP personnel who have completed a literacy
program include:197
•	 81,170 Level 1 graduates
•	 51,500 Level 2 graduates
•	 33,263 Level 3 graduates

    According to CSTC-A, NTM-A’s goal to have 50,000 ANSF personnel
achieve Level 3 or “functional literacy” before March 2014 was met in
January 2013. However, in response to a SIGAR question that asked how
many of ANP personnel that had achieved Level 3 literacy were still in the
ANP, CSTC-A responded: “Answers unattainable due to insufficient ANP
personnel tracking and skill/education tracking systems.”198 This fact, entail-
ing an inability to determine the overall literacy rate of the ANP, raises the
same concern discussed earlier for ANA literacy levels.
    Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a base year and a five-year limit—one-year options may be
exercised in August of each year—and a maximum cost of $200 million.199
According to CSTC-A, these contractors were providing 649 literacy trainers
to the ANP:200
 •	 OT Training Solutions, a U.S. company, was providing 231 trainers.
 •	 Insight Group, an Afghan company, was providing 135 trainers.
 •	 The Higher Education Institute of Karwan, an Afghan company, was
    providing 283 trainers.

   CSTC-A noted that transitioning the literacy program from NTM-A to the
MOI is not a primary focus. A train-the-trainers program is needed first and
a contract for such a program is expected to be awarded in October with




 100                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




classes starting in November. Transitioning literacy training to the MOI is
expected to happen after the 2014 elections.201
   Ongoing funding of the current literacy contracts through December
2014 was scheduled to shift from ASFF to the NATO Trust Fund on
October 1, 2013, according to CSTC-A.202

Women in the ANP
As in prior quarters, the number of women in the ANP is increasing, but
progress has been slow toward reaching the goal to have 5,000 women in
the ANP by the end of 2014. CSTC-A said that “the ANP is currently focused
more on finding secure areas (i.e., positions with appropriate facilities
for females) for recruits than increasing recruiting to reach this target.”203
Despite an increase this quarter, women make up only 1% of the force.
   As of September 13, 2013, ANP personnel included 1,570 women—232
officers, 639 NCOs, and 699 enlisted personnel—according to CSTC-A.204
This in an increase of 366 women in two years (since August 22, 2011).205


ANSF MEDICAL/HEALTH CARE
As of September 30, 2013, the United States has funded construction of
174 ANSF medical facilities valued at $134 million, and has funded $10 mil-
lion in contracts to provide the ANSF with medical training, according to
CSTC-A. Since 2006, Coalition forces have procured and fielded $36 million
in ANSF medical equipment.206
   This quarter, CSTC-A reported the ANSF health care system had 847 phy-
sicians out of 1,010 authorized. Of these, 566 were assigned to the ANA and
281 were assigned to the ANP. The ANSF had 7,360 other medical personnel
(including nurses and medics) out of 10,162 needed.207


REMOVING UNEXPLODED ORDNANCE
Since 2002, the U.S. Department of State has provided nearly $264 million
in funding for weapons destruction and demining assistance to Afghanistan,
according to its Bureau of Political-Military Affairs’ Office of Weapons
Removal and Abatement (PM/WRA).208 Through its Conventional Weapons
Destruction program, State funds five Afghan nongovernmental organiza-
tions (NGOs), five international NGOs, and a U.S. government contractor.
These funds enable clearance of areas contaminated by explosive remnants
of war and support removal and destruction of abandoned weapons that
insurgents might use to construct improvised explosive devices.209
   From July 1, 2012, through June 30, 2013, State-funded implementing
partners cleared nearly 33 million square meters (about 13 square miles)
of minefields, according to the most recent data from the PM/WRA.210
An estimated 537 million square meters (more than 200 square miles) of




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            101
                                                                 SECURITY




TABLE 3.7


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JULY 1, 2012–JUNE 30, 2013
                                                                                                         Fragments               Minefields           Estimated Contaminated Area
 Date Range                      AT/AP Destroyed        UXO Destroyed           SAA Destroyed             Cleared               Cleared (m2)                Remaining (m2)
 7/1–9/30/2012                            5,542             165,100                121,520                2,569,701               11,830,335                    550,000,000
 10/1–12/31/2012                          2,146              62,449                  22,373               3,672,661                7,265,741                    570,000,000
 1/1–3/31/2013                            1,984             100,648                105,553                3,722,289                7,978,836                    552,000,000
 4/1–6/30/2013                            1,058              18,735                  49,465               1,079,807                5,586,198                    537,000,000
 Total                                   10,730           346,932                 298,911             11,044,458               32,661,110                    537,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
other objects until their nature is determined.

Source: State, PM/WRA, response to SIGAR data call, 10/1/2013.


                                                                 contaminated areas remain to be cleared, as shown in Table 3.7. The PM/
                                                                 WRA defines a “minefield” as an area contaminated by landmines, and a
                                                                 “contaminated area” as an area contaminated with both landmines and
                                                                 explosive remnants of war.211


                                                                 COUNTERNARCOTICS
                                                                 Although the U.S. has spent billions to reduce poppy cultivation and illicit
                                                                 drug trafficking, Afghanistan’s opium production continues to rise. The
                                                                 country is the world’s leading producer and cultivator of opium, account-
                                                                 ing for 74% of global illicit opium production in 2012.212 The Afghan opium
                                                                 economy undermines U.S. reconstruction efforts by financing the insur-
                                                                 gency and fueling corruption. According to the UN Office of Drugs and
                                                                 Crime (UNODC) opium survey, an estimated 154,000 hectares of land were
                                                                 under poppy cultivation in 2012, an 18% increase from the previous year.213
                                                                    The impact of this cultivation is significant. Estimates of the magnitude
                                                                 of the opium economy’s size compared to Afghanistan’s licit GDP (nearly
                                                                 $19 billion in 2012) range from just over 3% to as high as 11% depending
                                                                 on the type of data considered.214 For example, the World Bank estimates
  Farm-gate price: the price of the product                      that opium (by farm-gate price) is equivalent to 3.3% of Afghanistan’s
  available at the farm, excluding any sepa-                     gross domestic product (GDP), or as much as 7–8% if export earnings are
  rately billed transport or delivery charge.                    included.215 UNODC estimates farm-gate value is equivalent to 4% of GDP
                                                                 and net opium exports at 10% of GDP (11% for gross opium exports).216
                                                                    The U.S. counternarcotics (CN) strategy focuses primarily on combating
Source: IMF, “Glossary,” 2004, p. 598.                           the narco-insurgency nexus.217 The main components of the strategy include
                                                                 U.S.-sponsored eradication, promotion of alternative livelihoods, public-
                                                                 awareness initiatives, and interdiction operations. As of September 30,
                                                                 2013, the United States has appropriated $6.9 billion for CN initiatives
                                                                 in Afghanistan since efforts began in 2002. Most of these funds were
                                                                 appropriated through two channels: the State Department’s International
                                                                 Narcotics Control and Law Enforcement (INCLE) account ($4.2 billion),




                                                                    102                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




and the DOD Drug Interdiction and Counter-Drug Activities (DOD CN) fund
($2.6 billion).218
   State’s Bureau of International Narcotics and Law Enforcement Affairs
(INL) bears the primary responsibility for funding Afghan-led eradication,
alternative livelihoods, and public awareness programs. DOD and INL coor-
dinate to support the CN efforts of Afghanistan.219	

Key Events
This quarter, specialized Afghan law enforcement units arrested the pro-
vincial police chief of Nimruz, Major General Mohammad Kabir Andarabi,
on drug corruption and obstruction of justice charges. He was tried and
convicted of obstruction of justice and sentenced to 10 years in prison.
Andarabi is the highest-ranking government official arrested on drug
charges to date. According to DOD, this and other high-profile arrests
demonstrate the competency of vetted Afghan units to compile and use
evidence against a target. The U.S. military provided general logistics and
intelligence support, while the U.S. intelligence community provided sup-
plemental targeting and analytical support to Coalition mentors.220

Opium Cultivation
Afghanistan accounted for 64% of the global acreage devoted to poppy
cultivation in 2012, according to UNODC. Poppy was cultivated in 17 of
Afghanistan’s 34 provinces, as shown in Figure 3.26. Although eradication
of poppy (by hectare) increased by 154%, poppy cultivation increased by
over 50% in seven provinces, including four of Afghanistan’s largest (by
area) provinces in the west, as shown in Figure 3.27 on the following page.
Overall, the number of hectares under cultivation increased by 18%.221
   The price per kilogram of opium fell in 2012 compared to the previous
year. The average farm-gate price was $180 per kilogram for fresh opium
and $241 per kilogram for dry opium in 2011. In 2012, those prices fell to
$163 and $196 respectively. Moreover, farmers’ gross income from opium
per hectare fell by 57% and net income fell by 65%.222

Governor Led Eradication Program
INL supports the Afghan government’s Governor Led Eradication (GLE)
program.223 As of September 30, 2013, the United States has provided
$85 million for the GLE program.224 According to a September 25, 2013,
report, the GLE program was responsible for eradicating 7,323 hectares
in Afghanistan—a 24% decrease from 2012 when 9,672 hectares were veri-
fied as eradicated. The Ministry of Counter Narcotics (MCN) attributes the
decrease to the ANSF’s diminished support for eradication efforts, Taliban
attacks against the CNPA, cultivation in insecure and remote areas, and the
hot climate this year, which meant farmers could harvest their opium crop
earlier than most years. Eradication levels are verified by UNODC and the




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           103
SECURITY




FIGURE 3.26


OPIUM CULTIVATION IN AFGHANISTAN BY PROVINCE, 2012




                                            JOWZJAN                      KUNDUZ             BADAKHSHAN
                                                         BALKH                     TAKHAR


                                                           SAMANGAN
                                 FARYAB                          BAGHLAN
                                           SAR-E PUL                    PANJSHIR
                                                                               NURISTAN
                       BADGHIS
                                                                PARWAN KAPISA       KUNAR
                                                     BAMYAN
                                                                            LAGHMAN
                                                                     KABUL
             HERAT                                          WARDAK
                                                                              NANGARHAR
                                 GHOR                              LOGAR
                                            DAYKUNDI                  PAKTIYA
                                                                GHAZNI               KHOWST

                                          URUZGAN                                                          Opium cultivation, hectares
              FARAH
                                                       ZABUL             PAKTIKA
                                                                                                              Poppy-free
                                                                                                              Less than 1,000
             NIMROZ
                       HELMAND
                                    KANDAHAR
                                                                                                              1,001-10,000
                                                                                                              10,001-30,000
                                                                                                              More than 30,000



Note: One hectare = about 2.5 acres.
Source: UNODC, Afghanistan Opium Survey 2012, 5/2013, p. 14.



FIGURE 3.27

CHANGES IN OPIUM CULTIVATION LEVELS BY PROVINCE, 2011–2012




                                             JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                           BALKH                     TAKHAR


                                                               SAMANGAN
                                 FARYAB                           BAGHLAN
                                            SAR-E PUL                    PANJSHIR
                                                                                NURISTAN
                       BADGHIS
                                                                 PARWAN KAPISA       KUNAR
                                                      BAMYAN
                                                                             LAGHMAN
                                                                      KABUL
            HERAT                                            WARDAK
                                                                               NANGARHAR
                                 GHOR                               LOGAR
                                             DAYKUNDI                  PAKTIYA
                                                                 GHAZNI                KHOWST

                                           URUZGAN                                                           Opium cultivation change (%)
              FARAH
                                                        ZABUL              PAKTIKA
                                                                                                                Poppy-free
                                                                                                                Decrease (-49% to -11%)
             NIMROZ
                       HELMAND
                                        KANDAHAR
                                                                                                                Stable (-10% to +10%)
                                                                                                                Increase (+11% to +50%)
                                                                                                                Strong increase (over 50%)



Source: UNODC, Afghanistan Opium Survey 2012, 5/2013, p. 15.




  104                              SPECIAL INSPECTOR GENERAL                                    I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




MCN. The MCN reported that the GLE program is being used in 842 villages
in 17 provinces, according to INL.225

Good Performer’s Initiative
INL funds the MCN’s Good Performer’s Initiative (GPI), which incentivizes
governors to achieve and sustain reductions in poppy cultivation.226 As of
September 30, 2013, the United States has provided $10 million for the GPI
program.227 Provinces that achieve poppy-free status, reduce poppy cul-
tivation by more than 10%, or demonstrate exemplary CN efforts receive
development assistance to support local development priorities. Under the
terms of the program, each year that a province achieves poppy-free status,
it becomes eligible for $1 million in GPI development projects. A province is
deemed poppy-free when UNODC, in cooperation with MCN, verifies that it
has fewer than 100 hectares under poppy cultivation during the year. During
2012, 17 Afghan provinces qualified for GPI poppy-free awards, the same
number as in 2011. One province lost and one province gained poppy-free
status from 2011 to 2012. GPI awards for 2013 have yet to be announced.228
    Since the start of the GPI program in 2007, more than 200 development
projects are either complete or in process in all 34 provinces. These projects
include school construction, road and bridge projects, irrigation structures,
farm machinery projects, and hospitals and clinic construction. INL noted
that while the backlog in implementing GPI projects has been reduced sub-
stantially, the program has faced some delays as the capacity of the MCN
continues to increase and the process is refined. There are also delays in
implementation of construction projects due to security challenges.229
    According to INL, the GPI program provides support once good per-
formance in a province has been verified. In contrast, the GLE program
provides a 10% advance based on mutually agreed upon goals, and the
remaining funds are provided following verification of qualifying eradica-
tion results.230

Effect of the Coalition Drawdown on
Counternarcotics Operations
DOD anticipates the ability of the CNPA and other Afghan government
CN agencies to conduct CN operations in areas with decreased Coalition
presence will diminish as U.S. and Coalition forces draw down. However,
DOD said Afghan CN units including the Special Mission Wing, the National
Interdiction Unit, and the Sensitive Investigative Unit are trained and capa-
ble units that have conducted CN operations independently or with limited
U.S. and Coalition support.
   DOD expects these Afghan CN units to continue to operate with a
reduced Coalition presence. However DOD also recognizes that certain
enabler functions currently provided by U.S. and Coalition forces—such as
air support, security, and intelligence—cannot be replicated.231




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            105
                                                            SECURITY




                                                                DOD also noted that two of the highest poppy-cultivation areas, Kandahar
                                                            and Helmand, will be highly impacted by the withdrawal. These areas also
                                                            have more insurgents and more entrenched narcotics networks. Poor secu-
                                                            rity, a small Afghan CN security force, minimal assets, and lack of intelligence
                                                            to identify opium production networks are likely to allow drug traffickers to
                                                            move and operate largely unimpeded in these important provinces.232
                                                                According to DOD, the U.S. Drug Enforcement Administration (DEA)
                                                            has advised it is closing a number of forward operating locations and signifi-
                                                            cantly reducing its footprint in others, especially in southern Afghanistan.233
                                                            CSTC-A noted that these forward operating locations—including bases in
                                                            Kunduz, Herat, and Kandahar—are being transitioned to CNPA control and
                                                            will be used to launch counternarcotics operations as has been done in the
                                                            past.234 However, without military support for security, intelligence, medical
                                                            evacuation, and tactical air control for high-risk operations, DEA operations
                                                            will center on Kabul with little ability to extend beyond the Afghan capi-
                                                            tal. This will also affect the Afghan CN forces’ ability to conduct complex
                                                            interdictions because DEA has directly augmented Afghan CN operational
                                                            capabilities throughout the country. DOD noted that DEA’s diminishing
                                                            ability to operate in Afghanistan is directly related to the Coalition military
                                                            drawdown and subsequent reduction of security.235
                                                                DOD also correlated the sharp decline in the interdiction of illicit drugs
  Precursor chemical: substance that may
                                                            and drug-related chemicals from FY 2011 to FY 2013 with the military
  be used in the production, manufacture                    drawdown and loss of operational enablers. The largest declines were the
  and/or preparation of narcotic drugs and                  interdictions of precursor chemicals (chemicals used to manufacture nar-
  psychotropic substances.                                  cotics) by 73% and hashish by 79%. The only area to show a modest gain
                                                            was the interdiction of morphine between FY 2012 and FY 2013; although
                                                            nearly twice as much morphine was seized in FY 2011 than in either of
                                                            the following two years. Moreover, the total number of CN operations has
Source: UNODC, “Multilingual Dictionary of Precursors and
Chemicals,” 2009, p. viii.                                  declined 26% between FY 2012 and FY 2013.236
                                                                With the end of 2014 combat operations, the ISAF military mission in
                                                            Afghanistan will transition to the NATO-led training, advisory, and assis-
                                                            tance Mission that has been named the Resolute Support Mission (RSM).
                                                            RSM will not have the resources and capacity to support law enforce-
                                                            ment CN missions at current levels. However, DOD stated it is committed
                                                            to continuing support to U.S. law enforcement agencies for Afghan and
                                                            regional CN efforts within budget constraints. According to DOD, it is work-
                                                            ing closely with U.S. interagency partners to identify law enforcement CN
                                                            requirements in a post-transition environment.237

                                                            Counternarcotics Police of Afghanistan
                                                            This quarter, 2,759 personnel were assigned to the CNPA, according to
                                                            CSTC-A. This 512 more personnel than the 2,247 personnel currently autho-
                                                            rized for the CNPA.238




                                                             106                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




Afghan Interdiction Operations
From July 1 through September 30, 2013, the ANSF conducted 90 unilateral
CN operations—routine patrols, cordon-and-search operations, vehicle
interdictions, and deliberate detention operations—according to DOD. The
MOI’s General Department of Police Special Units led the effort. The depart-
ment participated in 17 operations that seized approximately 18,200 kg of
various narcotics and precursor chemicals.239

U.S. Interdiction Operations
All U.S.-only interdiction activities occurred in south and southwest
Afghanistan, where the majority of opiates are grown, processed, and smug-
gled out. According to DOD, U.S. interdiction support remains focused on
building Afghan capabilities and partnering with Afghan law enforcement.
As Afghan forces have taken the lead in this area, there were only four uni-
lateral U.S. operations.
   The Combined Joint Interagency Task Force-Nexus (CJIATF-N) and the
Interagency Operations Coordination Center (IOCC) continued working
with ISAF and law enforcement mentors in building the capacity of Afghan
forces. All operations were coordinated with U.S. and Coalition military
commanders on the ground.240

Interdiction Results
Since 2008, a total of 2,474 Afghan and Coalition interdiction operations
have resulted in 2,488 detentions and seizure of the following narcotics
contraband:241
•	 728,886 kg of hashish
•	 354,580 kg of opium
•	 46,961 kg of morphine
•	 25,923 kg of heroin
•	 407,203 kg of precursor chemicals




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           107
GOVERNANCE CONTENTS

Key Events	                            109
Elections	110
Quarterly Highlight: Elections
Preparations and Challenges	           111
New U.S. Civil-Military Strategic
Framework for Afghanistan	             119
Reconciliation and Reintegration	      121
National and Subnational Governance	   124
Judicial Reform and Rule of Law	       130
Anticorruption	134
Human Rights	                          139




 108
                                                  GOVERNANCE




GOVERNANCE
As of September 30, 2013, the United States had provided nearly $24.7 bil-
lion to support governance and economic development in Afghanistan.
Most of this funding, nearly $16.7 billion, was appropriated to the Economic
Support Fund (ESF) administered by the State Department and the United
States Agency for International Development (USAID).242


KEY EVENTS
Preparation for the 2014 presidential and provincial council elections con-
tinued during this quarter. The Afghan Independent Election Commission
(IEC) concluded registration of candidates for president and provincial
councils on October 6, 2013.243 Twenty-six candidates for president, along
with candidates for first and second vice president, officially registered for
the election.244 On October 22, the IEC issued an initial list of presidential
candidates with only 10 of the registered candidates approved.245
   The IEC and Electoral Complaints Commission (ECC) began work with
new commissioners during the quarter. President Karzai appointed nine IEC
commissioners for six-year terms in July 2013 and later appointed five mem-
bers to the ECC.246
   The top United Nations (UN) official for human rights warned after a
recent visit to Afghanistan that “The momentum of improvement in human
rights may have not only peaked, but is in reality waning.” The UN High
Commissioner for Human Rights cited issues related to women’s rights and
the Afghanistan Independent Human Rights Commission as areas of par-
ticular concern.247
   The United States Ambassador to Afghanistan and the Commander of
United States Forces-Afghanistan (USFOR-A) issued a revision to the U.S.
Civil-Military Strategic Framework for Afghanistan in August 2013. The
framework provides strategic guidance for all American civilian and mili-
tary personnel serving in Afghanistan.248
   The governor of Logar Province, Arsala Jamal, was killed in a mosque
in the provincial capital in October. Mr. Jamal is the second Logar provin-
cial governor to have been assassinated with a predecessor having been
killed in September 2008. One of Mr. Jamal’s top priorities was the Aynak




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            109
                                                                                            GOVERNANCE




 	%*
             FIGURE 3.28                                         +	,-)
                                                                                 cooper mine which is located in Logar Province.249 The quarter also saw the
#$#%&'	                                  ()&'%"#$#
                                                                       defection to the Taliban of a serving district governor and former senator
                 PRELIMINARY
       			     LIST OF PRESIDENTIAL!	
                                                                       from Sar-e-Pul Province. The district governor became the highest-ranking
                     CANDIDATES WITH THEIR ELECTION SYMBOL
                                                                       Afghan civilian official to have joined the insurgency. 250
   	        	                   		     	




    %*+	,-                                                %.	/0'	
                                                             Qutbuddin Hilal                ELECTIONS
                                                                                          %.	/0'	



                                                                                                       The IEC accepted nominations for president from September 16 to
                                                                                                       October 6.251 Twenty-six candidates were nominated with only ten presi-
 34	,5.6	
                                                               Dr. Abdullah1212	
                                                                                 Abdullah              dential
                                                                                                         1212	 candidates initially approved by the IEC for inclusion on the


                                                                                                       preliminary list of candidates, as shown in Figure 3.28.252 Prominent can-
                                                                                                       didates include former Foreign Ministers Abdullah Abdullah and Zalmai
       %*+	,-                                                              %7
                                                                                                       Rassoul,%7
                                                                                                                             former Finance Ministers Ashraf Ghani and Anwarul Haq Ahadi,
                                                                 Dr. Zalmai Rassoul
                                                                                                       former Defense Minister Abdul Rahim Wardak, former parliamentar-
                                                                                                       ian and mujahedeen commander Abdul Rasoul Sayyaf, former Senior
                                                                                                       Minister Hedayat Amin Arsala, and former governor of Nangahar Gul
       %*+	,-                                          Abdul Rab5%	/	2
                                                                          Rassoul Sayyaf               5%	/2
                                                                                                       Agha Sherzai.253 Several presidential and vice presidential candidates were
                                                                                                       required to resign their government posts before they nominated them-
                                                                                                       selves for the presidential election, as shown in Figure 3.29 on page 121.254
       %*+	,-                                             Abdul Rahim        Wardak
                                                                             +8	2            According
                                                                                                           +8	2      to Human Rights Watch, the slate of candidates include former
 	%*                                                  +	,-)
#$#%&'	                                        ()&'%"#$#
                                                                                                       military             and  militia commanders implicated in serious rights abuses, war
          			
                                                                                                       crimes,
                                                                                  !	
                                                                                                                            and crimes   against humanity.255
       %*+	,-                                                Qayoum7*	2
                                                                                Karzai                        The IEC announced a preliminary list of approved candidates on
                                                                                                            7*	2


     	        	                         		
                                                                                                       October 22 and will issue a final list of candidates on November 16, 2013.
                                                                                                   	
                                                                                                       The IEC announcement of the preliminary list of presidential candidates was
       %*+	,-                                                   78	95	8
                                                                                                       delayed by three days partially due to verifying the nationality of the candi-
                                                             Dr. Ashraf  Ghani Ahmadzai 78	95	8
                                                 	
                                           dates. There were several reasons for candidates being disqualified including
                                                                                                       the lack of university degrees, holding dual nationality, and failing to provide
                                                                                                       100,000 voter cards from at least 20 provinces. According to the IEC Chairman,
       %*+	,-                                               Gul79:%;<=8       79:%;<=8
                                                                       Agha Shirzai                    disqualified candidates have 20 days to raise any objections.256 The official
                                                                                                       election campaigning will begin in February 2014.257 The IEC also announced
                                                                                                       that 3,056 candidates, including 323 women, filed nominations for the 420 pro-
       %*+	,-                                              Sardar Muhammad
                                                                               >8          vincial
                                                                                                             >8council seats. Of those who registered, IEC confirmed 2,704 candidates,
                                                                    Nader Naeem
                                                                                                       including 308 females, as preliminary candidates for provincial council.258
                                                                                                              Preparations for the April 5, 2014, elections are further advanced than
       %*+	,-                                                          .			
                                                                                                       at.			
                                                                                                              comparable points in any previous Afghan election, according to State.
                                                                Hedayat Amin         Arsala
                                                                                                       State said the promulgation last quarter of two key electoral laws, rapid
                                                                                                       appointments to election management bodies, and the roll-out of a voter
                                                                                                       registration update represent significant progress toward ensuring an
                     Note: IEC approved candidates for president as of October 22,
                     2013. The candidate symbols have been used since the 2004                         orderly and timely process. Afghan authorities have registered over 1.5 mil-
                     presidential election to help illiterate voters identifiy candidates.
                     For example, former Nangahar governor Gul Agha Sherzai opted                      lion new voters.259
                     for the symbol of a bulldozer to match his nickname.
                                                                                                              For a full discussion of the election planning and challenges see the quar-
                     Sources: Independent Election Commission, “Presidential
                     Candidates,” 10/22/2013, accessed 10/22/2013; Radio Free                          terly highlight on pages 111–118.
                     Europe, “Afghanistan: Ballot Papers Feature Unique System of
                     Candidate Symbols,” 9/14/2005, accessed 10/22/2013;
                     AFP, “Afghan election body disqualifies 16 presidential
                     candidates,” 10/22/2013, accessed 10/22/2013.


                                              
	



                                                                                                 110              SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                       QUARTERLY HIGHLIGHT




ELECTIONS PREPARATIONS
AND CHALLENGES
Afghanistan’s presidential and provincial council elections are scheduled
for April 5, 2014. Parliamentary elections are scheduled for spring 2015. The
constitution prohibits two-term President Hamid Karzai from running again.
A successful election to replace him would represent the first democratic
transfer of power in the country’s history. The government of Afghanistan
committed in the Tokyo Mutual Accountability Framework “to conduct cred-
ible, inclusive, and transparent Presidential and Parliamentary elections in
2014 and 2015 according to the Afghan Constitution, in which eligible Afghan
citizens, men and women, have the opportunity to participate freely without
internal or external interference and in accordance with the law.”260
   This quarter, U.S. Special Representative for Afghanistan and Pakistan
James F. Dobbins called Afghanistan’s electoral process the “single most
important development which will affect Afghanistan’s future over the
next year.”261
   Craig Jenness, the director of the United Nations’ Electoral Assistance
Division, told SIGAR that donors and Afghans agree on the overall strategic
principles: (1) the ultimate goal is an outcome broadly accepted by Afghans;
(2) participation and inclusivity must be a priority; (3) the technical process
must be (and be seen to be) unbiased and sound enough to defend the out-
come; and (4) antifraud measures should be both robust and strategic.262


U.S. ELECTIONS SUPPORT AND UNDP/ELECT II
The United States is providing an estimated $99.4 million in assistance to
support the 2014 elections through a variety of programs, as shown in Table
3.8.263 The most important is the United Nations Development Programme’s
(UNDP) Enhancing Legal and Electoral Capacity for Tomorrow-Phase II
(ELECT II).264 ELECT II evolved out of ELECT, a UNDP program set up in
TABLE 3.8


U.S. PROGRAMS INTENDED TO SUPPORT THE 2014 AFGHAN PRESIDENTIAL AND PROVINCIAL ELECTIONS
 Mechanism                                                                      Budget Estimate              Life of Project
 UNDP Enhancing Legal and Electoral Capacity for Tomorrow-Phase II (ELECT-II)   $55 million           January 2012–December 2015
 Support for Increased Electoral Participation in Afghanistan (SIEP)            $15 million          September 2008–September 2013
 Afghanistan Electoral Reform and Civic Advocacy (AERCA)                        $7.5 million              July 2009–June 2014
 Supporting Political Entities and Civil Society (SPECS)                          $6 million              July 2013–June 2016
 Promoting Afghan Civil Engagement (PACE)                                         $4 million              TBD 2013–TBD 2018
 Initiative to Promote Afghan Civil Society, Phase II (IPACS II)                  $1 million          October 2010–December 2013
Source: USAID, response to SIGAR data call, 9/30/2013.




REPORT TO THE UNITED STATES CONGRESS                     I   MONTH 30, 2013                    111
QUARTERLY HIGHLIGHT




2006 to help the Afghan government prepare for and manage the 2009 and
2010 elections. The country’s first elections in 2004–2005 were co-executed
through the Joint Electoral Management Body, which included the UN and
Afghanistan’s Independent Election Commission (IEC).265 ELECT II aims to
support the IEC and the Elections Complaint Commission (ECC) to:
•	 improve and consolidate its institutional capacity,
•	 improve and consolidate the professional and electoral skills of its staff
   via a skills transfer from ELECT II personnel,
•	 increase its capacity to implement elections so that technical assistance
   will not be required in the medium-to-long-term,
•	 sustain and develop its facilities, management and information systems,
   and infrastructure,
•	 encourage democratic participation, and
•	 mainstream the importance of gender equality across all its activities.266

   USAID will contribute $55 million of the total $129 million ELECT II
estimates is necessary to support the 2014 elections. The United Kingdom,
the European Union, Italy, Germany, France, the Netherlands, Sweden,
Denmark, Norway, and Japan are contributing the remainder, as shown in
Figure 3.30.267 This funding will also allow UNOPS, an arm of the United
Nations, to provide operational assistance through the UNDP subcontract-
ing process to the newly established permanent ECC, which will adjudicate
complaints.268 The International Foundation for Electoral Systems (IFES)
will also provide advisory support to the ECC under the same process.269

FIGURE 3.30

ELECT II DONOR COMMITMENTS FOR THE 2014 PRESIDENTIAL AND PROVINCIAL
COUNCIL ELECTIONS (MILLIONS U.S. $)

           USAID                                                                                     55
            Japan                                   16.3
          Norway                               15
European Union                               13.2
United Kingdom                               12.8
        Germany                         10
     Netherlands                        10
          Sweden                  6
           France           3.3
        Denmark             3
              Italy       1.3
                      0                10              20              30            40        50         60


Source: UN Department of Political Affairs, Electoral Assistance Division.




   112                                SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                           QUARTERLY HIGHLIGHT




FIGURE 3.31

AFGHANISTAN'S ELECTORAL HIGHLIGHTS


2003           2004                2005             2006                 2007      2008        2009              2010             2011        2012   2013           2014


                                              Sept 18:                                     Oct 6–Feb 2:       Nov 2:
                                              Provincial election                                             IEC            Sept 18:                                        April 5:
                                                                                           Voter              announces      Election for                                    Scheduled
                              Oct 9:                                                       registration                      lower house of                                  date for
                              Hamid Karzai                                                 for 2009           Karzai is
                                                                                                              elected to a   the National                                    presidential
                              elected president                                            presidential                      Assembly                                        and
              Dec–Aug:                                                                     election           second term
                                                                                                                                                                             provincial
              Voter registration                                                                             Oct 5-9:                                                        elections
              for 2004                                                                                       ECC conducts
              presidential                                                                                   fraud audit                                       Sept 16–Oct 6:
              election begins                                                                                                                                  Nomination
                                                                                                          Aug. 20:                                             period
                                                                                                          Election Day                                         for presidential
                                                                                                                                                               candidates
                                                                                                                                                        May 26:
                                                                                                                                                        Voter registration
                                                                                                                                                        for 2014
                                                                                                                                                        presidential
                                                                                                                                                        and provincial
Sources: SIGAR Quarterly Reports, 10/30/09, pp. 75, 83; 1/30/10, p. 78; 10/30/10, p. 77; and 7/30/2013, p. 123.                                         elections begins


   ELECT II’s total estimated budget of $248 million for the 2014–2015 elec-
tions is considerably less than the $331 million ELECT budgeted for the
2009–2010 elections.270 (See Figure 3.31 for a timeline showing the high-
lights of Afghanistan’s elections since 2004.) Jenness told SIGAR the UN
has sought to reduce the international footprint in each successive Afghan
election. In 2004, the international body that managed the election included
about 500 international advisors. In 2009, ELECT had some 120 on hand.
Only about 50 international advisors will play a role in the upcoming elec-
tions, he said.271
   Jenness added that for the first time, in the spirit of Afghanization and
the requirements of the Tokyo Mutual Accountability Framework, approxi-
mately 20–23% of the electoral budget will likely be on-budget through the
Ministry of Finance. He said this should help to build sustainable mecha-
nisms for future Afghan-led and owned elections.272
   USAID is also spending $21 million to (1) strengthen political parties
and coalitions; (2) develop domestic election and polling agent monitoring;
(3) facilitate international election observation; and (4) encourage greater
citizen participation in the elections and political process. Of this total,
$15 million was spent on the Supporting Increased Electoral Participation
(SIEP) project and $6 million will be spent on a follow-on project called
Supporting Political Entities and Civil Society (SPECS) that will be imple-
mented by the National Democratic Institute (NDI), IFES, and Internews, a
non-governmental organization whose mission is to empower local media.273
   USAID is spending $7.5 million to support the Afghanistan Electoral
Reform and Civic Advocacy (AERCA) project implemented by Democracy
International (DI). AERCA has been facilitating an Afghan-led electoral




REPORT TO THE UNITED STATES CONGRESS                                I   OCTOBER 30, 2013                          113
                                               QUARTERLY HIGHLIGHT




                                               reform dialogue to strengthen Afghan democracy and foster innovations
                                               in governance.274
                                                   USAID will use an estimated $6.5 million to support the initial roll out of
                                               the e-tazkera.275
                                                   USAID/Office of Transition Initiatives will use $5 million for an informa-
                                               tion campaign encouraging peaceful citizen engagement in the electoral
                                               process in targeted areas of the south and east. The campaign is intended to
                                               counter insurgent messages aimed at preventing Afghans from participating
                                               in elections.276
                                                   The agency is also planning on spending $4.4 million for elections-
U.S. soldiers deliver voter-registration
books to Afghan officials in Zabul Province.
                                               related civic-education programs through its Initiative to Promote Afghan
(DOD photo)                                    Civil Society (IPACS II) project and forthcoming Promoting Afghan Civic
                                               Engagement (PACE) project.277 The program aims to engage voters and raise
                                               their awareness of their civil rights through a wide variety of mediums.278
                                                   In addition to USAID, the Public Affairs section at U.S. Embassy Kabul
                                               is implementing 26 grants and cooperative agreements for approximately
                                               $7.67 million to support the 2014 Afghan elections. These programs will
                                               focus on raising awareness and encouraging voter participation nation-
                                               wide, especially in the provinces where voting rights for Afghan women and
                                               youth are a challenge. Such programming includes town halls, radio and
                                               television broadcasts, as well as election polling.279

                                               Independent Elections Commission
                                               This quarter, President Karzai appointed nine commissioners to the IEC,
                                               who elected Yusuf Nuristani as the IEC chairman.280 Nuristani previously
                                               served under Karzai as deputy defense minister and governor of Herat.
                                               He told The Wall Street Journal that insurgent violence remains his main
                                               preoccupation in preparing for the presidential election in April 2014.281
                                               Under the new electoral law passed last quarter, the commissioners were
                                               chosen from a shortlist given to the president by a selection committee
                                               composed of the two speakers of Parliament, the head of the Afghanistan
                                               Independent Human Rights Commission, the head of the Supreme Court,
                                               and a representative of civil society organizations.282 According to the UN
                                               Secretary-General, civil society organizations failed to agree on a represen-
                                               tative and had no official representative in the selection process as required
                                               by the law.283


                                               VOTER REGISTRATION
                                               SIGAR recommended in an audit of the 2009 elections that Afghanistan
                                               improve its voter registration process.284 The IEC has no database of voter
                                               registration cards.285 Deceased voters have never been removed from the
                                               rolls.286 Voter registration cards in circulation outnumber eligible voters.287
                                               Voters are not assigned to any particular polling station.288 The former head




                                                114                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                            QUARTERLY HIGHLIGHT




of the IEC admitted that his organization was unable to identify counterfeit
cards.289 The UN’s Jenness noted the prevailing view that the problem has
not been multiple voting but rather ballot stuffing or “wholesale fraud.”
Jenness said that last year the UN asked the international community to
fund compilation of an entirely new Afghan voter registry. The new registry
would have been the first real attempt to establish a voter registry link-
ing voters to polling stations.290 However, the donors balked at the cost.291
USAID disagreed with Jenness’s account, saying the Afghan government
made the decision not to go forward with a new voter registry.292
   The IEC has instead embarked on a process of topping-up the existing
registry. The commission is issuing new voter registration cards to potential
voters who either have reached the age of 18 since the 2011 elections, have
not previously registered, changed their electoral constituencies, repatri-
ated to Afghanistan from abroad, or whose cards were lost or seriously
damaged.293 As a result, Jenness said, “we will have the same criticism of
the registry that we always have.”294
   The IEC began registering voters on May 26, 2013.295 The Afghan govern-
ment has extended voter registration at the district level by 45 days, or until
November 16, 2013, to give remote communities and women more oppor-
tunities to participate fully in the elections.296 The IEC has said it plans to
distribute between 2.5 million and 3.5 million new cards.297 Reuters reported
that voter registration cards are being sold for less than $5 and that it is
fairly easy for one to register to vote with false information.298 According
to Reuters, voter cards have become a form of currency and are being




Thumbs blue with ink show voter-registration officials that these Afghan women have
used the fingerprint alternative to a photo ID. (DOD photo)




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2013                  115
QUARTERLY HIGHLIGHT




exchanged for bags of rice and potatoes in parts of Kunduz Province, with
most of those buying the cards working for candidates as campaigners.299
An IEC commissioner told Tolo News that fraud through the purchase of
voting cards and votes is presently more of a concern for the IEC than
security.300 The Afghanistan Analysts Network reported previously that
the manual, paper-based system of voter registration makes it possible for
people to obtain multiple voter registration cards.301


SECURITY
Jenness and his political officer on Afghanistan, Asma Nassery, said the UN
sees the biggest challenge facing election officials in 2014 as a lack of security
that may prevent a significant number of voters from casting their ballots.302
The Ministry of Interior has a comprehensive plan to secure polling places,
according to UN officials.303 Under the plan, the Afghan National Security
Forces will provide security, with the International Security Assistance Force
(ISAF) offering assistance only upon request from the Afghan authorities for
logistical, informational, and in urgent situations requiring in-extremis sup-
port.304 Afghan forces are already providing security for the IEC’s activities,
including outreach, voter registration, and movements of material, largely
without reliance on ISAF.305 Jenness said ISAF has offered to transport sensi-
tive materials by air if requested, a role they have played in past elections.306
   Meanwhile, according to the head of the IEC secretariat, the Afghan
security forces have guaranteed security for only 3,435 of 6,845 total polling
stations.307 The most recent assessment offered by security officials found
that 3,410 polling centers are still under threat. Of those centers under
threat, 945 are classified as low-threat; 1,074 are medium-threat; and 1,132
are high-threat.308 A total of 259 were classified as being in areas under mili-
tant control in the provinces of Nuristan, Helmand, Ghazni, Badakhshan,
Faryab, Parwan, Sar-e-Pul, Kandahar, and Paktika.309
   This September, the Taliban claimed responsibility for assassinating the
provincial head of the IEC in Kunduz.310 According to the Associated Press¸
the Taliban leader Mullah Omar sent a message on the eve of the Muslim Eid
al-Adha holiday calling on Afghans to boycott the election.311 SIGAR reported
in 2009 that over 100 violent incidents took place on election day.312


FRAUD PREVENTION
In 2009, insecurity, intimidation, a lack of observers, and, at times, a lack
of adequate training of temporary poll staff led to widespread fraud.313 In
its audit report on Afghanistan’s 2009 elections, SIGAR found that lessons
learned included identifying polling stations well in advance to ensure suf-
ficient logistics and security support, controlling printed ballots to prevent
fraudulent voting, enabling and educating candidate representatives and




 116                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                         QUARTERLY HIGHLIGHT




election observers, completing electoral activities before sundown due to
security, tallying votes quickly to avoid manipulation, making results forms
tamper resistant, tabulating votes in a transparent manner, and addressing
and resolving complaints quickly.314
   With the help of ELECT II, the IEC has published a detailed, 20-page
fraud-mitigation plan for the 2014 elections. State said the plan has three
objectives: fraud prevention, fraud identification, and fraud correction.315
The plan drew from an IFES report on the integrity of the Afghanistan elec-
tions that was prepared in February, State said. The report indicated that
a large amount of fraud in 2009 was conducted by the temporary elections
staff hired to administer polling stations.316
   To prevent recruitment of these former IEC employees and contractors,
the IEC has developed a database with information about persons who
committed fraud and misused their positions in previous elections. All IEC
provincial offices have access to this database and are expected to use the
data to screen recruits. Currently the IEC has only hired a few hundred
temporary workers for the voter registration process, but in the months to
come, it will hire thousands of temporary employees to staff polling sta-
tions and administer the election. The Independent Joint Anti-Corruption
Monitoring and Evaluation Committee (MEC) has volunteered to monitor
this process, State said.317
   USAID plans to fund domestic observers for the election through its SPECS
project and its AERCA program. Through SPECS, USAID plans to set aside
$1.4 million in sub-grants to fund domestic election-observation missions,
advocacy groups, and watchdog organizations. Through AERCA, Democracy
International will fund two domestic observation organizations. USAID has
not yet decided whether to fund international election observers.318
   The UN’s Jenness said the IEC will be walking a fine line in the elections
between instituting strict antifraud measures and disenfranchising voters.
He said that while improprieties in the 2009 elections led to nearly a quarter
of the votes being thrown out, overly strict antifraud measures could lead
to a result like the one in Ghazni’s 2010 parliamentary election. In that case,
117 out of 272 polling stations failed to open due to insecurity or had their
ballots invalidated and the members of the majority Pashtun ethnic group
failed to elect a single representative. “We think a major challenge is that
in the south, in these insecure areas, there are people who have the right
to vote,” he said. “Don’t you have to do the maximum to enfranchise these
people? The key to the legitimacy of the upcoming elections will be the bal-
ance of maximal participation and strategic antifraud measures.”319


THE ELECTORAL COMPLAINTS COMMISSION
On September 19, the five commissioners of the newly established ECC
were sworn in. President Karzai had signed a law last quarter making the




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             117
QUARTERLY HIGHLIGHT




ECC the country’s adjudicator of electoral complaints. Under the new law,
the ECC no longer has international commissioners. The same selection
committee that chose the IEC commissioners, with the addition of a civil
society representative, presented the president with a short list of Afghan
nominees, drawn from 300 applications, on September 12. On September
16, the presidency announced the final list of ECC commissioners. State
said the members broadly reflect Afghanistan’s ethnic and geographic diver-
sity. Four members are men and one is a woman. The new commissioners
elected Abdul Satar Saadat as chairperson.320
    The ECC faced the challenging task of establishing 34 offices in all
34 provinces before the end of the candidate-nomination process on
October 6. State said the ECC had accepted a proposal from the IEC to
share offices with the IEC in the provinces, but to have an independent
headquarters in Kabul. The ECC’s next step was to propose nominees for
the provincial ECC to the president, who would finalize their appoint-
ments.321 The ECC has not yet presented nominations for provincial
commissioners and instead has asked those with complaints to submit the
evidence to the IEC provincial office which will then forward the request
to the ECC in Kabul for consideration.322
   These provincial commissioners were to constitute the core of the ECC’s
staff in the provinces. They will adjudicate electoral complaints at the pro-
vincial level, although their decisions can be appealed to the ECC in Kabul.323


WOMEN’S PARTICIPATION
Another SIGAR audit found that the IEC and the UN lacked sufficient focus
in 2009 on resolving the issues that limited Afghan women’s ability to fully
exercise their political rights to register, campaign, and vote. For example,
at least 80,000 female polling staff were needed, but only 43,341 were suc-
cessfully recruited.324 UN officials said the IEC is working hard to make it
easier for women to vote in the 2014 elections. They said ELECT II is sup-
porting the IEC to incorporate a gender perspective in all public outreach
initiatives, including the recent broadcast of radio and TV public service
announcements encouraging women to register and participate in elec-
tions. UNWOMEN, a UN organization dedicated to gender equality and the
empowerment of women, is considering a separate electoral support proj-
ect aimed at the civil society sector.325
   The IEC’s extension of district-level voter registration for an extra 45
days is likely to improve female registration, according to State. However,
the IEC warned in August that a shortage of female police officers could
keep women from voting. The IEC said it needs 12,000 female body search-
ers at polling stations, but by the end of August, there were only 2,000.326




 118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                           GOVERNANCE




FIGURE 3.29


Executive Branch Officials Running for President or Vice President


 Executive Branch Candidates for President                                                                          Executive Branch Candidates for Vice President

                                                                        Dr. Ashraf Ghani Ahmadzai                                 Mohammad Ismail Khan
              Abdul Rahim Wardak                                                                                                  Minister of Energy and Water
                                                                        Chairman Transition
              Senior Advisor to the President
                                                                        Coordination Committee

                                                                                                                     NO PHOTO
                                                                                                                                  General Abdul Rashid Dostum
                                                                                                                                  Chief of Staff to the Commander in Chief
              Dr. Zalmai Rassoul                                        Gul Agha Sherzai
              Minister of Foreign Affairs                               Governor of Nangarhar
                                                                                                                                  Habiba Surabi
                                                                                                                                  Governor of Bamyan


              Hedayat Amin Arsala
              Senior Minister                                                                                                     Wahidullah Shahrani
                                                                                                                                  Minister of Mines



Note: Listed in chronological order of their registration. Two other executive branch candidates who had resigned to run for president, Azizullah Ludin (Head of the High Office of Oversight and
Anti-Corruptions) and Anwar-ul-Haq Ahadi (Minister of Commerce & Industries), were disqualified by the IEC from running. As of late October 2013, there are five other tickets of candidates
running for president.
Sources: ToloNews, “Complete List of Registered Presidential Tickets,” 10/7/2013, accessed 10/7/2013; Tolo News, “IEC Announces Preliminary List of 2014 Presidential Candidates,”
10/22/2013, accessed 10/22/2013.



E-tazkera
The distribution of Afghanistan’s new biometric national identity card,
the e-tazkera, has been tied to the National Assembly’s passing a law on
registration of the population. The lower house passed a bill in July that
included the controversial provision that an individual’s ethnicity would
not be printed on the face of the card, although it would still be recorded in
the biometric data contained within the card’s electronic memory. The law
is currently under review in the upper house. Once the population registra-
tion law has been enacted, under the European Union leadership and with
the support of USAID, the Afghan Ministry of Interior has agreed to fund a
nine-month pilot project to distribute the cards in 12 to 14 districts of Kabul
City.327 The cards will be accepted as a form of national ID for the April elec-
tions, as well as in other interactions with the Afghan government.328


NEW U.S. CIVIL-MILITARY STRATEGIC FRAMEWORK
FOR AFGHANISTAN
The U.S. Ambassador to Afghanistan, James B. Cunningham, and the
Commander of USFOR-A, General Joseph F. Dunford, signed the U.S.
Civil-Military Strategic Framework for Afghanistan which they say




REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2013                                   119
GOVERNANCE




“articulates the vision for pursuing U.S. national goals in Afghanistan,
while reflecting policy updates and changes related to the passage of
time.”329 It includes improving governance and the rule of law as part of
the U.S. national goal of strengthening Afghanistan so that it can never
again be a safe haven for international terrorism.330 The framework docu-
ment names political reconciliation and reintegration and advancing
women’s role in society as cross-cutting efforts that will remain an impor-
tant focus for the U.S. government.331
   According to the framework, a key U.S. goal is to empower the Afghan
government and help its institutions become representative, accountable,
responsive, constitutionally legitimate, and capable of performing key func-
tions.332 Under the new strategic framework, the United States has four
priorities in the governance sector:333
•	 supporting the 2014 Afghanistan presidential elections
•	 strengthening checks and balances both within the Afghan government
   and independent institutions such as civil society
•	 strengthening governance functionality to enable service delivery
•	 stemming corruption

   The framework notes that U.S. government support will shift away from
parallel systems of direct service provision and toward strengthening the
Afghan government’s role in sub-national governance, revenue collections,
and budgeting to improve service delivery.334
   The United States also seeks to help Afghans develop a legal structure
that enhances stability by encouraging good governance, a vibrant civil
society, economic growth, and women’s rights.335 The framework outlines
four rule-of-law priorities:336
•	 building the capacity of the Afghan government justice and legal systems
•	 combating corruption within Afghan government agencies and institutions
•	 increasing access and understanding of the formal justice systems to
   empower civil society and protect women’s rights
•	 strengthening linkages between formal and customary justice sectors

   The framework assumes that the Afghan government will do the following:337
•	 make acceptable progress on indicators outlined in the Tokyo Mutual
   Accountability Framework leading to continued financial support from
   the international community
•	 hold successful presidential elections resulting in a peaceful transfer of
   power in 2014
•	 provide continued support for political reconciliation

   The new U.S. strategic framework also assumes that there will be suffi-
cient security for implementing partners to conduct assistance activities and
enough U.S. civilian and military personnel to adequately monitor and evaluate




 120                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




progress.338 The framework itself does not offer specific indicators or metrics
of progress for governance and rule of law other than the reference to indica-
tors found in the Tokyo Mutual Accountability Framework. The Tokyo Mutual
Accountability Framework governance-related indicators include:339
•	 developing an election timeline through 2015
•	 ensuring that an electoral architecture is developed
•	 ensuring respect for human rights of all citizens
•	 implementing the Elimination of Violence Against Women Law (EVAW)
    and National Action Plan for Women (NAPWA)
•	 enforcing the legal framework for fighting corruption
•	 raising the ratio of revenue collection to gross domestic product (GDP)
    from 11% to 15% by 2016
•	 improving budget execution to 75% by 2017
•	 enacting a legal framework to clarify roles and responsibilities of
    government agencies at national, provincial and district levels in line
    with the 2010 Sub-National Governance Policy
•	 developing a provincial budgeting process that includes provincial input
    into the relevant ministries formulation of budget requests, linked to
    a provincial planning process in which provincial councils have their
    consultative roles


RECONCILIATION AND REINTEGRATION
According to the Civil-Military Framework, the U.S. government views
political reconciliation as “the solution to ending the war in Afghanistan.”
The framework said the United States will pursue high-level diplomatic
engagement for political reconciliation that includes leadership elements
of the insurgency as well as support for the Afghan government reintegra-
tion program.340 The Special Representative for Afghanistan and Pakistan,
Ambassador James F. Dobbins, indicated in September that the Taliban are
currently unwilling to engage in dialogue with the United States or Afghan
government, and that it is not clear when the situation will change. He also
pointed out that the Taliban political office in Doha is currently closed fol-
lowing a “false start” at negotiations in June 2013.341
   Neither the United States nor the Afghan government made any progress
                                                                                   An audience member addresses
towards establishing a peace process with the Taliban. The Afghan govern-
                                                                                   representatives from the Afghan High Peace
ment continued its efforts to revive peace talks with the Taliban this quarter,    Council during a panel discussion at the
but its overtures failed to bear any fruit. President Karzai visited Pakistan to   end of a women’s peace conference at the
discuss opportunities for cooperation between the two countries in support         governor’s palace in Nangarhar Province.
of reconciliation efforts.342 Following the visit, Pakistan’s Foreign Ministry     (DOD photo)
announced plans to release Mullah Abdul Ghani Baradar, the former Taliban
second in command.343 According to news reports, however, Taliban com-
manders have refused to meet with Mullah Baradar because he is being
escorted by Pakistani security agents and remains detained by Pakistani




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              121
                                                                 GOVERNANCE




                                                                 authorities.344 The New York Times reported that a spokesman for President
                                                                 Karzai stated that there had been no contact between Mullah Baradar and
                                                                 the Afghan government while Radio Free Europe quoted President Karzai
                                                                 saying “We are trying to find a contact number or his address to talk to
                                                                 him.”345 Pakistan also released an additional seven Taliban figures this quar-
                                                                 ter to facilitate the peace process in Afghanistan.346

                                                                 High Peace Council
                                                                 The U.S. and Afghan governments continued this quarter to stress that the
                                                                 High Peace Council is their preferred intermediary for any peace talks with
                                                                 the Taliban. In a September 16 press conference, Ambassador Dobbins said
                                                                 the U.S. supports an Afghan-led peace process which would involve talks
                                                                 between the Taliban, the Afghan government, and the High Peace Council.347
                                                                 The Chairman of the High Peace Council travelled with President Karzai to
                                                                 Islamabad in August to ask Pakistan for the release of high-profile Taliban
                                                                 prisoners into Afghan government custody.348

                                                                 Afghan Peace and Reintegration Program
                                                                 According to the Department of Defense (DOD), the Afghan Peace and
  The National Solidarity Program (NSP):                         Reintegration Program (APRP) has made strong progress but is not a major
  was conceived and launched by the                              influence on the conflict.349 According to the Department of State (State)
  Ministry of Finance and Ministry of
                                                                 and DOD, the Joint Secretariat completed reforms that improved the APRP’s
  Rural Rehabilitation and Development
                                                                 financial-reconciliation process, largely addressing the financial-flow stop-
  (MRRD) in 2003. The NSP is designed to
  strengthen community level governance                          pages that had stalled the program every quarter.350 As of September, only
  and to improve the access of rural                             four Provincial Joint Secretariat Teams (PJST) out of 33 were over 60 days
  communities to social and productive                           delinquent in filing financial reports.351 According to State and DOD, the
  infrastructure and services by channeling                      PJSTs’ inability to conduct financial reconciliation had essentially shut down
  resources to democratically-elected                            the APRP until this quarter.352 State and DOD consider this change to be a
  Community Development Councils                                 significant improvement for the two and a half year-old program.353
  (CDCs). The NSP outsources project                                According to State and DOD, the $50 million U.S. contribution in sup-
  implementation to facilitating partners                        port of APRP via the Ministry of Rural Rehabilitation and Development’s
  that mobilize communities to form CDCs                         (MRRD) National Solidarity Program (NSP) has not been linked to the
  and provide CDCs technical guidance for                        APRP for fear of increasing the risk to NSP non-governmental facili-
  managing block grants and planning and
                                                                 tating partners. The U.S. funds have instead been subsumed into the
  implementing subprojects at the village
                                                                 broader Afghanistan Reconstruction Trust Fund (ARTF) budget rather
  level. NSP receives support from the
  World Bank’s International Development                         than being used in support of specific reintegration initiatives. The World
  Association (IDA), the World Bank-                             Bank recently completed a mid-term review of the NSP and assessed the
  administered Afghanistan Reconstruction                        overall progress as satisfactory; however, the review did not include the
  Trust Fund (ARTF), and bilateral donors.                       Community Recovery Intensification and Prioritization (CRIP) compo-
                                                                 nent of NSP that is in support of the APRP.354 The MRRD planned to use
                                                                 $10.4 million of the $58 million pledged to NSP for use in support of APRP
                                                                 in 1390 and a further $20 million in 1391.355
Source: World Bank, Emergency Project Paper on a Proposed
Grant in the Amount of SDR 27.2 million (U.S. $40 million           During the quarter, the number of small grants in support of APRP
Equivalent) to the Islamic Republic of Afghanistan for a Third
Emergency National Solidarity Project, 6/10/2010, pp. 3, 14.     increased to 70. State and DOD state that 435 new reintegrees joined the




                                                                  122                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  GOVERNANCE




FIGURE 3.32

REINTEGREES BY REGIONAL COMMAND, MARCH 2012–SEPTEMBER 2013

8,000

7,000

6,000                                                                                                                              RC-NORTH



5,000
                                                                                                                                          RC-CAPITAL

4,000                                                                                                RC-WEST
                                                                                                                                       RC-EAST

3,000
                                                                                                                        RC-SOUTH

2,000
                                                                                                  RC-SOUTHWEST

1,000

     0
            Mar        Jun        Sep        Jan          March   June        Sep
           2012       2012       2012       2013          2013    2013       2013


Source: State, responses to SIGAR data call, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, 3/30/2012, 7/1/2013, 10/4/2013.



program increasing the total to 7,214 reintegrees, as shown in Figure 3.32.356
State and DOD also report there is an estimated backlog of approximately
600 applicants.357 Twelve donor countries have given the APRP a total of
$182.3 million. Of this, $107.1 million had been expended as of July 31, 2013.358

Conflict Resolution
The UN Secretary-General reported that the United Nations Assistance
Mission in Afghanistan (UNAMA) continued to support the Afghan
People’s Dialogue on Peace. Between April and June, UNAMA conducted
100 focus group discussions—of 200 planned in total—across the country
involving 1,733 Afghans, including 429 women. The focus groups found
that entrenched impunity, pervasive corruption and abuse of authority,
unemployment, and, in some cases, lack of equitable development were
reasons for discontent and the insurgency. Focus group participants also
voiced concerns about the APRP and what was seen as a lack of vetting
and accountability.359
   USAID administers the Promoting Conflict Resolution, Peace Building,
and Enhanced Governance program implemented by the United States
Institute of Peace. The main objectives of the program are reducing vio-
lence by strengthening capacity to mitigate conflict; improving peace,
security, and development; enhancing the rule of law; and increasing
understanding of critical development, peace, and stability issues through




REPORT TO THE UNITED STATES CONGRESS                  I    OCTOBER 30, 2013                            123
                                                             GOVERNANCE




                                                             fellowships, research, and analysis. USAID has obligated $7 million for the
                                                             program, of which $4.7 has been disbursed as of September 30, 2013.360
                                                                In a Foreign Policy article, the Afghanistan Country Director for the
                                                             United States Institute of Peace reported on the results of a meeting the
                                                             program hosted with 200 community elders. The elders reported that
                                                             although only 50 Taliban may be operating in a given area where as many
                                                             as 300 to 500 government security personnel also operate, the elders are
                                                             reluctant to side with the government due to widespread corruption. The
                                                             author argues that the elders are largely indifferent to both the government
                                                             and insurgent forces, with the elders reporting that neither can be trusted to
                                                             deliver on promises of security, justice, or services.361


                                                             NATIONAL AND SUBNATIONAL GOVERNANCE
  Alignment: as meaning external partners                    The UN Secretary-General reported that the Afghan government has contin-
  are aligned with National Priority Program                 ued to engage donor partners in the implementation of its Aid Management
  (NPP) strategy and the underlying principles               Policy, including on-budget financing, development framework agreements,
  of all donor programs and projects are                     financing agreements, and joint analysis, research, and assessments.362 The Aid
  consistent with the NPPs stated approach.                  Management Policy was endorsed at the February 12, 2013, Joint Coordination
  Alignment is fully achieved when donor
                                                             and Monitoring Board (JCMB) meeting which was attended by Afghan govern-
  funded projects and the NPPs have
                                                             ment officials and representatives of 37 countries.363 According to the Ministry
  common, unified, and consistent objectives,
  plans, programs, projects, and deliverables.
                                                             of Finance, the policy forms the guiding principles for the delivery of aid in
                                                             Afghanistan and for the implementation and monitoring of mutual commit-
  On-budget: all inflow of resources or                      ments made by the Afghan government and international donors.364
  spendings, program and project aid, is                        According to the Secretary-General, the Afghan government and donors
  aligned with the plans of budgetary units,                 are seeking to develop a consensus on definitions of on-budget and
  are captured in the budget documentation,                  alignment.365 The July 2010 Kabul Conference previously used the term
  are appropriated by the parliament and                     “alignment” and the 2012 Tokyo Conference used the terms “alignment” and
  managed through the treasury system.                       “on-budget” to describe international donor commitments.366 The endorsed
                                                             Aid Management Policy provides definitions for both of these terms that
  National Priority Programs (NPPs): a set                   appear to match those used in the Kabul and Tokyo conferences.367 The
  of 22 priority programs announced at the                   Secretary-General did not elaborate on the specifics of the disagreement but
  Kabul Conference (2010) representing                       his observation raised questions about the value of policies endorsed by the
  a prioritized and focused approach to
                                                             JCMB if key definitions remain up for debate.
  Afghanistan National Development Strategy
                                                                The Secretary-General also reported that the Independent Directorate of
  (ANDS) implementation including specific
  deliverables and costing of programs.
                                                             Local Governance (IDLG) and the MRRD finalized policy for the establish-
                                                             ment of District Coordination Councils (DCC). These councils are intended
                                                             to be in place until constitutionally-mandated district council elections
                                                             take place. Provincial committees would determine membership based
Source: Government of the Islamic Republic of Afghanistan,
Aid Management Policy (AMP) For Transition and Beyond,       on government criteria. The proposal has been submitted to the Council
12/10/2012, pp. 5, 8.                                        of Ministers for approval, with UNAMA facilitating consultations between
                                                             the Government and the international community on funding modalities.368
                                                             DOD previously reported the Afghan government was expected to endorse
                                                             and define the roles and responsibilities of the DCCs by the end of 2012 in
                                                             order to begin operation by the end of 2013.369


                                                              124                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




National Assembly
Both houses of parliament had a 45-day summer recess from July 23 to
September 7, 2013.370
   Upon return from recess, the lower house of parliament voted in favor of
the Private Land Grabbing Prevention Law that aims to prevent the illegal
acquisition of government and private lands. Parliamentarians supporting
the law stated that over the past several years, millions of acres of land have
been illegally acquired by influential government officials.371
   The lower house also gave their vote of confidence for Omer Daudzai,
the nominee for the post of Minister of Interior; Akram Khpalwak, the
nominee for the post of Minister of Tribal and Border Affairs; Lotfurrahman
Saeed, a nominee for membership to the Commission on Overseeing the
Implementation of the Constitution (COIC); and Barat Ali Mateen, a nomi-
nee to the Supreme Court. Another nominee to the COIC, Nusrat Estanikzai,
failed to gain a vote of confidence from the lower house.372
   A female member of parliament was kidnapped by the Taliban in August
while traveling along the Kabul-Kandahar highway near the city of Ghazni
and released in September. It was the first instance a female member
of parliament has been abducted by insurgents. According to a Taliban
spokesman, six men and four women were freed in exchange for the parlia-
mentarian. Another female member of the upper house of parliament was
targeted in August while in Muqur district, Ghazni Province, in an attack
that killed her daughter and driver.373
   Mohammed Mohaqeq and Abdul Rasoul Sayyaf, both former
Mujahedeen commanders and members of parliament, resigned their seats
along with five other parliamentarians in order to run for office in the 2014
presidential elections.374
   USAID provides support to the parliament through the $23 million
Assistance to Legislative Bodies of Afghanistan (ALBA) project that will run
through April of 2017 with a possible one-year extension depending upon
funding and project success. According to USAID, in the first two years
of the ALBA project, efforts will focus on building parliamentary capacity
ahead of the 2015 parliamentary elections. Once the new parliament is in
place, the project will shift focus to more individualized training for parlia-
mentarians and parliamentary commissions.375

Civil Service Vacancies and Access
The Independent Administrative Reform and Civil Service Commission
(IARCSC) continued to prioritize filling Afghan government positions at the
provincial level in line with the Insecure Provinces Recruitment Strategy
and President Karzai’s Presidential Decree 45. The Commission has adver-
tised for positions in insecure provinces in neighboring areas to increase
the pool of qualified applicants for civil service positions.376 IARCSC had
planned to implement a general entrance exam to recruit recent university




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             125
                                             GOVERNANCE




                                             graduates for government positions in April; however, the initiative is
                                             delayed until the parliament approves relevant legislation.377
                                                The Afghan government announced 50 district governor positions in
                                             13 insecure provinces. The positions were advertised a second time due
                                             to the low number of applicants. Forty-eight candidates for district gov-
                                             ernor passed the examination and interview process jointly administered
                                             by the IDLG and the IARCSC. IDLG selected and referred 36 candidates
                                             to the IARCSC, which in turn sent 34 names to President Karzai’s office
                                             for appointment after it was found that one of the candidates was missing
                                             documents and the other did not have the necessary exam score. The 34
                                             candidates have already received training and will be ready to begin duty
                                             upon their appointment.378
                                                UNAMA reported in its July 2013 midyear report that there has been an
                                             increase in targeted killings of civilian government workers, peace council
                                             members, and tribal elders perceived to be supporting the Afghan govern-
Kandahar Provincial Governor Tooyalai
                                             ment.379 These killings are meant to punish civilians for supporting the
Wesa speaks to local village elders dur-     Afghan government and serve as a warning to others. UNAMA observed a
ing a shura in Maiwand district, Kandahar    76% increase in attacks targeting civilian government employees, with 114
Province. U.S. and Afghan dignitaries also   civilians killed in 103 attacks during the first six months of 2013 (as com-
attended the shura. (DOD photo)              pared to 61 civilian deaths from 72 attacks for the whole of 2012).380 On
                                             May 2, 2012, the Taliban announced that their “Al-Farooq” spring offensive
                                             would specifically aim to kill civilian targets, including high-ranking gov-
                                             ernment officials, members of parliament, High Peace Council members,
                                             contractors, and “all those people who work against the Mujahedeen.” As
                                             in 2012, the Taliban announcement of its 2013 spring offensive warned that
                                             civilians associated with the Afghan government or its international allies
                                             would be at risk of attack.381
                                                A recent targeted attack killed an employee of the MRRD and five staff
                                             members of the International Rescue Committee working for the NSP
                                             while returning to their field office in Gulran district, Herat Province. The
                                             six were traveling in a taxi that was stopped by armed men.382 The MRRD
                                             has referred to the attackers as “enemy of the people of Afghanistan who
                                             oppose any development support” but did not offer additional details.383
                                             This incident highlights the increasing difficulty civil servants and non-
                                             governmental employees are having reaching Afghan government projects.
                                             These now include the NSP, which the Taliban formerly avoided attacking
                                             due to the popular support the program enjoyed.384

                                             U.S. Stability Programs
                                             USAID’s Stability in Key Areas Program
                                             USAID said that its Stability in Key Areas Program (SIKA) made progress
                                             in grants execution, but that the program faced serious problems result-
                                             ing from deteriorating security during this reporting period.385 USAID has




                                              126                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




obligated $146.9 million for four SIKA programs to increase the confidence
of Afghans in their district government leading to the expansion of Afghan
provincial government authority and legitimacy through workshops, train-
ings, and small grants.386 USAID reported 75 grants awarded in SIKA-East,
15 grants applications approved in SIKA-South, 52 grants activities in SIKA-
West, and 65 active grants in SIKA-North.387 Other SIKA activities include
training and capacity building of Afghan government officials and commu-
nities, development of communications plans for the Afghan government,
and outreach events such as service-provider fairs, which USAID sees as
producing tangible benefits for communities.388 As of September 2013, the
four SIKA programs have expended $92.93 million.389
    USAID also stated that security has worsened in SIKA-East with cases
of insurgents demanding that communities not affiliate with government
projects. Meanwhile in SIKA-West, a recent threat led to a continuing work
stoppage across an entire district.390 SIKA-North has also identified increased
security challenges, but says activities have not been suspended.391 Winter
is expected to affect implementation of community projects in SIKA-East.392
SIKA-South faced delays in Afghan-government certification of community
representatives as legitimate—a required step that USAID says should have
taken two weeks, but remains incomplete after three months.393 According
to USAID, SIKA-West has found some district governors are not at their post
and some district governors are reluctant to visit remote communities where
project activities are under way.394

Village Stability Operations
Village Stability Operations (VSO) and the Afghan Local Police (ALP) are
complementary components of the Afghan government’s and the Afghan
National Army (ANA) Special Operations Command’s counterinsurgency
strategy.395 According to DOD, team assessments and survey data suggest
that gains in governance remain steady once districts transition from coali-
tion forces to Afghan government control.396 ALP are currently serving in
116 districts across 29 provinces. By this fall, all ALP districts will have tran-
sitioned to complete Afghan government control.397

U.S. Capacity-Building Programs for Public Administration
Initiative to Promote Afghan Civil Society
USAID’s Initiative to Promote Afghan Civil Society (I-PACS) encourages
development of a politically active civil society in Afghanistan.398 The
World Bank defines civil society as “the wide array of non-governmental
                                                                                     Nahr-e Saraj district Governor Mohammed
and not-for-profit organizations that have a presence in public life, express-
                                                                                     Fahim speaking at a shura event urging
ing the interests and values of their members or others, based on ethical,           the people to take ownership of their vil-
cultural, political, scientific, religious, or philanthropic considerations.”399     lage and to ensure its peace and stability.
Through the program, USAID provides technical assistance, capacity                   (DOD photo)




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013                127
GOVERNANCE




building, and grants to civil society organizations nationwide.400 According
to USAID, I-PACS proposed 33 amendments to legislation and regulations
for civil society organizations with parliament approving 29 amendments.401
USAID reports that I-PACS contributed to the recent signing of the Social
Organization Law by President Karzai in September 2013 with 88% adop-
tion of recommended amendments specific to that law.402 According to
the International Center for Not-for-Profit Law, the Social Organization
Law supersedes the 2002 Law on Social Organizations and expands the
civic space in Afghanistan by allowing social organizations to access for-
eign funding and to conduct advocacy.403 According to USAID, I-PACS has
awarded $10.9 million in grants to civil society organizations.404
   I-PACS is now in its final quarter of operation and staff attrition is
impacting implementation.405 USAID has obligated $45 million with an esti-
mated $38 million expended as of September 30, 2013.406

USAID Performance Based Governance Fund
USAID’s Performance Based Governance Fund (PBGF) was focused
on building the financial-management capacity of provincial governors’
offices (PGOs).407 The program assessed the PGOs’ capacity on a quarterly
basis. Improving PGOs received incentive funding.408 The award for the
PBGF ended programmatic activities as of July 31, 2013, with close-out
concluded on September 30, 2013. There is no broad programmatic follow-
on for PBGF, although some training and capacity-building functions will
be covered by a new program called the Initiative to Strengthen Local
Administrations. The total obligated for PBGF to date is $48.89 million, of
which $47.93 million has been expended.409
    USAID did not provide program metrics or results in response to the
SIGAR data request this quarter despite the fact that the PBGF is now being
concluded. USAID’s Office of Inspector General (OIG) previously reported
in October 2012 that the PBGF plan contained no baseline values and only
one target value for its 103 performance indicators, had too many indica-
tors to be useful, and that the intended results were not clear or universally
understood.410 USAID OIG also noted that the program spent the majority of
its funds (51%) on vehicles and equipment for the PGOs.411

USAID’s RAMP-UP and Kabul City Initiative
USAID’s Regional Afghan Municipalities Program for Urban Populations
(RAMP-UP) and the Kabul City Initiative (KCI) are intended to help
municipal governments in Kabul and other urban centers increase capac-
ity of municipal officials, improve delivery of municipal services, support
economic growth initiatives, and raise revenues.412 As of September 30,
2013, USAID had obligated $271 million for RAMP-UP and $44.6 million for
KCI, of which $185.9 million and $39.7 million had been expended, respec-
tively.413 According to USAID, program uncertainty and funding cuts are no




 128                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




longer an issue because new budgets, scopes of work, and periods of per-
formance have been negotiated and finalized for all municipal programs.414
   The RAMP-UP projects were extended to the end of March 2014 with
USAID planning for a follow-on program, the Strengthening Hubs for
Afghanistan Resilience (SHAHAR).415 USAID plans to concentrate its
SHAHAR resources in up to 16 small-to-medium provincial capitals where it
hopes to make the most difference.416
   USAID reports that the RAMP-UP East program recently selected 19
small-scale projects to be built through the municipal incentive fund.417
Projects include six parks, five solar energy projects, and three trash bin
projects.418 Although the municipalities are supposed to share the cost at
30.8% on average, USAID notes that many have delayed making their cost
or in-kind contributions to municipal incentive projects. However, USAID
and RAMP-UP discussions with mayors and the IDLG/General Directorate
of Municipality have reportedly resolved these challenges and allowed the
projects to go forward.419

USAID’s Support to Sub-National Governance Institutions
USAID’s Support to the Sub-National Governance Structure (SNG) proj-
ect aimed to develop the capacity of Afghanistan’s 32 provincial councils
and provide technical assistance to the IDLG.420 A USAID-commissioned
performance evaluation found that although the SNG project appeared rela-
tively cost-effective as compared to similar projects implemented by other
donors, the project had limited ability to report on project results.421 For
example, the implementing partner registered 82 site visit reports by provin-
cial council members (which would be less than one site visit per year for
each of the provinces) even though provincial council members claimed to
have conducted more frequent site visits that were funded by SNG.422 The
evaluation found that SNG was unable to deliver performance indicator
information because data were too general to ascertain results.423 The evalu-
ation concluded that provincial councils appear firmly established across
Afghanistan but that the limited authority of the councils undercuts their
effectiveness.424 The project ended on September 30, 2013.425

USAID’s Afghanistan Media Development and
Empowerment Project
The Afghanistan Media Development and Empowerment Project (AMDEP)
is designed to strengthen the capacity of independent media outlets
by promoting greater professionalism within and among media institu-
tions in Afghanistan.426 In addition to other partners, AMDEP supports
Nai Supporting Open Media in Afghanistan (NAI), the leading media
advocacy and training organization in Afghanistan.427 During the quarter,
NAI voiced its opposition to long government delays in passing the draft
Access to Information Law, and advocated for expediency.428 The Access




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           129
GOVERNANCE




to Information Law outlines the rights of Afghan citizens and organizations
to access information about the government as detailed in Article 50 of the
Afghanistan Constitution.429 NAI also joined other media organizations in
asking parliament to revise three articles of the Media Law that they argue
would curtail the freedom of the press.430
   USAID has obligated $31.8 million for AMDEP, of which $30.2 million has
been spent.431


JUDICIAL REFORM AND RULE OF LAW
Based on information received from the Supreme Court of Afghanistan
and the Afghan Attorney General’s Office, all districts now have prosecu-
tors assigned (down from five without a prosecutor in 2012). However, the
prosecutors for the 51 most insecure districts work from their assigned
provincial centers, which may be outside of those districts. All districts
now have a judge assigned and functioning courts (down from 33 without
a judge in 2012). As required by Presidential Decree 45, the Supreme Court
stated that as of March 2013, it had functioning courts in each district of
Afghanistan. As no new judges had been hired, the Court thinned staffing in
previously served areas to provide functioning courts. According to DOD,
the Attorney General’s Office will need to deploy prosecutors to under-
served districts to allow for functioning criminal trials since many remain
outside their assigned districts.432

Supreme Court
Under the Afghan constitution, Supreme Court judges serve set terms.
According to State, four Supreme Court justices with expired terms are still
serving.433 During this quarter, one nominee was introduced to the lower
house to replace a justice whose term expired in 2010.434 The nominee
received a vote of confidence from legislators. Several members of parlia-
ment requested during the nomination that President Karzai introduce a
nominee for chief justice; the sitting incumbent’s term has expired.435
   State considers the final and binding conviction of Haji Lal Jan, an impor-
tant drug-trafficker with ties to the insurgency, as a significant case before
the Supreme Court this quarter.436

Criminal Procedure Code
The lower house of the National Assembly passed the updated Criminal
Procedure Code (CPC) in early June 2013, the State Department said. The
upper house has yet to act on the draft CPC passed by the lower house.437
The Afghan government had pledged at the end of the Kabul Conference in
July 2010 to enact its draft CPC.438




 130                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




Taliban Justice
UNAMA observed an increase in judicial punishments carried out by insurgent
elements in the first six months of 2013. The majority involved insurgents
executing civilians accused of spying for the Afghan government.439
   Insurgent judicial structures were found to be imposed on some com-
munities by force through physical removal of suspects, implementation of
decisions, threats, intimidation, and harassment. In other instances, how-
ever, communities appeared to use these structures rather than official legal
mechanisms and referred cases to the parallel “court.”440
   Insurgent judicial punishments included beheading a civilian contrac-
tor supplying Afghan National Border Police in Kunar Province, killing an
international non-governmental staff member, and abducting and killing a
civilian accused of affiliation with the National Directorate for Security.441

U.S. Justice Sector Support
In July 2013, SIGAR alerted the Secretary of State to deficiencies related to
the award of the Afghanistan Justice Training Transition Program (JTTP)
which is being administered by State’s Bureau of International Narcotics
and Law Enforcement Affairs (INL).442 State responded to the SIGAR alert
letter this quarter and the full SIGAR audit—with responses to agency com-
ments— should be released in the next quarter.443
   INL has agreed to fund the JTTP, at $47 million over 30 months with a
program goal of transitioning from an external donor-led program to an
in-house continuing legal education program administered by the Afghan
government. JTTP builds upon capacity building and training programs
under the Justice Sector Support Program, a program for which State has
obligated $212.7 million as of December 30, 2012.444 JTTP provides regional
training on a range of criminal-justice topics, including anticorruption, to
justice sector officials, including judges, prosecutors, defense attorneys,
and criminal investigators.445 INL has also provided $12.41 million since
December 2010 to support the National Justice Sector Strategy (NJSS) and
plans to provide an additional $5.64 million to continue funding of NJSS
until April 2014. INL’s contribution to the International Development Law
Organization, an international organization that implements both JTTP and
NJSS, totals $65 million.446
   INL has cited The Asia Foundation’s 2012 survey which found that, for
the first time, more Afghans were using the formal justice system than the
informal one as evidence that INL’s justice-sector programs were working.447
   DOD’s rule of law efforts to date have included field support to civilian
teams; training for judges, prosecutors, defense counsels, and correc-
tions officials; providing infrastructure for courts and prisons; and training
Ministry of Interior (MOI) police forces in aspects of law enforcement.
However, the DOD mission is evolving as the international presence draws
down. USFOR-A’s Rule of Law Field Force-Afghanistan (ROLFF-A) officially




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            131
                                         GOVERNANCE




                                         closed its field mission on August 31, 2013, and the NATO Rule of Law Field
                                         Support Mission-Afghanistan was scheduled to shut down on September
SIGAR INSPECTION REPORT                  30, 2013. ROLFF-A’s current mission is focused on supporting the Justice
During this quarter, SIGAR published     Center in Parwan, where staff assist civilian agencies to build the capacity
an inspection report on the construc-    of Afghan authorities to prosecute insurgents and terrorists under Afghan
tion of the courthouse as part of the    law. ROLFF-A will cease operations on February 1, 2014.448
Justice Center in Parwan (JCIP). SIGAR
found that construction of the JCIP      Rule of Law Stabilization (Formal and Informal)
courthouse has not been completed        USAID administers two Rule of Law Stabilization programs: one focused
and the workmanship of the construc-     on the informal sector, the other on the formal sector. As of September 30,
tion done to date is poor. For more      2013, USAID has obligated $18.9 million for the Rule of Law Stabilization-
information, see Section 2, page 40.     Formal (RLS-F) and $15.7 million for the Rule of Law Stabilization-Informal
                                         (RLS-I), with $10.2 million and $9.6 million disbursed respectively.449
                                            According to USAID, RLS‐F addresses the needs of the formal justice
                                         sector by developing the skills of four audiences: the judiciary, court admin-
                                         istrators, Law and Sharia Faculties at universities, and the public-outreach
                                         departments at the Ministry of Justice and the Supreme Court. RLS‐F most
                                         recently sponsored a joint training program on anticorruption. RLS‐F con-
                                         tinues to support a two‐year orientation and skills-development program
                                         for future judges. RLS‐F also works with the Law and Sharia Departments
                                         at universities across Afghanistan to promote a cadre of legal professionals
                                         for the next generation. USAID says progress has been made to establish a
                                         unified national curriculum for legal education and provide practical learn-
                                         ing experiences for students, like moot court competitions and legal clinics.
                                         Finally, RLS‐F educates Afghans on laws and rights so that they know how
                                         to access the courts.450
                                            According to USAID, RLS‐I addresses the needs of the informal justice
                                         sector by fostering linkages between the formal and traditional justice
                                         systems, and by aligning traditional justice with the Afghan constitution.
                                         RLS‐I has enhanced the dispute-resolution skills of community leaders in
                                         48 districts in south, east, and north Afghanistan. RLS‐I has trained 20,000
                                         persons (45% women) in key legal principles; established six community
                                         cultural centers and conducted outreach to increase citizens’ understanding
                                         of rights; facilitated registration of close to 700 traditional justice decisions
                                         with district officials and local district courts; and secured 2,000 pledges
                                         from elders to follow best practices in traditional dispute resolution and
                                         refrain from using customs that violate Afghan law and international human
                                         rights. The program has also established female elders groups, which
                                         according to USAID, have a unique capacity to address cases that affect
                                         women and have resolved 700 cases.451

                                         Counternarcotics Justice Center
                                         INL has expended approximately $17.5 million to support operations and
                                         maintenance costs of the Counternarcotics Justice Center (CNJC) in Kabul




                                          132                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




since FY 2008. Since 2005, INL has also transferred approximately $18.8 mil-
lion to the U.S. Department of Justice (DOJ) for programs that include
mentoring, training, and advisory services to the police, prosecutors, and
judges of the Criminal Justice Task Force who work at the CNJC. DOJ advi-
sors also work on anticorruption and major crimes programs. INL funded
the original construction of the CNJC facility, as well as various infrastruc-
ture upgrades totaling about $16 million.452
   According to INL, the investigators, prosecutors, and judges at the
CNJC continue to pursue their cases aggressively and effectively. INL
notes that CNJC prosecutors are able to build effective and compelling
criminal cases through careful examination of the sufficiency of evidence
for potential cases. According to INL, for the Afghan solar year 1391
(roughly March 2012–March 2013), the conviction rate at the CNJC was
99.7% in the Primary Court, with 21 Afghan government officials con-
victed of drug-related crimes.453
   In August, the Nimroz Provincial Chief of Police, General Mohammad
Kabir Andarabi, was arrested for large-scale heroin and opium trafficking,
and transferred to the CNJC. Although there may have been some political
pressure to release him, CNJC staff continued to detain Andarabi and pur-
sue the case on its merits, State said.454 On September 29, the CNJC Primary
Court issued a verdict of guilty on one count of drug-related corruption and
sentenced General Andarabi to ten years in prison.455
   The transition of the CNJC continues with INL reporting an emerging
consensus among international and Afghan stakeholders that the MOI
should be responsible for its operations and maintenance.456

Afghan Correctional System
The inmate population of Afghanistan’s prisons has continued to increase
at a rate of at least 17% annually over the past five years, leading to
overcrowding, according to State. State attributed the growth in prison
population to a system-wide improvement in the capacity of the Afghan
justice sector coupled with a lack of understanding of and reluctance by
the justice sector to utilize alternatives to incarceration.457 According to
the United Nations Office on Drugs and Crime (UNODC), fines are often
imposed in addition to—as opposed to in lieu of—incarceration sentences.
Moreover, although Afghan law states that non-payment of fines is not a
sufficient reason to incarcerate prisoners beyond their sentenced term, this
still happens sometimes in Afghanistan.458
    UNODC has conveyed to INL that prosecutors and judges are concerned
that they will be perceived as corrupt if they permit fines to substitute for
incarceration. INL will continue to train prosecutors on the legality of fines
as an alternative to incarceration and to encourage the Afghan government
to more significantly acknowledge their legitimacy.459 The INL Corrections
System Support Program (CSSP) is working with the Afghan General




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            133
GOVERNANCE




Directorate of Prisons and Detention Centers (GDPDC) to compile data on
the extent of the overcrowding problem.460
    Despite reports by UNAMA in 2011 and 2012 documenting widespread
torture and abuse in Afghan police and National Directorate of Security
detention facilities, State said it is not aware of any credible allegations of
systemic torture or mistreatment within GDPDC facilities.461
    Juveniles are incarcerated by the Juvenile Rehabilitation Directorate
(JRD), which is a separate Afghan government entity under the Ministry
of Justice. According to State, JRD lacks the resources and capacity of
the GDPDC, with most juvenile facilities being rented properties that are
unsuitable as rehabilitation centers.462
    The GDPDC and JRD continue to implement rehabilitation programs.
Since last quarter, GDPDC worked to increase participation in industries
programs like carpet weaving and bunk-bed construction at Pol-i-Charkhi,
Afghanistan’s central prison located outside Kabul. Prison leadership at
Pol-i-Charkhi began housing prisoners working on industries programs in
a separate cell block to expedite their movement to the industries build-
ing. The Pol-i-Charkhi prison commander has committed to establishing
literacy classes specifically for prisoners enrolled in industries and voca-
tional programs.463
    At the Nangarhar, Balkh, and Kunduz provincial prisons, female inmates
are enrolled in sewing programs, producing prisoner uniforms as well
other garments for sale in the local economy. INL supports these efforts
primarily through the CSSP, which provides advisors—including those with
expertise particular to prison industries and gender and juvenile issues—at
both GDPDC and JRD headquarters, as well as at correctional facilities in
five provinces.464
    According to State, INL possesses the financial and workforce resources
to monitor contracts, grants, and construction projects throughout
Afghanistan. State acknowledges that a lack of security periodically makes
it difficult for INL to reach locations and because of this, State said INL is
developing contingency plans and weighing site accessibility when making
decisions on future efforts.465 For example, INL is investigating the viability
of using third-party contractors to supplement direct oversight of infrastruc-
ture projects by INL’s American and Afghan engineering staff.466


ANTICORRUPTION
This quarter, a SIGAR report on U.S. anticorruption efforts concluded
that these activities are not guided by a comprehensive U.S. strategy that
defines clear goals and objectives to strengthen the Afghan government’s
capability to combat corruption and increase accountability. SIGAR found
that a draft 2010 U.S. anticorruption strategy was never finalized, and that
in the absence of an anticorruption strategy, agencies are depending on




 134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




the Tokyo Mutual Accountability Framework and the U.S. Civil-Military
Strategic Framework for Afghanistan for guidance. These documents lack
specific goals and objectives against which the U.S. government can mea-
                                                                                   SIGAR SPECIAL REPORT
sure its progress.467 Moreover, according to State, the Afghan government          A SIGAR special report this quarter
has made little progress in meeting the July 2012 Tokyo Conference anti-           found that the United States lacks
corruption benchmarks.468                                                          a strategic plan and mechanisms to
   In July 2012, President Karzai issued Presidential Decree 45, which             track progress in fighting corruption in
includes 38 anticorruption articles. State concurs with the Independent Joint      Afghanistan. For more information, see
Anti-Corruption Monitoring and Evaluation Committee’s (MEC) overall                Section 2, page 43.
assessment that there has been mixed progress with some positive achieve-
ments and some dismal failures.469 The MEC is an independent, joint Afghan/
international entity established to monitor and evaluate national and inter-
national efforts to fight corruption in Afghanistan. It reports semi-annually to
the Afghan public, parliament, president, and the international community.470
   State notes that anticorruption progress has been made in two areas:
drafting a new procurement law and achieving greater transparency in pub-
lishing Afghan government contracts. However, issues remain regarding the
Kabul Bank scandal, civil service appointments, and articles related to the
Afghan Attorney General’s Office (AGO).471
   According to State, the JCMB, established in 2006 after the interna-
tional London Conference to oversee implementation of the “Afghanistan
Compact” and to align Afghan and international-community efforts to
meet objectives agreed to in the compact, had not endorsed the National
Transparency and Accountability Program (NTAP).472 The NTAP is
Afghanistan’s second National Priority Program within the governance-
development cluster. Afghanistan, with the support of the international
community has established NPPs to guide reconstruction assistance. The
NTAP has failed to satisfactorily meet three “red lines” established by the
international community. The red lines identified by State include unveri-
fied asset declarations by senior Afghan government officials, portions of
the Access to Information Law draft that civil society finds problematic,
and U.S. government concerns with amendments to the National Audit Law.
According to USAID, one of the red lines related to procedures for con-
struction permits in Kabul municipality appears largely to have been met
late in the quarter though USAID acknowledges implementation remains
untested.473 State indicated that the NTAP may be considered at the next
JCMB meeting scheduled for early 2014; however, the Afghan government is
reportedly considering giving up on the NTAP.474
   As of September 30, 2013, the DOJ was not aware of any corruption
charges filed against high-level officials during this quarter.475 The DOJ has
no way to track prosecution of lower-level Afghan government officials;
however, international mentors believe that the Anti Corruption Unit (ACU)
selectively prosecutes cases with a bias toward those without political con-
nections or money.476




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              135
GOVERNANCE




Afghan Attorney General’s Office
The Attorney General’s Office (AGO) was directed by President Karzai
in July 2012 to assess and identify corrupt personnel within the AGO
and report to the office of the president with its findings in six months.
According to State, the AGO appears not to have met this requirement, as
the international community is not aware of a report being prepared or
presented. The AGO was also directed to establish a unit to address corrup-
tion within the AGO within 60 days of the decree.477 The AGO only recently
established a surveillance department with a team of 20 prosecutors for this
task.478 According to State, this unit is minimally supported and the cases
being pursued have focused on allegations of lower-level police corruption
rather than on the primary intended purpose of investigating government
prosecutors and attorneys.479
   State reports that information-sharing between the AGO’s ACU and the
Military Anti-Corruption Unit (MACU) has declined during the quarter. State
assesses morale in these two AGO units to be very low with prosecutors
reluctant to speak openly with international mentors for fear of retribu-
tion.480 State views the lack of candor in discussions between international
mentors and AGO personnel as making it highly unlikely that the DOJ will
become aware of high-level AGO interference in corruption cases.481
   According to State, although the ACU has demonstrated capacity to
prosecute minor corruption cases, it remains ineffective against higher-level
corruption due to a lack of will among the AGO and Afghan government
leadership. High-level corruption continues and political will remains the
major impediment to reform.482 Despite this, State believes that there is
value in continuing DOJ and INL engagement with the ACU and MACU.
These engagements are meant to help prepare for prosecutions should the
political will change and to demonstrate continued international-commu-
nity interest in the activities of the ACU, MACU, and AGO.483

Special Cases Committee
As of August 2013, the Special Cases Committee (SCC), an elite sub-unit of
the ACU and MACU, is officially defunct.484 The Afghan Attorney General
announced that the SCC had completed its review of cases and had there-
fore fulfilled its purpose. The DOJ proposed that the SCC be formalized into
a permanent unit to pursue the most politically challenging cases; however,
the Attorney General rejected the proposal.485 According to USAID, the
international community had viewed the SCC as a last-chance opportunity
for the Attorney General to demonstrate sincerity in combating high-level
corruption and doubted the AGO’s assertion that each case in the SCC’s ini-
tial portfolio was satisfactorily resolved.486




 136                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




Major Crimes Task Force
The Major Crimes Task Force (MCTF) was recently designated the investi-
gatory arm for a new AGO internal control and monitoring unit. However,
high-level corruption cases developed by the MCTF continue to be stifled by
the AGO.487
   Federal Bureau of Investigation (FBI) mentors disengaged from the MCTF
in February 2013, and were succeeded by personnel from the Combined Joint
Interagency Task Force–Afghanistan (CJIATF-A). State believes the change in
mentors has not materially changed MCTF effectiveness.488

Independent Joint Anti-Corruption Monitoring and
Evaluation Committee
The Independent Joint Anti-Corruption Monitoring and Evaluation
Committee (MEC) issued their latest six-month report on September 28,
2013. The MEC previously raised concerns regarding the United Nations
High Commissioner for Refugees (UNHCR) and the Ministry of Refugees
and Repatriations (MORR). The MEC found that significant steps have been
taken by both institutions—with the support of UN leadership—to address
MEC’s concerns.489 The concerns are now the subject of a financial audit
by the UN internal-oversight division and a promised audit of the MORR by
the Supreme Audit Office (SAO). In the meantime, the UNHCR has discon-
tinued rental payments for a MORR sub-office in Kabul, closed secondary
accounts, and suspended suspicious transfers of funds.490 The MEC also
raised concerns about nepotism and fraud affecting the Afghan government
Civilian Technical Assistance Programme (CTAP). The MEC recommended
increasing transparency of the CTAP; however, the MEC has not received
an official response from the Ministry of Finance and the SAO has declined
to perform an audit due to a lack of capacity.491
   The U.S. government has assisted the MEC by providing political support
and helping to locate donor funding. USAID’s Assistance to Afghanistan’s
Anticorruption Authority (4A Project) also provides technical support to
the MEC Technical Secretariat. USAID is moving toward providing direct
financial support to the MEC’s operational budget.492

High Office of Oversight and Anticorruption
State and USAID agree that the High Office of Oversight and Anticorruption
(HOO) remains dysfunctional, ineffective, and politicized.493 USAID’s 4A
Project reports that the HOO has sufficient technical capacity to function as
an effective anticorruption institution.494 Although HOO may have the tech-
nical skill, both agencies agree it lacks the political will to be effective.495
   The work of USAID’s 4A Project with the HOO remains limited to provid-
ing assistance to its Human Resources Directorate per the HOO’s request.
According to USAID, the HOO refuses to share information with the 4A
Project since the level of funding it provided over the last two years is no




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              137
GOVERNANCE




longer available.496 USAID’s 4A Project assisted the HOO this quarter in
revising the terms of reference for various HOO positions; reviewing and
revising a draft policy on Tobacco, Drugs, and Narcotics Free Workplace;
and piloting a digital data-entry system.497 USAID has obligated $9.4 million
for the 4A Project with $8.3 million disbursed as of September 30, 2013.498

Corruption in Afghan Security Forces
U.S. implementing agencies and international organizations say anticorrup-
tion efforts have had mixed results in the Afghan National Security Forces
(ANSF). According to DOD, the Ministry of Defense (MOD) is making a
serious effort to increase transparency and accountability of the ANA, while
anticorruption efforts have slowed at the MOI, which is responsible for the
ANP.499 This view was echoed this quarter by Transparency International
in a new report that assesses transparency, accountability, and counter-
corruption in the ANSF, MOD, and MOI. The report observed the MOD was
making good progress, “propelled by strong political commitment over
several years at Ministerial Level,” but that the “MOI appears to be in an
opposite situation, with a very difficult political environment and no com-
mon direction” on addressing corruption.500
   DOD reported that the MOD has begun to embed, rather than only discuss,
Transparency and Accountability Committees (TAC). There are currently
15 TACs, located in each corps of the ANA. The MOI acting minister report-
edly has made countering corruption a priority and has removed deputies he
believed were corrupt. The MOI has, however, reduced its inspector general
staff and has not reinstated inspectors general at the provincial level.501

CJIATF-Shafafiyat and Task Force 2010
Combined Joint Interagency Task Force (CJIATF)-Shafafiyat, an ISAF inter-
agency group created in 2010 to coordinate anticorruption efforts, has been
encouraging ISAF and Afghan leaders to take corruption and organized
crime into account when planning for transition.502
   During this quarter, CJIATF-Shafafiyat was transferred to the Combined
Security Transition Command-Afghanistan (CSTC-A) to better support MOI
and MOD ministerial development.503 CJIATF-Shafafiyat continues its efforts
to shape and influence MOI and MOD ministerial development by focusing
on the Inspectors General, TACs, and in developing processes to monitor
corruption. CJIATF relies on mentoring and advisor engagements for influ-
ence and is supporting development of a financial levers strategy to affect
significant behavior changes by the MOI and MOD.504
   On July 1, 2013, Task Force 2010 (TF 2010) assumed responsibility as the
contracting officer representative for the Vendor Vetting Reachback Cell
(VVRC) contract.505 The VVRC is responsible for vetting all non-U.S. con-
tractors bidding for contracts equal to or above $100,000 in the Afghanistan
theater of operations. The VVRC creates an analytical report and classifies




 138                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




contractors into one of four force protection risk levels: moderate, signifi-
cant, high, or extremely high. High or extremely high risk levels generally
result in the contractor being excluded from further consideration for new
contract awards.506 TF 2010 now serves as the as the central point of contact
for past, current, and potential vendor/contractor assessments and ratings.507

Corruption in Customs Collections
In June 2013, the Afghan Council of Ministers decided not to authorize the
charter of the proposed Presidential Executive Commission on Borders,
Airports, and Customs Depots (PEC), an executive-level Afghan inter-
agency body tasked with tackling customs-sector corruption.508 The PEC
was originally established in August 2011 by President Karzai; however, as
of July 2012 the MEC assessed that the commission had not yet been imple-
mented.509 In February 2013, the Minister of Finance had signed the charter
of the PEC and it was State’s view that the PEC could significantly improve
the transparency and accountability of the sector.510 The Ministry of Finance
indicated that the issue of the PEC would not likely be raised again now
that the Council of Ministers has withdrawn support.511
   The Afghan government also continued to expand implementation of the
Borders Management Model project. The project seeks to clarify roles and
responsibilities at the borders to reduce the number of extraneous govern-
ment agencies involved at border crossings. It was operating at six border
crossings at the end of the quarter. State noted that the expansion of this
project will be an IMF benchmark for future donor assistance.512


HUMAN RIGHTS
Gender Equity
This quarter, USAID announced plans to commit $200 million for the
Promoting Gender Equity in National Priority Programs (PROMOTE) pro-
gram designed to increase education, training, and promotion of women
in Afghanistan’s government, business sector, and civil society. The USAID
Administrator called the initiative “the largest single investment USAID has
ever made in its history in the future of women and girls anywhere in the
world.” USAID is seeking to persuade other donors to contribute the same
amount, for a total package of $416 million over five years. The funds are to
be released as the Afghan government meets its commitments to reforms
per the 2012 Tokyo conference.513 According to USAID, PROMOTE is not
expected to begin until mid-2014, and the program is in no way dependent
on the U.S. troop presence.514
   USAID also announced the Ministry of Women’s Affairs (MOWA)
Organizational Restructuring and Empowerment Project (MORE), a
three-year $15 million project aimed at strengthening MOWA’s capacity to




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            139
GOVERNANCE




A U.S. civilian representative, at head of table, hosts an Afghan female shura at
Parwan Province government offices on women's participation in presidential and
provincial council elections in 2014. (DOD photo)

advance its policy mandate, gender equality, and women’s empowerment in
Afghanistan. MORE seeks to facilitate organizational and strategic reform at
MOWA through specific courses on policy leadership and advocacy, strate-
gic planning, human resource management, gender mainstreaming, financial
management, monitoring and evaluation, and public outreach. The project
intends to strengthen ties between MOWA and other Afghan ministries to
incorporate gender mainstreaming in their own policy development in line
with National Action Plan for Women of Afghanistan (NAPWA).515
   USAID is launching these programs at a time when there is increas-
ing concern that the gains women have made over the last decade are
being eroded. The UNHCR noted during a visit to Afghanistan that there
is widespread concern among civil-society groups that the momentum on
advancing women’s rights had halted and may be regressing.516
   The revised U.S. Civil-Military Strategic Framework states that advanc-
ing the role of women in society will remain an important focus of the U.S.
government for some time. The framework states that women must be able
to participate in society and contribute fully to it, which requires that their
social, political, and economic rights be protected and promoted. According
to the framework, the U.S. government will support policies and programs
that continue to advance the essential role of women in society, including
increased access for women to justice, health care, education, and economic
and political leadership opportunities. U.S. policy and programs will seek to
engage all aspects of the Afghan population on the positive impacts of wom-
en’s development and empowerment. In particular, the framework states that
the USG will continue to support the Afghan government’s implementation of
the Elimination of Violence Against Women law (EVAW) and the NAPWA.517




  140                   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




    The Afghanistan Research and Evaluation Unit issued a report on wom-
en’s economic empowerment that found women serve as a driver of change
in urban areas and select rural pockets. However, the report also found that
available data showed there has been no substantive surge in women’s eco-
nomic participation since 2002. The report attributed this lack of progress
in part to two phenomena. First, most women who work occupy jobs at
the lower end of value chains. Second, women continue to lack access to
many resources that could enhance their skills and income. The research
also found that women’s economic participation is hugely dependent upon
a community’s perspective on female participation in development projects
and the development of strong links to markets.518
    The International Crisis Group (ICG) issued a report on women and con-
flict in Afghanistan and found that despite the considerable improvement
in women’s legal status, there is already a reversal of progress in women’s
empowerment.519 The report traces the progress of women’s empowerment
from the 1978 communist coup to the present day and offers some paral-
lels. According to ICG, historical examples of women’s empowerment have
included appointment to senior government jobs including ministerial posts
in the mid- to late-1970s; the promise of women’s equal rights, compulsory
education and protection from forced, arranged, and child marriage by the
communist government; and the success of women filling 70% of civil ser-
vant teacher positions and over 40% of doctor positions by the mid-1990s.520
The ICG finds current examples of women’s empowerment include the
appointment of women to senior government positions including provincial
governor and heads of ministries; the constitutionally mandated equal rights
of men and women; and the success of women filling 31% of school teacher
positions.521 The report notes several challenges that remain including weak
application of legal safeguards, the limited capacity of the MOWA to influ-
ence policy, and threats from the insurgency.522 The ICG concludes that the
gains of women are at risk and advocates for constitutionally-guaranteed
gender equality and adherence to laws protecting and empowering women
as a prerequisite for peace negotiations.523
    The United States and its international allies have encouraged the Afghan
government to recruit more women in the security forces. The British
aid agency Oxfam published a report this quarter arguing that recruiting
more women into the police is critical for the safety of Afghan women and
national stability. The report noted that while Afghanistan is often described
as one of the most dangerous countries in the world for women, it has only
1,551 female police officers, or one for every 10,000 women.524
    In September 2013, one of Afghanistan’s highest ranking policewomen
was assassinated. Lieutenant Negar was shot by motorcycle gunmen in
Helmand Province on September 16. Negar, who like many Afghans used
only one name, had replaced Helmand’s former senior female commanding
officer, Islam Bibi, who had been gunned down in July 2013.525




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            141
GOVERNANCE




Refugees and Internal Displacement
The UNHCR Solutions Strategy 2013 report noted a 40% decrease in Afghan
refugee returnees as of September 2013 as compared to the same period in
2012.526 UNHCR also issued updated eligibility guidelines for asylum-seekers
from Afghanistan and noted a rise in the number of conflict-related internally
displaced persons (IDP) to 590,184 with 113,241 newly displaced in 2013.527
   UNHCR notes, however, that official figures for the number of IDPs are
widely considered to underrepresent the scale of the displacement problem
in Afghanistan as they exclude those dispersed in urban and semi-urban
areas, as well as those displaced to rural locations in areas inaccessible to
humanitarian actors.528 UNHCR claims to have direct access to approxi-
mately half of Afghanistan’s territory with indirect access to approximately
75% of the territory through a combination of local NGOs, authorities, and
community networks.529
   Human Rights Watch reported that the Iranian government has revealed
a new plan in which undocumented Afghans and holders of temporary
visas, whose visas expired on September 6, 2013, would have to leave Iran
or face imprisonment, fines, and/or expulsion.530 According to State, Afghan
government officials are continuing to work with their Iranian counterparts
to address this visa issue.531 According to Human Rights Watch, only 800,000
of the 3 million Afghans currently estimated as living in Iran have legal sta-
tus as refugees. Another 400,000 to 600,000 Afghans hold temporary visas,
while the rest are undocumented.532
   The Government of Pakistan approved a National Policy on Management
and Repatriation of Afghan Refugees on July 25, 2013. The Department of
State views the policy as a positive step toward a more progressive, long-
term policy for managing Afghan refugees. The policy is broadly aligned
with the Solutions Strategy for Afghan Refugees to create conditions con-
ducive to voluntary repatriation, and support refugee-hosting communities,
and assist resettlement in third countries. UNHCR noted that the policy
encourages developing a new refugee law, and expressed optimism that
Pakistan could move forward with more concrete, alternative-stay arrange-
ments for the residual population.533
   The Pakistan government appointed a ministerial committee to oversee
implementation of the policy. The ministerial committee is tasked with
adopting policy and procedures to ensure documentation and registra-
tion of Afghan refugees and unregistered Afghan migrants residing in
Pakistan; ensuring expeditious voluntary returns to Afghanistan; engag-
ing the international community and the Afghan government to undertake
efforts for sustainable reintegration inside Afghanistan; devising procedures
and mechanisms for effective border control and management; reaching
consensus on a national refugee law; minimizing the negative impact of
Afghan refugees on Pakistan‘s socio-economic and security environment;




 142                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




and working with the international community and Afghan government to
improve sustainable reintegration.534

Human Trafficking
According to State, the Afghan government must increase its efforts to
implement its plan to prevent human trafficking. State notes that although
the Afghan High Commission Against Trafficking in Persons has continued
its quarterly meetings, participation is declining.535 Presently, State is fund-
ing coordination activities between the Afghan government and civil society
organizations regarding human trafficking as well as conducting research to
identify trafficking hot spots and the nature and magnitude of the problem
in four regions of Afghanistan.536 State also plans to award a carpet-weaving
program to provide assistance to rescued trafficking victims.537 In early
FY 2014, State also hopes to complete a grant that will work to increase the
capacity of Afghanistan’s police, prosecutors, and judges to mount an effec-
tive anti-trafficking program.538

Afghanistan Independent Human Rights Commission
The top UN human rights official warned this quarter that the Afghanistan
Independent Human Rights Commission (AIHRC) could lose its interna-
tional “A” status­­—which signifies compliance with the Paris Principles—as
recognized by the International Coordinating Committee (ICC) due to the
appointments President Karzai made to the commission last quarter.539 The
ICC is conducting its five-year review of the AIHRC to determine if it con-
forms to the Paris Principles accepted by the Afghan government.540 The Paris
Principles are a set of international standards which frame and guide state-
funded, independent National Human Rights Institutions (NHRI) and were
adopted by the UN in 1993. According to Office of the High Commissioner
for Human Rights (OHCHR), NHRIs comply with the Principles which iden-
tify their human rights objectives and provide for their independence, broad
human rights mandate, adequate funding, and an inclusive and transparent
selection and appointment process. The Principles are broadly accepted as the
test of an institution’s legitimacy and credibility.541 State anticipates an initial
status recommendation from the ICC to either retain the A rating or down-
grade to a B status. The AIHRC would then have one year to respond to the
recommendations before the ICC ranking is finalized.542
    Karzai appointed five new commissioners to the nine-member commis-
sion in June 2013. None were on a list proposed by leading human rights
and civic organizations.543




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2013                143
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC CONTENTS

Key Events This Quarter	                145
Economic Profile	                       146
Extended Credit Facility Arrangement	   148
U.S. Economic Support Strategy	         149
Banking and Finance 	                   151
Development of Natural Resources	       155
Agriculture	160
Essential Services/Development	         163
Transportation	169
Education	170
Health	173
Private Sector Development	             176




 144
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of September 30, 2013, the U.S. government has provided more                    TABLE 3.9
  than $24.7 billion to support governance and economic development in
  Afghanistan. Most of the appropriated funds flowed into four major pro-             CUMULATIVE APPROPRIATIONS FOR
                                                                                      AFGHANISTAN DEVELOPMENT,
  grams and accounts, as shown in Table 3.9.                                          AS OF SEPTEMBER 30, 2013 ($ BILLIONS)
     Of the $22 billion appropriated for these funds, approximately $18 billion       Name        Managed by            Appropriated
  had been obligated and $14 billion disbursed as of September 30, 2013.              ESF         USAID                     $16.7
                                                                                      CERP        DOD                        $3.6
                                                                                      TFBSO       DOD                        $0.7
  KEY EVENTS THIS QUARTER                                                             AIF         STATE/DOD                  $1.0
  Three developments this quarter will affect the U.S. effort to pro-                 Total                               $22.0
  mote economic development in Afghanistan: the United States                        Notes: ESF = Economic Support Fund; CERP = Commander’s
  released a revised Civil-Military Strategic Framework for Afghanistan,             Emergency Response Program; TFBSO = Task Force for
                                                                                     Business and Stability Operations; AIF = Afghanistan
  the Independent Joint Anti-Corruption Monitoring and Evaluation                    Infrastructure Fund.

  Committee (MEC) released a new assessment, and the International                   Sources: DOD, responses to SIGAR data call, 10/23/2013
                                                                                     and 10/1/2013; USAID, response to SIGAR data call,
  Monetary Fund (IMF) continued to delay a review of its Extended Credit             10/10/2013; State, response to SIGAR data call,
  Facility (ECF) Arrangement with Afghanistan.                                       6/27/2013; OMB, response to SIGAR data call, 7/19/2013;
                                                                                     P.L. 113-6, 3/26/2013.
      The Civil-Military Strategic Framework for Afghanistan for 2015–2024
  replaces the October 2012 version. With a heightened focus on transition,
  it aims to guide U.S. government efforts for achieving U.S. national goals in
  Afghanistan, and serves to facilitate U.S. civilian and military cooperation.544
      The MEC, which was established in 2010 to develop anticorruption rec-
  ommendations and benchmarks, as well as monitor and evaluate Afghan
  and international community anticorruption efforts, issued its fourth
  six-month report assessing Afghan and international donor progress in
  implementing the MEC’s anticorruption recommendations. The MEC also
  completed its tenth mission visit to Afghanistan, where it found, in part, that
  Afghanistan has not made serious efforts to track and seize money stolen
  from Kabul Bank or to recover money from other debtors.545
      Afghanistan made no progress this quarter in implementing economic
  and financial reforms. The IMF’s ECF Arrangement review and disburse-
  ment remain delayed due to insufficient Afghan progress toward meeting
  the agreement’s quantitative and legislative requirements.546 The Afghan
  government has not held any more people accountable for the Kabul Bank
  scandal, nor has it made any additional cash recoveries this quarter.547 The




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              145
                                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                                          government continues to delay the new mining law, which in turn hinders
                                                          significant private investment in the mining sector.548


                                                          ECONOMIC PROFILE
  Gross domestic product (GDP): is the                    This quarter, the IMF, the World Bank, and the Asian Development Bank
  value of all final goods and services                   (ADB) all reported that Afghanistan’s gross domestic product (GDP) growth
  produced in a country in one year.                      has slowed considerably from about 11.8 percent in 2012 to an estimated
                                                          3–4% for 2013. They attribute the decline in GDP to increasing uncertainty
  Gross national product (GNP): is the                    about the economy because of the volatile political and security environ-
  value of all final goods and services                   ment and a contraction in agricultural production.549 With an expected
  produced in a country in one year (gross
                                                          reduction in international aid and spending after 2014, World Bank projec-
  domestic product) plus income that
                                                          tions show average real GDP growth declining to 4–6% annually during
  residents have received from abroad,
                                                          2011–2018, with slower growth during the transition years.550
  minus income claimed by nonresidents.
                                                             Fueled by international military spending and development assistance
                                                          Afghanistan’s economy grew an average 9.4% between 2002 and 2012.551 The
                                                          services sector has been the most important driver of economic growth,
Source: World Bank, “Beyond Economic Growth,” accessed
10/17/2013.
                                                          with demand buoyed by increased public spending in 2013.552
                                                             Non-poppy agriculture remains the second leading contributor to real
Opium production is not calculated in                     GDP, typically accounting for between a quarter and a third of GDP, depend-
official GDP figures (nearly $19 billion in               ing on output.553 But production fluctuates with the weather. Good rains in
2012), although it figures prominently in                 2012 led to a near-record-breaking wheat and cereal harvest, but this year a
the economy. Farm-gate price of the opium                 moderate rainfall should yield a more conventional harvest.554
economy is estimated at the equivalent
of 3.3% of GDP by the World Bank and                      Fiscal Sustainability
4% by the UN Office on Drugs and Crime.
                                                          The Afghan government’s revenues declined in FY 2012 at the same time
Higher-priced opium exports are calculated
                                                          that public spending increased, according to the World Bank. In its lat-
at 7–8% of GDP by the World Bank and
10–11% by the UN.                                         est report the Bank said that public spending increased by about 45% to
                                                          $3.7 billion in fiscal year (FY) 2012 while revenues decreased.555 The Bank
Sources: World Bank, “Afghanistan Partnership: Country
Program Snapshot,” p. 3, 8/29/2013; UNODC, “Afghanistan   also stated that budget expenditures are expected to continue rising, largely
Opium Survey 2012,” pp. 9, 13, 5/2013.
                                                          due to spending on security, service delivery, building essential infrastruc-
                                                          ture, and operations and maintenance.556
                                                             Afghanistan’s fiscal sustainability ratio—domestic revenues versus oper-
                                                          ating expenses—remains one of the lowest in the world, according to the
                                                          Department of Defense (DOD).557 Recent World Bank calculations show
                                                          that Afghanistan’s fiscal sustainability ratio declined to 60% in FY 2012 com-
                                                          pared to 65% in FY 2011. Low fiscal sustainability ratios limit a country’s
                                                          ability to pay for discretionary services and are likely to delay its progress
                                                          to self reliance.558 The Bank describes Afghanistan’s fiscal outlook as subpar
                                                          and likely to delay its progress to self-reliance.559

                                                          Revenue Generation
                                                          Last year, the Afghan Ministry of Finance (MOF) projected domestic
                                                          revenue for FY 1392 (December 2012 to December 2013) at $2.4 billion




                                                           146                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  FIGURE 3.33

  AFGHANISTAN'S DOMESTIC REVENUES COMPARED TO OPERATING BUDGET ($ MILLIONS)


  $3,500


  $3,000
                                                                                    9 Months

  $2,500


  $2,000                                                                                                  Part Year


  $1,500


  $1,000


    $500


       $0
                 Fiscal Year           Fiscal Year              Fiscal Year        Fiscal Year           Fiscal Year
                    1388                  1389                     1390               1391                  1392
                                         Domestic Revenues                      Operating Budget

  Notes: Until recently, Afghan fiscal years ran approximately March 21 to March 20 of Gregorian calendar years. FY 1388
  corresponds to March 21, 2009, to March 20, 2010, and so on. Nine-month data for fiscal year 1391 reflect a change in the
  timing of the Afghan fiscal year. FY 1392 (2013) is not over.
  Sources: MOF, “1388 National Budget,” accessed 7/2/13; MOF, “1389 National Budget,” accessed 7/2/13; MOF, “1390
  National Budget,” accessed 7/2/13; MOF, “1391 National Budget,” accessed 7/2/13; MOF, “National Budget Procedures
  Fiscal Year 1391,” accessed 6/26/13; MOF, “Annual Fiscal Report 1391,” accessed 6/20/2013; MOF, “1392 National
  Budget,” accessed 7/1/13; MOF, “Monthly Fiscal Bulletin, Month 7,” 8/21/2013, accessed 10/17/2013; Da Afghanistan
  Bank, "Daily Exchange Rates of Selected Currencies to Afghani," 8/21/2013, accessed 10/23/2013.


  (calculating the currency exchange rate of 51.6 afghanis (AFN) to $1 in
  January 2013), an increase of 33% over FY 1391 (March 2012 to December
  2012).560 However, in the first seven months of FY 1392, total domestic rev-
  enues decreased by 6.3% from the same period in FY 1391, and missed MOF
  budget targets by 12%.561 Figure 3.33 depicts the disparity between the gov-
  ernment’s domestic revenues—derived primarily from taxes and customs
  duties—and budget operating expenditures from FY 1388 to FY 1392.
     In its latest report, the World Bank noted that domestic revenues paid for
  only 40% of Afghanistan’s operating budget and development expenditures
  in FY 2012; the rest was covered by donor grants.562
     According to the World Bank, Afghanistan’s weak revenue performance
  continues to be caused by the slowdown in economic activity, changes in




  REPORT TO THE UNITED STATES CONGRESS                      I    OCTOBER 30, 2013                               147
ECONOMIC AND SOCIAL DEVELOPMENT




the structure of imports, and from corruption, particularly in customs col-
lections. The Bank estimates that domestic revenues will amount to about
10.1% of GDP in 2013. Afghanistan’s commitments under the Tokyo Mutual
Accountability Framework call for it to increase revenues to 15% of GDP by
2016 and 19% by 2025. The Bank warned that the current decline in revenue
poses risks to long-term sustainability and to Tokyo Mutual Accountability
Framework targets, upon which donor assistance is predicated.563

Trade
In its latest analysis, the World Bank found that Afghanistan’s trade deficit
is equivalent to 43% of GDP, which was largely offset by foreign aid. This
assistance allowed for an overall surplus in Afghanistan’s balance of pay-
ments and a record $7.1 billion in international reserves at the end of 2012.
Reserves have since declined to $6.3 billion in June 2013.564
   Additionally, Afghanistan’s exports declined 5% in 2012 to $2.6 billion,
while imports rose 5% to $11.2 billion. Afghanistan has relatively few
tradable products, and those are concentrated in a few markets, such as
agricultural products. Dry fruits, which typically account for about one
third of official exports, declined by 21%, according to the report. Foreign
direct investment remained stagnant at 2% of GDP.565


EXTENDED CREDIT FACILITY ARRANGEMENT
The Afghan government failed to make sufficient progress on specific banking
and financial structural reforms required by the IMF to qualify for the Extended
Credit Facility (ECF). The Afghan government has neither submitted an interna-
tionally acceptable revised law to parliament to combat money laundering and
financing of terrorism, nor met the quantitative macroeconomic targets set forth
under the ECF Arrangement. For example, Afghanistan failed to achieve agreed-
to revenue targets for SY 1391 and SY 1392 (quarters 1 and 2).566
   Afghanistan’s failure to meet IMF targets once again delayed IMF Board
reviews and accompanying disbursement of funds. Neither the second
review, originally planned for December 2012, nor the third, originally
planned for March 2013, has been completed. IMF staff visited Afghanistan
this quarter to assess Afghanistan’s progress on its agreed-to measurements
to determine whether to present its reviews to the IMF Executive Board.
Treasury reports that progress was not yet sufficient to trigger a review.567
   The three-year, $129 million ECF loan agreement signed in November
2011 makes disbursements contingent upon completion of program
reviews, as determined by IMF Management and the Executive Board. The
IMF has released two disbursements of $18.2 million—the first at initial
ECF approval, and the second in June 2012.568




 148                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  U.S. ECONOMIC SUPPORT STRATEGY
  The U.S. economic transition strategy in Afghanistan seeks to mitigate the neg-
  ative economic impact of the withdrawal of most international security forces
  by 2014 and the expected accompanying reduction in donor assistance. It also
  seeks to help Afghanistan develop its resources for sustainable growth.
     In its FY 2014 budget request to Congress for Afghanistan, State has
  asked for $3.1 billion to fund development programs and promote good
  governance: $2.2 billion for assistance, and $0.9 billion to support embassy
  operations in Kabul and a diplomatic presence in other parts of the coun-
  try. The majority of this assistance will be provided through the Economic
  Support Fund (ESF).569
     Most ESF support is used for USAID’s development programs. Figure
  3.34 shows USAID assistance by sector.

  FIGURE 3.34

  USAID DEVELOPMENT ASSISTANCE, AS OF SEPTEMBER 30, 2013 ($ MILLIONS)


       Infrastructure                                                                                                     2,972
          Agriculture                                                   1,480
         Democracy                                                  1,340
  Economic Growth                         556
  Program Supporta                                                                1,785
        Construction        94
           Education              350
               Health               400
        Stabilization                                       1,107
                        0           500             1,000            1,500          2,000            2,500           3,000


  Notes: Numbers rounded.
  a Program Support projects include staffing, salaries, performance metrics, results tracking, technical assistance to
    ministries, and funding to the ARTF.
  Source: USAID, response to SIGAR data call, 10/10/2013.



  U.S. On-Budget Assistance to the Afghan Government
  In line with donor commitments made at the 2010 Tokyo Conference
  and the 2013 senior officials’ follow-up conference to the Tokyo Mutual
  Accountability Framework, the United States has been gradually increasing
  the amount of development assistance it provides directly to the Afghan
  government. This quarter, USAID obligated approximately $400 million
  and disbursed more than $76 million in on-budget assistance, from prior
  fiscal-year funds. Cumulatively, USAID obligated $2.83 billion and disbursed
  $2.02 billion in on-budget assistance, as of September 30, 2013, as shown in
  Figure 3.35 on the following page.570
     The United States includes as on-budget assistance multilateral trust-
  fund contributions to the Law and Order Trust Fund for Afghanistan
  (LOTFA) and the Afghan Reconstruction Trust Fund (ARTF). These funds,




  REPORT TO THE UNITED STATES CONGRESS                        I     OCTOBER 30, 2013                                 149
                                                                ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.35

USAID ON-BUDGET ASSISTANCE SUBOBLIGATED AND DISBURSED, FY 2002–FY 2013 ($ MILLIONS)

$700

                                                                                                                                $612                    $615
$600                     Sub-Obligated Afghanistan Reconstruction Trust Fund Total
                         Sub-Obligated Bilateral Assistance
$500                     Disbursed


$400                                                                                                                                             $378


                                                                                                                 $290                            $359
$300

                                                                                                                                                               $200
$200
                                                                                                                                       $144
                                                                                                  $124
                                                      $89
$100                                    $72                                         $72
                                                                     $48                                                $54
          $38            $40                                                                             $27                           $81
                                              $14                                                                                                       $91
                 $0             $0                            $2            $.1            $4                                                                         $5   TBD
   $0
            2002           2003           2004          2005           2006           2007           2008           2009          2010             2011         2012a      2013b

Notes: Numbers have been rounded. Subobligation is funding for project-level agreements.
a Most FY 2012 USAID funding for on-budget assistance had not been obligated as of September 30, 2013.
b Spending in 2013 is being done from prior fiscal year funds. Suboligations and Disbursements for FY 2013 are not yet known.

Source: USAID, response to SIGAR data call, 10/10/2013.


                                                                which are managed by the UNDP and the World Bank respectively, support
                                                                the Afghan national budget, but aren’t fully under the Afghan government’s
                                                                control. See page 78 for details about U.S. and international contributions to
                                                                the LOTFA and ARTF.

                                                                The U.S. Civil-Military Strategic Framework for Afghanistan
                                                                This quarter, the United States released an updated U.S. Civil-Military
                                                                Strategic Framework for Afghanistan, emphasizing transition to Afghan
                                                                control and preserving gains into the next decade.
                                                                    The framework reiterates the two overarching U.S. strategic goals in
                                                                Afghanistan: (1) to disrupt, dismantle, and eventually defeat al-Qaeda and
                                                                its affiliates and prevent their return to Afghanistan; and (2) to strengthen
                                                                Afghanistan so that it can never again be a safe haven for international ter-
                                                                rorism. Under this framework, the United States will focus on shoring up
                                                                three reconstruction pillars—governance, rule of law, and socio-economic
                                                                development—all built upon a foundation of security. The framework out-
                                                                lines four priorities in the socio-economic sectors:




                                                                   150                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  •	 supporting economic growth through development of key industries,
     including agriculture, extractives, telecommunications, light
     manufacturing, and services
  •	 improving the health and education of Afghans through advice and
     assistance to the Afghan government, as well as related investments in
     health and education
  •	 promoting Afghanistan’s regional economic integration through support
     and assistance to relevant Afghan ministries
  •	 supporting economic growth through development of key economic
     infrastructure and strengthening Afghan government capacity to
     manage that infrastructure571

      According to State, the U.S. government aims to replace the Civil-
  Military Strategic Framework in 2014 with a multi-year Integrated Country           SIGAR SPECIAL PROJECT
  Strategy that will outline policy priorities, objectives, and the means for
                                                                                      SIGAR continues to be concerned
  achieving them.572
                                                                                      about the ability to ensure adequate
      The Civil-Military Strategic Framework is built upon a set of assumptions
                                                                                      oversight of the U.S.-funded
  that may or may not be valid. For example, it assumes that the Afghan gov-
                                                                                      reconstruction effort as most
  ernment will make sufficient progress on indicators outlined in the Tokyo
                                                                                      international combat forces transition
  Mutual Accountability Framework, resulting in continued financial support
                                                                                      out of Afghanistan in 2014. For more
  from the international community. However, the July 2013 Senior Leaders
                                                                                      information, see Section 2, page 45.
  Meeting Joint Report assessing the Afghan government’s progress on meet-
  ing Tokyo Mutual Accountability Framework benchmarks concluded that
  it has not made progress in some key areas, such as improved revenue
  collection. The senior leaders pointed out that the Afghan government’s
  enforcement of taxation is increasingly hindered by a deteriorating security
  situation, limitations on the rule of law, and low organizational capacity.573
      The updated U.S. strategic framework also assumes that the security
                                                                                   The Tokyo Mutual Accountability Framework,
  environment will allow implementing partners to continue development
                                                                                   established by the Afghan government
  assistance activities as well as conduct adequate oversight. Yet in its 2012
                                                                                   and international community at the
  review of USAID/Afghanistan’s monitoring and evaluation, the USAID Office        donors’ conference in 2012, was created
  of Inspector General stated that managing development programs in high-          to structure international development
  threat environments like Afghanistan presents special oversight risks and        assistance to Afghanistan through 2015.
  challenges. The review describes the security situation in Afghanistan—          Assistance depends on the Afghan
  even with international forces present—as a “significant and continuing          government delivering on its commitments
  constraint to USAID/Afghanistan’s program monitoring and evaluation.”574         described in the Framework.



  BANKING AND FINANCE
  Afghanistan’s banking and financial sector has not recovered from the
  2010 near-collapse of Kabul Bank, and suffers from a loss of consumer
  confidence. Audits of major banks in Afghanistan conducted in the wake of
  the Kabul Bank scandal have revealed “systemic fragility and vulnerability
  in all areas of banking governance and operations,” according to a 2013




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            151
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             World Bank report.575 State reports that Afghanistan’s banks suffer from
  Loan-to-Deposit Ratio: is used to assess                   political interference and lack of oversight.576 For example, Afghanistan’s
  a bank’s liquidity (short-term viability) by               anti-money-laundering/combating-terrorism-financing controls are widely
  dividing its total loans by its total deposits,            viewed as deficient.577
  expressed as a percentage. It is used to                      The general population distrusts banks, preferring to borrow and save
  calculate the financial institution’s ability              with family and friends, and transfer money through informal, honor-based
  to cover customer demands to withdraw                      “hawalas.”578 Consequently, the banking sector’s loan-to-deposit ratio
  funds. If the ratio is too high, the bank may
                                                             dropped from 56.8% in 2010 to 23% in 2012.579
  have insufficient liquidity to cover unfore-
                                                                Treasury characterizes the sector as generally weak, with few banks
  seen requirements. If it is too low, banks
  may not be earning as much as they could.                  operating at international standards, while capacity, including bank super-
                                                             vision, remains low. The sector is also highly dollarized whereby Afghans
  Correspondent Accounts: Accounts main-                     prefer the use of foreign currency over their national currency, the afghani
  tained by foreign financial institutions at                (AFN), which is depreciating against the dollar (57 AFN to $1). According to
  U.S. banks in order to gain access to the                  Treasury, no single bank poses a systemic risk on par with the Kabul Bank
  U.S. financial system and take advantage                   crisis, but the banking sector as whole is vulnerable to future distress.580
  of services and products that may not be                      Meanwhile, some major international banks are limiting their dealings
  available in the foreign financial institu-                with foreign banks to reduce risk and exposure to heightened regulatory
  tion’s jurisdiction.                                       scrutiny. This may jeopardize Afghan banks’ correspondent account rela-
                                                             tionships, according to Treasury.581
  Financial Action Task Force (FATF): an
  intergovernmental policy-making body
  that sets standards and promotes effec-
                                                             Money Laundering
                                                             Afghanistan’s draft Anti-Money-Laundering/Combating the Financing
  tive implementation of legal, regulatory,
                                                             of Terrorism (AML/CFT) legislation—which is pending parliamentary
  and operational measures for combating
  money laundering, terrorist financing, and                 approval— does not meet globally recognized Financial Action Task Force
  other related threats to the integrity of the              (FATF) standards, despite input from the United States and its international
  international financial system. The United                 partners. The cabinet approved the draft legislation on July 1.582
  States is a member and Afghanistan is an                      FATF specifically recommends Afghanistan, which has developed a AML/
  associate member through the Asia/Pacific                  CFT action plan, address its deficiencies by adequately criminalizing money
  Group on Money Laundering.                                 laundering and terrorist financing; establishing and implementing a legal
                                                             framework to identify, trace, and freeze terrorist assets; implementing an
                                                             adequate oversight program for all financial sectors; establishing and imple-
Sources: Investopedia, “Loan-To-Deposit Ratio,” accessed
                                                             menting adequate procedures for confiscating money-laundering assets;
9/30/2013; Finance Formulas, “Loan to Deposit Ratio,”
accessed 9/30/2013; Federal Financial Institutions
                                                             establishing a fully functional and operational financial-intelligence unit;
Examination Council Bank Secrecy Act/Anti-Money Laundering   and establishing effective controls for cross-border cash transactions.583
InfoBase, “Correspondent Accounts (Foreign)—Overview,”
accessed 10/1/2013; Financial Action Task Force, “Who We        If the suggested changes are not made to Afghanistan’s action plan
Are,” accessed 10/4/2013.
                                                             and Parliament passes the draft legislation as written, FATF is likely to
                                                             downgrade Afghanistan, according to State.584 A FATF downgrade may
                                                             further weaken Afghanistan’s banking sector. In extreme cases where the
                                                             international financial system is deemed threatened, FATF members may
                                                             be asked to apply financial countermeasures, such as rejecting correspon-
                                                             dent relationship requests from high risk countries to open branches and
                                                             subsidiaries in their jurisdictions. Currently, only two countries meet that
                                                             criterion: Iran and North Korea.585




                                                              152                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




      State’s recent International Narcotics Control Strategy Report listed
  Afghanistan as a major money-laundering country in 2012. The report says
  illegal financial activities “continue to pose serious threats to the security
  and development of Afghanistan.” According to the report, hawala meth-
  ods of transferring money are the source of most of the money-laundering.
  Afghans rely upon traditional hawala networks because of official corrup-
  tion and weakness in the banking sector.586

  The Kabul Bank
  Before its near-collapse in 2010, the Kabul Bank had been Afghanistan’s
  largest banking service provider, distributing most civil salaries on behalf
  of the Afghan government. Over 92% of $935 million that was stolen from
  the bank went to 19 individuals and companies associated with the bank.
  Afghanistan’s central bank, Da Afghanistan Bank (DAB), covered these
  losses, equivalent to 5–6% of Afghanistan’s GDP.587

  Cash and Asset Recoveries
  During this reporting period, U.S. implementing agencies reported no
  new recoveries of money stolen from the Kabul Bank.588 There is also no
  firm consensus amongst international actors on the amount the Kabul
  Bank Receivership has recovered so far. DAB reported $168.4 million has
  been recovered as of June 30, 2013. The Senior Officials Meeting Joint
  Report on Tokyo Mutual Accountability Framework Implementation
  recorded $173.2 million as of July 3, 2013. Afghanistan’s Independent Joint
  Anti-Corruption and Monitoring and Evaluation Committee’s (MEC) lat-
  est six-month report (January 1–June 30, 2013) has cash recoveries at
  $172.9 million.589 Whatever the precise number may be, each reported num-
  ber amounts to less than 20% of the stolen funds.

  Appeals
  On March 5, 2013, the Special Tribunal of the Supreme Court on Kabul Bank
  issued its judgment on 21 individuals charged with fraud. The two leaders of
  the fraud, ex-chairman Sherkhan Farnood and ex-CEO Khalillullah Ferozi,
  were given modest five-year prison sentences and ordered to pay only par-
  tial restitution. Afghanistan’s Attorney General’s Office (AGO) appealed the
  verdict on March 16, 2013, seeking longer prison terms and additional con-
  victions for both men.590
     This quarter two appeals hearings were held before the public-security
  division of the Kabul Appellate Court, on September 15 and September
  29. According to the U.S. Department of Justice (DOJ), the appellate court
  was dissatisfied with the AGO’s submissions, particularly its legal rationale
  for the appeal and the amount of money outstanding, but has afforded
  prosecutors the opportunity to modify them.591 According to the MEC,
  the deficiencies in the submissions are glaring, especially since technical




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             153
ECONOMIC AND SOCIAL DEVELOPMENT




assistance was available to the AGO.592 It is not known when the appel-
late court will render a decision. Following that decision, which could
be tougher or lighter than the original verdict, the appeal can go to the
Supreme Court for a final review.593

Prosecutions
Afghanistan’s AGO launched no new investigations, filed no new charges,
and indicted no additional defendants this quarter despite the March 2013
order by the Supreme Court’s special tribunal on Kabul Bank that it do
so. At that time, the special tribunal ordered the arrest and prosecution of
16 individuals with existing warrants—many of whom have since fled the
country—and the investigation and prosecution of 16 others as recipients
of illegal loans. The DOJ has repeatedly discussed this inaction with various
AGO representatives, to no avail.594

Independent Joint Anti-Corruption Monitoring
and Evaluation Committee
This quarter, the MEC traveled on its tenth quarterly mission to Afghanistan
and released its fourth six-month report, which covers January 1–June 30,
2013. In the socio-economic realm, the MEC made the following observations:
•	 Only four donors have fully complied with its recommendation that
   donor development projects be registered in the Ministry of Finance’s
   Development Assistance Database (Canada, Norway, Sweden, and the
   EU). Some donors complained that the database is not user-friendly,
   but the MEC stated that failure to register will cause oversight and
   sustainability problems for Afghan agencies after transition.
•	 The Afghanistan National Standards Authority funded several quality-
   control laboratories at various border points as well as mobile
   laboratories to test the quality of goods in stores, storage, and being
   transported on highways. Yet after a year, the labs are still not operating.
•	 Afghanistan has not made serious efforts to track and seize Kabul
   Bank money that was laundered to 28 different countries, or to recover
   money from other debtors.595

New Kabul Bank
The MOF and Afghanistan’s central bank renewed their efforts this quarter
to privatize New Kabul Bank (NKB), a temporary “bridge bank” contain-
ing the good assets and deposits from Kabul Bank. The initial privatization
effort failed earlier this year, when the MOF rejected the one bid received.596
   The MOF and DAB announced a new privatization tender on
September 3, 2013; bidder registration ended September 30. The dead-
line for proposals is October 30; official bids will open November 1.597
Privatizing NKB, which provides salary payment and direct deposit services
to hundreds of thousands of government employees, is an ECF benchmark.




 154                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  The MOF intends to sell NKB to private investors or liquidate it by the end
  of 2013.598
     An independent, calendar-year 2012 financial audit of NKB by Grant
  Thornton LLP expressed unqualified concern regarding the bank’s ability to
  continue business without successful privatization. NKB lost an average of
  $1.85 million per month in 2012.599 Treasury quoted an Afghan government
  official as saying NKB losses are currently running at $500,000 per month.
  The official anticipates losses declining to $300,000 per month in the coming
  months.600 According to the IMF and Treasury, NKB’s lack of a lending port-
  folio, restrictions on developing lending before being offered for sale, and
  the need to maintain a conservative asset-management strategy mean it will
  continue to suffer modest operating losses prior to sale.601


  DEVELOPMENT OF NATURAL RESOURCES
  The United States, the Afghan government, and the international donor
  community count on developing Afghanistan’s natural resources to under-
  pin future economic growth in the face of declining external aid. Although
  mining has contributed less than 2% to the country’s GDP to date, the
  Afghan government expects to receive significant revenues from large-
  scale investments in the Aynak (copper) and Hajigak (iron-ore) mines, and
  from oil and gas fields in the Afghan-Tajik basin.602 However, SIGAR has
  consistently cautioned that the Afghan government may not be able to earn
  substantial revenues from Afghanistan’s minerals, coal, petroleum, and nat-
  ural gas resources any time soon because of the considerable infrastructure
  investment required to develop them.
      The United States, through DOD’s Task Force for Business and Stability
  Operations (TFBSO), has supported the Afghan government’s efforts
  to attract investment in the mining sector. TFBSO has fully obligated
  its $17.2 million total for mining-sector development in FY 2013, as of
  September 30, 2013.603

  New Minerals Law
  There was no movement this quarter on the draft new minerals law pend-
  ing before Parliament. As of September 30, 2013, the draft minerals law is
  under review with the Natural Resources Committee of the lower house of
  parliament, which has sought multiple explanations and clarifications from
  Ministry of Mines and Petroleum (MOMP) officials. Once passed by both the
  lower and upper houses, it will be sent to the president for final approval.604
  DOD’s TFBSO warns that without legislative reform that, in part, links
  investor exploration and extraction rights, and institutes a formal and fixed
  royalty rate, many companies will not bid on new tenders and may not sign
  contracts on existing awards. The delay has significantly hindered private-
  sector investment, according to TFBSO.605




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             155
ECONOMIC AND SOCIAL DEVELOPMENT




   Several major mining contracts remain on hold pending passage of a new
minerals law, including: Hajigak (iron ore, awarded in November 2011);606
Shaida (copper, November 2012); Badakhshan (gold, November 2012);
Balkhab (copper, November 2012); and Zarkashan (gold, December 2012).607
   Passage of a revised minerals law is meant to better protect Afghan
resources, encourage investors, and align regulations to international
best practices. It is an important IMF and Tokyo Mutual Accountability
Framework benchmark to improve Afghanistan’s revenues and overall fis-
cal sustainability.608 As currently written, however, the draft minerals law
requires mining companies to use Afghan labor exclusively and to priori-
tize purchasing Afghan, rather than foreign, goods. These provisions are
unlikely to comply with World Trade Organization rules and could deter
private investment, according to State.609

Assistance to the Ministry of Mines and Petroleum,
and the Afghanistan Geological Survey
The United States continued to provide technical assistance this quarter to
the MOMP, the ministry’s Afghanistan Petroleum Authority (APA), and the
Afghan Geological Survey (AGS), largely through the TFBSO and the U.S.
Geological Survey (USGS). These organizations are supporting mineral
and hydrocarbon tenders, oil-and-gas data management, and are providing
engineering, legal documentation, and financial-transaction services for
its international mining and hydrocarbon-tender programs. They are also
building capacity at the MOMP and AGS through hands-on training and
classroom modules in modern data collection techniques.610
    TFBSO provides subject-matter-expert support to the APA—technical
(oil and gas engineering), legal (contract implementation), and financial
(accounting and analysis)—primarily assisting in the oversight of the
Amu Darya Exploration and Production Sharing Contract. TFBSO helped
develop APA’s organizational chart, and is advising its human-resources
department on recruiting processes.611
    Additionally, a TFBSO-funded legal and geology team is working with
the MOMP to identify and tender new areas of interest, including three
cement-making areas and two copper/gold-mining areas. The MOMP
announced the cement tenders on September 22, 2013, with submissions
due November 5. The copper and gold tenders were expected to be released
in October 2013.612

Mining Investment and Development for
Afghan Sustainability
The Mining Investment and Development for Afghan Sustainability
(MIDAS) is a $41.6 million program with on- and off-budget components.
The off-budget Phase I is focusing on legal and regulatory reform, technical
assistance to the MOMP, small and medium-size enterprise development,




 156                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  and assistance in geo-science field investigation. It will provide other sup-
  port as needed. The on-budget Phase II is designed to strengthen the MOMP
  so that it can procure, implement, and monitor completion of mining tender
  packages. As of September 30, 2013, USAID had obligated $6 million from
  FY 2010 and FY 2011 funds to begin off-budget implementation.613
     USAID expects to achieve the following results from MIDAS:
  •	 make amendments to the mining law that reflect the needs of the
     private sector
  •	 improve capacity at MOMP in governance, internal controls,
     procurement procedures, and financial management
  •	 improve capacity of Afghan small-to-medium enterprises to provide
     support services to the mining sector
  •	 establish communications between the MOMP, the private sector, and
     local communities
  •	 implement programs for small-to-medium Afghan enterprises to
     participate in research, development, and management of mines
  •	 create a system for effective monitoring of on-budget funding.614

     USAID will measure MIDAS’s success against the following metrics:
  the political will to foster a business-friendly environment for foreign and
  domestic investment in the mining sector; a business-friendly regulatory
  environment, aligned with international standards to attract investment;
  transparency in tendering and awarding contracts; and gender equality in
  the extractives industries sector.615 Prospects for progress in this area, how-
  ever, will be affected by the difficulties described earlier on page 155.

  TFBSO Transition Plan
  Congress required that DOD develop a plan for transitioning TFBSO pro-
  grams to either State or USAID. On September 13, 2013, Secretary of Defense
  Hagel signed the initial version of FY 2013 National Defense Authorization
  Act-mandated Task Force for Business and Stability Operations Fiscal Year
  2013 Transition Plan and Report on Transition Implementation. It must be
  reviewed, revised, and signed by the Secretary every 90 days. Currently, no
  TFBSO mining programs are proposed for transfer to USAID or any other
  U.S. government agency upon dissolution of TFBSO. Instead, TFBSO said
  it will wind down all its projects at the MOMP by the end of 2014, either by
  shutting them down outright or transferring them to the Afghan government
  or a private Afghan firm. However, projects could be continued and funded
  by other U.S. implementing agencies beyond 2014.616

  Mine Security
  Providing security for the mining areas continues to be a challenge for the
  Afghan government. Mine security was supposed to be the responsibil-
  ity of Afghan Mines Protection Units (MPUs), which still have only 1,500




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             157
ECONOMIC AND SOCIAL DEVELOPMENT




personnel, according to the MOMP website, even though the ministry
planned to ramp up to 7,000. These figures have remained unchanged over
the last year despite several attacks in 2011 and 2012 targeting mining inter-
ests, including against Aynak, Amu Darya Basin, and Afghan-Tajik Basin, as
well as marble quarries, a coal mine, and a gold mine.617
   State has previously reported that because the MPUs have not developed
as anticipated, the Afghan National Police have taken over security for the
extractive industries. However, according to State, the Ministry of Interior
and MOMP have also failed to adequately address site security issues.
TFBSO said it is unclear if the MPUs will be able to provide sufficient protec-
tion once Hajigak and the four copper and gold mines begin extraction.618
   Both State and TFBSO said they are unaware of additional attacks since
2012, but congressionally funded Radio Free Europe/Radio Liberty (RFE/
RL) reports that workers came under attack from a local militia in the Amu
Darya Basin in September, halting oil production. It also highlighted dis-
putes between local leaders over control of gold and precious stones trade,
as well as fights between the central government and provincial and tribal
leaders in resource-rich areas. Furthermore, RFE/RL said natural resources
are being used by armed groups to fund conflict, while the security environ-
ment at major mining operations such as Hajigak, Aynak, and Amu Darya is
becoming increasingly unstable due to militant activity.619

Aynak Copper Mine
The Afghan government awarded the contract for extraction rights at the Mes
Aynak copper mine in Logar province to Metallurgical Corporation of China
(MCC) in 2008, but the Chinese company has not been able to begin excava-
tion. Development of the mine remains delayed by the discovery of cultural
relics in the area, difficulties in land acquisition, lack of primary infrastructure,
and security concerns.620 Despite these problems, the Afghan government is
relying on Aynak’s revenue stream to meet its future revenue predictions.621
   This quarter, the Afghan media reported MCC intends to exercise its
option to renegotiate the contract. State said that MCC wanted to specifi-
cally renegotiate its commitments to build a railroad, a power plant, and a
copper smelting plant. TFBSO stated that the government could attempt to
cancel and re-tender the mine altogether. Even if there is no renegotiation,
State said MCC may defer further investment until it evaluates the results
of Afghanistan’s 2014 presidential election and post-transition security
environment.622 However, in the wake of the Euro-Asia Economic Forum in
Beijing in September, the MOMP announced that President Karzai received
assurances from the Chinese president and deputy vice president that
China’s Aynak and Amu Darya contractual commitments would be “hon-
ored and actively implemented.”623




  158                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  North Aynak Drilling
  TFBSO’s $4.5 million North Aynak drilling exploration program, which
  began in November 2012, ended in spring 2013, and will be followed by a
  MOMP tender. A follow-on training project started this quarter, combin-
  ing classroom-based modules and hands-on drill training with equipment
  owned by the AGS. TFBSO is trying to help AGS drillers and geologists use
  the equipment in their inventory, rather than buy new drills.624

  Hajigak Iron-Ore Mine
  Contract negotiations for the Hajigak iron-ore concessions continue. The
  MOMP awarded three blocks to AFISCO, a seven-member Indian consortium
  led by state-owned Steel Authority of India Ltd. in November 2011, and one
  block to Canadian Kilo Iron Ore, a subsidiary of Kilo Goldmines.625 Kilo Iron
  Ore has consented in principle to all contract-negotiation terms. Both firms
  continue to await parliamentary approval of the new minerals law before
  signing contracts. TFBSO, although not involved in the negotiations, reports
  the eventual deal between AFISCO and the Afghan government is likely to
  be smaller than initially thought because of Indian investor concerns.626

  Hydrocarbons
  Afghanistan’s efforts to develop its oil and gas reserves focus on the Amu
  Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan. This
  quarter, Afghanistan’s first two oil refineries went online in and around
  Hairatan in northern Afghanistan. Afghan-based Ghazanfar Group’s and
  Kam International Oil’s refineries will produce gasoline, kerosene, diesel,
  fuel oil, and asphalt for domestic consumption. Both refineries also have
  phased expansion plans. However, even with both refineries operational,
  Afghanistan would remain heavily import-dependent for fuels. The country
  currently imports 10,000 tons of oil products a day from Turkmenistan,
  Uzbekistan, Russia, Pakistan, and Iran.627

  Afghan-Tajik Basin Contract
  On September 23, 2013, Afghanistan’s Council of Ministers approved an
  Afghan-Tajik oil and gas contract with an international consortium com-
  prising Dragon Oil (UAE), Turkish Petroleum Corporation (Turkey), and
  Ghazanfar Group (Afghanistan). The contract was signed on October 8.
  The consortium won exploration and production-sharing rights for the two
  blocks it was awarded in November 2012. Financial details of the bids have
  not yet been announced, nor is the value of the tenders available.628
     TFBSO provided technical, legal, and commercial assistance to the
  MOMP throughout the tender process, including subject-matter experts
  to advise the MOMP Contract Evaluation Team and the Inter-Ministerial
  Commission during the qualification and bid-evaluation processes; transpar-
  ency consultants; and funding for a MOMP bidder-information conference.629




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           159
ECONOMIC AND SOCIAL DEVELOPMENT




Amu Darya Basin Production
On September 30, 2013, MOMP announced a new tender for the exploration,
development, and production of 7,131 square kilometers in the Amu Darya
Basin. The contract area contains two known gas fields and 50 proven and pro-
spective mining structures. Expressions of interest are due January 2014.630
    The three awarded blocks of the Amu Darya Basin are estimated to contain
87 million barrels of crude oil, according to State and TFBSO.631 The China
National Petroleum Corporation Watan Energy Afghanistan (CNPCI-W)
produced approximately 14,916 barrels of crude this year from three blocks
as of August 31, 2013, approximately 4,200 more than reported last quarter.
However, CNPCI-W is not on track to produce the minimum production
requirements for FY 2013 of 1.65 million barrels, according to TFBSO. The
Afghan government had received $4.67 million in royalty and surface rental
fees as of August 31, 2013, representing no change from last quarter.632
    Because Afghanistan lacks adequate refining capacity, CNPCI is produc-
ing below capacity while it works to secure a buyer for its output. According
to TFBSO, CNPCI-W has a buyer for 1.75 million barrels, but is waiting for
the Afghan government to negotiate cross-border transit agreements so that
it can export its crude oil to a neighboring country to be refined.633


AGRICULTURE
Agriculture continues to be the main source of employment and subsis-
tence for the Afghan population. Only 12% of the land is arable and less
than 6% is cultivated, yet the sector accounts for 31% of GDP and, accord-
ing to the latest World Bank report, provides employment to about 59%
of the labor force.634 Given its importance, agriculture could be a catalyst
for GDP growth, improved food security, and more stable employment
opportunities.635
    Between FY 2002 and FY 2012, USAID has appropriated approximately
$2.46 billion for agricultural and alternative development funding to
improve production, increase access to markets, and provide alternatives
to poppy cultivation.636 Of that, USAID has obligated about $29 million and
disbursed $9 million in direct assistance to build capacity at the Ministry of
Agriculture, Irrigation, and Livestock (MAIL).637
    USAID is currently providing on- and off-budget assistance to the agri-
culture sector through several programs. USAID’s three highest-priority
programs, worth more than $350 million total, are:
 •	 Agricultural Development Fund (ADF) and Agricultural Credit
    Enhancement (ACE)
 •	 Incentives Driving Economic Alternatives-North, East, and West
    (IDEA-NEW)
 •	 Commercial Horticulture and Agricultural Marketing Program
    (CHAMP)




 160                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Agricultural Development Fund and Agricultural
  Credit Enhancement
  The Agricultural Development Fund and Agricultural Credit Enhancement
  (ADF-ACE), a $150 million agricultural-credit project, has two complemen­
  tary activities that aim to support MAIL’s efforts to provide loans and build
  ADF staff capacity to manage them. ADF was established to provide loans
  across the agricultural value chain through banks, farm stores, leasing
  com­panies, and food processors, which in turn provide agricultural cred-
  its to farmers. ADF-ACE designed and launched nine innovative financial
  lending products.638
      ACE is the technical-assistance component that manages all ADF lend-
  ing activities and helps build MAIL capacity.639 This quarter, USAID reported
  that due to delays in registering ADF as a financial institution, MAIL
  requested ADF be descoped by $25.6 million from its initial $100 million
  on-budget funding to the ACE USAID contractor (off-budget) to be used for
  loans made on behalf of ADF.640
      According to USAID, ADF has over 20,000 clients in 30 of
  Afghanistan’s 34 provinces. A total of $80 million in loans have been
  approved, and of that, $34 million has been disbursed. USAID reports a
  loan default rate of only 4%. Despite these successes, USAID noted that
  Afghan political and legal obstacles delayed ADF legal registration and
  access to lending funds, which, in turn, affected the number of loans
  approved and the number of beneficiaries.641

  Incentives Driving Economic Alternatives-North, East, and West
  Incentives Driving Economic Alternatives-North, East, and West (IDEA-
  NEW) is a five-year, $160 million, cooperative-agreement project that
  provides agricultural assis­tance and economic alternatives to growing
  poppies in select provinces in eastern Afghanistan and in poppy regions in
  the northern and western parts of the country. IDEA-NEW is supposed to
  help farmers shift from growing poppies to legal agricultural production by
  increasing commercial opportunities, extending access to financial services,
  and promoting value-chain development for key regional industries and
  trade corridors. It also facilitates connections between producers, traders,
  and buyers through mar­ket-information activities and sales promotion.642
     USAID reported over a million households have directly ben­efitted
  from IDEA-NEW compared to 52,242 reported last quarter. USAID said
  that Afghanistan’s agricultural exports totaled more than $5.2 million this
  quarter, a huge jump from the $500,000 reported last quarter. In addition,
  USAID said the program had put 12,760 hectares of land under alternative
  crop cultivation and created 47,298 full-time equivalent jobs created. As
  of September 30, 2013, USAID has obligated $146.1 million to IDEA-NEW
  ($15 million more than reported last quarter) and has disbursed approxi-
  mately $118.3 million ($6.8 million less than reported last quarter).643 USAID




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            161
ECONOMIC AND SOCIAL DEVELOPMENT




did not respond to SIGAR’s inquiry about the remarkable 19-fold surge in
household beneficiaries reported between last quarter and this one.
   A USAID Office of Inspector General audit of IDEA-NEW in June 2012
found a number of problems, concluding that: the program was unfocused,
program directives were not followed, program goals were deleted from
the performance management plan, and evidence of progress could not be
produced. The audit also found that staff turnover brought about frequent
changes in vision, priorities, and operating style; activities were insuffi-
ciently monitored or documented by USAID and its implementing partners;
program assistance efforts were unsustainable; and there were no standard
policies and procedures for its cash-for-work projects.644
   The program’s fast-approaching end date precludes a full poppy-
impact assessment. However, USAID is discussing geospatial-mapping
support to gauge the program’s impact and supplement IDEA-NEW’s end-
of-project survey.645
   According to USAID implementers, oversight continues to be a chal­
lenge. USAID acknowledges that concerns about safety and site access are
becoming more acute as provincial reconstruction teams and foreign com-
bat forces leave Afghanistan.646 SIGAR has repeatedly raised concerns about
oversight as the international footprint in Afghanistan shrinks.

Commercial Horticulture and Agricultural Marketing Program
The Commercial Horticulture and Agricultural Marketing Program
(CHAMP), a $40 million program begun in 2010, aims to help farmers
plant and operate more profitable orchards and vineyards by enhancing
crop quality and promoting export and trade corridors. The pro­gram also
works with traders to improve harvesting, packing, cool storage, and
shipping methods.647
    USAID reported more than 13,000 households have directly benefited
from CHAMP, while 2.8 million fruit trees have been planted on over
6,000 hectares of land. As CHAMP approaches the 2014 transition, it
will shift focus to post-harvest commercialization of high-value crops.
It seeks to increase exports through marketing, and promote import
substitution. However, USAID said insecurity con­tinues to challenge full
implementation of CHAMP. Insurgent groups threaten both CHAMP staff
and farmers, particularly in Kandahar, Helmand, Zabul, Wardak, Logar,
and Ghazni provinces.648
    As of September 30, 2013, USAID has obligated $30.3 million to CHAMP
(no change from last quarter) and has disbursed $29.7 million ($3.2 million
more than last quarter).649




 162                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ESSENTIAL SERVICES/DEVELOPMENT
  Since 2002, the United States has provided reconstruction funds to increase
  electricity, build roads and bridges, and improve health and education. This
  section addresses key developments in U.S. efforts to improve the govern-
  ment’s ability to deliver essential services such as electricity, transportation,
  health, and education.

  Energy
  The latest World Bank report noted that Afghanistan has one of the lowest
  rates of energy usage in the world, with only 28% of its population con-
  nected to the grid. Of those who are connected, an estimated 77% live in
  urban areas.650
     Because electricity is critical to Afghanistan’s development, the United
  States in collaboration with the Afghan government and the international
  community has made developing an integrated energy sector one of its top
  reconstruction priorities since 2002.651 From 2002–2011, USAID alone has
  provided close to $2 billion from the ESF to build generators, substations,
  and transmission lines, and provide technical assistance to the sector. It
  plans to spend at least $500 million more over the next few years.652 In addi-
  tion, DOD has provided approximately $292 million for electricity projects
  through the Commander’s Emergency Response Program (CERP) and
  roughly $700 million through the Afghanistan Infrastructure Fund (AIF),
  which is jointly managed by DOD and State.653 This assistance has lifted the
  number of Afghans with access to electricity from 5% of the population in
  2001 to 30% in 2012.654
     Afghanistan currently has nine separate power systems. The primary
  two are the Northeast Power System (NEPS) and the Southeast Power
  System (SEPS). USAID has three projects to connect and increase the
  electricity supply in both systems—Sheberghan; Kandahar-Helmand
  Power Project, which includes Kajaki Dam hydropower; and the Power
  Transmission Expansion and Connectivity Program. DOD is contributing
  to both NEPS and SEPS through AIF projects. The Afghan government,
  coordinating closely with USAID and DOD, prioritized these programs
  with the goal of increasing the availability of affordable, grid-based
  power.655 Connecting the power grids is intended to promote the best use
  of lowest-cost generation, reduce duplicative generating reserves, and
  improve system reliability.

  Sheberghan Program
  Afghanistan currently imports more than 70% of its energy needs, accord-
  ing to USAID.656 Together with the ADB, the Overseas Private Investment
  Corporation (OPIC), and the MOMP, USAID is supporting the Sheberghan
  project to help Afghanistan identify and manage gas resources to be used




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013               163
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                              for power generation.657 Gas reserves are expected to be confirmed in
                                              early 2014.658 USAID is implementing its part of the Sheberghan Program
                                              through two mechanisms: the $90 million, on-budget Sheberghan Gas
                                              Development Project (SGDP), and the $35 million, off-budget Sheberghan
                                              Gas Generation Activity.659
                                                 As of September 17, 2013, $30 million has been obligated for SGDP, with
                                              $0 disbursed, representing no change from last quarter; while approxi-
                                              mately $12 million has been obligated for Sheberghan Gas Generation
                                              Activity, of which almost $9.2 million was disbursed, representing $1.8 mil-
                                              lion more than last quarter.660
                                                 USAID is funding 21% of the Sheberghan program; the Overseas Private
                                              Investment Corporation is backing financ­ing of a $300 million privately
                                              funded 200 MW gas-fired power plant (52% of total funding); the ADB will
                                              support construction of the associated transmission lines (22% of total fund-
                                              ing); and the MOMP will cover the remaining 5%.661

                                              Kandahar-Helmand Power Project
                                              The Kandahar-Helmand Power Project (KHPP) is intended to increase the
                                              power supply in Kandahar and make power more accessible to the popu-
                                              lation. It was designed to support interim diesel power for critical needs,
                                              increase long-term sustainable hydro power, and reduce losses while
                                              strengthening the southern transmission and distribution system.662
                                                 In 2010, USAID awarded a $266 million contract to Black & Veatch
                                              to rehabilitate power substations, upgrade the medium-voltage distribu-
                                              tion system in Kandahar City, install a third turbine at the Kajaki Dam,
                                              and design and install new, yet temporary, die­sel-powered generators.
                                              DOD is funding the fuel for the U.S. Army Corps of Engineers-installed
                                              generators through 2014 using AIF, and Da Afghanistan Breshna Sherkat
                                              (DABS) is providing fuel for the other existing generators in the area. The
                                              U.S. fuel subsidy may be extended, but USAID expects it to decrease as
                                              Afghanistan’s national utility, DABS, takes the required steps to secure the
                                              revenue needed to sustain the fuel costs.663
                                                 Improving revenue collection will be challenging. A SIGAR audit found
                                              that despite USAID investments that resulted in some commercialization
The Kajaki hydroelectric station in Helmand
                                              successes for DABS-Kabul, including increasing cash collections by 60%,
Province. (U.S. Embassy Kabul photo)
                                              the Afghan utility is still operating at a financial loss. DABS may not be
                                              able to pay its bills without continued government subsidies, set to expire
                                              in 2014. Additionally, USAID did not enforce a contractual requirement for
                                              installing a billing system in DABS-Kandahar that would be compatible and
                                              coordinated with DABS-Kabul. The different system was deemed a failure
                                              by USAID and DABS; nearly $700 million was wasted. Finally, SIGAR found
                                              that millions in taxpayer-funded electricity distribution equipment for
                                              Kandahar and Helmand sat unused in U.S. government-controlled storage




                                               164                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  with no clear plan for installation.664 USAID has since developed an installa-
  tion plan, according to DOD.665
     In May 2013, USAID signed a bilateral, on-budget implementation letter
  with the Afghan government, and committed $75 million that was descoped
  from the initial Black & Veatch contract, for DABS to assume responsibility for
  installing the third turbine at the Kajaki hydropower station. The turbine parts,
  transported to the power station by a U.S.-British military mission in 2008,
  have sat unassembled under tarps since 2008. This quarter DABS selected the
  CM-AR firm to install the third turbine and provide a construction-manage-
  ment consultant. Contract negotiations are ongoing. A third-party monitoring        SIGAR SPECIAL PROJECT
  contract will be funded off-budget by USAID.666 Until that contract is signed
                                                                                      In an ongoing special project, SIGAR
  and CM-AR is able to take over Kajaki site security, Black & Veatch’s contract
                                                                                      is examining USAID’s safeguards for
  has been extended for three months beyond its September 30, 2013, expiration
                                                                                      on-budget assistance it is providing
  in order to provide security via the Afghan Public Protection Force (APPF).667
                                                                                      to DABS for the installation of Kajaki’s
     As of September 17, 2013, USAID had obligated $229.6 million of ESF
                                                                                      third turbine.
  funds for the KHPP, and of that, approximately $191.4 million had been dis-
  bursed, an increase of $14.8 million from last quarter.668

  Power Transmission Expansion and Connectivity Program
  The U.S.-funded Power Transmission Expansion and Connectivity (PTEC)
  program was designed to strengthen and expand the power-generation,
  trans­mission, and distribution systems. This program directly supports the
  National Energy Supply Program of the Afghanistan National Development
  Strategy. The strategy calls for improving the collection rate against energy
  billings and increasing the supply of power.669
     A key component of PTEC is funding to construct a transmission line
  between Kabul and Kandahar to connect NEPS with SEPS as seen in Figure
  3.36 on the next page. This 530 km con­nection, together with the rehabili-
  tation of the Kajaki Hydropower Plant, was identified in 2010 as the only
  viable, long-term solution to displace costly and unsustainable diesel-power
  generation in Kandahar.670
     Connecting NEPS to SEPS is a multi-donor effort. The ADB is respon-
  sible for the first 40 km Kabul-Arghandi substation connector, and the 332
  km Ghazni-Kandahar East substation connector will be constructed by ADB
  with substantial USAID funds.671 USAID will fund construction of the 120
  km section from Arghandi to Ghazni with $101 million in on-budget aid to
  DABS provided by DOD’s AIF. USAID, the MOF, and DABS formalized the
  bilateral agreement for this segment in February 2013. This quarter, USAID
  warned that security is deteriorating in Regional Command-East and on
  Route 1, in particular, which PTEC will follow.672
     DOD, through the U.S. Army Corps of Engineers (USACE), is expanding
  NEPS by constructing the transmission line from Arghandi to Pul-e Alam
  and Gardez.




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013               165
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.36



    POWER TRANSMISSION POWER PROGRAM


                                                      UZBEKISTAN                                                     TAJIKISTAN
                                                           Future Sheberghan Gas Power Plant


              TURKMENISTAN                              JOWZJAN
                                                                        BALKH
                                                                                     KUNDUZ
                                                                                                 TAKHAR
                                                                                                             BADAKHSHAN



                                                                        SAMANGAN           BAGHLAN
                                             FARYAB     SAR-E PUL                                PANJSHIR
                                                                                                         NURISTAN
                                  BADGHIS
                                                                                       PARWAN KAPISA      KUNAR
                                                                      BAMYAN
                                                                                                  LAGHMAN
                                                                                WARDAK           KABUL
                                                                                                      NANGARHAR
                       HERAT
                                            GHOR
                                                        DAYKUNDI                         LOGAR     PAKTIYA
                                                                            GHAZNI                 KHOWST


    IRAN                FARAH
                                                      URUZGAN
                                                                    ZABUL
                                                                                                                          PAKISTAN
                                                                                       PAKTIKA


                                  HELMAND
                      NIMROZ


                                                   KANDAHAR
                                                                                                               Energy Import Routes
                                                                                                               Existing Substation
                                                                                                               Proposed Substation
                                             Kajaki Hydro Power Plant                                          Existing Transmission Lines
                                                                                                               Projects in Progress


    Sources: USAID, response to SIGAR data call, 7/1/2013, 9/30/2013; USAID, response to SIGAR vetting,
    7/15/2013.




   USAID plans to contribute $417.6 million from its $814 million PTEC
project to ADB’s Afghanistan Infrastructure Trust Fund (AITF). Of this,
approximately $290 million will be used to construct the remaining trans-
mission line from Ghazni to Kandahar to complete the NEPS to SEPS
connection. The ADB established the AITF in December 2010, to allow
bilateral, mul­tilateral, and individual contributors to partner with the ADB
in financing infrastructure investments. AITF will fund projects on-budget
through DABS or other Afghan government ministries. Current contributors
to AITF also include the UK’s Department for International Development
(DFID) and the Japanese Embassy. As of September 17, 2013, USAID has
obligated $180.3 million to AITF and disbursed $45 million, representing no
change from last quarter. USAID has also obligated $263.3 million in on-bud-
get assistance to the MOF and DABS for PTEC, but has not yet disbursed
any funds.673




  166                           SPECIAL INSPECTOR GENERAL                                  I     AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  DOD-Funded Programs
  Reliable and sustainable power generation, transmission, and distribu-
  tion are the linchpins to security, stability, and economic growth in
  Afghanistan, according to DOD. This quarter, DOD continued implement-
  ing several priority energy-sector projects using FY 2012 and FY 2013 AIF
  money. These included:674
   •	 the Kandahar Power Bridging Solution
   •	 Kandahar–Durai Junction transmission lines
   •	 Charikar–Bazirak and Charikar–Mahmood Raqi transmission lines and
      power substations

  Kandahar Power Bridging Solution
  This project is providing fuel for the diesel power generators in Kandahar
  City until affordable, sustainable power becomes available through the joint
  DOD-USAID effort to expand and connect NEPS and SEPS systems.675 The
  generators at Shorandam Industrial Park and Bagh-e-Pol have a combined
  average output of 8–13 MW. Funding levels have not changed from last
  quarter. FY 2012 funding remains at $79.8 million for fuel and operations
  and maintenance (O&M). The estimated FY 2013 cost is $100 million, which
  includes $90 million for fuel and $10 million for O&M.676
     The president’s FY 2014 budget request includes $100 million for the
  diesel power generators and to integrate prior DOD and USAID power
  projects. This will improve overall power management in Kandahar by con-
  solidating Kandahar’s “power islands” into an integrated grid. DOD plans
  to continue purchasing fuel and providing O&M support into FY 2015, but
  intends to transfer the generators to DABS in December 2013, along with
  six months of spare parts. DOD said it will provide technical support for
  one year following the transition.677 It sees this electricity as critical to the
  counterinsurgency strategy to help stabilize Kandahar by supporting eco-
  nomic development and improving citizens’ quality of life. DOD said the
  Kandahar Bridging Solution is central to the Afghanistan Electrification
  Plan and the State Department’s development plan for Afghanistan.678

  Kandahar to Durai Junction Transmission Lines
  Part of the effort to expand SEPS, this project continues earlier efforts to
  install or repair transmission lines from Kandahar City to Durai Junction
  and to construct or repair substations at Maiwand and Pashmul. The cost
  for this projects, which began in 2012, remains $40 million in FY 2012 funds.
  This transmission line constitutes a key element for the larger PTEC proj-
  ect linking SEPS and NEPS and addresses the need for reliable electricity
  in Afghanistan’s south and southeast. DOD’s goal is to promote economic
  growth, security, stability, and capacity-building efforts within DABS to help
  it generate sufficient revenues to fund capital improvements to the grid.




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013               167
ECONOMIC AND SOCIAL DEVELOPMENT




Completion of this project is essential to distribute power generated by the
third turbine awaiting installation at Kajaki Dam, according to DOD.679

Charikar–Bazirak and Charikar–Mahmood Raqi Transmission
Lines and Power Substations
This project will install 83 km of transmission lines from Charikar to
Bazirak and from Charikar to Mahmood Raqi. It will also build three power
substa­tions to expand NEPS. DOD has allocated $38 million in FY 2012
funds and $33 million in FY 2013 funds for the project, for a total estimated
cost of $71 million, according to an updated DOD notification to Congress
this quarter. Annual estimated O&M costs for the transmission lines and
substations are $580,000.
   DOD told Congress the project will bring reliable electricity to 1.15 mil-
lion Afghans across three provinces and help fuel pri­vate-sector growth,
especially in the agriculture, processing, manufacturing, and mining sectors.
Consistent with all AIF-funded projects, and by formal agreement, this proj-
ect will be transferred to the Afghan government upon completion. DABS
will assume responsibility for O&M. Increased revenue from an expanded
customer base and improved collection capabilities will help DABS provide
long-term sustainment, according to DOD.680 However, SIGAR has raised
questions about DABS’s capac­ity, and other audits have said Afghanistan
lacks the resources necessary to pay for O&M.681

Kajaki Dam to Musa Qalah Transmission Lines
This project is building new transmission lines from the Kajaki Dam hydro-
power plant to Musa Qalah in Helmand Province. The $12 million in FY 2013
funds allocated for Phase I of the project will construct approximately
15 km of new 110 kV transmission line from Kajaki to a new substation that
will join with the existing 20 kV transmission line. Phase II plans to use
$49 million in FY 2014 funds to build 37 km of 110 kV transmission line from
the substation to Musa Qalah, build a new 110 kV substation, and rehabili-
tate the existing 20 kV substation at Musa Qalah. The project aims to benefit
the approximately 60,000 residents of Musa Qalah, according to DOD.682
Other components of the project are designed to help integrate SEPS proj-
ects into a single, interconnected system. Consistent with all AIF-funded
projects, and by formal agreement, this project will be transferred to the
Afghan government upon completion. DABS will assume responsibility for
O&M. Increased revenue from an expanded customer base and improved
collection capabilities will help DABS provide long-term sustainment,
according to DOD.683 As noted above SIGAR audits have raised concerns
about DABS’ capacity and resources.




 168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Gardez to Khowst Transmission Lines
  This project is supposed to expand NEPS by designing and installing
  approximately 95 km of single-circuit 220 kV transmission lines and 30 km
  of 20 kV distribution lines. In his FY 2014 DOD budget submission requests,
  the President has asked Congress to provide $130 million for these efforts.
  The transmission lines will go from Gardez to Khowst in the east, and new
  substations will be built at Waza-Khvajeh and Khowst.684

  CERP Projects in the Electricity Sector
  DOD also uses CERP funds to pay for small-scale electricity projects,
  such as installing generators, solar-panel systems, and utility poles. Nearly
  $100,000 in FY 2013 funds has been obligated and disbursed as of June 30,
  2013 (the most recent data available).685


  TRANSPORTATION
  Afghanistan’s lack of transportation infrastructure hinders internal com-
  merce, foreign trade, and economic growth. The World Bank said restoring
  the transportation sector is imperative for economic recovery and develop-
  ment.686 Afghanistan’s infrastructure shortcomings particularly constrain
  the service and agriculture sectors, which currently contribute most to
  GDP. They also hold back the extractives industry, whose future revenues
  the Afghan government and international donor community are counting
  on to supplement declining aid.687 This quarter, the United States continued
  its efforts to assist Afghanistan in developing transportation laws, ministry
  capacity, and compliance with inter­national standards.688

  Civil Aviation
  Since 2002, the U.S. Air Force has operated air traffic control in the Kabul
  region under an agreement signed with Afghanistan’s Ministry of Transport
  and Civil Aviation (MOTCA). The U.S. Air Force intends to transfer its
  air traffic control (ATC) and communications, navigation, and surveil-
  lance (CNS) infrastructure system to the Afghan government no later than
  December 2014. The U.S. Air Force and the U.S. Embassy Kabul assisted
  the MOTCA to prepare a contract for the Afghan government to assume
  responsibility of Afghanistan’s airspace, but contract signing has been
  delayed for five months waiting for Afghan government funding and a
  release of a request for proposal.689
     The U.S. Air Force spends approximately $49 million per year on ATC/
  CNS services, and has spent approximately $447 million in Global War on
  Terror/Overseas Contingency Operations funds to build civil aviation capa-
  bilities and improve flight safety in Afghanistan since 2002. Title 10 USC
  funding prevents the U.S. Air Force from training civil aviation personnel or




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013             169
ECONOMIC AND SOCIAL DEVELOPMENT




developing training facilities. That support comes instead from U.S. Embassy
Kabul, USAID, and International Civil Aviation Organization programs.690
   The U.S. Department of Transportation (DOT) Office of the
Transportation Counselor (OTC), in conjunction with USAID, has been
developing the Kabul Air Traffic Control System and Safety Oversight
Training Program for Afghan aviation professionals since 2012. According
to DOT, its goal is to bring Afghanistan into compliance with international
standards and prepare Afghans to operate and provide oversight for their
national civil-aviation program in advance of the transition of Afghan air-
space from the U.S. military to civilian control. The U.S. program is focused
on safety oversight, technical operations, and air traffic control. Out of the
$4.6 million currently obligated from FY 2011 USAID funds, $824,000 has
been disbursed as of September 30, 2013.691
   OTC has developed a comprehensive training curriculum for Afghan
aviation professionals, including for high-level administrative direc-
tors of the Afghanistan Civil Aviation Authority in air traffic control and
communications, navigation, and surveillance familiarization. After com-
pleting on-the-job training, the controllers can become watch supervisors,
able to assume managerial supervision of the air traffic environment.
According to DOT, this capability did not exist prior to OTC involvement.
As of September 30, 2013, DOT reported 49 Afghan aviation trainees have
received classroom training. DOT is also measuring the career-track prog-
ress of trainees and the amount of training provided.692
   DOT also reported several challenges. All aviation career tracks
require on-the-job training after completing classroom training. However,
Afghanistan does not have qualified instructors, so training must be con-
tracted out. For its part, DOT/OTC has not been able to bring in qualified
instructors because there is no entity to sponsor them or provide support
services such as country clearances, secure housing and transportation,
threat protection, and Status of Forces Agreement protection. On-the-job
training opportunities are being explored in International Civil Aviation
Organization-compliant countries in the region. It can take up to two years
to build up sufficient skills, according to DOD. Therefore, during the air-
space transition, Afghanistan will have to outsource radar control and other
aviation services.693


EDUCATION
According to the data available to USAID last quarter from the Ministry of
Education’s (MOE) Information Management System (EMIS), Afghanistan
had a total of 13,562 primary, lower secondary, and upper secondary schools
in solar year (SY) 1390 (March 2011–March 2012). The same data showed
more than 185,255 teachers employed across all education programs in




 170                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Afghanistan, and approximately 7.5 million students enrolled in primary, gov-
  ernment lower secondary, and government upper secondary schools.694
     However, USAID said it was concerned about the reliability of MOE/
  EMIS data, which is the only database tracking education metrics. USAID
  told SIGAR it cannot verify the data. With more USAID assistance now
  going on-budget, USAID relies primarily on EMIS—but without real-time
  update access—for its information. However, USAID said it also uses inter-      SIGAR AUDIT
  nal reports from its officers, ISAF, and implementing partners to check
                                                                                  In a newly announced audit, SIGAR is
  certain levels of field information.695 SIGAR is concerned that U.S. govern-
                                                                                  examining the U.S. government’s efforts
  ment agencies and international donors are unable to verify Afghanistan’s
                                                                                  to assist and improve the education
  oft-cited gains in education. Moreover, SIGAR is concerned about providing
                                                                                  sector in Afghanistan. For more
  more direct assistance to the Ministry of Education in light of USAID’s view
                                                                                  information, see Section 2, page 34.
  that the ministry lacks sufficient capacity to adequately and properly man-
  age and account for USAID funds.696
     Since 2002, USAID has supported education through aid for building
  and refurbishing schools, developing curricula, and conducting training.
  USAID’s ongoing priority programs in the Education sector funded through
  the ESF this quarter include:
  •	 Basic Education, Literacy and Technical-Vocational Education and
      Training (BELT)
  •	 Higher Education Project (HEP)
  •	 American University of Afghanistan (AUAF)

  Basic Education, Literacy, and Technical-Vocational
  Education and Training
  Basic Education, Literacy, and Technical-Vocational Education and Training
  (BELT) is a three-year (December 2011–October 2014), $173 million on-bud-
  get program funded through the ESF. It aims to improve access to quality
  basic education in communities typically beyond the reach of the govern-
  ment. The program provides textbooks, technical-vocational education, and
  training, as well as community-based education programs. As of September
  30, 2013, USAID has obligated $88.9 million, compared to $20 million last
  quarter. Of that, USAID disbursed $23.7 million, compared to $5.8 million
  last quarter, an increase of $17.9 million.697
      BELT has five components: capacity building for the MOE, textbook
  printing, teacher training, community-based education, and Technical
  Vocational Education and Training (TVET).
      BELT TVET aims to build the quality and professionalism of TVET edu-
  cators by providing students with nationally accredited and certified skills,
  as well as equivalency for TVET in the MOE. The overall objective of BELT
  is to improve access to quality education and training, focusing on girls and
  other marginalized populations, according to USAID. An implementation
  letter spelling out substantive matters—student targets, performance mile-
  stones, means of verification, and funding levels for the program—remains




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           171
ECONOMIC AND SOCIAL DEVELOPMENT




delayed. BELT TVET is in the milestone development stage. USAID expects
to sign an implementation letter and forward it to the MOE next quarter.698
   USAID did, however, sign an implementation letter with the Minister
of Finance and the Minister of Education on July 28, 2013, amending the
amount of funds used to print and distribute textbooks that follow an
approved curriculum from $26.7 million to $27 million. Of this, $1.13 mil-
lion in USAID funds will be used to distribute the textbooks. ($833,187
obligated from the original implementation-letter agreement and $296,813
in new funding).699
   USAID did not contemplate having to fund textbook distribution, but will
because the MOE said it did not have enough money in its budget.700 The
distribution challenges are not new. Insecurity, textbook transit delays, and
winter weather that made some areas unreachable have hampered distribu-
tion of textbooks in some provinces in the past.701
   The textbook-implementation letter contains “conditions precedents”
that must be met before funds are disbursed. Furthermore, USAID con-
tracted Ernst and Young to conduct an external audit to verify the quantity
and quality of textbooks printed, and the distribution of textbooks to the
school level. The audit will cover 20% of schools and reach all 34 provinces,
according to USAID.702
   Finally, performance milestones under the community-based education
program have been agreed to this quarter, culminating in an implementation
letter signed in September 2013. The agreement sets targets for the number
of classes established, students reached, means of verification, and funding
levels for each milestone.703

Higher Education Project
Since the Higher Education Project (HEP) project began in 2006, it has
supported the Ministry of Higher Education to execute its National Higher
Education Strategic Plan. HEP’s latest phase, extended to February 28,
2014, provides technical assistance to increase ministry capacity through
professional training, quality assurance and accreditation, curriculum
review, university partnerships, academic policies, and regulation.704 As
of September 30, 2013, USAID had obligated $21.2 million toward HEP
(no change from last quarter) and dis­bursed $15.6 million, an increase of
approximately $2 million from last quarter.705
   USAID used two past program analyses to help design Strengthening
Tertiary Education Program-University Partnerships (STEP-UP), a
$92.7 million follow-on higher education program that aims to improve the
quality and relevance of the Afghanistan higher education system, and the
institutional capacity of the Ministry of Higher Education. STEP-UP will
work with up to 10 universities to improve university management systems,
academic programs and student services; will continue operational support
for the American University of Afghanistan; and will strengthen Ministry of




 172                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Higher Education systems and management capacity. STEP-UP is an off-
  budget program, currently under procurement.706
     USAID has previously reported that it did not have significant outcome
  data to quantify the impact of the more than $15 million spent on HEP.
  However, an impact assessment of its faculty-development and teacher-
  training activities for its master’s degree program, as well as an independent
  gender assessment, were completed. USAID is reviewing the findings.707

  American University of Afghanistan
  This quarter, USAID finalized a new $40 million, five-year cooperative agree-
  ment (August 2013–July 2018) designed to continue support for developing
  the American University of Afghanistan’s (AUAF) English-language under-
  graduate and continuing-education programs. Support will come from
  USAID’s STEP-UP program using ESF and ESF-OCO funds, and will help
  introduce new science, education, and management curricula, as well as a
  new master’s program, distance learning, and on-line resources. The four
  components of this agreement aim to strengthen academic and professional
  development programs, enhance program quality, expand programs for
  women, and increase financial self-sufficiency. As of September 30, 2013,
  USAID had obligated $10 million but had not disbursed any money.708
     AUAF is a private institution that continues to receive substantial assis-
  tance from the United States. So that the university can sustain itself after
  the transition, this new five-year cooperative agreement is a cost-share
  arrangement with clear, explicit sustainability components, according
  to USAID. It requires AUAF to contribute more than $62 million in non-
  U.S.-government funds.709 A performance-measurement plan has not yet
  been finalized by the university or approved, but the cooperative agree-
  ment contains a series of specific reporting and evaluation requirements,
  including the need to maintain “appropriate, adequate and accurate docu-
  mentation,” citing SIGAR, the USAID Office of Inspector General, and the
  Government Accountability Office’s interest in U.S. government programs
  in Afghanistan.710


  HEALTH
  Afghanistan has experienced significant improvements in its health indica-
  tors since 2002, according to USAID. Although the country still has one
  of the highest maternal-and-child mortality rates in the world, the USAID-
  funded Afghanistan Mortality Survey 2010 found that life expectancy has
  increased by as much as 20 years to an average of 62–64 years.711 However,
  other institutions have cited more modest gains. The CIA World Factbook
  gives the Afghan life expectancy from birth as 50.11 years, while the World
  Bank calculated life expectancy at 48.712




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013            173
                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                             From FY 2002 through FY 2012, U.S. on- and off-budget assistance to
                                          Afghanistan’s health sector totaled $1.06 billion.713 On-budget assistance to
                                          the Ministry of Public Health (MOPH) includes salary payments to work-
                                          ers in U.S.-funded facilities, medical and non-medical sup­plies, in-service
                                          training, minor renovations of facilities, medical equipment, and monitoring
                                          and supervision. Off-budget assistance includes activities in health systems
                                          strengthening, private sector engagement, and procurement of pharma­
                                          ceuticals and contraceptives.714
                                             This quarter, SIGAR released an audit of the MOPH’s capacity to account
                                          for U.S. direct assistance. It found that despite financial-management defi-
                                          ciencies at the MOPH, USAID continues to provide millions of U.S. taxpayer
                                          dollars in direct assistance with little assurance that the ministry is using
                                          these funds as intended.715
                                             USAID’s highest-priority programs in the health sector this quarter include:
                                          •	 Partnership Contracts for Health (PCH) Services
                                          •	 Health Policy Project (HPP)
                                          •	 Leadership, Management, Governance Project (LMG)
                                          All three were extended until October 31, 2014.716

                                          Partnership Contracts for Health Services
                                          The five-year (2009–2014), host-country contract Partnership Contracts for
SIGAR INSPECTIONS
                                          Health (PCH) program supports the MOPH’s efforts to provide the Basic
SIGAR published two inspections of        Package of Health Services (BPHS) and the Essential Package of Hospital
Afghan medical facilities this quarter:   Services (EPHS) in 13 provinces. The United States supports 547 of these
a Gardez hospital and a Walayatti         health facilities, including:717
medical clinic. For more information,     •	 5 Provincial Hospitals
see Section 2, pages 38 and 41.           •	 27 District Hospitals
                                          •	 13 Comprehensive Health Centers+
                                          •	 157 Comprehensive Health Centers
                                          •	 271 Basic Health Centers
                                          •	 64 Health Sub-Centers, and
                                          •	 10 Prison Health Facilities
                                             USAID also supports 6,279 Health Posts throughout Afghanistan.718

                                             The PCH allocation is $236 million. As of September 30, 2013, USAID
                                          had obligated $190.2 million to this program—representing no change from
                                          last quarter—and disbursed $146.8 million, an increase of approximately
                                          $11 million from last quarter.719
                                             PCH delivers health care ranging from primary health care services to
                                          highly specialized diag­nostic and treatment services. It also supports the
                                          Community Midwifery Education program, which helps to increase the
                                          number of female healthcare workers and contributes to reduction in both
                                          maternal and child mortality. USAID, through its forthcoming semi-annual
                                          report in October 2013, will update PCH programmatic challenges and




                                           174                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  successes.720 Specific metrics and performance evaluation standards were
  not provided to SIGAR.
     As noted above, SIGAR’s audit of the MOPH also found that the ministry
  internal control deficiencies put U.S. funds provided under the PCH program
  at risk of fraud, waste, and abuse. USAID officials stated that they have not
  verified what, if any, actions the MOPH has taken to address these deficien-
  cies. One USAID official determined that USAID has no obligation to address
  the deficiencies identified, or to verify any of the corrective actions that the
  MOPH may have implemented for the ongoing PCH program.721

  Health Policy Project
  The Health Policy Project (HPP), a 28-month (June 2012–October 2014)
  program, is building MOPH capacity to address basic health needs through
  design, negotiation, and management of hospital public-private partnerships
  (PPPs). The project also aims to build the capacity of local private-sector
  organizations to partner with the Afghan government in the generating
  of demand for and delivery of high-quality health services through social
  media marketing. HPP allocations this quarter increased to $28 million, a
  $10 million increase over last quarter, due to a one-year extension of the
  project. As of September 30, 2013, USAID had obligated $15.5 million to the
  program (no change from last quarter) and disbursed $13.7 million through
  ESF and Global Health funding accounts for the program.722
     HPP’s lack of access to qualified international consultants to help sup-
  port PPPs, as well as lack of a central PPP unit at the MOF, has resulted
  in delays of PPP activities. However, HPP is actively recruiting for these
  positions. Additionally, insecurity in several provinces limited outreach
  activities and sales of social-marketing products. However, HPP was able
  to conduct training programs this quarter, including on the correct use of
  socially marketed health products aimed at reducing maternal and child
  mortality, gender-based-violence training for health providers, and several
  HIV workshops. HPP also completed feasibility studies of two hospitals,
  and helped establish a system to collect health data from private hospitals
  to report to the MOPH.723 USAID did not provide specific metrics and per-
  formance evaluation standards for HPP to SIGAR.

  HIV/AIDS
  HPP supports the advocacy component of Afghanistan’s National AIDS
  Control Program (NACP) through the HIV and AIDS Coordination
  Committee of Afghanistan (HACCA). HACCA is a national, multi-sector
  advisory body to NACP. According to NACP, there are 1,250 officially
  reported HIV cases in Afghanistan, with the highest prevalence among injec-
  tion drug users. Other tracked groups at high risk are female sex workers,
  road transport workers and their assistants, prisoners, and men who have
  sex with men. The 2012 Integrated Biological and Behavioral Surveillance




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013              175
ECONOMIC AND SOCIAL DEVELOPMENT




study found that while the risk of infection is high among these groups, the
overall prevalence is low, and that Afghanistan is not at risk for an outbreak
among the general population.724

Leadership, Management, Governance Project
The 26-month (September 2012–October 2014), $26 million Leadership,
Management, Governance (LMG) Project works with the MOPH and the
MOE at the provincial and central levels to build lead­ership, manage-
ment, and governance capacity within Afghanistan’s health and education
systems. It also aims to improve transparency and account­ability within
the MOPH and helps both ministries manage on-budget assistance. As of
September 30, 2013, USAID had obligated $20.6 million (no change from last
quarter) and disbursed $10.6 million through ESF and Global Health funds
for the program.725
    This quarter, through LMG assistance, the MOPH launched three Health
Information Systems assessments, including a household survey and census
in USAID and EU-funded provinces, and a data quality and use assessment
in all 34 provinces. MOPH also completed mapping all In-Service Training
(IST)—also known as on the job training—providers, to help create guide-
lines and standards for all IST activities at the BPHS and EPHS levels.
Moreover, the MOPH provided standardized training for the first time to 700
community health supervisors.726 USAID did not provide SIGAR with spe-
cific metrics and performance evaluation standards for the program.
    Despite advances in hospital autonomy at 14 national hospitals, USAID
reported that LMG efforts to provide technical assistance to the hospitals
in rationalizing human resources—the next step in the autonomy process—
were challenged by social and political factors affecting hospitals’ internal
staffing decisions this quarter.727
    Additionally, the MOPH provincial liaison department has yet to define,
clarify, or reinforce the role of the Provincial Liaison Department in
strengthening provincial health systems. And thus far, implementing LMG
partners have limited capacity to respond to Community-Based Health Care
needs throughout Afghanistan, making it a challenge to LMG to help the
ministry ramp up interventions nationwide.728


PRIVATE SECTOR DEVELOPMENT
The United States is supporting private-sector development through the
ESF, TFBSO, and CERP. From FY 2002 to FY 2012, USAID appropriated
$1.06 billion for economic growth in Afghanistan.729 USAID’s top ongoing
priority economic-growth project, funded through the ESF, is Assistance in
Building Afghanistan by Developing Enterprises (ABADE).




 176                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Assistance in Building Afghanistan by
  Developing Enterprises
  USAID’s $105 million Assistance in Building Afghanistan by Developing
  Enterprises (ABADE) program is focused on helping produc­tive, Afghan-
  registered, small-to-medium enterprises add jobs, increase investment, and
  improve sales of domestic products and services through public-private alli-
  ances. It does so through three components: implementing public-private
  alliances once they are approved, identifying, selecting and supporting
  the alliances, and working with the Afghan government to improve the
  environment for business.730 In one case, ABADE entered into an alliance
  with a PVC and aluminum production company, procuring approximately
  $515,000 in equipment, which helped leverage $2.4 million invested by
  the company. According to USAID, the company can triple its production
  capacity, improve product quality to international standards, and employ
  200 people.731
      As of September 18, 2013, USAID obligated $29.6 million in Economic
  Support Funds to support the ABADE program—$12 million more than last
  quarter—and disbursed approximately $9.3 million—$1.8 million more than
  last quarter.732
      Since ABADE’s launch in February 2013, USAID reported that 12
  public-private alliances have been approved and awarded—compared
  to five reported last quarter, and 30 applications are awaiting approval.
  Additionally, business-outreach and government capacity-building efforts
  continued this quarter, as did two Business Development Services (BDS)
  surveys to identify BDS capabilities and unmet demand for such services.
      ABADE implementation is facing restrictions from Presidential Decree
  62, which requires the use of APPF and Risk Management Companies for
  security. The APPF is unable to provide adequate mobile escort units or
  vehicles, making it difficult for ABADE staff to travel across the region.733
  Moreover, USAID now depends upon commercial flights, which travel only
  to major city centers. This effectively puts programs outside of these areas
  either out of reach, or forces implementing partners to use more expensive
  charter flights. Risk Management Companies cannot carry weapons to pro-
  tect U.S. government staff on commercial air. Charter flight companies have
  yet to respond to USAID requests for such accommodations.734




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           177
4   OTHER AGENCY
    OVERSIGHT




        179
                                             CONTENTS
                                             OTHER AGENCY CONTENTS

                                             Completed Oversight Activities	             182
                                             Ongoing Oversight Activities	               185




Photo on previous page
U.S. Secretary of State John Kerry and President Hamid Karzai speak at an outdoor news
conference in Kabul on October 12, 2013, as U.S.-Afghan discussions continue on a new
Bilateral Security Agreement. (State photo)




                                               180
               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
    The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations
in place of full names; standardized capitalization, hyphenation, punc-
tuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
 •	 Department of Defense Office of Inspector General (DOD OIG)
 •	 Department of State Office of Inspector General (State OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           181
                                                               OTHER AGENCY OVERSIGHT




TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2013
Agency           Report Number           Date Issued           Project Title
                                                               Planning for the Effective Development and Transition of Critical ANSF Enablers to Post-2014 Capabilities Part I -
DOD OIG          DODIG-2013-129          9/20/2013
                                                               Afghan National Army Enabler Description
DOD OIG          DODIG-2013-123          8/30/2013             Army Needs To Improve Mi-17 Overhaul Management and Contract Administration
                                                               Compliance with Electrical and Fire Protection Standards of U.S. Controlled and Occupied Facilities in
DOD OIG          DODIG-2013-099          7/18/2013
                                                               Afghanistan
                                                               Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Corrections System Support Program
State OIG        AUD/MERO-13-37          9/2013
                                                               in Afghanistan
USAID OIG        F-306-13-001-P          9/25/2013             Audit of USAID/Afghanistan’s Kandahar Helmand Power Project
USAID OIG        F-306-13-002-P          8/31/2013             Audit of USAID/Afghanistan’s Use of Third Country National (TCN) Employees
Sources: DOD OIG, response to SIGAR data call, 9/19/2013; State OIG, response to SIGAR data call, 9/5/2013; GAO, response to SIGAR data call, 9/18/2013; USAAA, response to SIGAR data
call 9/23/2013; USAID OIG, response to SIGAR data call, 9/18/2013.




                                                               COMPLETED OVERSIGHT ACTIVITIES
                                                               Table 4.1 lists the six oversight projects related to reconstruction that par-
                                                               ticipating agencies reported as completed this quarter.

                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DOD OIG issued three reports related to Afghanistan
                                                               reconstruction.

                                                               Planning for the Effective Development and Transition of
                                                               Critical ANSF Enablers to Post-2014 Capabilities Part I -
                                                               Afghan National Army Enabler Description
                                                               (Report No. DODIG-2013-129, Issued September 20, 2013)
                                                               This report is classified.

                                                               Army Needs To Improve Mi-17 Overhaul Management and
                                                               Contract Administration
                                                               (Report No. DODIG-2013-123, Issued August 30, 2013)
                                                               This report is For Official Use Only.

                                                               Compliance with Electrical and Fire Protection Standards of
                                                               U.S. Controlled and Occupied Facilities in Afghanistan
                                                               (Report No. DODIG-2013-099, Issued July 18, 2013)
                                                               Continuing its oversight of health and safety issues in Southwest Asia, at
                                                               selected U.S. controlled and occupied facilities in Kandahar Air Field and
                                                               Bagram Air Field, Afghanistan, the DOD OIG inspected for compliance
                                                               with the National Electrical Code (NEC); Unified Facilities Criteria (UFC);
                                                               National Fire Protection Association (NFPA) standards; and corrective
                                                               actions to past DOD OIG electrical and fire protection findings. In this cur-
                                                               rent inspection, DOD OIG found:




                                                                  182                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




•	 Hazardous conditions due to a lack of consistent adherence to
   minimum NEC and NFPA standards as evidenced by 1,089 findings; 440
   findings violate NEC electrical standards and 649 findings violate UFC
   and/or NFPA fire protection standards.
•	 Fire protection systems were not maintained and/or repaired.
•	 Garrison commands lacked qualified Government or dedicated
   contractor electricians, fire alarm, or fire suppression technicians on
   their staffs to perform inspection, testing, and maintenance.
•	 Inadequate Government oversight and inspection of facilities.
•	 Lack of independent technical support for the Government
   Contracting Office resulted in overreliance on facility construction and
   maintenance contractors.
•	 The Base Camp Master Plans lacked a comprehensive fire protection plan.
•	 Corrective actions for previous DOD OIG audits and inspections were
   incomplete and ineffective for many findings.

U.S. Department of State Office of Inspector General–Middle
East Regional Office
During this quarter, State OIG issued one report related to Afghanistan
reconstruction.

Audit of the Bureau of International Narcotics and Law
Enforcement Affairs’ Correction System Support Program
in Afghanistan
(Report No. AUD/MERO-13-37, Issued September 2013)
State OIG determined that on November 28, 2012, the Deputy Secretary
certified to Congress that fiscal year (FY) 2012 Bureau of International
Narcotics and Law Enforcement Affairs (INL) funds would not be obligated
unless INL programs met the requirements of the USAID sustainability
guidance. However, on March 13, 2013, INL began obligating FY 2012
Corrections System Support Program (CSSP) funds without fully meeting
those requirements. Specifically, INL had not conducted a program review
to determine CSSP program cost and effectiveness, estimated the costs and
activities necessary for the Afghans to sustain the corrections program,
or developed a quarterly assessment and reporting process for measur-
ing CSSP success in achieving its program outcomes and Government of
Afghanistan (GIROA) progress on meeting its commitments. As a result,
INL has no basis for determining whether CSSP is an effective program,
with a positive return on its $226 million investment; whether the program
should be revised, reduced, or canceled; or whether the Afghans will have
the capacity to sustain the corrections program once international contribu-
tions are reduced. At current GIROA funding levels, the Afghan corrections
program is not sustainable without continued international support.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013           183
OTHER AGENCY OVERSIGHT




Government Accountability Office
During this quarter, GAO did not issue any publicly available reports related
to Afghanistan reconstruction.

U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.

U.S. Agency for International Development Office
of Inspector General
During this quarter, USAID OIG completed two reports related to
Afghanistan reconstruction.

Audit of Kandahar Helmand Power Project
(Report No. F-306-13-001-P, Issued September 25, 2013)
The audit objective was to assess project oversight, compliance with envi-
ronmental requirements and sustainability planning.
    The audit found that key processes and personnel that should have been
in place at inception were not. For these reasons, the audit will report six
findings:
 •	 sustainability plan was not fully developed;
 •	 environmental compliance monitoring was performed late;
 •	 mission could not track incremental progress adequately;
 •	 mission did not verify invoices consistently;
 •	 mission did not approve a performance management plan in a timely
    manner;
 •	 third-party monitoring was impaired. USAID OIG also reported an
    administrative matter related to subcontracting recordkeeping.
    The report includes 3 recommendations to address these issues.

Audit of USAID/Afghanistan’s Use of Third Country
National Employees
(Report No. F-306-13-002-P, Issued August 31, 2013)
The audit reported three findings:
•	 Mission records did not justify the use of third country national (TCN)
   employees;
•	 TCN contract positions lacked proper classifications;
•	 Mission did not sufficiently justify sole sourced TCN contracts. In
   answering the first part of the audit objective, the audit found that the
   mission was partially in line with the U.S. strategy for employing TCN
   employees only under exceptional and temporary circumstances. From
   2004 to 2012, the use of TCNs was an exception to normal recruitment
   practices in general, but in some offices their use was not temporary. In
   response to the second objective, the use of TCNs was not managed in




  184                 SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                        OTHER AGENCY OVERSIGHT




    accordance with human resource and contract management policies in
    the areas described in the findings.
    The report included six recommendations to address these issues.


ONGOING OVERSIGHT ACTIVITIES
As of September 30, 2013, the participating agencies reported 21 ongoing over-
sight activities related to reconstruction in Afghanistan. The activities reported
are listed in Table 4.2 and described in the following sections by agency.


TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2013
 Agency               Project Number                    Date Initiated        Project Title
                                                                              Assessment of U.S. Government Efforts to Transition Security Cooperation and Assistance
 DOD OIG              D2013-D00SPO-0181.000             6/13/2013             Activities Supporting the Government of the Islamic Republic of Afghanistan from Department of
                                                                              Defense Authority to Department of State Authority
                                                                              Assessment of the U.S. Military and Coalition Efforts to Develop Effective and Sustainable
 DOD OIG              D2013-D00SPO-0154.000             4/26/2013
                                                                              Healthcare Capability for the Afghan National Police
 DOD OIG              D2013-D000AS-0097.000             2/8/2013              Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                                              Price Reasonableness Determinations for Datron World Communications, Inc. Contracts Awarded
 DOD OIG              D2013-D000AT-0083.000             1/3/2012
                                                                              by the U.S. Army Contracting Command for the Afghan National Security Forces
                                                                              Assessment of Planning for the Effective Development and Transition of Critical Afghanistan
 DOD OIG              D2013-D00SPO-0087.000             12/18/2012
                                                                              National Security Forces Enablers to Post-2014 Capabilities
                                                                              Examination of Department of Defense Execution of North Atlantic Treaty Organization Contributing
 DOD OIG              D2013-D000FL-0056.000             12/3/2012             Countries Donations to Afghanistan National Army Trust Fund for Approval Sustainment Projects
                                                                              as of September 30, 2012
 DOD OIG              D2013-D000AS-0052.000             11/1/2012             Shindand Training Contracts
                                                                              Surveillance Structure on Contracts Supporting the Afghanistan Rotary Wing Program for the U.S.
 DOD OIG              D2013-D000AS-0001.000             10/5/2012
                                                                              Transportation Command
                                                                              Contract Management and Oversight of Military Construction Projects for the Special Operation
 DOD OIG              D2012-D000JA-0221.000             9/28/2012
                                                                              Forces Complexes at Bagram Airfield, Afghanistan
                                                                              Audit of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics
 State OIG-MERO       13AUD082                          6/13/2013
                                                                              Assistance to Afghanistan
                                                                              Audit of Bureau of Diplomatic Security Worldwide Protective Services Contract Task Orders 2, 9,
 State OIG-MERO       13AUD52                           2/2013
                                                                              and 11 for Movement and Static Security Services in Jerusalem and Afghanistan
                                                                              Audit of the Department of State Transition Planning for a Reduced Military Presence in
 State OIG-MERO       12AUD79                           12/2012
                                                                              Afghanistan
 GAO                  351851                            8/16/2013             Drawdown of DOD Contractors in Afghanistan
 GAO                  320985                            6/26/2013             Use of Foreign Labor Contractors Abroad
 GAO                  351819                            5/9/2013              Costs of DOD’s Transition to the Afghan Public Protection Force
 GAO                  121119                            3/6/2013              Department of State and U.S. Agency for International Development Contingency Contracting
 GAO                  351798                            1/18/2013             Afghanistan Equipment Reduction and Base Closures
 USAID OIG            FF100113                          4/1/2013              Audit of USAID/Afghanistan’s Elections Assistance Program
 USAID OIG            FF100712                          11/28/2012            Audit of USAID/Afghanistan’s Transition Plans (suspended)
 USAID OIG            FF100612                          10/9/2012             Audit of USAID/Afghanistan’s Management Controls over Premium Pay
                                                                              Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
 USAID OIG            FF101712                          10/25/2012
                                                                              Selected Projects
Sources: DOD OIG, response to SIGAR data call, 9/19/2013; State OIG, response to SIGAR data call, 9/5/2013; GAO, response to SIGAR data call, 9/18/2013; USAAA, response to SIGAR data
call 9/23/2013; USAID OIG, response to SIGAR data call, 9/18/2013.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2013                                185
OTHER AGENCY OVERSIGHT




Department of Defense Office of Inspector General
The Department of Defense continues to face many challenges in executing
its Overseas Contingency Operations (OCO). The Department of Defense
Office of Inspector General (DOD OIG) has identified priorities based on
those challenges and high-risks. In FY 2013, DOD OIG focused oversight on
overseas contingency operations with a majority of its resources support-
ing operations in Afghanistan. The DOD OIG focus in Afghanistan primarily
continued in the areas of the management and execution of the Afghanistan
Security Forces Fund, military construction, safety of personnel, and the
administration and oversight of contracts supporting coalition forces. In
addition, DOD OIG oversight in Afghanistan started addressing matters per-
taining to the drawdown of forces in Afghanistan and shifting of operations.
    As billions of dollars continue to be spent in Afghanistan, in addition
to drawdown efforts, a top priority continues to be the monitoring and
oversight of acquisition and contracting processes focused on training,
equipping, and sustaining Afghanistan Security Forces (ASF). The DOD
OIG planned oversight efforts address the administration and oversight of
contracts for equipping ASF, such as rotary wing aircraft, airplanes, ammu-
nition, radios, and night vision devices. The DOD OIG will also continue to
review and assess the Department’s efforts in managing and executing con-
tracts to train the Afghan National Police.
    The DOD OIG led Southwest Asia Joint Planning Group assists in the
coordination and deconfliction of Federal and DOD OCO related over-
sight activities. The DOD OIG, working with the SIGAR as well as fellow
Inspectors General and Defense oversight community members, have final-
ized the FY 2014 strategic audit plan for the oversight community working
in Afghanistan and plans to issue the FY 2014 Comprehensive Oversight
Plan for Southwest Asia in October 2013. A key theme in the FY 2014 plan
development is the anticipated force restructuring/drawdown of operations
in Afghanistan.
    Ongoing Operation Enduring Freedom-related oversight addresses
accountability of property; improper payments; contract administration and
management including construction projects; oversight of the contract for
training the Afghan police; logistical distribution within Afghanistan; retro-
grade operations, health care; and acquisition planning and controls over
funding for Afghan Security Forces.




 186                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Assessment of U.S. Government Efforts to Transition
Security Cooperation and Assistance Activities Supporting
the Government of the Islamic Republic of Afghanistan
from Department of Defense Authority to Department of
State Authority
(Project No. 2013-D00SPO-0181.000, Initiated June 13, 2013)
DOD OIG is assessing plans and activities that have been accomplished or
implemented thus far to transfer the security cooperation and assistance
activities in Afghanistan from DOD to State Department authority, and
to make recommendations to facilitate or improve the transition of these
functions to the State Department in accordance with existing security
cooperation guidance and security assistance regulations that may pertain.
Specific objectives are to determine whether:
    a.	 U.S. government goals; objectives, plans, and guidance are
        sufficient, issued and operative for the transition of the Combined
        Security Transition Command-Afghanistan (CSTC-A) security
        assistance activities in Afghanistan from DOD authority to a security
        cooperation organization under Department of State authority.
    b.	 Ongoing efforts by U.S. forces to provide security assistance to
        the Government of Afghanistan are adversely impacted by the
        implementation of drawdown plans for U.S. Forces-Afghanistan
        (USFOR-A) and the transition of International Security Assistance
        Force (ISAF) and ISAF Joint Command (IJC) to a command
        organization under NATO authority.

Assessment of the U.S. Military and Coalition Efforts to
Develop Effective and Sustainable Healthcare Capability for
the Afghan National Police
(Project No. D2013-D00SPO-0154.000, Initiated April 26, 2013)
DOD OIG is assessing the progress of U.S. and Coalition efforts to develop
effective and sustainable healthcare capability in support of the Afghan
National Police (ANP). Specifically, the assessment will determine whether:
•	 plans to develop effective and sustainable healthcare services to the
   ANP are sufficiently comprehensive, coordinated with the Government
   of Afghanistan, and being implemented so as to meet the timeline for
   transition goals,
•	 advisory resources are sufficient and appropriate in order to develop
   the healthcare services necessary to support the medical needs of the
   ANP, and
•	 developmental efforts are on schedule and effective in ensuring there is
   adequate medical capability to provide proper medical support to ANP
   personnel from the point of injury to the next required level of care.




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2013          187
OTHER AGENCY OVERSIGHT




Mi-17 Cockpit Modifications under Task Order
W58RGZ-09D-0130-0102
(Project No. D2013-D000AS-0097.000, Initiated February 8, 2013)
DOD OIG is conducting a follow-on audit to the Audit of Task Orders
for Mi-17 Overhauls and Cockpit Modifications (Project No. D2012-
D000AS-0075.000). In this follow-on audit, DOD OIG is determining whether
DOD officials properly awarded and administered indefinite-delivery,
indefinite-quantity contract W58RGZ-09-D-0130, Task Order 0102, for the
modification of DOD-owned Mi-17 variant aircraft in accordance with fed-
eral and DOD regulations and policies. Under the prior project, DOD OIG
reviewed the procurement of overhaul services and parts for Pakistan-
owned Mi-17 variant aircraft, awarded by modification to Task Order 0102.

Price Reasonableness Determinations for Datron World
Communications, Inc. Contracts Awarded by the U.S. Army
Contracting Command for the Afghan National Security Forces
(Project No. 2013-D000AT-0083.000, Initiated January 3, 2013)
DOD OIG is determining whether the U.S. Army Contracting Command
obtained fair and reasonable prices for communications equipment and
components procured from Datron World Communications Inc. for the
Afghan National Security Forces (ANSF). This project is the second in a
series of audits focusing on Datron World Communications Inc. contracts.
The first audit in this series is D2012-D000AT-0129.000.

Assessment of Planning for the Effective Development and
Transition of Critical Afghanistan National Security Forces
Enablers to Post-2014 Capabilities
(Project No. D2013-D00SPO-0087.000, Initiated December 18, 2012)
DOD OIG is determining whether U.S. and Coalition goals, objectives,
plans, guidance, and resources are sufficient to effectively develop, manage,
and transition critical ANSF operational enablers to Afghan National Army
(ANA) and ANP capabilities. In addition DOD OIG is determining what criti-
cal enabling task capabilities will require further development beyond the
end of 2014. Also, DOD OIG is determining whether mitigating actions are
planned and what they consist of for any critical ANSF enabling capabili-
ties that are expected to be or may still be under development after 2014.
In essence, DOD OIG will review what plans and activities are in place to
mature enabling force functions deemed critical for the ANSF to conduct
and sustain independent operations. The first report, DODIG-2013-129
(classified report), was issued on September 20, 2013. A second report is
expected late first quarter FY 2014.




  188                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Examination of Department of Defense Execution of North
Atlantic Treaty Organization Contributing Countries Donations
to Afghanistan National Army Trust Fund for Approval
Sustainment Projects as of September 30, 2012
(Project No. D2013-D000FL-0056.000, Initiated December 3, 2012)
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DOD
[USD(C)/CFO] requested this examination. The USD(C)/CFO plans to assert
that the following schedules are fairly presented in all material respects:
•	 Schedule of Contributing Country Donations to Afghanistan National Army
   Trust Fund Approved Sustainment Projects as of September 30, 2012
•	 Schedule of Financial Status of Contributing Country Donations to
   Afghanistan National Army Trust Fund Transferred to the United States
   of America for Approved Sustainment Projects as of September 30, 2012

   DOD OIG is determining whether the USD(C)/CFO fairly presented
receipts and expenditures of funds contributed to the Afghanistan
National Army Trust Fund and transferred to DOD for execution under
the terms of the Memorandum of Understanding Among the United
States of America and North Atlantic Treaty Organization and Supreme
Headquarters Allied Powers-Europe Regarding Management and
Administration of Trust Fund Donations for Support and Sustainment
of the Afghanistan National Army. In addition, DOD OIG will review
internal controls over financial reporting and compliance with laws and
regulations as it relates to its engagement objective. The USD(C)/CFO is
responsible for the aforementioned schedules. DOD OIG’s responsibility is
to express an opinion based on its examination.

Shindand Training Contracts
(Project No. D2013-D000AS-0052.000, Initiated November 1, 2012)
DOD OIG is determining whether pilot-training contracts for fixed-wing and
rotary-wing aircraft at Shindand Air Base are properly managed and admin-
istered in accordance with federal and DOD requirements. Specifically,
DOD OIG will determine whether contract requirements are being met and
evaluate the effectiveness of contract oversight.

Surveillance Structure on Contracts Supporting the Afghanistan
Rotary Wing Program for the U.S. Transportation Command
(Project No. D2013-D000AS-0001.000, Initiated October 5, 2012)
DOD OIG is conducting its second in a series of audits on the Afghanistan
rotary-wing transport contracts. The overall objective is to determine
whether U.S. Transportation Command and U.S. Central Command officials
have adequate oversight of processes and procedures for the contracts. The
first audit was “Afghanistan Rotary Wing Transport Contracts for the U.S.
Transportation Command” (D2012-D000AS-0031.000).




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2013         189
OTHER AGENCY OVERSIGHT




Contract Management and Oversight of Military Construction
Projects for the Special Operation Forces Complexes at
Bagram Airfield, Afghanistan
(Project No. D2012-D000JA-0221.000, Initiated September 28, 2012)
DOD OIG is determining whether DOD is providing effective oversight of
military construction projects in Afghanistan. Specifically, DOD OIG will
determine whether the U.S. Army Corps of Engineers is properly monitor-
ing contractor performance and adequately performing quality-assurance
oversight responsibilities for construction projects for Special Operations
Forces at Bagram Airfield.

Department of State Office of Inspector General–Middle
East Regional Office
State OIG has three ongoing projects this quarter related to Afghanistan
reconstruction.

Audit of Bureau of International Narcotics and Law Enforcement
Affairs Counternarcotics Assistance to Afghanistan
(Project No. 13AUD082, Initiated June 2013)
The audit overall objective is to evaluate the management and oversight of
the Bureau of International Narcotics and Law Enforcement Affairs (INL)
counternarcotics program for Afghanistan, including whether INL has
achieved intended and sustainable outcomes and whether INL has applied
adequate internal controls over the administration of direct assistance for
the Afghanistan counternarcotics program.

Audit of Bureau of Diplomatic Security Worldwide Protective
Services Contract Task Orders 2, 9, and 11 for Movement and
Static Security Services in Jerusalem and Afghanistan
(Project No. 13AUD52, Initiated February 2013)
The overall audit objective is to determine the effectiveness of the
Department’s management and oversight of the Worldwide Protective
Services Contract Task Orders 2, 9, and 11. Specifically, the audit team will
determine whether the contractor is performing in accordance with con-
tract terms and conditions, the contractor’s work is adequately monitored,
and invoice review and approval procedures are in place to ensure accuracy
and completeness of costs.

Audit of the Department of State Transition Planning for a
Reduced Military Presence in Afghanistan
(Project No. 12AUD79, Initiated December 2012)
The overall audit objective is to evaluate the Department’s planning for
the transition from a predominately military to a civilian-led mission in
Afghanistan. Specifically, OIG will determine whether the Department




 190                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




has adequately defined its mission and support requirements, evaluated
its personnel and funding needs, and integrated its planning with the
Department of Defense and other relevant U.S. agencies, the Government
of Afghanistan, and other non-U.S. government agencies. State OIG will
also determine whether planning has incorporated lessons learned from the
transition in Iraq.

Government Accountability Office
GAO has five ongoing projects this quarter related to Afghanistan
reconstruction

Drawdown of DOD Contractors in Afghanistan
(Project No. 351851, Initiated August 16, 2013)
The key objectives are to determine (1) the extent to which DOD is apply-
ing operational contract support lessons learned as it begins its drawdown
of contractors and their equipment in Afghanistan; (2) the processes
established by DOD and USFOR-A to drawdown its contractor workforce
and associated equipment and whether this process is consistent with
established guidance; (3) the extent to which DOD is using cost and other
information to help ensure it is making cost-effective operational contract
support decisions, including decisions on the disposition of contractor-man-
aged government-owned equipment; (4) actions the Department has taken
to ensure that there are sufficient oversight personnel in place to oversee
contractors as it reduces the number of military forces in Afghanistan;
and (5) the extent to which DOD and USFOR-A have begun planning for
the use of contractors after December 2014. In addition, GAO will identify
the factors that are being considered as DOD begins to plan its post-2014
contractor requirements and what actions DOD is taking to ensure that the
operational contractor support needed to support the post-2014 footprint is
being provided in the most cost-effective manner possible.

Use of Foreign Labor Contractors Abroad
(Project No. 320985, Initiated June 26, 2013)
The United States relies on contractors to provide diverse services over-
seas. Despite prohibiting the use of trafficked labor for all U.S. government
contracts, concerns remain about the protections afforded to foreign work-
ers recruited by U.S. contractors because prevailing practices in some host
countries diverge from U.S. standards. Key questions: (1) What are the
practices of U.S. government contractors in recruiting foreign workers for
work outside the United States? (2) What legal and other authorities do U.S.
agencies identify as providing protection to foreign workers employed by
U.S. government contractors outside the United States? (3) To what extent
do federal agencies provide oversight and enforcement of such authorities?




REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2013         191
OTHER AGENCY OVERSIGHT




Costs of DOD’s Transition to the Afghan Public Protection Force
(Project No. 351819, Initiated May 9, 2013)
The Afghan Public Protection Force (APPF) began assuming security
responsibilities in March 2012. Private security contractors (PSCs), used
to secure military bases, were to have been replaced by either the APPF or
military personnel by March 2013. Key questions: To what extent has: (1)
DOD implemented the transition of security services from private security
contractors to the APPF; (2) DOD developed cost estimates related to the
transition to the APPF and what actions are being taken to minimize these
costs; and (3) DOD assessed the current and potential security risks to U.S.
personnel and logistics as a result of the transition to the APPF and taken
measures to minimize these risks?

Department of State and U.S. Agency for International
Development Contingency Contracting
(Project No. 121119, Initiated March 6, 2013)
The Department of State and USAID have relied extensively on contractors
in Iraq and Afghanistan. While the use of contractors in such contingency
operations is not new, GAO and others have found that State and USAID
experienced challenges managing contracts in these operations. The project
will ask, to what extent have State and USAID: (1) assessed their organi-
zational structures related to contracting for contingency operations and
determined whether related changes are needed; (2) assessed their contract
award and management policies for contingency operations and deter-
mined whether changes to those policies are needed; and (3) assessed their
workforces, including reliance on contractors, for contingency operations
and determined whether changes are needed?

Afghanistan Equipment Reduction and Base Closures
(Project No. 351798, Initiated January 18, 2013)
DOD has stated that it will cost at least $5.7 billion to draw down an esti-
mated 90,000 containers of material and 50,000 vehicles from Afghanistan.
Given the large number of bases and difficult conditions in Afghanistan,
an efficient and cost-effective drawdown will likely depend on DOD know-
ing how much equipment it has in Afghanistan and making cost-effective
decisions about its disposition. Key Questions: To what extent (1) has DOD
implemented base-closure procedures, including the accountability of
equipment, to meet command-established objectives and timelines? (2) Are
command-established objectives and timelines for the Afghanistan equip-
ment drawdown supported by DOD facilities and processes? (3) Is DOD
using cost and other information to help ensure it is making cost-effective
disposition decisions?




  192                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.

U.S. Agency for International Development Office of
Inspector General
This quarter, USAID OIG has three ongoing audits related to reconstruction
initiatives. One project, also listed below, has been suspended.

Audit of USAID/Afghanistan’s Elections Assistance Program
(Project No. FF100113, Initiated April 1, 2013)
Audit Objectives:
•	 To determine whether USAID’s assistance strengthened the ability of the
   Government of the Islamic Republic of Afghanistan institutions, Afghan
   civil society, and other organizations to enable credible, inclusive, and
   transparent presidential and provincial council elections in 2014.
•	 To determine if USAID’s assistance contributed to Afghan solutions to
   the longer-term issues identified in the OIG’s previous audit of elections
   assistance (Report No. F-306-11-003-P, June 19, 2011).

Audit of USAID/Afghanistan’s Transition Plans
(Project No. FF100712, Initiated November 28, 2012)
Objective: Does USAID/Afghanistan have plans to address contingencies
related to the U.S. Government’s transition in Afghanistan? (Note: this audit
was suspended).

Audit of USAID/Afghanistan’s Management Controls Over
Premium Pay
(Project No. FF100612, Initiated October 9, 2012)
Objective: To determine if USAID/Afghanistan is using sufficient man-
agement controls over the submission, authorization, approval, and
certification of premium-pay benefits for its staff in accordance with federal
time-and-attendance policies and procedures.

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2012)
Objective: To determine whether the Commander’s Emergency Response
Program (CERP) funds distributed by USFOR-A to USAID/Afghanistan for
specific projects were used for their intended purposes, and were in compli-
ance with applicable laws and regulations.




REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2013          193
                                     APPENDICES AND ENDNOTES CONTENTS

                                     Appendix A 	                                                  196
                                     Appendix B 	                                                  202
                                     Appendix C	                                                   204
                                     Appendix D	                                                   208
                                     Appendix E	                                                   212
                                     Endnotes	216




                                                                               The Official Seal of SIGAR
                                        The Official Seal of SIGAR represents the coordination of efforts
   between the United States and Afghanistan to provide accountability and oversight of reconstruction
activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
                     along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                        194                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       195
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation,
                                   the National Defense Authorization Act for Fiscal Year 2008, Pub. L. No.
                                   110-181, § 1229 (Table A.1), and to the semiannual reporting requirements
                                   prescribed for inspectors general more generally under the Inspector
                                   General Act of 1978, as amended (5 U.S.C. App. 3) (Table A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      196                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay
Reports




REPORT TO THE UNITED STATES CONGRESS              I   OCTOBER 30, 2013                                 197
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       198                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(i)(3)                       PUBLIC AVAILABILITY —                                                      Publish report as directed at         Full report
                                         The Inspector General shall publish on a publicly available                www.sigar.mil
                                         Internet website each report under paragraph (1) of this subsec-
                                                                                                                    Dari and Pashtu translation
                                         tion in English and other languages that the Inspector General
                                                                                                                    in process
                                         determines are widely used and understood in Afghanistan
Section 1229(i)(4)                       FORM —                                                                     Publish report as directed            Full report
                                         Each report required under this subsection shall be submitted
                                         in unclassified form, but may include a classified annex if the
                                         Inspector General considers it necessary
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2013                               199
                                          APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                            200                         SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                      APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section        IG Act Language                                      SIGAR Action                                        Section
Section 5(a)(11)      A description and explanation of the reasons for     Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      any significant revised management decision          member reports                                      members

                                                                           Explain SIGAR audit reports in which significant    None
                                                                           revisions have been made to management
                                                                           decisions
Section 5(a)(12)      Information concerning any significant manage-       Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      ment decision with which the Inspector General is    member reports                                      members
                      in disagreement
                                                                           Explain SIGAR audit reports in which SIGAR          No disputed decisions
                                                                           disagreed with management decision                  during the reporting period
Section 5(a)(13)      Information described under [Section 804(b)] of      Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      the Federal Financial Management Improvement         member reports                                      members
                      Act of 1996 (instances and reasons when an
                      agency has not met target dates established in a     Provide information where management has not        No disputed
                      remediation plan)                                    met targets from a remediation plan                 decisions during the report-
                                                                                                                               ing period
Section 5(a)(14)(A)   An Appendix containing the results of any peer       SIGAR has posted in full the results of, and        Posted in full at
                      review conducted by another Office of Inspector      reports from, SIGAR’s most recent peer reviews      www.sigar.mil
                      General during the reporting period; or              (completed during July 2010, prior to the current
                                                                           reporting period), on its Web site
Section 5(a)(14)(B)   If no peer review was conducted within that report- 15 July 2010                                         Posted in full at
                      ing period, a statement identifying the date of the                                                      www.sigar.mil
                      last peer review conducted by another Office of
                      Inspector General
Section 5(a)(15)      A list of any outstanding recommendations from       None – all peer review recommendations              Recommendations and
                      any peer review conducted by another Office of       effectively addressed, and remedial measures        related materials posted in
                      Inspector General that have not been fully imple-    implemented, by 30 September 2010                   full at www.sigar.mil
                      ment, including a statement describing the status
                      of the implementation and why implementation is
                      not complete
Section 5(a)(16)      Any peer reviews conducted by SIGAR of another       Not applicable (SIGAR did not conduct, or           SIGAR Oversight
                      IG Office during the reporting period, including a   participate in the conduct, of a peer review of
                      list of any outstanding recommendations made         another Office of Inspector General during the
                      from any previous peer review . . . that remain      reporting period)
                      outstanding or have not been fully implemented




REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2013                             201
                                                             APPENDICES



                                                             APPENDIX B
                                                             U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                             Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                             per year, as of September 30, 2013.
                                                             TABLE B.1

                                                              U.S. FUNDING SOURCES                                            AGENCY          TOTAL     FY 2002
                                                              SECURITY
                                                                Afghanistan Security Forces Fund (ASFF)                       DOD           52,776.82        0.00
                                                                Train & Equip (DOD)                                           DOD              440.00        0.00
                                                                Foreign Military Financing (FMF)                              State          1,059.14       57.26
                                                                International Military Education and Training (IMET)          State             13.32        0.18
                                                                NDAA Section 1207 Transfer                                    Other              9.90        0.00
                                                              Total - Security                                                             54,299.18       57.44
                                                              GOVERNANCE & DEVELOPMENT
                                                                Commander's Emergency Response Program (CERP)                 DOD            3,639.00        0.00
                                                                Afghanistan Infrastructure Fund (AIF)                         DOD            1,024.00        0.00
                                                                Task Force for Business and Stability Operations (TFBSO)      DOD              692.15        0.00
                                                                Economic Support Fund (ESF)                                   USAID         16,673.06      117.72
                                                                Development Assistance (DA)                                   USAID            885.45       18.30
                                                                Afghanistan Freedom Support Act (AFSA)                        DOD              550.00        0.00
                                                                Child Survival & Health (CSH + GHAI)                          USAID            554.58        7.52
                                                                Commodity Credit Corp (CCC)                                   USAID             31.65        7.48
                                                                USAID (other)                                                 USAID             48.48        0.00
                                                                Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State            606.29       44.00
                                                                Provincial Reconstruction Team Advisors                       USDA               5.70        0.00
                                                                Treasury Technical Assistance                                 Treasury           4.45        0.90
                                                              Total - Governance & Development                                             24,714.82      195.92
                                                              COUNTER-NARCOTICS
                                                                International Narcotics Control & Law Enforcement (INCLE)     State          4,181.80       60.00
                                                                Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD            2,617.35        0.00
                                                                Drug Enforcement Administration (DEA)                         DOJ              127.37        0.58
                                                              Total - Counter-Narcotics                                                     6,926.52       60.58
                                                              HUMANITARIAN
                                                                P.L. 480 Title I                                              USDA               5.00        0.00
                                                                P.L. 480 Title II                                             USAID            903.69      159.50
                                                                Disaster Assistance (IDA)                                     USAID            516.88      197.09
                                                                Transition Initiatives (TI)                                   USAID             36.36        8.07
                                                                Migration & Refugee Assistance (MRA)                          State            834.84      135.47
Notes: Numbers have been rounded. DOD reprogrammed
$1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion       Voluntary Peacekeeping (PKO)                                  State             69.33       23.93
from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from         Emergency Refugee & Migration Assistance (ERMA)               State             25.20       25.00
FY 2012 ASFF. DOD transferred $101 million from FY 2011
AIF to FY 2011 ESF to fund an infrastructure project to be      Food for Progress                                             USDA             109.49        0.00
implemented by USAID.                                           416(b) Food Aid                                               USDA              95.18       46.46
Sources: DOD, responses to SIGAR data call, 10/23/2013,         Food for Education                                            USDA              50.49        0.00
10/9/2013, 9/30/2013, 10/22/2012, 10/14/2009,                   Emerson Trust                                                 USDA              22.40        0.00
and 10/1/2009; State, responses to SIGAR data call,
10/18/2013, 7/2/2013, 6/27/2013, 10/5/2012                    Total - Humanitarian                                                          2,668.85      595.52
and 6/27/2012; Treasury, response to SIGAR data
call, 10/4/2013; OMB, responses to SIGAR data call,
                                                              INTERNATIONAL AFFAIRS OPERATIONS
7/19/2013 and 1/4/2013; USAID, responses to SIGAR             Oversight                                                                        231.30        0.00
data call, 10/10/2013, 10/15/2010, 1/15/2010, and
10/9/2009; DOJ, response to SIGAR data call, 7/7/2009;        Other                                                                          7,757.00      155.60
USDA, response to SIGAR data call, 4/2009; P.L. 113-6,        Total - International Affairs Operations                                      7,988.30      155.60
3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,            TOTAL FUNDING                                                                96,597.67    1,065.06
12/19/2009; FY 2010 Defense Explanatory Statement.




                                                               202                        SPECIAL INSPECTOR GENERAL             I     AFGHANISTAN RECONSTRUCTION
                                                       APPENDICES




   FY 2003     FY 2004     FY 2005     FY 2006     FY 2007 FY 2008          FY 2009      FY 2010      FY 2011      FY 2012      FY 2013

       0.00        0.00       995.00    1,908.13     7,406.40    2,750.00     5,606.94     9,166.77    10,619.28    9,200.10     5,124.20
       0.00      150.00       290.00        0.00         0.00        0.00         0.00         0.00         0.00        0.00         0.00
     191.00      414.08       396.80        0.00         0.00        0.00         0.00         0.00         0.00        0.00         0.00
       0.39        0.67         0.95        0.98         1.19        1.66         1.40         1.76         1.56        1.18         1.42
       0.00        0.00         0.00        0.00         0.00        9.90         0.00         0.00         0.00        0.00         0.00
    191.39      564.75     1,682.75    1,909.11     7,407.59    2,761.56     5,608.34     9,168.53    10,620.84    9,201.28     5,125.62

       0.00        40.00      136.00     215.00        209.00      488.33       550.67     1,000.00       400.00       400.00      200.00
       0.00         0.00        0.00       0.00          0.00        0.00         0.00         0.00       299.00       400.00      325.00
       0.00         0.00        0.00       0.00          0.00        0.00        14.44        59.26       239.24       241.82      137.40
     223.79       893.83    1,283.00     473.39      1,224.24    1,399.51     2,083.16     3,346.00     2,168.51     1,836.76    1,623.15
      42.54       153.14      169.21     184.99        166.81      149.43         0.40         0.30         0.00         0.35        0.00
     300.00       150.00      100.00       0.00          0.00        0.00         0.00         0.00         0.00         0.00        0.00
      49.68        33.40       38.00      41.45        100.77       63.07        58.23        92.30        69.91         0.00        0.25
       1.33         0.00        0.00       0.00          0.00       10.77         4.22         4.22         3.09         0.55        0.00
       0.50         5.00        0.00       0.00          0.00       20.00         2.81         4.90         6.25         7.18        1.84
      34.70        66.90       40.65      35.72         36.72       29.72        59.92        70.74        69.30        65.32       52.60
       0.00         0.00        0.00       0.00          0.00        0.00         5.70         0.00         0.00         0.00        0.00
       1.00         0.06        0.95       0.19          0.13        0.75         0.47         0.00         0.00         0.00        0.00
    653.54     1,342.33    1,767.80     950.74      1,737.67    2,161.57     2,780.03     4,577.72     3,255.29     2,951.98    2,340.23

        0.00     220.00      709.28      232.65       251.74      307.57       484.00       589.00        400.00      358.75      568.81
       0.00       71.80      224.54      108.05       290.97      192.81       230.06       392.27        376.53      422.96      307.36
        2.87       3.72       16.77       23.66        20.38       40.59        18.80         0.00          0.00        0.00        0.00
       2.87     295.52      950.59      364.36       563.09      540.97       732.86       981.27        776.53      781.71      876.17

       5.00        0.00        0.00        0.00         0.00        0.00         0.00         0.00          0.00        0.00         0.00
      46.10       49.20       56.60       60.00        60.00      177.00        65.41        58.13        112.55       59.20         0.00
      85.52       11.16        4.22        0.04         0.03       16.90        27.13        29.73         66.68       56.33        22.04
      11.69       11.22        1.60        0.00         0.00        0.00         0.75         0.87          1.10        0.64         0.42
      61.50       63.30       47.10       41.80        53.80       44.25        76.79        81.48         65.00       99.35        65.00
       9.90       20.00       15.50        0.00         0.00        0.00         0.00         0.00          0.00        0.00         0.00
       0.00        0.00        0.00        0.00         0.00        0.00         0.20         0.00          0.00        0.00         0.00
       4.96        9.08       30.10       23.24         9.47       20.55        12.09         0.00          0.00        0.00         0.00
      14.14       34.58        0.00        0.00         0.00        0.00         0.00         0.00          0.00        0.00         0.00
       9.27        6.12       10.02       25.08         0.00        0.00         0.00         0.00          0.00        0.00         0.00
       0.00        0.00        0.00        0.00         0.00       22.40         0.00         0.00          0.00        0.00         0.00
    248.08      204.66      165.14      150.16       123.30      281.10       182.37       170.21        245.33      215.52        87.46

        0.00       0.00        0.00        0.00         2.50       14.30         25.20        34.40        37.20       59.00        58.70
       35.30     211.16      136.29      131.90       207.80      435.13      1,060.70     1,761.70       905.10    1,427.41     1,288.90
      35.30     211.16      136.29      131.90       210.30      449.43      1,085.90     1,796.10       942.30    1,486.41     1,347.60
   1,131.18    2,618.43    4,702.56    3,506.27    10,041.96    6,194.63    10,389.50    16,693.82    15,840.28    14,636.90    9,777.08




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2013                     203
APPENDICES




APPENDIX C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Completed Audits
SIGAR completed four audits during this reporting period.

COMPLETED SIGAR AUDITS AS OF OCTOBER 30, 2013
Report Identifier    Report Title                                                          Date Issued
SIGAR Audit 14-3     Afghan National Army: Combined Security Transition Command-           10/2013
                     Afghanistan Lacks Key Information on Inventory in Stock and
                     Requirements for Vehicle Spare Parts
SIGAR Audit 14-1     Afghan National Police Fuel Program: Concerted Efforts Needed to      10/2013
                     Strengthen Oversight of U.S. Funds
SIGAR Audit 13-18    Afghan National Security Forces: Additional Action Needed to          9/2013
                     Reduce Waste in $4.7 Billion Worth of Planned and Ongoing
                     Construction Projects
SIGAR Audit 13-17    USAID Continues Providing Millions of Dollars to the Ministry of      9/2013
                     Public Health Despite the Risk of Misuse of Funds

New Audits
SIGAR initiated two audits during this reporting period.

NEW SIGAR AUDITS AS OF OCTOBER 30, 2013
Audit Identifier    Project Title                                                          Date Initiated
SIGAR 087A          Women’s Initiatives                                                    8/2013
SIGAR 086A          Education Sector                                                       8/2013


Ongoing Audits
SIGAR had 10 audits in progress during this reporting period.

ONGOING SIGAR AUDITS AS OF OCTOBER 30, 2013
Audit Identifier       Project Title                                                       Date Initiated
SIGAR 085A             Mobile Strike Force Vehicles for the Afghan National Army           7/2013
SIGAR 083A             U.S. Agency for International Development (USAID) and               7/2013
                       Department of Homeland Security Customs and Border Protection
                       (CBP) Efforts to Develop and Strengthen Afghanistan’s Capacity to
                       Assess and Collect Customs Revenue
SIGAR 082A             U.S. Efforts to Develop and Strengthen the Capacity of              6/2013
                       Afghanistan’s Central Bank
SIGAR 078A             Accountability of Weapons and Equipment Provided to the Afghan      5/2013
                       National Security Forces (ANSF)
SIGAR 081A             Assessments of Afghan Ministerial Capacity                          4/2013
SIGAR 080A             U.S. Government Reconstruction Transition Plan                      3/2013




 204                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




ONGOING SIGAR AUDITS AS OF OCTOBER 30, 2013
Audit Identifier       Project Title                                                           Date Initiated
SIGAR 079A             Reliability of Afghan National Security Forces Personnel Data           2/2013
SIGAR 077A             USAID Assistance to Afghanistan’s Water Sector                          2/2013
SIGAR 073A             Training of Afghan Justice Sector Personnel                             12/2012
SIGAR 072A             Afghan National Security Literacy Training                              11/2012



Completed Financial Audit
SIGAR completed one financial audit during this reporting period.

COMPLETED SIGAR FINANCIAL AUDIT AS OF OCTOBER 30, 2013
Report Identifier   Report Title                                                               Date Issued
SIGAR Financial     USAID’s Afghanistan Rule of Law-Informal Project and USAID’s Services      10/2013
Audit 14-9          Under Program and Project Offices for Results Tracking Project: Audit of
                    Costs Incurred by Checchi & Company Consulting, Inc.

New Financial Audits
SIGAR initiated 13 financial audits during this reporting period.

NEW SIGAR FINANCIAL AUDITS AS OF OCTOBER 30, 2013
Audit Identifier       Project Title                                                           Date Initiated
                       USAID Task Order with Tetra Tech ARD for technical support to the
F-037                                                                                          9/2013
                       Rule of Law Stabilization Program–Formal
                       State Grant with Sayed Majidi Architecture and Design (SMAD) for
F-036                  project management services for architectural and engineering           9/2013
                       design of the new national museum in Kabul
                       State Cooperative Agreement and Grant with CETENA Group for
F-035                  support to the Afghan TV Content Production Manager project and         9/2013
                       the Nationwide Adult Literacy project
                       State Grants with the Mine Clearance Planning Agency to provide
F-034                                                                                          9/2013
                       support for the removal of land mines and unexploded ordnance
                       State Task Order with PAE for technical support to the Civilian
F-033                                                                                          9/2013
                       Police Program
                       USAID Task Order with IRG (now part of Engility) for technical sup-
F-032                                                                                          9/2013
                       port to the Afghan Clean Energy Program (ACEP)
                       USAID Cooperative Agreement with ICMA for technical support to
F-031                                                                                          9/2013
                       the Afghanistan Municipal Strengthening Program (AMSP)
                       USAID Task Order with Tetra Tech DPK for technical support to the
F-030                                                                                          9/2013
                       Rule of Law Stabilization Program–Formal
                       USAID Cooperative Agreement with CARE International for techni-
F-029                  cal support to the Partnership for Advancing Community-based            9/2013
                       Education in Afghanistan (PACE-A)
                       USAID Task Order with AECOM for technical support to the
F-028                                                                                          9/2013
                       Afghanistan Social Outreach Program (ASOP)
                       USAID Cooperative Agreement with PACT to strengthen the inde-
F-027                                                                                          9/2013
                       pendent media sector in Afghanistan
                       USAID Task Order with ARD (now part of Tetra Tech) to provide
F-026                  technical support to the Sustainable Water Supply and Sanitation        9/2013
                       (SWSS) project




REPORT TO THE UNITED STATES CONGRESS                I   OCTOBER 30, 2013                              205
APPENDICES




NEW SIGAR FINANCIAL AUDITS AS OF OCTOBER 30, 2013
Audit Identifier    Project Title                                                         Date Initiated
                    USAID Cooperative Agreement with IRD to implement the
F-025               Afghanistan Vouchers for Increased Production in Agriculture          9/2013
                    (AVIPA) program


Ongoing Financial Audits
SIGAR had 12 financial audits in progress during this reporting period.

ONGOING SIGAR FINANCIAL AUDITS AS OF OCTOBER 30, 2013
Audit Identifier    Project Title                                                         Date Initiated
                    USAID Contract with Chemonics for Afghanistan Stabilization
                    Initiative to Support Counterinsurgency Operations by Improving
F-024                                                                                     7/2013
                    Economic and Social Conditions in Afghanistan (Southern Region)
                    & Accelerated Sustainable Agriculture Program (ASAP)
                    USAID Contract with Development Alternatives Inc for Afghan
F-023               Small and Medium Enterprise Development (ASMED) Project &             7/2013
                    Afghanistan Stabilization Initiative
                    State Grants with Afghan Technical Consultants for the removal of
F-022                                                                                     4/2013
                    land mines and unexploded ordinance in Afghanistan
                    USAID Cooperative Agreement with World Vision for support to the
F-021                                                                                     4/2013
                    Initiative to Promote Afghan Civil Society (I-PACS)
                    USAID Cooperative Agreement with Counterpart International Inc. for
F-020                                                                                     4/2013
                    support to the Initiative to Promote Afghan Civil Society (I-PACS)
                    USAID Cooperative Agreement with World Council of Credit Unions
F-019               for support to the Rural Finance and Cooperative Development          4/2013
                    Program in Southern and Eastern Afghanistan
                    USAID Cooperative Agreement with CARE International for the Food
F-018                                                                                  4/2013
                    Insecurity Response for Urban Populations Program (FIRUP) in Kabul
                    USAID Cooperative Agreement with Mercy Corps for the Food
F-017               Insecurity Response for Urban Populations Program (FIRUP) in          4/2013
                    Northern Afghanistan
                    USAID Cooperative Agreement with JHPIEGO Corporation for support
F-016                                                                                     4/2013
                    to the Health Service Support Project (HSSP)
                    USAID Task Order and Cooperative Agreement with Creative
F-015               Associates International for support to the Basic Education Program   4/2013
                    in Afghanistan
                    USAID Cooperative Agreement with Central Asia Development Group
F-013               Inc. (CADG) for the Food Insecurity Response for Urban Populations    4/2013
                    Program (FIRUP) in Southern and Eastern Afghanistan
                    USAID Cooperative Agreement with International Relief and
F-012               Development Inc for the Strategic Provincial Roads Project in         12/2012
                    Southern and Eastern Afghanistan


Audit Alert Letters
SIGAR issued one Audit Alert Letter during this reporting period.

NEW SIGAR AUDIT ALERT LETTERS ISSUED AS OF OCTOBER 30, 2013
Letter Identifier   Letter Title                                                          Date Issued
Alert 14-2          Design Flaws at the Weesh-Chaman Border Crossing Point                9/2013




 206                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




SIGAR INSPECTIONS
Completed Inspections
SIGAR completed four inspections during this reporting period:

COMPLETED SIGAR INSPECTIONS AS OF OCTOBER 30, 2013
Report Identifier    Report Title                                                          Date Issued
SIGAR Inspection     Walayatti Medical Clinic: Facility Was Not Constructed According to   10/2013
14-10                Design Specifications and Has Never Been Used
SIGAR Inspection     Justice Center in Parwan Courthouse: Poor Oversight Contributed       10/2013
14-7                 to Failed Project and Action May Be Needed to Avoid Unnecessary
                     Costs to the U.S. Government
SIGAR Inspection     Gardez Hospital: After Almost Two Years, Construction Not             10/2013
14-6                 Yet Completed because of Poor Contractor Performance, and
                     Overpayments to the Contractor Need to Be Addressed by USAID
SIGAR Inspection     Archi District Police Headquarters: Extensive Mold, Lack of           10/2013
14-5                 Running Water, and Inoperable Electrical Systems Show Facilities
                     Are Not Being Sustained




SIGAR SPECIAL PROJECTS
Completed Special Projects
SIGAR completed two Special Project reports this reporting period.

COMPLETED SIGAR SPECIAL PROJECTS AS OF OCTOBER 30, 2013
Project Identifier   Project Title                                                         Date Initiated
SP-14-4              Oversight Access Inquiry                                              10/2013
SP-13-9              Anti-Corruption Efforts: A Strategic Plan and Mechanisms to Track     9/2013
                     Progress Are Needed in Fighting Corruption in Afghanistan




REPORT TO THE UNITED STATES CONGRESS             I   OCTOBER 30, 2013                             207
                                                        APPENDICES




                                                        APPENDIX D
                                                        SIGAR INVESTIGATIONS AND HOTLINE
                                                        SIGAR Investigations
FIGURE D.1                                              This quarter, SIGAR opened 64 new investigations and closed 47, bringing
                                                        the total number of open investigations to 306. Of the new investigations,
NEW SIGAR INVESTIGATIONS,
                                                        most involved procurement/contract fraud and public corruption, as
JULY 1–SEPTEMBER 30, 2013
                                                        shown in Figure D.1. Of the closed investigations, most were closed due to
                                                        unfounded allegations, as shown in Figure D.2.
                       Total: 64
                                                        FIGURE D.2

                             Public                     SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JULY 1–SEPTEMBER 30, 2013
                             Corruption
                             17
           Procurement/
           Contract
                                 Miscellaneous                        Unfounded Allegations                                                           31
           Fraud
                                 16
           25

                                                                   Lack of Investigative Merit                   8


                                   Theft                                       Administrative                4
                                   6

Source: SIGAR Investigations Directorate, 10/10/2013.                    Criminal Declination            2


                                                                                  Exoneration        1


                                                                                   Conviction        1

                                                                                                 0           5       10   15          20   25    30        35

                                                                                                                          Total: 47

                                                        SIGAR Investigations Directorate, 10/10/2013.




                                                          208                          SPECIAL INSPECTOR GENERAL          I    AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




SIGAR Hotline                                                                                                       FIGURE D.3
Of the 75 Hotline complaints received this quarter, most were received elec-
tronically, as shown in Figure D.3. Of these complaints, most were closed,                                          SOURCE OF SIGAR HOTLINE COMPLAINTS,
as shown in Figure D.4.                                                                                             JULY 1–SEPTEMBER 30, 2013

FIGURE D.4
                                                                                                                                           Total: 101
 STATUS OF SIGAR HOTLINE COMPLAINTS: JULY 1–SEPTEMBER 30, 2013


                     Closed                                                                    62                                       Electronic
                                                                                                                                        (email, web, or fax)
                                                                                                                                        97
              Under Review                                     29



Opened as an Investigation               10
                                                                                                                                                         Phone
                                                                                                                                                         4
                              0        10         20         30        40        50       60        70         80
                                                                    Total: 101
                                                                                                                    Source: SIGAR Investigations Directorate, 10/11/2013.
 Source: SIGAR Investigations Directorate, 10/11/2013.




Suspensions and Debarments From SIGAR Referrals
As of September 30, 2013, SIGAR’s referrals for suspension and debarment
have resulted in 61 suspensions and 94 debarments, as shown in chrono-
logical order in Table D.1.

TABLE D.1


 SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2013
 Suspensions                                                 Debarments
 Al-Watan Construction Company                               Farooqi, Hashmatullah
 Basirat Construction Firm                                   Hamid Lais Construction Company
 Brophy, Kenneth                                             Hamid Lais Group
 Naqibullah, Nadeem                                          Lodin, Rohullah Farooqi
 Rahman, Obaidur                                             Bennett & Fouch Associates LLC
 Campbell, Neil Patrick                                      Brandon, Gary
 Borcata, Raul A.                                            K5 Global
 Close, Jarred Lee                                           Ahmad, Noor
 Logistical Operations Worldwide                             Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                                      Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                                      Cannon, Justin
 Aaria Group Construction Company                            Constantino, April Anne
 Aaria Group                                                 Constantino, Dee
 Aaria Herai General Trading                                 Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                              Crilly, Braam
 Aaria Middle East                                           Drotleff, Christopher




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2013                            209
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JULY 1, 2013
Suspensions                                    Debarments
Aaria Middle East Company LLC                  Fil-Tech Engineering and Construction Company
Aaria Middle East Company Ltd.–Herat           Handa, Sidharth
Aaria Supplies Company LTD                     Jabak, Imad
Aaria Supply Services and Consultancy          Jamally, Rohullah
Aftech International                           Khalid, Mohammad
Aftech International Pvt, Ltd.                 Khan, Daro
Alam, Ahmed Farzad                             Mariano, April Anne Perez
Albahar Logistics                              McCabe, Elton Maurice
American Aaria Company LLC                     Mihalczo, John
American Aaria LLC                             Qasimi, Mohammed Indress
Barakzai, Nangialai                            Radhi, Mohammad Khalid
Formid Supply and Services                     Safi, Fazal Ahmed
Greenlight General Trading                     Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
Kabul Hackle Logistics Company                 Espinoza-Loor, Pedro Alfredo
Sharpway Logistics                             Campbell, Neil Patrick*
United States California Logistics Company     Navarro, Wesley
Yousef, Najeebullah                            Hazrati, Arash
Rahimi, Mohammad Edris                         Midfield International
Wooten, Philip Steven                          Moore, Robert G.
Domineck, Lavette Kaye                         Noori, Noor Alam, a.k.a. “Noor Alam"
Markwith, James                                Northern Reconstruction Organization
All Points International Distributors Inc.     Shamal Pamir Building and Road Construction
                                               Company
Cipolla, James                                 Wade, Desi D.
Hercules Global Logistics                      Blue Planet Logistics Services
Schroeder, Robert                              Mahmodi, Padres
AISC LLC                                       Mahmodi, Shikab
American International Security Corporation    Saber, Mohammed
Brothers, Richard S.                           Watson, Brian Erik
David A Young Construction & Renovation Inc.   All Points International Distributors, Inc
Force Direct Solutions LLC                     Hercules Global Logistics
Harris, Christopher                            Schroeder, Robert
Hernando County Holdings LLC                   Helmand Twincle Construction Company
Hide-A-Wreck LLC                               Waziri, Heward Omar
Panthers LLC                                   Zadran, Mohammad
Paper Mill Village Inc                         Afghan Mercury Construction Company, d.b.a. “Afghan
                                               Mercury Construction & Logistics Company”
Shrould Line LLC                               Mirzali Naseeb Construcion Company
Spada, Carol                                   Montes, Diyana
Taylor, Michael                                Naseeb, Mirzali
Welventure LLC                                 Robinson, Franz Martin*
World Wide Trainers LLC                        Smith, Nancy
Young, David                                   Sultani, Abdul Anas a.k.a. “Abdul Anas”
Espinoza, Mauricio                             Faqiri, Shir




  210                       SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JULY 1, 2013
 Suspensions                                                 Debarments
 Long, Tonya                                                 Hosmat, Haji
 Peace Thru Business                                         Jim Black Construction Company
 Pudenz, Adam Jeff Julias                                    Arya Ariana Aryayee Logistics, d.b.a. “AAA Logistics,”
                                                             d.b.a. “Somo Logistics”
                                                             Garst, Donald
                                                             Mukhtar, Abdul a.k.a. “Abdul Kubar”
                                                             Noori Mahgir Construction Company
                                                             Noori, Sherin Agha
                                                             Long, Tonya*
                                                             Isranuddin, Burhanuddin
                                                             Rahimi, Mohammad Edris
                                                             Matun, Navidullah, a.k.a. “Javid Ahmad”
                                                             Matun, Wahidullah
                                                             Navid Basir Construction Company
                                                             Navid Basir JV Gagar Baba Construction Company
                                                             NBCC & GBCC JV
                                                             Noori, Navid
                                                             Asmatullah, Mahmood, a.k.a. "Mahmood"
                                                             Khan, Gul
                                                             Khan, Solomon Sherdad, a.k.a. "Solomon"
                                                             Mursalin, Ikramullah, a.k.a. "Ikramullah"
                                                             Musafer, Naseem, a.k.a. "Naseem"
                                                             Gul, Ghanzi
                                                             Luqman Engineering Construction Company, d.b.a.
                                                             “Luqman Engineering”
                                                             Wazir, Khan
                                                             Gurvinder, Singh
                                                             Jahan, Shah
                                                             Shahim, Zakirullah a.k.a. “Zakrullah Shahim,” a.k.a.
                                                             “Zikrullah Shahim”
                                                             Alyas, Maiwand Ansunullah a.k.a. “Alyas Maiwand,”
                                                             a.k.a. “Maiwand Allias,” a.k.a. “Maiwand Aliass,” a.k.a.
                                                             “Engineer Maiwand Alyas”
                                                             BMCSC
                                                             Maiwand Haqmal Construction and Supply Company
                                                             New Riders Construction Company, d.b.a. “Riders
                                                             Construction Company, ” d.b.a. “New Riders
                                                             Construction and Services Company”
                                                             Riders Constructions, Services, Logistics and
                                                             Transportation Company
                                                             Riders Group of Companies
                                                             Domineck, Lavette Kaye
                                                             Markwith, James
                                                             Martinez, Rene
Note: * indicates previously in suspended status following criminal indictment. Final debarment imposed following
criminal conviction in U.S. District Court.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2013                                211
APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION   DEFINITION
4A             Assistance to Afghanistan's Anti-Corruption Authority
ABADE          Assistance in Building Afghanistan by Developing Enterprises
ABP            Afghan Border Police
ACE            Agricultural Credit Enhancement
AERCA          Afghanistan Electoral Reform and Civic Advocacy
ACU            Anti-Corruption Unit
ADB            Asian Development Bank
ADF            Agricultural Development Fund
AECOM          AECOM International Development Inc.
AFN            Afghanis (currency)
AGO            Attorney General’s Office
AGS            Afghan Geological Survey
AIF            Afghanistan Infrastructure Fund
AIHRC          Afghanistan Independent Human Rights Commission
AITF           Afghanistan Infrastructure Trust Fund
ALBA           Assistance to Legislative Bodies of Afghanistan
ALP            Afghan Local Police
AMDEP          Afghanistan Media Development and Empowerment Project
ANA            Afghan National Army
ANCOP          Afghan National Civil Order of Police
ANP            Afghan National Police
ANSF           Afghan National Security Forces
APPF           Afghan Public Protection Force
APRP           Afghan Peace and Reintegration Plan
ARTF           Afghanistan Reconstruction Trust Fund
ASF            Afghan Security Forces
ASFF           Afghanistan Security Forces Fund
AUAF           American University of Afghanistan
AUP            Afghan Uniform Police
BDS            Business Development Services
BELT           Basic Education, Literacy, and Technical-Vocational Education and Training
BSA            Bilateral Security Agreement
CENTCOM        U.S. Central Command
CERP           Commander’s Emergency Response Program
CHAMP          Commercial Horticulture and Agricultural Marketing Program
CIA            U.S. Central Intelligence Agency
CIGIE          Council of the Inspectors General on Integrity and Efficiency
CJIATF         Combined Joint Interagency Task Force
C-JTSCC        U.S. Central Command's Joint Theater Support Contracting Command
CM             Capability Milestone
CNJC           Counternarcotics Justice Center




 212              SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                              APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
CNPA              Counter-Narcotics Police of Afghanistan
CNPCI-W           China National Petroleum Corporation Watan energy Afghanistan, Ltd.
COR               Contracting Officer's Representative
CPC               Criminal Procedure Code
CSSP              Correctional System Support Program
CSTC-A            Combined Security Transition Command-Afghanistan
CUAT              Commander’s Unit Assessment Tool
DAB               Da Afghanistan Bank
DABS              Da Afghanistan Breshna Sherkat
DCC               District Coordination Council
DCIS              Defense Criminal Investigative Service (U.S.)
DEA               Drug Enforcement Administration (U.S.)
DOD               Department of Defense (U.S.)
DOD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DOD OIG           Department of Defense Office of Inspector General
DOJ               Department of Justice (U.S.)
ECC               Electoral Complaints Commission
ECF               Extended Credit Facility
EMIS              Ministry of Education's Information Management System (Afghan)
ESF               Economic Support Fund
EVAW              Elimination of Violence Against Women law
FATF              Financial Action Task Force
FBI               Federal Bureau of Investigation (U.S.)
FOB               Forward Operating Base
Futures Group     Futures Group International Llc.
FY                Fiscal Year
GAGAS             Generally Accepted Government Auditing Standards
GAO               Government Accountability Office (U.S.)
GDP               Gross Domestic Product
GDPDC             General Directorate of Prisons and Detention Centers
GLE               Governor-Led Eradication
GPI               Good Performer's Initiative
GSCC              General Support Contracting Command
HEP               Higher Education Program
HOO               High Office of Oversight for Anti-Corruption (Afghan)
HPP               Health Policy Project
ICC               International Coordinating Committee
ICG               International Crisis Group
IDEA-NEW          Incentives Driving Economic Alternatives-North, East, and West
IDLG              Independent Directorate of Local Governance (Afghan)
IEC               Independent Election Commission (Afghan)
IED               Improvised Explosive Device
IJC               International Security Assistance Force Joint Command
IMF               International Monetary Fund
INCLE             International Narcotics Control and Law Enforcement (U.S)
INL               Bureau of International Narcotics and Law Enforcement Affairs (U.S.)




REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2013                            213
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
IOCC           Interagency Operations Coordination Center
IPACS          Initiative to Promote Afghan Civil Society
IRD            International Relief and Development Inc.
ISAF           International Security Assistance Force
JCMB           Joint Coordination and Monitoring Board
JTTP           Justice Training Transition Program
KCI            Kabul City Initiative
KHPP           Kandahar-Helmand Power Project
LMG            Leadership, Management, Governance Project
LOTFA          Law and Order Trust Fund for Afghanistan
MACU           Military Anti-Corruption Unit
MAIL           Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCC            Metallurgical Corporation of China
MCN            Ministry of Counternarcotics (Afghan)
MCTF           Major Crimes Task Force
MEC            Monitoring and Evaluation Committee (Afghan)
MIDAS          Mining Investment and Development for Afghan Sustainability
MOD            Ministry of Defense (Afghan)
MOF            Ministry of Finance (Afghan)
MOI            Ministry of Interior (Afghan)
MOMP           Ministry of Mines and Petroleum (Afghan)
MOPH           Ministry of Public Health (Afghan)
MORE           Ministry of Women's Affairs Organizational Restructuring and Empowerment Project
MOTCA          Ministry of Transport and Civil Aviation (Afghan)
MOWA           Ministry of Women's Affairs (Afghan)
MPU            Afghan Mines Protection Units
MRRD           Ministry of Rural Rehabilitation and Development
NAI            Nai Supporting Open Media in Afghanistan
NATO           North Atlantic Treaty Organization
NDAA           National Defense Authorization Act
NEPS           Northeast Power System
NGO            Nongovernmental Organization
NHRI           National Human Rights Institution
NKB            New Kabul Bank
NPP            National Priority Program
NTAP           National Transparency and Accountability Program
NTM-A          NATO Training Mission-Afghanistan
O&M            Operations and Maintenance
OCO            Overseas Contingency Operations
OHCHR          Office of the High Commissioner for Human Rights
OMB            Office of Management and Budget
OSD            Office of the Secretary of Defense
PBGF           Performance Based Governance Fund
PCH            Partnership Contracts for Health Services
PGO            Provincial governor's office
PJST           Provincial Joint Secretariat Teams




 214              SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                              APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
PM/WRA            Bureau of Political-Military Affairs-Office of Weapons Removal and Abatement (U.S.)
PPP               Public-Private Partnership
PROMOTE           Promoting Gender Equality in the National Priority Program
PSC               Private Security Contractor
PTEC              Power Transmission Expansion and Connectivity
RAMP-UP           Regional Afghan Municipalities Program for Urban Populations
RASR              Regional Command ANSF Assessment Report
RC                Recurrent Cost
RLS-F             Rule of Law Stabilization-Formal
RLS-I             Rule of Law Stabilization-Informal
ROLFF-A           Rule of Law Field Force-Afghanistan (USFOR-A)
SCC               Special Cases Committee (Afghan)
SEPS              Southeast Power System
SGDP              Sheberghan Gas Development Program
SHAHAR            Strengthening Hubs for Afghanistan Resilience
SIGAR             Special Inspector General for Afghanistan Reconstruction
SIKA              Stability in Key Areas
SMW               Special Mission Wing (Afghan)
S-RAD             Southern Regional Agricultural Development Program
State OIG         Department of State Office of the Inspector General
STEP-UP           Strengthening Tertiary Education Program-University Partnerships
SY                Solar Year
TFBSO             Task Force for Business and Stability Operations in Afghanistan
TMR               Transportation Movement Request
TVET              Technical Vocational Education and Training
UN                United Nations
UNAMA             United Nations Assistance Mission in Afghanistan
UNDP              United Nations Development Programme
UNODC             UN Office on Drugs and Crime
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USACE-TAN         USACE Afghanistan Engineer District North
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of the Inspector General
USFOR-A           U.S. Forces-Afghanistan
USGS              United States Geological Survey
VSO               Village Stability Operations
VVRC              Vendor Vetting Reachback Cell




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2013                            215
                                                          ENDNOTES




1	  On September 23, 2013, Special IG John Sopko wrote on behalf of              National Security, Homeland Defense, and Foreign Operations,
    SIGAR to Secretary of State John Kerry to commend Herat RSO                  Committee on Oversight and Government Reform, House of
    Paul H. Davies and Assistant RSOs Anthony D. Ragan and Shawn P.              Representatives, 2/13/2013, pp. 4–5.
    Stewart for “outstanding performance.” Sopko observed, “not only       20	   The White House Office of the Press Secretary, “Remarks by the
    did they show extreme valor in risking their own lives that day, but         President Announcing the Fiscal Year 2014 Budget,” 4/10/2013;
    the preparations they took to improve security at the consulate in           OMB, response to SIGAR data call, 7/19/2013; OSD Comptroller,
    the months leading up to the attack undoubtedly saved lives.”                “Department of Defense Budget Amendment to the Fiscal Year
2	  United Nations Security Council news release, “Security                      2014 President’s Budget Request for Overseas Contingency
    Council Extends Authorization for International Security                     Operations (OCO): Operation and Maintenance Programs (O-1)
    Assistance Force In Afghanistan, Adopting Resolution 2120                    Revolving and Management Funds (RF-1),” 5/2013, pp. 1–3.
    (2013),” 10/11/2013.                                                   21	   The White House Office of the Press Secretary, “Statement by
3	  DOD, report to Congress, Progress Toward Security and                        the President” 9/30/2013.
    Stability in Afghanistan, December 2012, p. 2. This periodic           22	   See Appendix B of this report.
    report is known as the “1230 report,” for the section of the           23	   DOD/State, U.S. Civil-Military Strategic Framework for
    National Defense Authorization Act that requires it.                         Afghanistan: Revision 2, 8/2013, pp. 16–17.
4	  Unless otherwise noted, information in this section was pro-           24	   P.L. 111-32, 6/24/2009.
    vided by SIGAR’s Investigations Directorate.                           25	   DOD, response to SIGAR vetting, 7/20/2009.
5	  FBI fact sheet on IAFIS, undated, accessed October 20, 2013.           26	   See Appendix B of this report.
6	  Statement of Kevin L. Perkins, Assistant Director, Criminal            27	   DOD, response to SIGAR data call, 10/9/2013.
    Investigative Division, FBI, before the Commission on Wartime          28	   DOD, responses to SIGAR data call, 10/9/2013 and 7/22/2013.
    Contracting in Iraq and Afghanistan, Washington, DC, May 24,           29	   DOD OIG, Distribution of Funds and the Validity of
    2010, accessed 10/13/2013.                                                   Obligations for the Management of the Afghanistan Security
7	  Associated Press, “La. man sentenced in Afghanistan kickback                 Forces Fund - Phase I, Report No. D-2008-012, 11/5/2007, p. 2.
    scheme,” 8/22/2013, accessed 10/25/2013.                               30	   DOD, response to SIGAR data call, 10/9/2013.
8	  Congressional Record—Senate, “Authorizing Document                     31	   DOD, response to SIGAR data call, 7/22/2013.
    Production,” re S. Res. 158, 5/23/2013, p. S3878.                      32	   DOD, “Commanders’ Emergency Response Program (CERP),”
9	SIGAR Quarterly Report to the United States Congress, July 30,                 DOD Financial Management Regulation Vol. 12, Ch. 27, 1/2009,
    2013, p. 66.                                                                 p. 27-3.
10	 DOJ news release, “Former Department of Defense Contractor             33	   USFOR-A, “Commander’s Emergency Response Program (CERP)
    Sentenced to 30 Months in Prison for Smuggling Kickback                      SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74, 12/23/2011.
    Proceeds from Afghanistan to the United States,” 2/12/2013.            34	   See Appendix B of this report.
11	 Basel Institute on Governance (Switzerland), “The Basel                35	   DOD, response to SIGAR data call, 10/23/2013.
    Institute on Governance publishes the 2013 edition of the Basel        36	   U.S. Senate Committee on Armed Services, press release,
    AML [Anti-Money Laundering] Index,” accessed 10/14/2013.                     “Senate Passes Ike Skelton National Defense Authorization Act
12	 See, for example, Genny Ngai, “Money Laundering,” American                   for Fiscal Year 2011,” 12/22/2010.
    Criminal Law Review 49:2 (2012), pp. 1011–1019.                        37	   See Appendix B of this report.
13	 DOJ news release, “Former Army Reserve Captain Sentenced               38	   DOD, response to SIGAR data call, 7/22/2013; DFAS, “AR(M)
    to 120 Months in Prison for Soliciting $1.3 Million in Bribes and            1002 Appropriation Status by FY Program and Subaccounts,”
    Conspiring to Traffic Heroin, 9/23/2011.                                     9/17/2013.
14	 SIGAR Investigations Directorate, internal e-mail case sum-            39	   TFBSO, “About TFBSO,” accessed 10/20/2011; DOD, response
    mary, 10/22/2013.                                                            to SIGAR data call, 7/22/2011.
15	 Estimate based on DOD information provided to SIGAR.                   40	   See Appendix B of this report.
16	 CENTCOM quarterly census, “Contractor Support of U.S.                  41	   DOD, response to SIGAR data call, 10/1/2013.
    Operations in the USCENTCOM Area of Responsibility to                  42	   DOD, “Drug Interdiction and Counter-Drug Activities,
    Include Iraq and Afghanistan,” accessed 10/13/2013.                          Defense FY 2009 Supplemental Request Drug Interdiction and
17	 SIGAR news release, “SIGAR Special Agent Testifies in Afghan                 Counterdrug Activities,” accessed 4/13/2010.
    Criminal Court,” 4/8/2013.                                             43	   DOD OIG, Independent Auditor’s Report on the DOD FY
18	 Cornell University School of Law, “18 USC §3181 Code list–                   2011 Detailed Accounting Report of the Funds Obligated for
    Scope and limitation of chapter,” accessed 10/14/2013.                       National Drug Control Program Activities, Report No. DODIG-
19	 In addition to straightforward financial transfers, direct                   2012-04, 1/30/2012.
    assistance can take the form of, for example, USAID bilateral          44	   DOD, response to SIGAR data call, 9/30/2013.
    agreements with negotiated conditions and contributions to             45	   USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p.6.
    the World Bank-administered Afghanistan Reconstruction                 46	   USAID, response to SIGAR data call 10/10/2013; State, response
    Trust Fund, and DOD contributions to the United Nations                      to SIGAR data call, 6/27/2013.
    Development Programme-administered Law and Order Trust                 47	   USAID, responses to SIGAR data call, 10/10/2013 and 7/17/2013.
    Fund for Afghanistan. See SIGAR Testimony SIGAR-13-5T,                 48	   State, response to SIGAR data call, 10/13/2009.
    “Direct Assistance to the Afghan Government Presents Risks,”           49	   State, response to SIGAR data call, 10/18/2013 and 6/27/2013.
    Statement of John F. Sopko Before the Subcommittee on                  50	   State, responses to SIGAR data call, 10/18/2013 and 7/15/2013.




                                                    216                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




51	 SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.    80	  The New York Times, “Afghan Envoy to Pakistan is Appointed
52	 World Bank, “ARTF: Administrator’s Report on Financial Status             Interior Minister,” 9/1/2013, accessed 10/3/2013; Tolo News,
    as of September 22, 2013 (end of 9th month of FY 1392),” p. 5.            “Omer Daudzai Wins ‘Vote of Confidence,’ Appointed as Interior
53	 World Bank, “ARTF: Administrator’s Report on Financial Status             Minister,” 9/25/2013, accessed 10/3/2013.
    as of September 22, 2013 (end of 9th month of FY 1392),” p. 1.       81	 VOA, “Afghan Interior Minister Loses No-Confidence Vote,”
54	 World Bank, “ARTF: Administrator’s Report on Financial Status             7/22/2013, accessed 10/3/2013.
    as of September 22, 2013 (end of 9th month of FY 1392),” p. 5.       82	 DW, “Germany Forces Hand Over Command of Kunduz Camp
55	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,              to Afghans,” 10/6/2013, accessed 10/9/2013.
    p. 16.                                                               83	 ISAF, Key Facts and Figures, 8/1/2013.
56	 World Bank, “ARTF: Administrator’s Report on Financial Status        84	 DW, “Kunduz Locals Fear Exit of German Military,” 10/6/2013,
    as of September 22, 2013 (end of 9th month of FY 1392),” p. 7.            accessed 10/9/2013.
57	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,         85	 DOD, response to SIGAR data call, 10/1/2013.
    p. 16.                                                               86	 DOD, response to SIGAR data call, 10/1/2013.
58	 World Bank, “ARTF: Administrator’s Report on Financial Status        87	 DOD, response to SIGAR data call, 10/1/2013.
    as of September 22, 2013 (end of 9th month of FY 1392),” p. 7.       88	 DOD/State, U.S. Civil-Military Strategic Framework for
59	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.          Afghanistan: Revision 2, 8/2013, p. 1.
60	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2013,”            89	 DOD/State, U.S. Civil-Military Strategic Framework for
    8/11/2013, p. 66; SIGAR analysis of UNDP’s quarterly and annual           Afghanistan: Revision 2, 8/2013, p. 2.
    LOTFA reports, 7/23/2013.                                            90	 DOD/State, U.S. Civil-Military Strategic Framework for
61	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2013,”                 Afghanistan: Revision 2, 8/2013, p. 6.
    8/11/2013, p. 67; SIGAR analysis of UNDP’s quarterly and annual      91	 DOD/State, U.S. Civil-Military Strategic Framework for
    LOTFA reports, 7/23/2013.                                                 Afghanistan: Revision 2, 8/2013, p. 5.
62	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2013,”            92	 IJC, response to SIGAR data call, 9/30/2013; SIGAR, Audit
    8/11/2013, p. 66; SIGAR analysis of UNDP’s quarterly and annual           Report 10-11, Actions Needed to Improve the Reliability of
    LOTFA reports, 7/23/2013.                                                 Afghan Security Force Assessments, 6/29/2010, p. 2.
63	 DOD, response to SIGAR data call, 10/9/2013.                         93	 SIGAR, Audit Report 10-11, Actions Needed to Improve the
64	 The Guardian, “Afghan forces suffering too many casualties,               Reliability of Afghan Security Force Assessments, 6/29/2010, p. ii.
    says top NATO commander,” 9/2/2013, accessed 10/3/2013.              94	 SIGAR, Audit Report 10-11, Actions Needed to Improve the
65	 The Guardian, “Afghan forces suffering too many casualties,               Reliability of Afghan Security Force Assessments, 6/29/2010, p. ii.
    says top NATO commander,” 9/2/2013, accessed 10/3/2013.              95	 UN Security Council, The situation in Afghanistan and its
66	 Thomas Reuters Foundation, “Afghan police deaths double as                implications for international peace and security, 9/6/2013, p. 6.
    foreign troops withdraw,” 9/2/2013, accessed 10/3/2013; CNN,         96	 UN Security Council, The situation in Afghanistan and its
    “Afghan police deaths double as international troops exit,”               implications for international peace and security, 9/6/2013, p. 6.
    9/3/2013, accessed 10/3/2013.                                        97	 VOA, “Taliban Militants Attack U.S. Consulate in Afghanistan,”
67	 DOD, News Transcript, “Department of Defense Press Briefing               9/13/2013.
    with Gen. Dunford from the Pentagon Briefing Room,”                  98	 Department of State, Daily Press Briefing, 9/13/2013.
    6/18/2013, accessed 10/3/2013.                                       99	 UNAMA, Afghanistan Mid-year Report 2013: Protection of
68	DOD, Progress Toward Security and Stability in Afghanistan,                Civilians in Armed Conflict, 7/31/2013, p. 1.
    7/2013, p. 1.                                                        100	 CENTCOM, response to SIGAR data call, 10/1/2013.
69	DOD, Progress Toward Security and Stability in Afghanistan,           101	 ISAF, Key Facts and Figures, 10/1/2013.
    7/2013, p. 10.                                                       102	 DOD, Operation Enduring Freedom U.S. Casualty Status,
70	 DOD, response to SIGAR data call, 10/3/2013.                              10/1/2013.
71	 UN Security Council, The situation in Afghanistan and its            103	 CSTC-A, response to SIGAR data call, 10/1/2013.
    implications for international peace and security, 9/6/2013, p. 5.   104	DOD, Progress Toward Security and Stability in Afghanistan,
72	 UN Security Council, The situation in Afghanistan and its                 4/2012, p. 4.
    implications for international peace and security, 9/6/2013, p. 5.   105	DOD, Progress Toward Security and Stability in Afghanistan,
73	 UN Security Council, The situation in Afghanistan and its                 12/2012, p. 56.
    implications for international peace and security, 9/6/2013, p. 5.   106	 USFOR-A, response to SIGAR data call, 10/1/2013.
74	 CSTC-A, response to SIGAR data call, 10/1/2013.                      107	 DOD, response to SIGAR data call, 10/1/2013.
75	 CSTC-A, response to SIGAR data call, 10/1/2013.                      108	 DOD, response to SIGAR data call, 10/1/2013.
76	 Department of State, “Kerry Says U.S. Seeks Enduring                 109	 UN Security Council, The situation in Afghanistan and its
    Partnership with Afghanistan,” 10/15/2013.                                implications for international peace and security, 9/6/2013, p. 5.
77	SIGAR, Quarterly Report to the United States Congress,                110	 DOD, response to SIGAR data call, 10/1/2013.
    7/30/2013, p. 94.                                                    111	 DOD, response to SIGAR data call, 10/1/2013.
78	 Associated Press, “Summary of Obama Interview with                   112	 Ariana News, “Senators Criticize Functions of Local Police,”
    Associated Press,” 10/6/2013, accessed 10/8/2013.                         10/7/2013.
79	 Radio Free Europe/Radio Liberty, “Karzai to Call Loya Jirga          113	SIGAR, Quarterly Report to the United States Congress,
    Over Security Pact,” 10/8/2013, accessed 10/8/2013.                       4/30/2013, p. 90.




REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2013                     217
                                                         ENDNOTES




114	SIGAR, Quarterly Report to the United States Congress,                154	 DOD OIG, Statement of Ms. Lynne M. Halbrooks, Principal
     4/30/2011, p. 55.                                                         Deputy Inspector General, Department of Defence Inspector
115	SIGAR, Quarterly Report to the United States Congress,                     General, before the Committee on Oversight and Government
     10/30/2012, p. 87.                                                        Reform, 3/19/2013, p. 12.
116	 CSTC-A, response to SIGAR data call, 10/1/2013.                      155	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.
117	 CSTC-A, response to SIGAR data call, 10/1/2013.                      156	 CSTC-A, response to SIGAR data call, 10/1/2013.
118	 CSTC-A, response to SIGAR data call, 10/1/2013.                      157	 DOD, “Contracts for February 27, 2013,” 2/27/2013.
119	 IJC, response to SIGAR data call, 9/30/2013.                         158	 SIGAR Audit Report 13-13, Afghan Special Mission Wing: DOD
120	 IJC, response to SIGAR data call, 9/30/2013.                              Moving Forward with $771.8 Million Purchase of Aircraft that
121	 IJC, response to SIGAR data call, 9/30/2013.                              the Afghans Cannot Operate and Maintain, 6/28/2013, p. 2.
122	 IJC, response to SIGAR data call, 9/30/2013.                         159	 CSTC-A, responses to SIGAR data call, 10/1/2013.
123	 IJC, response to SIGAR data call, 6/27/2013.                         160	 DOD, response to SIGAR data call, 10/9/2013.
124	 IJC, response to SIGAR data call, 9/30/2013; The RASR                161	 CSTC-A, response to SIGAR data call, 10/1/2012.
     Assessment provided by IJC showed 64 ANA units were                  162	 CSTC-A, response to SIGAR data call, 10/1/2012.
     assessed by the RASR in September 2013. However, all units           163	 DOD, response to SIGAR data call, 10/9/2013.
     assessed by the RASR added up to 72 units including those            164	 CSTC-A, response to SIGAR data call, 10/1/2013.
     awaiting to be fielded and 65 units excluding those awaiting to      165	 CSTC-A, response to SIGAR data call, 10/1/2013.
     be fielded. SIGAR will seek clarification on the discrepancy.        166	 CSTC-A, response to SIGAR data call, 10/12/2012.
125	 IJC, response to SIGAR data call, 9/30/2013.                         167	 CSTC-A, response to SIGAR data call, 10/12/2012.
126	 IJC, response to SIGAR data call, 9/30/2013.                         168	 CSTC-A, response to SIGAR data call, 9/30/2013.
127	 The RASR Assessment provided by IJC showed 64 ANA                    169	 CSTC-A, response to SIGAR data call, 9/30/2013.
     units were assessed by the RASR in September 2013.                   170	 CSTC-A, response to SIGAR data call, 7/2/2013.
     However, all units assessed by the RASR added up to 72               171	 CSTC-A, response to SIGAR data call, 10/1/2013.
     units including those awaiting to be fielded and 65 units            172	 CSTC-A, response to SIGAR data call, 7/2/2013.
     excluding those awaiting to be fielded. SIGAR will seek              173	 CSTC-A, response to SIGAR data call, 10/1/2013.
     clarification on the discrepancy; IJC, response to SIGAR             174	 CSTC-A, response to SIGAR data call, 10/1/2013.
     data call, 9/30/2013.                                                175	 CSTC-A, response to SIGAR data call, 10/1/2013.
128	 UN Security Council, The situation in Afghanistan and its            176	 CSTC-A, response to SIGAR data call, 10/1/2013.
     implications for international peace and security, 9/6/2013, p. 5.   177	 CSTC-A, response to SIGAR data call, 10/1/2013.
129	 NTM-A, “MOD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.                178	 DOD, response to SIGAR data call, 10/9/2013.
130	 CSTC-A, response to SIGAR vetting, 7/15/2013; CSTC-A,                179	 CSTC-A, response to SIGAR data call, 10/1/2013.
     response to SIGAR data call, 10/1/2013.                              180	 DOD, response to SIGAR data call, 10/9/2013.
131	 CSTC-A, response to SIGAR vetting, 7/15/2013; CSTC-A,                181	 CSTC-A, response to SIGAR data call, 10/1/2013.
     response to SIGAR data call, 10/1/2013.                              182	 CSTC-A, response to SIGAR data call, 10/1/2013.
132	 CSTC-A, response to SIGAR vetting, 7/15/2013.                        183	 DOD, response to SIGAR data call, 10/9/2013.
133	 CSTC-A, response to SIGAR vetting, 7/15/2013; CSTC-A,                184	 CSTC-A, response to SIGAR data call, 10/1/2013.
     response to SIGAR data call, 10/1/2013.                              185	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.
134	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.        186	 CSTC-A, response to SIGAR data call, 10/1/2013.
135	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.        187	 CSTC-A, response to SIGAR data call, 7/2/2013.
136	 DOD, response to SIGAR data call, 10/9/2013.                         188	 CSTC-A, response to SIGAR data call, 10/1/2013.
137	 CSTC-A, response to SIGAR data call, 10/1/2013.                      189	 DOD, response to SIGAR data call, 10/9/2013.
138	 DOD, response to SIGAR data call, 10/9/2013.                         190	 CSTC-A, response to SIGAR data call, 10/1/2013.
139	 CSTC-A, response to SIGAR data call, 10/1/2013.                      191	 CSTC-A, response to SIGAR data call, 10/1/2013.
140	 CSTC-A, responses to SIGAR data call, 10/1/2013.                     192	 DOD, response to SIGAR data call, 10/9/2013.
141	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.         193	 CSTC-A, response to SIGAR data call, 10/1/2013.
142	 CSTC-A, responses to SIGAR data call, 10/1/2013.                     194	 CSTC-A, response to SIGAR data call, 10/1/2013.
143	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.         195	 CSTC-A, response to SIGAR data call, 10/1/2013.
144	 DOD, response to SIGAR data call, 10/9/2013.                         196	 CSTC-A, response to SIGAR data call, 10/12/2012.
145	 CSTC-A, response to SIGAR data call, 10/1/2013.                      197	 CSTC-A, response to SIGAR data call, 10/1/2013.
146	 CSTC-A, response to SIGAR data call, 4/1/2013.                       198	 CSTC-A, response to SIGAR data call, 10/1/2013.
147	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.         199	 CSTC-A, response to SIGAR data call, 7/2/2013.
148	 CSTC-A, response to SIGAR data call, 10/1/2013.                      200	 CSTC-A, response to SIGAR data call, 10/1/2013.
149	 CSTC-A, responses to SIGAR data call, 7/2/2013.                      201	 CSTC-A, response to SIGAR data call, 10/1/2013.
150	 CSTC-A, response to SIGAR data call, 10/1/2013.                      202	 CSTC-A, response to SIGAR data call, 10/1/2013.
151	 CSTC-A, response to SIGAR data call, 10/1/2013.                      203	 CSTC-A, response to SIGAR data call, 10/1/2013.
152	 CSTC-A, response to SIGAR data call, 10/1/2013.                      204	 CSTC-A, response to SIGAR data call, 10/1/2013.
153	 CSTC-A, response to SIGAR data call, 7/6/2013; CSTC-A,               205	 CSTC-A, response to SIGAR data call, 10/1/2013.
     response to SIGAR vetting, 7/11/2013.                                206	 CSTC-A, response to SIGAR data call, 10/1/2013.




                                                   218                    SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




207	 CSTC-A, response to SIGAR data call, 10/1/2013.                              Preliminary List of 2014 Presidential and Provincial Council
208	 State, PM/WRA, response to SIGAR data call, 10/1/2013.                       Election Candidates,” 10/22/2013, accessed 10/23/2013.
209	 State, PM/WRA, response to SIGAR data call, 10/1/2013.                246	   ToloNews, “Selection Committee Member Reacts Against the
210	 State, PM/WRA, response to SIGAR data call, 10/1/2013.                       Selection Process for IEC Membership,” 7/30/2013, accessed
211	 State, PM/WRA, response to SIGAR data call, 10/1/2013.                       9/17/2013.
212	 UNODC, World Drug Report 2013, p. x.                                  247	   Office of the UN High Commissioner for Human Rights,
213	 UNODC, Afghanistan Opium Survey 2012, 5/2013, p. 9.                          “Opening remarks by UN High Commissioner for Human
214	 World Bank, World Bank Group - Afghanistan Partnership:                      Rights Navi Pillay at a press conference during her visit to
     Country Program Snapshot, 8/29/2013; World Bank, Data:                       Afghanistan,” 9/17/2013, accessed 9/17/2013.
     Afghanistan, accessed 10/21/2013; UNODC, Afghanistan Opium            248	   DOD/State, U.S. Civil-Military Strategic Framework for
     Survey 2012, 5/2013, pp. 9, 13.                                              Afghanistan: Revision 2, 8/2013, p. iii.
215	 World Bank, World Bank Group - Afghanistan Partnership:               249	   BBC News, “Grim consequences of Afghan Governor Jamal’s
     Country Program Snapshot, 8/29/2013.                                         death,” 10/15/2013, accessed 10/16/2013.
216	 UNODC, Afghanistan Opium Survey 2012, 5/2013, pp. 9, 13.              250	   BBC News, “Afghan politician defects to Taliban,” 9/19/2013,
217	DOD, Progress Toward Security and Stability in Afghanistan,                   accessed 10/3/2013.
     4/2010, p. 9.                                                         251	   Independent Election Commission of Afghanistan, “Timeline of
218	 DOD, response to SIGAR data call, 9/30/2013; State response to               2014 Presidential and Provincial Council Elections,” accessed
     SIGAR data call, 10/18/2013.                                                 10/15/2013.
219	 State, INL, response to SIGAR data call, 6/27/2013.                   252	   ToloNews, “Complete List of Registered Presidential Tickets,”
220	 DOD, response to SIGAR data call, 10/1/2013; CSTC-A, response                10/7/2013, accessed 10/7/2013; Tolo News, “IEC Announces
     to SIGAR vetting, 10/15/2013.                                                Preliminary List of 2014 Presidential Candidates,” 10/22/2013,
221	 UNODC, Afghanistan Opium Survey 2012, 5/2013, p. 13.                         accessed 10/22/2013; Independent Election Commission
222	 UNODC, Afghanistan Opium Survey 2012, 5/2013, p. 13.                         Secretariat, “IEC Press Release on Announcement of
223	 State, INL, response to SIGAR data call, 9/30/2013.                          Preliminary List of 2014 Presidential and Provincial Council
224	 State response to SIGAR data call, 10/18/2013.                               Election Candidates,” 10/22/2013, accessed 10/23/2013.
225	 State, INL, response to SIGAR data call, 9/30/2013.                   253	   Radio Free Europe, “Registration Ends For Afghan Presidential
226	 State, INL, response to SIGAR data call, 9/30/2013.                          Hopefuls,” 10/6/2013, accessed 10/7/2013; The Wall Street
227	 State response to SIGAR data call, 10/18/2013.                               Journal, “Former Islamist Warlord Vies for Afghan Presidency,”
228	 State, INL, response to SIGAR data call, 9/30/2013.                          10/3/2013, accessed 10/4/2013; Embassy of Afghanistan in
229	 State, INL, response to SIGAR data call, 9/30/2013.                          Tokyo, “Cabinet Ministers,” accessed 10/22/2013.
230	 State, INL, response to SIGAR data call, 9/30/2013.                   254	   ToloNews, “Presidential Candidates to Resign from Official
231	 DOD, response to SIGAR data call, 10/1/2013.                                 Posts,” 02/12/2013, accessed 10/21/2013.
232	 DOD, response to SIGAR data call, 10/1/2013.                          255	   Human Rights Watch, “Afghanistan: Rights Abusers Join
233	 DOD, response to SIGAR data call, 10/1/2013.                                 Presidential Race,” 10/9/2013, accessed 10/10/2013.
234	 CSTC-A, response to SIGAR vetting, 10/15/2013.                        256	   The Washington Post, “Afghan commission disqualifies 16 can-
235	 DOD, response to SIGAR data call, 10/1/2013.                                 didates from running for president in April election,” 10/22/2013,
236	 DOD, response to SIGAR data call, 10/1/2013.                                 accessed 10/22/2013.
237	 DOD, response to SIGAR data call, 10/1/2013.                          257	   ToloNews, “ECC to Start Scrutinizing Registered Candidates’
238	 CSTC-A, response to SIGAR data call, 10/1/2013.                              on Monday,” 10/6/2013, accessed 10/7/2013; Radio Free
239	 DOD, response to SIGAR data call, 10/1/2013.                                 Europe, “Registration Ends For Afghan Presidential Hopefuls,”
240	 DOD, response to SIGAR data call, 10/1/2013.                                 10/6/2013, accessed 10/7/2013.
241	 DOD, response to SIGAR data call, 10/1/2013.                          258	   ToloNews, “2327 Candidates, 240 Women Registered for Provincial
242	 See Appendix B of this report.                                               Elections,” 10/6/2013, accessed 10/7/2013; Independent Election
243	 Radio Free Europe, “Registration Ends For Afghan Presidential                Commission Secretariat, “IEC Press Release on Announcement
     Hopefuls,” 10/6/2013, accessed 10/7/2013; The Wall Street                    of Preliminary List of 2014 Presidential and Provincial Council
     Journal, “Former Islamist Warlord Vies for Afghan Presidency,”               Election Candidates,” 10/22/2013, accessed 10/23/2013.
     10/3/2013, accessed 10/4/2013.                                        259	   State, response to SIGAR data call, 9/26/2013.
244	 ToloNews, “Complete List of Registered Presidential                   260	   Tokyo Mutual Accountability Framework, 7/8/2012, accessed
     Tickets,” 10/7/2013, accessed 10/7/2013; Independent Election                10/4/2013.
     Commission Secretariat, “IEC Press Release on Announcement            261	   State, “Current U.S. Policy in Afghanistan and Pakistan,”
     of Preliminary List of 2014 Presidential and Provincial Council              9/16/2012, accessed 9/17/2013.
     Election Candidates,” 10/22/2013, accessed 10/23/2013.                262	   UN, response to SIGAR vetting, 10/16/2013.
245	 Tolo News, “IEC Announces Preliminary List of 2014                    263	   State, response to SIGAR data call, 9/26/2013.
     Presidential Candidates,” 10/22/2013, accessed 10/22/2013;            264	   USAID, response to SIGAR data call, 9/30/2013.
     Afghanistan Analysts Network, “And Then They Were Ten:                265	   UN, response to SIGAR vetting, 10/9/2013.
     Preliminary final list of presidential candidates out,” 10/22/2013,   266	   United Nations Development Programme, Enhancing Legal and
     accessed 10/22/2013; Independent Election Commission                         Electoral Capacity for Tomorrow- Phase II (ELECT II), 1/2012-
     Secretariat, “IEC Press Release on Announcement of                           12/2015, pp. 6–7.




REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2013                       219
                                                          ENDNOTES




267	 UN, response to SIGAR vetting, 10/9/2013.                             298	 Reuters, “Votes sell for about $5 in Afghanistan as presidential
268	 USAID, response to SIGAR data call, 9/30/13.                               race begins,” 10/14/2013, accessed 10/16/2013.
269	 UN, response to SIGAR vetting, 10/9/2013.                             299	 Reuters, “Votes sell for about $5 in Afghanistan as presidential
270	 USAID, response to SIGAR vetting, 10/14/2013; SIGAR, Audit                 race begins,” 10/14/2013, accessed 10/16/2013.
     Report 10-16, Lessons Learned in Preparing and Conducting             300	 ToloNews, “Vote-Buying Already a Problem: IEC,” 10/16/2013,
     Elections in Afghanistan, 9/9/10, p. 2; SIGAR, Report of                   accessed 10/16/2013.
     Interview with Craig Jenness, Director, and Asma Nassery,             301	 Afghanistan Analysts Network, “A Slow Start: Afghan voter reg-
     Electoral/Political Affairs Officer, Electoral Assistance Division,        istration in urban centres first,” 6/8/2013, accessed 10/16/2013.
     United Nations, 9/13/2012.                                            302	 SIGAR, Report of Interview with Craig Jenness, Director, and
271	 SIGAR, Report of Interview with Craig Jenness, Director, and               Asma Nassery, Electoral/Political Affairs Officer, Electoral
     Asma Nassery, Electoral/Political Affairs Officer, Electoral               Assistance Division, United Nations, 9/13/2012.
     Assistance Division, United Nations, 9/13/2012.                       303	 UN, response to SIGAR vetting, 10/9/2013.
272	 UN, response to SIGAR vetting, 10/16/2013.                            304	 UN, response to SIGAR vetting, 10/9/2013.
273	 State, response to SIGAR data call, 9/26/2013.                        305	 State, response to SIGAR data call, 9/30/13.
274	 State, response to SIGAR data call, 9/26/2013.                        306	 SIGAR, Report of Interview with Craig Jenness, Director, and
275	 State, response to SIGAR data call, 9/26/2013.                             Asma Nassery, Electoral/Political Affairs Officer, Electoral
276	 State, response to SIGAR data call, 9/26/2013.                             Assistance Division, United Nations, 9/13/2012.
277	 State, response to SIGAR data call, 9/26/2013; USAID, response        307	 ToloNews, “Security Threats an Issue for Nearly Half of All
     to SIGAR vetting, 10/14/2013.                                              Voting Sites: IEC,” 9/2/2013, accessed 9/2/2013.
278	 State, response to SIGAR vetting, 10/10/2013.                         308	 UN Secretary-General, The situation in Afghanistan and its
279	 State, response to SIGAR data call, 10/8/2013.                             implications for international peace and security, 9/18/2013,
280	 State, response to SIGAR vetting, 10/10/2013.                              p. 4; ToloNews, “Security Threats an Issue for Nearly Half of All
281	 The Wall Street Journal, “Afghan Election Chairman Warns                   Voting Sites: IEC,” 9/2/2013, accessed 9/2/2013, UN, response to
     About Security,” 8/18/2013, accessed 10/3/2013.                            SIGAR vetting, 10/9/2013.
282	 ToloNews, “First Meeting of Selection Committee for the IEC           309	 USAID, response to SIGAR vetting, 10/14/2013 ; ToloNews,
     Held,” 7/18/2013, accessed 10/3/2013; State, response to SIGAR             “Security Threats an Issue for Nearly Half of All Voting Sites:
     data call, 9/26/2013.                                                      IEC,” 9/2/2013, accessed 9/2/2013; UN, response to SIGAR vet-
283	 UN Secretary-General, The situation in Afghanistan and its                 ting, 10/9/2013.
     implications for international peace and security, 9/18/2013, p. 3.   310	 The New York Times, “Taliban Announce on Twitter the Killing
284	 SIGAR, Audit Report 10-16, Lessons Learned in Preparing and                of Election Official,” 9/18/2013, accessed 9/18/2013
     Conducting Elections in Afghanistan, 9/9/10, p. 7.                    311	 Associated Press, “Taliban leader says group to fight US-Afghan
285	SIGAR, Quarterly Report to the United States Congress,                      deal,” 10/14/2013, accessed 10/17/2013.
     4/30/2013, p. 114.                                                    312	SIGAR, Quarterly Report to the United States Congress,
286	 SIGAR, Report of Interview with Craig Jenness, Director, and               10/30/2009, p. 78.
     Asma Nassery, Electoral/Political Affairs Officer, Electoral          313	 UN, response to SIGAR vetting, 10/9/2013.
     Assistance Division, United Nations, 9/13/2012.                       314	 SIGAR, Audit Report 10-16, Lessons Learned in Preparing and
287	 SIGAR, Audit 10-16 Report, Lessons Learned in Preparing and                Conducting Elections in Afghanistan, 9/9/10, p. i.
     Conducting Elections in Afghanistan, 9/9/10, p. 7.                    315	 State, response to SIGAR data call, 9/30/13.
288	 UN, response to SIGAR vetting, 10/9/2013.                             316	 State, response to SIGAR data call, 9/30/13.
289	SIGAR, Quarterly Report to the United States Congress,                 317	 State, response to SIGAR data call, 9/30/2013 .
     4/30/2013, p. 114.                                                    318	 USAID, response to SIGAR data call, 9/30/13.
290	 UN, response to SIGAR vetting, 10/16/2013.                            319	 UN, response to SIGAR vetting, 10/16/2013.
291	 SIGAR, Report of Interview with Craig Jenness, Director, and          320	 State, response to SIGAR data call, 9/26/ 2013; State, response
     Asma Nassery, Electoral/Political Affairs Officer, Electoral               to SIGAR vetting, 10/10/2013.
     Assistance Division, United Nations, 9/13/2012.                       321	 State, response to SIGAR data call, 9/26/2013.
292	 USAID, response to SIGAR vetting, 10/10/2013.                         322	 State, response to SIGAR vetting, 10/10/2013.
293	SIGAR, Quarterly Report to the United States Congress,                 323	 State, response to SIGAR data call, 9/26/2013; USAID, response
     4/30/2013, p. 114.                                                         to SIGAR vetting, 10/14/2013.
294	 SIGAR, Report of Interview with Craig Jenness, Director, and          324	 SIGAR, Audit Report 10-1, Barriers to Greater Participation by
     Asma Nassery, Electoral/Political Affairs Officer, Electoral               Women in Afghan Elections, 10/28/2009, p. ii.
     Assistance Division, United Nations, 9/13/2012.                       325	 UN, response to SIGAR vetting, 10/9/2013.
295	SIGAR, Quarterly Report to the United States Congress,                 326	 Reuters, “Shortage of Female Security Forces Could Keep
     7/30/2013, p. 123.                                                         Women From the Vote,” 8/28/2013; CSTC-A, response to SIGAR
296	 USAID, response to SIGAR vetting, 10/14/2013; Tolo News,                   data call, 10/1/2013; UN, response to SIGAR vetting, 10/16/2013.
     “IEC Takes Steps to Prepare Candidates, Increase Voter                327	 USAID, response to SIGAR vetting, 10/14/2013.
     Registration,” 9/13/2013, accessed 9/17/2013.                         328	 USAID, response to SIGAR data call, 9/30/2013.
297	SIGAR, Quarterly Report to the United States Congress,                 329	 DOD/State, U.S. Civil-Military Strategic Framework for
     4/30/2013, p. 114.                                                         Afghanistan: Revision 2, 8/2013, p. 12.




                                                    220                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




330	 DOD/State, U.S. Civil-Military Strategic Framework for            355	 Ministry of Rural Rehabilitation and Development, 1391
     Afghanistan: Revision 2, 8/2013, p. 12.                                Annual Implementation Plan for the Afghanistan Peace and
331	 DOD/State, U.S. Civil-Military Strategic Framework for                 Reintegration Programme (APRP), 4/2012, p. 6; Ministry
     Afghanistan: Revision 2, 8/2013, p. 12.                                of Rural Rehabilitation and Development, 1390 Annual
332	 DOD/State, U.S. Civil-Military Strategic Framework for                 Implementation Plan for the Afghanistan Peace and
     Afghanistan: Revision 2, 8/2013, p. 3.                                 Reintegration Programme (APRP), 9/2011, p. 6.
333	 DOD/State, U.S. Civil-Military Strategic Framework for            356	 DOD, response to SIGAR data call, 9/30/2103; State, response to
     Afghanistan: Revision 2, 8/2013, p. 7.                                 SIGAR data call, 10/4/2013.
334	 DOD/State, U.S. Civil-Military Strategic Framework for            357	 DOD, response to SIGAR data call, 9/30/2013; State, response to
     Afghanistan: Revision 2, 8/2013, p. 8.                                 SIGAR data call, 10/4/2013.
335	 DOD/State, U.S. Civil-Military Strategic Framework for            358	 DOD, response to SIGAR data call, 9/30/2013; State, response to
     Afghanistan: Revision 2, 8/2013, p. 3.                                 SIGAR data call, 10/4/2013.
336	 DOD/State, U.S. Civil-Military Strategic Framework for            359	 UN Secretary-General, The situation in Afghanistan and its
     Afghanistan: Revision 2, 8/2013, pp. 8, 10.                            implications for international peace and security, 9/18/2013, p. 2.
337	 DOD/State, U.S. Civil-Military Strategic Framework for            360	 USAID, response to SIGAR data call, 9/30/2013.
     Afghanistan: Revision 2, 8/2013, p. 5.                            361	 Foreign Policy, “Lessons from Afghanistan’s tribal elders,”
338	 DOD/State, U.S. Civil-Military Strategic Framework for                 8/12/2013, accessed 9/11/2013.
     Afghanistan: Revision 2, 8/2013, p. 5.                            362	 UN Secretary-General, The situation in Afghanistan and its
339	 UN, Letter dated 9 July 2012 from the representatives of               implications for international peace and security, 9/18/2013, p. 10.
     Afghanistan and Japan to the United Nations addressed to the      363	 Ministry of Finance Policy Department, “19th JCMB: 12
     Secretary-General, 7/12/2012, pp. 11–12.                               February 13, Kabul, Afghanistan,” 10/7/2013, accessed 10/9/2013.
340	 DOD/State, U.S. Civil-Military Strategic Framework for            364	 Government of the Islamic Republic of Afghanistan, Aid
     Afghanistan: Revision 2, 8/2013, p. 12.                                Management Policy (AMP) For Transition and Beyond,
341	 State, “Current U.S. Policy in Afghanistan and Pakistan,”              12/10/2012, p. 2.
     9/16/2012, accessed 9/17/2013.                                    365	 UN Secretary-General, The situation in Afghanistan and its
342	 Radio Free Europe, “Afghan President Ends Pakistan Visit,”             implications for international peace and security, 9/18/2013, p. 10.
     8/27/2013, accessed 9/17/2013.                                    366	 Government of the Islamic Republic of Afghanistan,
343	 Reuters, “Held by Pakistan, ex-Afghan Taliban commander’s              Communiqué, Kabul International Conference on Afghanistan,
     touted peace role in Doubt,” 9/26/2013, accessed 9/26/2013; The        7/20/2010, p. 3 and Ministry of Foreign Affairs of Japan, The
     New York Times, “Taliban and Pakistan Argue Over Fate of               Tokyo Declaration Partnership for Self-Reliance in Afghanistan
     Islamist Detainee,” 10/9/2013, accessed 10/9/2013.                     From Transition to Transformation, 7/8/2012, Section 14.
344	 Reuters, “Taliban commanders refuse to meet former leader         367	 Government of the Islamic Republic of Afghanistan, Aid
     in Pakistan: sources,” 10/3/2013, accessed 10/7/2013; The New          Management Policy (AMP) For Transition and Beyond,
     York Times, “Taliban and Pakistan Argue Over Fate of Islamist          12/10/2012, pp. 5, 8.
     Detainee,” 10/9/2013, accessed 10/9/2013.                         368	 UN Secretary-General, The situation in Afghanistan and its
345	 The New York Times, “Taliban and Pakistan Argue Over Fate              implications for international peace and security, 9/18/2013, p. 10.
     of Islamist Detainee,” 10/9/2013, accessed 10/9/2013; Radio       369	 Department of Defense, Progress Toward Security and
     Free Europe, “Pakistan Insists Afghan Taliban Leader Mullah            Stability in Afghanistan, 12/2012, p. 107.
     Baradar ‘Free’,” 10/9/2013, accessed 10/10/2013.                  370	 Pajhwok, “Parliament’s summer recess from tomorrow,”
346	 The Wall Street Journal, “Pakistan Releases Seven Taliban              7/22/2013, accessed 10/4/2013; ToloNews, “Lower House
     Prisoners,” 9/7/2013, accessed 9/17/2013.                              Resumes Work, Security Remains Top Priority,” 9/7/2013,
347	 State, “Current U.S. Policy in Afghanistan and Pakistan,”              accessed 10/4/2013.
     9/16/2012, accessed 9/17/2013.                                    371	 ToloNews, “Lower House Approves Crucial Land Grabbing
348	 Reuters, “Afghan president visits Pakistan seeking help with           Prevention Law,” 9/23/2013, accessed 9/24/2013.
     peace process,” 8/26/2013, accessed 10/3/2013.                    372	 ToloNews, “Omer Daudzai Wins “Vote of Confidence,”
349	 Department of Defense, Progress Toward Security and                    Appointed as Interior Minister,” 9/25/2013, accessed 9/30/2013.
     Stability in Afghanistan, 7/2013, p. 37.                          373	 Institute for War & Peace Reporting, “Afghan Women Face
350	 DOD, response to SIGAR data call, 9/30/2013; State, response to        Growing Threats,” 9/20/2013, accessed 10/4/2013.
     SIGAR data call, 10/4/2013.                                       374	 The Wall Street Journal, “Ex-Warlord Plans Run for Afghan
351	 DOD, response to SIGAR data call, 9/30/2013; State, response to        High Office,” 9/24/2013, accessed 10/4/2013; The Wall Street
     SIGAR data call, 10/4/2013.                                            Journal, “Former Islamist Warlord Vies for Afghan Presidency,”
352	 DOD, response to SIGAR data call, 9/30/2013; State, response to        10/3/2013, accessed 10/4/2013; Pajhwok News, “Replacements
     SIGAR data call, 10/4/2013.                                            for resigning MPs soon: IEC,” 10/9/2013, accessed 10/10/2013.
353	 DOD, response to SIGAR data call, 9/30/2013; State, response to   375	 USAID, response to SIGAR data call, 9/30/2013; SIGAR, Quarterly
     SIGAR data call, 10/4/2013.                                            Report to the United States Congress, 7/30/2013, p. 126.
354	 DOD, response to SIGAR data call, 9/30/2013; State, response to   376	 USAID, response to SIGAR data call, 9/30/2013.
     SIGAR data call, 10/4/2013.                                       377	 USAID, response to SIGAR data call, 9/30/2013.
                                                                       378	 State, response to SIGAR data call, 9/26/2013.




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2013                    221
                                                         ENDNOTES




379	 UNAMA, Mid-Year Report 2013: Protection of Civilians in             414	 USAID, response to SIGAR data call, 9/30/2013.
     Armed Conflict, 7/31/2013, p. 20.                                   415	 USAID, response to SIGAR data call, 9/30/2013.
380	 UNAMA, Mid-Year Report 2013: Protection of Civilians in             416	 USAID, response to SIGAR data call, 9/30/2013.
     Armed Conflict, 7/31/2013, p. 23.                                   417	 USAID, response to SIGAR data call, 9/30/2013.
381	 UNHCR, Eligibility Guidelines for Assessing the International       418	 USAID, response to SIGAR data call, 9/30/2013.
     Protection Needs of Asylum-Seekers from Afghanistan,                419	 USAID, response to SIGAR data call, 9/30/2013.
     8/6/2012, p. 31.                                                    420	SIGAR, Quarterly Report to the United States Congress,
382	 International Rescue Committee, “IRC Shocked and Saddened                7/30/2013, pp. 127–128.
     at Killing of Five Staff Members in Afghanistan,” 8/27/2013,        421	 Checchi and Company Consulting, Inc., Performance
     accessed 9/11/2013.                                                      Evaluation: Support to Sub-National Governance Structures
383	 Ministry of Rural Rehabilitation and Development, “MRRD con-             (SNG), 2/5/2013, p. 2.
     demns indiscriminate killing of staff in Herat,” 8/2013, accessed   422	 Checchi and Company Consulting, Inc., Performance
     9/11/2013.                                                               Evaluation: Support to Sub-National Governance Structures
384	 Center for New American Security, “A Pathway to Success in               (SNG), 2/5/2013, pp. 13–14.
     Afghanistan: The National Solidarity Program,” 3/2009, p. 3.        423	 Checchi and Company Consulting, Inc., Performance
385	 USAID, response to SIGAR data call, 9/30/2013.                           Evaluation: Support to Sub-National Governance Structures
386	 USAID, response to SIGAR data call, 9/30/2013; SIGAR Audit               (SNG), 2/5/2013, p. 30.
     13-16, Stability in Key Areas (SIKA) Programs: After 16             424	 Checchi and Company Consulting, Inc., Performance
     Months and $47 Million Spent, USAID Had Not Met Essential                Evaluation: Support to Sub-National Governance Structures
     Program Objectives, 7/29/2013, p. 7.                                     (SNG), 2/5/2013, pp. 46–47.
387	 USAID, response to SIGAR data call, 9/30/2013.                      425	 USAID, response to SIGAR vetting, 10/14/2013; USAID,
388	 USAID, response to SIGAR data call, 9/30/2013.                           response to SIGAR data call, 9/30/2013.
389	 USAID, response to SIGAR data call, 9/30/2013; USAID,               426	 USAID, response to SIGAR data call, 9/30/2013.
     response to SIGAR vetting, 10/17/2013.                              427	SIGAR, Quarterly Report to the United States Congress,
390	 USAID, response to SIGAR data call, 9/30/2013.                           7/30/2013, p. 131.
391	 USAID, response to SIGAR data call, 9/30/2013.                      428	 USAID, response to SIGAR vetting, 10/14/2013.
392	 USAID, response to SIGAR data call, 9/30/2013.                      429	 ToloNews, “Journalists Stage Protests Demanding Approval
393	 USAID, response to SIGAR data call, 9/30/2013.                           of RTI Law,” 9/18/2013; Government of Afghanistan, The
394	 USAID, response to SIGAR data call, 9/30/2013.                           Constitution of Afghanistan, 1/3/2004, p. 14.
395	SIGAR, Quarterly Report to the United States Congress,               430	 ToloNews, “Pro-Media Organisations Demand Amendment of
     7/30/2013, pp. 128-129.                                                  “Media Law” Articles,” 9/29/2013, accessed 10/2/2013.
396	 DOD, response to SIGAR data call, 9/30/2013.                        431	 USAID, response to SIGAR data call, 9/30/2013.
397	 DOD, response to SIGAR data call, 9/30/2013.                        432	 DOD, response to SIGAR data call, 9/30/2013.
398	SIGAR, Quarterly Report to the United States Congress,               433	 State, response to SIGAR data call, 9/26/2013.
     4/30/2013, p. 121.                                                  434	 State, response to SIGAR data call, 9/26/2013.
399	 World Bank, “Defining Civil Society,” accessed 10/15/2013.          435	 ToloNews, “Omer Daudzai Wins “Vote of Confidence,”
400	SIGAR, Quarterly Report to the United States Congress,                    Appointed as Interior Minister,” 9/25/2013, accessed 9/30/2013.
     4/30/2013, p. 121.                                                  436	 State, response to SIGAR data call, 9/26/2013.
401	 USAID, response to SIGAR vetting, 10/14/2013.                       437	 State, INL, response to SIGAR data call, 9/30/2013.
402	 USAID, response to SIGAR data call, 9/30/2013.                      438	SIGAR, Quarterly Report to the United States Congress,
403	 International Center for Not-for-Profit Law, “President                  7/30/2013, p. 133.
     Karzai signs into law bill expanding associational rights in        439	 UNAMA, Mid-Year Report 2013: Protection of Civilians in
     Afghanistan,” 9/23/2013, accessed 10/7/2013.                             Armed Conflict, 7/31/2013, p. 22.
404	 USAID, response to SIGAR data call, 9/30/2013.                      440	 UNAMA, Mid-Year Report 2013: Protection of Civilians in
405	 USAID, response to SIGAR data call, 9/30/2013.                           Armed Conflict, 7/31/2013, p. 22.
406	 USAID, response to SIGAR data call, 9/30/2013.                      441	 UNAMA, Mid-Year Report 2013: Protection of Civilians in
407	SIGAR, Quarterly Report to the United States Congress,                    Armed Conflict, 7/31/2013, p. 23.
     7/30/2013, p. 129.                                                  442	 SIGAR, Alert Letter 13-6, Serious Deficiencies Related to the
408	SIGAR, Quarterly Report to the United States Congress,                    Afghanistan Justice Training Transition Program Administered
     7/30/2013, p. 130.                                                       by the Department of State, 7/22/2013, p. 1.
409	 USAID, response to SIGAR data call, 9/30/2013.                      443	 State, “SIGAR Inspection of INL Justice Training Transition
410	 USAID OIG, Memorandum: USAID/Afghanistan’s Performance                   Program,” accessed 10/15/2013.
     Based Governors’ Fund (No. F-306-13-001-S), 10/12/2012, pp. 1-4.    444	 State, response to SIGAR vetting, 10/16/2013; State, response to
411	 USAID OIG, Memorandum: USAID/Afghanistan’s Performance                   SIGAR vetting, 10/11/2013; State, response to SIGAR data call,
     Based Governors’ Fund (No. F-306-13-001-S), 10/12/2012, pp. 1-3.         12/31/2012.
412	SIGAR, Quarterly Report to the United States Congress,               445	 State, response to SIGAR vetting, 10/11/2013.
     7/30/2013, p. 130.                                                  446	 State, INL, response to SIGAR data call, 9/30/2013; State,
413	 USAID, response to SIGAR data call, 9/30/2013.                           response to SIGAR vetting, 10/14/2013.




                                                   222                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




447	   State, INL, response to SIGAR data call, 9/30/2013.              493	 State, response to SIGAR data call, 9/26/2013; USAID, response
448	   DOD, response to SIGAR data call, 9/30/2013.                          to SIGAR vetting, 10/14/2013.
449	   USAID, response to SIGAR data call, 9/30/2013.                   494	 USAID, response to SIGAR data call, 9/30/2013.
450	   USAID, response to SIGAR data call, 9/30/2013; USAID,            495	 USAID, response to SIGAR vetting, 10/14/2013.
       response to SIGAR vetting, 10/14/2013.                           496	 USAID, response to SIGAR data call, 9/30/2013.
451	   USAID, response to SIGAR data call, 9/30/2013.                   497	 State, response to SIGAR data call, 9/26/2013.
452	   State, INL, response to SIGAR data call, 9/30/2013.              498	 USAID, response to SIGAR data call, 9/30/2013.
453	   State, INL, response to SIGAR data call, 9/30/2013.              499	 DOD, CJIATF-A, response to SIGAR data call, 9/30/2013.
454	   State, INL, response to SIGAR data call, 9/30/2013.              500	 Transparency International UK, Improving Transparency,
455	   State, response to SIGAR vetting, 10/9/2013.                          Accountability and Counter-Corruption (TACC) in the ANSF,
456	   State, INL, response to SIGAR data call, 9/30/2013.                   MoD, and MoI, 10/2/2013, p. 2.
457	   State, INL, response to SIGAR data call, 9/30/2013.              501	 DOD, CJIATF-A, response to SIGAR data call, 9/30/2013.
458	   State, INL, response to SIGAR data call, 9/30/2013.              502	SIGAR, Quarterly Report to the United States Congress,
459	   State, INL, response to SIGAR data call, 9/30/2013.                   7/30/2013, p. 137.
460	   State, INL, response to SIGAR data call, 9/30/2013.              503	 DOD, CJIATF-A, response to SIGAR data call, 9/30/2013.
461	   State, INL, response to SIGAR data call, 9/30/2013.              504	 DOD, CJIATF-A, response to SIGAR data call, 9/30/2013.
462	   State, INL, response to SIGAR data call, 9/30/2013.              505	 DOD, CJIATF-A, response to SIGAR data call, 9/30/2013.
463	   State, INL, response to SIGAR data call, 9/30/2013.              506	 SIGAR Audit Report 13-6, Contracting with the Enemy:
464	   State, INL, response to SIGAR data call, 9/30/2013.                   DOD has Limited Assurance that Contractors with Links to
465	   State, INL, response to SIGAR data call, 9/30/2013.                   Enemy Groups are Identified and their Contracts Terminated,
466	   State, INL, response to SIGAR data call, 9/30/2013.                   4/11/2013, p. 13.
467	   SIGAR Special Project 13-9, U.S. Anti-Corruption Efforts: A      507	 DOD, CJIATF-A, response to SIGAR data call, 9/30/2013.
       Strategic Plan and Mechanisms to Track Progress Are Needed       508	 State, response to SIGAR data call, 9/26/2013.
       in Fighting Corruption in Afghanistan, 9/11/2013, p. 2.          509	 Independent Joint Anti-Corruption Monitoring and
468	   State, response to SIGAR data call, 9/26/2013.                        Evaluation Committee, “Fourth Set of Recommendations and
469	   State, response to SIGAR data call, 9/26/2013.                        Benchmarks,” 7/20/2012.
470	   USAID, response to SIGAR vetting, 10/14/2013; MEC website,       510	SIGAR, Quarterly Report to the United States Congress,
       “About Us,” accessed 10/05/2013.                                      4/30/2013, p. 130.
471	   State, response to SIGAR data call, 9/26/2013.                   511	 State, response to SIGAR data call, 9/26/2013.
472	   Joint Coordination and Monitoring Board, “JCMB Background,”      512	SIGAR, Quarterly Report to the United States Congress,
       accessed 10/15/2013; State, response to SIGAR data call,              4/30/2013, p. 130; State, response to SIGAR data call, 9/26/2013.
       9/26/2013.                                                       513	 United States Institute of Peace, “Afghan Women’s Progress
473	   USAID, response to SIGAR vetting, 10/14/2013.                         Targeted with U.S. Plan to Spend $200 Million,” 7/18/2013,
474	   State, response to SIGAR data call, 9/26/2013.                        accessed 10/02/2013.
475	   State, response to SIGAR data call, 9/26/2013.                   514	 USAID, response to SIGAR data call, 9/30/2013.
476	   State, response to SIGAR data call, 9/26/2013.                   515	 USAID, response to SIGAR data call, 10/10/2013; The Asia
477	   State, response to SIGAR data call, 9/26/2013.                        Foundation, “Afghan Women’s Ministry Launches National
478	   Independent Joint Anti-Corruption Monitoring and Evaluation           Restructuring Project,” 9/10/2013, accessed 10/3/2013.
       Committee, “Fourth Six Month Report,” 9/28/2013, p. 15.          516	 Office of the UN High Commissioner for Human Rights,
479	   State, response to SIGAR data call, 9/26/2013.                        “Opening remarks by UN High Commissioner for Human
480	   State, response to SIGAR data call, 9/26/2013.                        Rights Navi Pillay at a press conference during her visit to
481	   State, response to SIGAR data call, 9/26/2013.                        Afghanistan,” 9/17/2013, accessed 9/17/2013.
482	   State, response to SIGAR vetting, 10/11/2013.                    517	 DOD/State, U.S. Civil-Military Strategic Framework for
483	   State, response to SIGAR data call, 9/26/2013.                        Afghanistan: Revision 2, 8/2013, p. 12.
484	   State, response to SIGAR data call, 9/26/2013; USAID, response   518	 Afghanistan Research and Evaluation Unit, Women’s Economic
       to SIGAR data call, 9/30/2013.                                        Empowerment in Afghanistan: Creating Spaces and Enabling
485	   State, response to SIGAR data call, 9/26/2013.                        the Environment, 8/2013, p. 2.
486	   USAID, response to SIGAR data call, 9/30/2013.                   519	 International Crisis Group, Women and Conflict in Afghanistan,
487	   State, response to SIGAR data call, 9/26/2013.                        10/14/2013, pp. i–ii.
488	   State, response to SIGAR data call, 9/26/2013.                   520	 International Crisis Group, Women and Conflict in Afghanistan,
489	   Independent Joint Anti-Corruption Monitoring and Evaluation           10/14/2013, p. 2.
       Committee, “Fourth Six Month Report,” 9/28/2013, p. 7.           521	 International Crisis Group, Women and Conflict in Afghanistan,
490	   Independent Joint Anti-Corruption Monitoring and Evaluation           10/14/2013, pp. 7, 9, 20.
       Committee, “Fourth Six Month Report,” 9/28/2013, p. 9.           522	 International Crisis Group, Women and Conflict in Afghanistan,
491	   Independent Joint Anti-Corruption Monitoring and Evaluation           10/14/2013, p. 15.
       Committee, “Fourth Six Month Report,” 9/28/2013, p. 8.           523	 International Crisis Group, Women and Conflict in Afghanistan,
492	   State, response to SIGAR data call, 9/26/2013.                        10/14/2013, p. 38.




REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2013                   223
                                                        ENDNOTES




524	 Oxfam, Women and the Afghan Police, 9/10/2013, pp. 1–2;            551	 World Bank, “South Asia Economic Focus,” Fall 2013, p. 39,
     Oxfam, “Afghan women at risk while police force remains 99              accessed 10/10/2013.
     percent male,” 9/10/2013, accessed 10/4/2013.                      552	 World Bank, “Afghanistan Economic Update,” 4/2013, pp. 4, 17.
525	 BBC News, “Top Afghanistan female police officer dies,”            553	 World Bank, “Afghanistan Partnership: Country Program
     9/16/2013, accessed 10/4/2013.                                          Snapshot,” 8/29/2013.
526	 UNHCR, “Solutions Strategy for Afghan Refugees Summary             554	 World Bank, “Afghanistan Economic Update,” 4/2013, pp. 4, 17;
     Progress Report,” 9/2013, p. 1.                                         World Bank, “Afghanistan In Transition: Looking Beyond 2014,”
527	 UNHCR, Eligibility Guidelines for Assessing the International           2/28/2013, accessed 7/4/2013; ADB, “Outlook 2013, Update,”
     Protection Needs of Asylum-Seekers from Afghanistan,                    10/2013, pp. 107–108.
     8/6/2012, p. 4; UNHCR, “Solutions Strategy for Afghan Refugees     555	 World Bank, “Afghanistan Partnership: Country Program
     Summary Progress Report,” 9/2013, p. 1.                                 Snapshot,” 8/29/2013.
528	 UNHCR, Eligibility Guidelines for Assessing the International      556	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed
     Protection Needs of Asylum-Seekers from Afghanistan,                    10/10/2013.
     8/6/2012, p. 27.                                                   557	DOD, Progress Toward Security and Stability in Afghanistan,
529	 UNHCR, “Solutions Strategy for Afghan Refugees Summary                  7/2013, p. 133.
     Progress Report,” 9/2013, p. 1.                                    558	 World Bank, “Afghanistan, From Transition to Transformation
530	 Human Rights Watch, “Iran: Honor Afghans’ Right to Seek                 II, Senior Officials Meeting,” 7/2/2013; DOD, Progress Toward
     Asylum,” 9/9/2013, accessed 9/11/2013.                                  Security and Stability in Afghanistan, 7/2013, p. 133.
531	 State, response to SIGAR vetting, 10/10/2013.                      559	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed
532	 Human Rights Watch, “Iran: Honor Afghans’ Right to Seek                 10/10/2013.
     Asylum,” 9/9/2013, accessed 9/11/2013.                             560	 MOF, “1392 National Budget,” accessed 10/17/2013; Da
533	 State, response to SIGAR data call, 9/25/2013.                          Afghanistan Bank, “Daily Exchange Rates of Selected
534	 State, response to SIGAR data call, 9/25/2013.                          Currencies to Afghani,” 1/8/2013, accessed 10/17/2013.
535	 State, response to SIGAR data call, 10/2/2013.                     561	 MOF, “Monthly Fiscal Bulletin, Month 7,” 8/21/2013, accessed
536	 State, response to SIGAR data call, 10/2/2013.                          10/17/2013.
537	 State, response to SIGAR data call, 10/2/2013.                     562	 World Bank, “Afghanistan Partnership: Country Program
538	 State, response to SIGAR data call, 10/2/2013.                          Snapshot,” 8/29/2013.
539	 Office of the UN High Commissioner for Human Rights,               563	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed
     “Opening remarks by UN High Commissioner for Human                      10/10/2013.
     Rights Navi Pillay at a press conference during her visit to       564	 World Bank, “Afghanistan Partnership: Country Program
     Afghanistan,” 9/17/2013, accessed 9/17/2013; International              Snapshot,” 8/29/2013.
     Coordinating Committee of National Institutions for the            565	 World Bank, “Afghanistan Partnership: Country Program
     Promotion and Protection of Human Rights, “Chart of the                 Snapshot,” 8/29/2013.
     Status of National Institutions,” 2/11/2013, accessed 10/7/2013.   566	 Treasury, response to SIGAR data call, 9/30/2013; Treasury,
540	 State, response to SIGAR data call, 10/2/2013.                          response to SIGAR vetting, 7/12/2013.
541	 Office of the High Commissioner for Human Rights, “Paris           567	 Treasury, response to SIGAR data call, 9/30/2013; Treasury,
     Principles: 20 years guiding the work of National Human Rights          response to SIGAR vetting, 7/12/2013.
     Institutions,” 5/30/2013, accessed 10/7/2013.                      568	 IMF, “IMF Executive Board Completes First Review Under the
542	 State, response to SIGAR data call, 10/2/2013.                          Extended Credit Facility Arrangement for the Islamic Republic
543	 State, response to SIGAR data call, 10/2/2013.                          of Afghanistan, Approves US$18.2 Million Disbursement,”
544	 DOD/State, U.S. Civil-Military Strategic Framework for                  6/29/2012, accessed 7/3/2013; IMF, “Islamic Republic of
     Afghanistan: Revision 2, 8/2013, p. 1.                                  Afghanistan-First Review Under the Extended Credit Facility
545	 Independent Joint Anti-Corruption Monitoring and Evaluation             Arrangement, Request for Waiver of Nonobservance of a per-
     Committee, “Fourth Six-Month Report (January 1, 2013 – June             formance Criterion, Modification of Performance Criteria, and
     30, 2013),” 9/28/2013; Anti-Corruption Authorities, “Profiles:          Rephasing of Disbursements,” 6/19/2012, accessed 7/3/2013;
     Afghanistan,” 6/2012, accessed 10/8/2013.                               Treasury, response to SIGAR vetting, 7/12/2013.
546	 Treasury, response to SIGAR data call, 9/30/2013.                  569	 State, “FY 2014 Budget Submission to Congress,” 4/10/2013,
547	 DOJ, response to SIGAR data call, 9/30/2013; State, response to         accessed 10/4/2013.
     SIGAR data call, 9/26/2013; Treasury, response to SIGAR data       570	 USAID, response to SIGAR data call, 7/16/2013; USAID,
     call, 9/30/2013; State, response to SIGAR data call, 9/26/2013.         response to SIGAR data call, 10/10/2013.
548	 TFBSO, response to SIGAR data call, 9/30/2013.                     571	 DOD/State, U.S. Civil-Military Strategic Framework for
549	 World Bank, “Afghanistan Economic Update,” 4/2013, p. 17;               Afghanistan: Revision 2, 8/2013, p. 10.
     ADB, “Outlook 2013, Update,” 10/2013, pp. 107–108; World           572	 State, response to SIGAR data call, 6/25/2013.
     Bank, “Afghanistan Partnership: Country Program Snapshot,”         573	 DOD/State, U.S. Civil-Military Strategic Framework for
     8/29/2013; IMF, “World Economic Outlook,” 10/2013.                      Afghanistan: Revision 2, 8/2013, p. 10; Senior Officials Meeting
550	 World Bank, “Afghanistan Economic Update,” 4/2013, p. 17;               Report, Tokyo Mutual Accountability Framework, 7/3/2013, p. 11.
     World Bank, “Afghanistan Partnership: Country Program              574	 DOD/State, U.S. Civil-Military Strategic Framework for
     Snapshot,” 8/29/2013.                                                   Afghanistan: Revision 2, 8/2013, p. 10; USAID-OIG, Review of




                                                  224                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




       USAID/Afghanistan’s Monitoring and Evaluation System                        of Performance Criteria, and Rephasing of Disbursements,”
       (Report No. F-306-12-002-S), 9/26/2012, accessed 10/5/2013.                 6/19/2012, accessed 7/3/2013.
575	   World Bank, “Afghanistan Economic Update,” 4/2013, p. 12.            599	   Grant Thornton, New Kabul Bank Financial Statements and
576	   State, response to SIGAR data call, 9/26/2013.                              Auditor’s Report, For the Year Ended December 31, 2012, 7/30/2013.
577	   Treasury, response to SIGAR data call, 9/30/2013; State,             600	   Treasury, e-mail to SIGAR, 9/30/2013.
       “International Narcotics Control Strategy Report, Vol. II,”          601	   Treasury, response to SIGAR data call, 3/29/2012; IMF,
       3/2013, accessed 9/30/2013; Financial Action Task Force,                    “Islamic Republic of Afghanistan-First Review Under the
       “Improving Global AML/CFT Compliance: On-going Process,                     Extended Credit Facility Arrangement, Request for Waiver
       Afghanistan,” 6/21/2013.                                                    of Nonobservance of a performance Criterion, Modification
578	   State, response to SIGAR data call, 9/26/2013.                              of Performance Criteria, and Rephasing of Disbursements,”
579	   World Bank, “Afghanistan Economic Update,” 4/2013, p. 11.                   6/19/2012, accessed 7/3/2013.
580	   Treasury, response to SIGAR data call, 9/30/2013; Da                 602	   World Bank, “Afghanistan Economic Update,” 4/2013, p. 4;
       Afghanistan Bank, “Daily Exchange Rates of Selected                         World Bank, “Inclusive Growth for Sustainable Jobs,” 5/7/2013.
       Currencies to the Afghani,” 10/1/2013.                                      p. 20; MOF, “H.E. Finance Minister’s Speech for for Misrano
581	   Treasury, response to SIGAR data call, 9/30/2013.                           Jirga Regarding Submission of 1392 National Budget,” 11/6/2012,
582	   State, response to SIGAR data call, 9/26/2013.                              accessed 10/14/2013.
583	   Financial Action Task Force, “Improving Global AML/CFT               603	   TFBSO, response to SIGAR data call, 10/1/2013; TFBSO,
       Compliance: On-going Process, Afghanistan,” 6/21/2013.                      response to SIGAR vetting, 10/11/2013.
584	   State, response to SIGAR data call, 9/26/2013.                       604	   State, response to SIGAR data call, 9/26/2013; TFBSO, response
585	   Financial Action Task Force, “High Risk and Non-Cooperative                 to SIGAR data call, 9/30/2013.
       Jurisdictions,” accessed 10/6/2013.                                  605	   TFBSO, response to SIGAR data call, 9/30/2013. TFBSO,
586	   State, “International Narcotics Control Strategy Report, Vol. II,”          response to SIGAR data call, 10/11/2013.
       3/2013, accessed 7/11/2013.                                          606	   MOMP, “Afghanistan Ministry of Mines Announces the Winning
587	   Independent Joint Anti-Corruption Monitoring and Evaluation                 Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012.
       Committee, “Report of the Public Inquiry Into the Kabul Bank         607	   State, response to SIGAR data call, 9/26/2013; MOMP, “Preferred
       Crisis,” 11/15/2012, p. 2.                                                  Bidder for Current Mineral Tenders,” 12/6/2012; MOMP,
588	   Treasury, response to SIGAR data call, 9/30/2013; State,                    “Preferred Bidder for Zarkashan Project,” 12/16/2012.
       response to SIGAR data call, 9/26/2013.                              608	   IMF, “Islamic Republic of Afghanistan-First Review Under the
589	   GIROA, “Report on Kabul Bank Asset Recovery,” 6/30/2013;                    Extended Credit Facility Arrangement, Request for Waiver of
       MOF, “Senior Officials Meeting Joint Report,” 7/3/2013, accessed            Nonobservance of a performance Criterion, Modification of
       7/16/2013; Independent Joint Anti-Corruption Monitoring and                 Performance Criteria, and Rephasing of Disbursements,” 6/19/2012,
       Evaluation Committee, “Fourth Six-Month Report (January 1,                  accessed 7/3/2013; Tokyo Conference on Afghanistan, “Tokyo
       2013–June 30, 2013),” 9/28/2013.                                            Mutual Accountability Framework,” 7/8/2012, accessed 7/4/2013;
590	   State, response to SIGAR data call, 3/25/2013.                              MOMP, “Ministry of Mines Begins Consultative process in Support
591	   DOJ, response to SIGAR data call, 9/30/2013; State, response to             of Improved Minerals Law,” 5/5/2012, accessed 7/4/2013.
       SIGAR data call, 9/26/2013.                                          609	   State, response to SIGAR data call, 9/26/2013.
592	   Independent Joint Anti-Corruption Monitoring and Evaluation          610	   TFBSO, response to SIGAR data call, 9/30/2013. TFBSO,
       Committee, “Fourth Six-Month Report (January 1, 2013 – June                 response to SIGAR data call, 7/3/2013; TFBSO, response to
       30, 2013),” 9/28/2013.                                                      SIGAR data call, 4/2/2013.
593	   DOJ, response to SIGAR data call, 9/30/2013; State, response to      611	   TFBSO, response to SIGAR data call, 9/30/2013.
       SIGAR data call, 9/26/2013.                                          612	   TFBSO, response to SIGAR data call, 9/30/2013; MOMP, “MOMP
594	   DOJ, response to SIGAR data call, 9/30/2013. DOJ, response to               Begins Cement Factory Tender process in Jabal-U-Saraj, Herat
       SIGAR data call, 6/29/2013.                                                 and Ghori,” 9/23/2013.
595	   Independent Joint Anti-Corruption Monitoring and Evaluation          613	   USAID, response to SIGAR data call, 9/30/2013; USAID,
       Committee, “Fourth Six-Month Report (January 1, 2013 – June                 “Contract No: AID-306-I-00-12-00544,” 3/31/2013;
       30, 2013),” 9/28/2013.                                               614	   USAID, “Contract No: AID-306-I-00-12-00544,” 3/31/2013.
596	   IMF, “Islamic Republic of Afghanistan-First Review Under the         615	   USAID, “Contract No: AID-306-I-00-12-00544,” 3/31/2013.
       Extended Credit Facility Arrangement, Request for Waiver             616	   TFBSO, response to SIGAR data call, 9/30/2013; State, response
       of Nonobservance of a performance Criterion, Modification                   to SIGAR vetting, 10/11/2013.
       of Performance Criteria, and Rephasing of Disbursements,”            617	   MOMP, “Frequently Asked Questions: Tenders,” accessed
       6/19/2012, accessed 7/3/2013; The Frontier Post, “Only Bid for              10/3/2013; SIGAR, Quarterly Report to the United States
       Kabul Bank Rejected,” 3/6/2013.                                             Congress, 10/2012, p. 143.
597	   Treasury, response to SIGAR data call, 9/30/2013; MOF, “New          618	   State, response to SIGAR data call, 10/1/2012; State, response
       Kabul Bank is Re-Advertised for Privatization,” 9/3/2013; State,            to SIGAR data call, 9/26/2013; TFBSO, response to SIGAR data
       response to SIGAR data call, 9/26/2013.                                     call, 9/30/2013.
598	   IMF, “Islamic Republic of Afghanistan-First Review Under the         619	   State, response to SIGAR data call, 9/26/2013; TFBSO, response
       Extended Credit Facility Arrangement, Request for Waiver                    to SIGAR data call, 9/30/2013; RFE/RL, “Mineral Wealth Could
       of Nonobservance of a performance Criterion, Modification                   harm, Not Aid, Afghanistan’s Future,” 10/2/2013.




REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2013                       225
                                                       ENDNOTES




620	 State, response to SIGAR data call, 9/26/2013.                   641	 USAID, response to SIGAR data call, 9/30/2013; USAID,
621	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed              response to SIGAR vetting, 10/13/2013.
     10/4/2013.                                                       642	 USAID, response to SIGAR data call, 9/30/2013
622	 Tolo News, “Chinese Company Seeks Amendments to Ainak            643	 USAID, response to SIGAR data call, 9/30/2013; USAID,
     Copper Mine Contract,” 8/22/2013, accessed 9/11/2013; State,          response to SIGAR vetting, 10/13/2013; USAID, response to
     response to SIGAR data call, 6/24/2013; State, response to            SIGAR data call, 7/1/2013.
     SIGAR data call, 9/26/2013; TFBSO, response to SIGAR data        644	 USAID OIG, Audit of USAID/Afghanistan’s Incentives Driving
     call, 9/30/2013.                                                      Economic Alternatives for the North, East, and West Program,
623	 MOMP, “China to Actualize Commitments Regarding to Aynak              Audit report No. F-306-12-004-P, 6/29/2012.
     Copper project and Amo-Darya Oil Basin,” 9/30/2013.              645	 USAID, response to SIGAR data call, 9/30/2013.
624	 TFBSO, response to SIGAR data call, 9/30/2013; TFBSO,            646	 USAID, response to SIGAR data call, 9/30/2013.
     response to SIGAR vetting, 10/11/2013; TFBSO, response to        647	 USAID, response to SIGAR data call, 9/30/2013; USAID,
     SIGAR data call, 1/3/2013; State, response to SIGAR data call,        “Commercial Horticulture and Agriculture Marketing Program,
     9/26/2013.                                                            Factsheet,” 1/2013.
625	 MOMP, “Afghanistan Ministry of Mines Announces the Winning       648	 USAID, response to SIGAR data call, 9/30/2013; USAID,
     Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012.          response to SIGAR vetting, 10/13/2013.
626	 TFBSO, response to SIGAR data call, 7/3/2013; TFBSO,             649	 USAID, response to SIGAR data call, 9/30/2013.
     response to SIGAR data call, 9/30/2013; State, response to       650	 World Bank, “Afghanistan Partnership: Country Program
     SIGAR data call, 9/26/2013.                                           Snapshot,” 8/29/2013.
627	 ACCI, “The First Afghanistan’s Refinery Opened,” 8/25/2013,      651	DOD, Progress Toward Security and Stability in Afghanistan,
     accessed 9/12/2013; State, response to SIGAR vetting,                 7/2013, p. 164; USAID, “Factsheet: Infrastructure,” 2/2013,
     10/11/2013; Ghazanfar Group, “Ghazanfar Oil Refinery,”                accessed 9/10/2013.
     accessed 10/11/2013; Kam Group, “Companies: Kam                  652	 USAID, response to SIGAR vetting, 10/13/2013.
     International Oil,” accessed 9/12/2013.                          653	 USAID, response to SIGAR vetting, 4/15/2013; DOD, response to
628	 State, response to SIGAR data call, 9/26/2013; TFBSO, response        SIGAR vetting, 10/16/2013.
     to SIGAR data call, 4/2/2013; Dragon Oil, PLC, “Formal Signing   654	 GIROA, “National Energy Supply Program (NESP),” 1/2013,
     of Contracts for Two Blocks in Afghanistan,” 10/8/2013.               accessed 10/9/2013.
629	 State, response to SIGAR data call, 9/26/2013; TFBSO, response   655	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
     to SIGAR data call, 9/30/2013.                                        to SIGAR vetting, 4/15/2013; DOD, response to SIGAR vetting,
630	 MOMP, “Request for Expression of Interest for Oil and Gas             10/16/2013.
     Exploration and Production,” 9/30/2013; MOMP, “Request for       656	 USAID, response to SIGAR data call, 7/1/2013.
     Expression of Interest-Oil and Gas Exploration and production    657	 USAID, response to SIGAR data call, 9/30/2013.
     Tender,” 9/1/2013.                                               658	 USAID, response to SIGAR data call, 10/13/2013.
631	 State, response to SIGAR data call, 3/26/2013; TFBSO, response   659	 USAID, response to SIGAR data call, 9/30/2013.
     to SIGAR vetting, 7/17/2013.                                     660	 USAID, response to SIGAR data call, 9/30/2013.
632	 TFBSO, response to SIGAR data call, 9/30/2013;TFBSO,             661	 USAID, response to SIGAR data call, 9/30/2013.
     response to SIGAR data call, 7/3/2013; TFBSO, response to        662	 USAID, response to SIGAR data call, 7/1/2013.
     SIGAR vetting, 7/17/2013.                                        663	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
633	 TFBSO, response to SIGAR data call, 7/3/2013; TFBSO,                  to SIGAR vetting, 4/15/2013; DOD, response to SIGAR vetting,
     response to SIGAR data call, 9/30/2013.                               10/16/2013.
634	 World Bank, “Afghanistan Partnership: Country Program            664	 SIGAR, Audit Report 13-7, Afghanistan’s National Utility:
     Snapshot,” 8/29/2013; USDA, “Agriculture in Afghanistan               Commercialization Efforts Challenged By Expiring Subsidy
     Overview,” accessed 6/14/2013.                                        and Poor USFOR-A and USAID Project Management,
635	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton        4/18/2013; SIGAR, Quarterly Report to the United States
     National Defense Authorization Act for Fiscal Year 2011 (P.L.         Congress, 4/2013, p. 26.
     111-383),” accessed 9/18/2012.                                   665	 DOD, response to SIGAR vetting, 10/16/2013.
636	 USAID, response to SIGAR data call, 9/30/2013; USAID,            666	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
     response to SIGAR vetting, 10/13/2013; SIGAR analysis of              to SIGAR data call, 9/30/2013; USAID, response to SIGAR data
     USAID Quarterly Pipeline Report, 9/30/2013.                           call, 9/30/2013.
637	 USAID, response to SIGAR data call, 10/10/2013.                  667	 USAID, response to SIGAR data call, 10/13/2013.
638	 USAID, response to SIGAR data call, 9/30/2013; USAID,            668	 USAID, response to SIGAR data call, 9/30/2013.
     response to SIGAR data call, 7/1/2013; USAID, response to        669	 USAID, response to SIGAR vetting, 4/15/2013.
     SIGAR vetting, 10/13/2013.                                       670	 USAID, response to SIGAR vetting, 7/15/2013;
639	 USAID, response to SIGAR data call, 9/30/2013.                   671	 USAID, response to SIGAR data call, 9/30/2013; USAID,
640	 USAID, response to SIGAR data call, 9/30/2013. USAID,                 response to SIGAR vetting, 10/13/2013; USAID, response to
     response to SIGAR data call, 7/1/2013; USAID, response to             SIGAR vetting, 10/20/2013.
     SIGAR vetting, 10/13/2013.




                                                 226                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                       ENDNOTES




672	 USAID, response to SIGAR data call, 7/1/2013; USAID, response     699	 USAID, “BELT Program, Implementation Letter Number 20-05,”
     to SIGAR vetting, 7/15/2013; USAID, response to SIGAR data             7/28/2013; USAID, BELT, Print and Supply of Primary School
     call, 9/30/2013; DOD, response to SIGAR vetting, 10/16/2013.           textbooks for the Afghan Ministry of Education, progress
673	 USAID, response to SIGAR data call, 7/1/2013; USAID, response          Report, 5/21/2013.
     to SIGAR vetting, 7/15/2013; USAID, response to SIGAR vet-        700	 USAID, “BELT Program, Implementation Letter Number 20-05,”
     ting, 7/17/2013; USAID, response to SIGAR data call, 9/30/2013;        7/28/2013; USAID, BELT, Print and Supply of Primary School
     USAID, response to SIGAR data call, 9/30/2013; USAID,                  textbooks for the Afghan Ministry of Education, progress
     response to SIGAR vetting, 10/20/2013.                                 Report, 5/21/2013.
674	 DOD, response to SIGAR data call, 9/30/2013; DOD, response to     701	 USAID, response to SIGAR data call, 12/30/2012; USAID, BELT,
     SIGAR vetting, 10/16/2013.                                             Print and Supply of Primary School textbooks for the Afghan
675	 DOD, response to SIGAR vetting, 10/16/2013.                            Ministry of Education, Progress Report, 5/21/2013.
676	 DOD, response to SIGAR data call, 9/30/2013; DOD, response        702	 USAID, response to SIGAR vetting, 10/13/2013.
     to SIGAR vetting, 7/15/2013; DOD, response to SIGAR vetting,      703	 USAID, response to SIGAR vetting, 10/13/2013.
     10/16/2013.                                                       704	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
677	 DOD, response to SIGAR data call, 9/30/2013; SIGAR, Quarterly          to SIGAR vetting, 10/13/2013.
     Report to the United States Congress, 4/2013, p. 157; DOD,        705	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
     response to SIGAR vetting, 7/15/2013; DOD, response to SIGAR           to SIGAR data call, 9/30/2013; USAID, response to SIGAR vet-
     vetting, 10/16/2013.                                                   ting, 10/13/2013.
678	 DOD, response to SIGAR data call, 9/30/2013.                      706	 USAID, response to SIGAR data call, 9/30/2013; USAID, “USAID
679	 DOD, response to SIGAR data call, 9/30/2013; DOD, response to          Provides $40 Million to Support a New Five-Year Program at
     SIGAR vetting, 10/16/2013.                                             American University of Afghanistan,” 8/6/2013; USAID, response
680	 DOD, response to SIGAR data call, 6/27/2013; DOD, response             to SIGAR vetting, 10/13/2013.
     to SIGAR data call, 9/30/2013; DOD, response to SIGAR vetting,    707	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
     10/16/2013.                                                            to SIGAR data call, 7/1/2013; USAID, response to SIGAR vetting,
681	 SIGAR, Audit Report 12-12, Fiscal Year 2011 Afghanistan                10/13/2013.
     Infrastructure Fund Projects Are Behind Schedule and Lack         708	 USAID, “USAID Provides $40 Million to Support a New Five-
     Adequate Sustainment Plans, 7/2012.                                    Year Program at American University of Afghanistan,” 8/6/2013;
682	 DOD, response to SIGAR data call, 9/30/2013; DOD, response to          USAID, response to SIGAR data call, 9/30/2013; USAID,
     SIGAR vetting, 10/16/2013.                                             “Cooperative Agreement No. 306-A-13-00004 for the Support of
683	 DOD, response to SIGAR vetting, 10/16/2013.                            the American University of Afghanistan,” 8/1/2013.
684	 DOD, response to SIGAR data call, 9/30/2013.                      709	 USAID, response to SIGAR data call, 9/30/2013.
685	 DOD, response to SIGAR data call, 9/30/2013.                      710	 USAID, “Cooperative Agreement No. 306-A-13-00004 for the
686	 World Bank, Afghanistan Transport Sector, accessed 7/8/2013.           Support of the American University of Afghanistan,” 8/1/2013.
687	SIGAR, Quarterly Report to the United States Congress, 4/2013,     711	 USAID, “Health Programs, Health Snapshot,” accessed 7/6/2013;
     p. 160; Civil-Military Fusion Centre, “The Rise of the Afghan          USAID, Afghanistan Mortality Survey 2010, Key Findings,
     Rails: Regional Railway Linkages and Economic Growth in                12/2011, accessed 7/6/2013.
     Afghanistan,” 3/2013, pp. 1, 5.                                   712	 CIA, “World Factbook: Afghanistan,” 8/22/2013; World Bank,
688	 DOT, response to SIGAR data call, 9/30/2013.                           Afghanistan In Transition: Looking Beyond 2014, 2/28/2013,
689	 DOD, response to SIGAR data call, 10/3/2013.                           accessed 7/4/2013.
690	 DOD, response to SIGAR data call, 10/3/2013.                      713	 USAID, response to SIGAR data call, 9/30/2013.
691	 DOT, response to SIGAR data call, 9/30/2013; USAID, response      714	 USAID, response to SIGAR data call, 4/11/2013; USAID,
     to SIGAR data call, 10/13/2013.                                        response to SIGAR data call, 4/1/2013; USAID, response to
692	 DOT, response to SIGAR data call, 9/30/2013; DOT, response to          SIGAR vetting, 10/13/2013.
     SIGAR vetting, 10/10/2013.                                        715	 SIGAR, Audit Report 13-17, Health Services in Afghanistan:
693	 DOT, response to SIGAR data call, 9/30/2013; DOT, response to          USAID Continues Providing Millions of Dollars to the Ministry
     SIGAR vetting, 10/10/2013.                                             of Public Health Despite the Risk of Misuse of Funds, 9/2013.
694	 USAID, response to SIGAR vetting, 10/13/2013; MOE, “1390          716	 USAID, response to SIGAR data call, 7/1/2013.
     (2011/2012) EMIS Statistical Analytical Report,” 2012, accessed   717	 USAID, “Partnership Contracts for Health: Fact Sheet,” 1/2013;
     10/13/2013.                                                            USAID, response to SIGAR data call, 9/30/2013; USAID,
695	 USAID, response to SIGAR data call, 7/1/2013; USAID, response          response to SIGAR vetting, 10/13/2013.
     to SIGAR data call, 9/30/2013.                                    718	 USAID, response to SIGAR data call, 9/30/2013.
696	 USAID, response to SIGAR data call, 12/30/2012.                   719	 USAID, response to SIGAR data call, 9/30/2013.
697	 USAID, response to SIGAR data call, 9/30/2013; USAID,             720	 USAID, “Partnership Contracts for Health: Fact Sheet,” 1/2013;
     response to SIGAR data call, 12/30/2012; USAID, response to            USAID, response to SIGAR data call, 9/30/2013; USAID,
     SIGAR vetting, 10/13/2013.                                             response to SIGAR vetting, 10/13/2013.
698	 USAID, response to SIGAR data call, 4/1/2013; USAID, response     721	 SIGAR, Audit Report 13-17, Health Services in Afghanistan:
     to SIGAR vetting, 10/13/2013.                                          USAID Continues Providing Millions of Dollars to the Ministry
                                                                            of Public Health Despite the Risk of Misuse of Funds, 9/2013.




REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2013                    227
                                                        ENDNOTES




722	 USAID, response to SIGAR data call, 7/1/2013; USAID, “Health        727	 USAID, response to SIGAR vetting, 10/13/2013.
     Policy Project: Factsheet,” 1/2013; USAID, response to SIGAR data   728	 USAID, response to SIGAR data call, 9/30/2013; USAID,
     call, 9/30/2013; USAID, response to SIGAR vetting, 10/13/2013.           response to SIGAR vetting, 10/13/2013.
723	 USAID, response to SIGAR data call, 9/30/2013; USAID,               729	 USAID, response to SIGAR data call, 9/30/2013.
     response to SIGAR vetting, 10/13/2013.                              730	 USAID, response to SIGAR data call, 9/30/2013.
724	 USAID, response to SIGAR data call, 9/30/2013.                      731	 USAID, response to SIGAR data call, 10/13/2013.
725	 USAID, “Leadership, management, Governance: Fact Sheet,”            732	 USAID, response to SIGAR data call, 9/30/2013.
     1/2013; USAID, response to SIGAR data call, 9/30/2013.              733	 USAID, response to SIGAR data call, 9/30/2013.
726	 USAID, response to SIGAR data call, 9/30/2013.                      734	 USAID, response to SIGAR data call, 10/13/2013.




                                                  228                    SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:
                             A typical, heavily loaded Afghan truck waits at the U.S.-funded Weesh crossing on the Afghanistan-Pakistan
                             border. An alert letter issued this quarter pointed out SIGAR auditors’ observation that many Afghan
                             trucks are too tall to pass through a new inspection device at the crossing. (SIGAR photo)                   Sheep and goats share Kabul’s main highway with cars and trucks. (SIGAR photo)




FINAL_Oct2013_Cover.indd 2                                                                                                                                                                                                 10/21/2013 2:14:50 PM
                                                                                                                                                                sigar
        SIGAR




                                                                                    SIGAR | Quarterly Report to the United States Congress | October 30, 2013
        Special Inspector General                                                                                                                                                Special Inspector General for    Oct 30
        for Afghanistan Reconstruction
                                                                                                                                                                                 Afghanistan Reconstruction        2013
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                 Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By Web Submission: www.sigar.mil/investigations/hotline/report-fraud.aspx
                               www.sigar.mil/investigations/hotline/




                                                                                    4


FINAL_Oct2013_Cover.indd 1                                                                                                                                                                                           10/21/2013 2:14:47 PM
